<html>
<title> - NOMINATION OF WILBUR L. ROSS, JR., TO BE SECRETARY OF THE DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 115-33]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 115-33

                   NOMINATION OF WILBUR L. ROSS, JR.,
                           TO BE SECRETARY OF
                       THE DEPARTMENT OF COMMERCE

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 18, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
       
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-974 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>        
       
       
     
       

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 18, 2017.................................     1
Statement of Senator Thune.......................................     1
    Letter dated December 19, 2016 to Hon. John Thune from Carlos 
      Gutierrez, Secretary of Commerce (2005-2009)--George W. 
      Bush.......................................................    31
    Letter dated December 20, 2016 to Hon. John Thune from 
      William M. Daley...........................................    32
    Letter dated December 20, 2016 to Senator John Thune from 
      Donald L. Evans, 34th Secretary of Commerce................    33
    Letter dated January 6, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from Peter Tichansky, President and CEO, Business 
      Council for International Understanding....................    34
    Letter dated January 9, 2017 to Senator Thune from Leo W. 
      Gerard, President, United Steel Workers....................    35
    Letter dated January 10, 2017 to Hon. John Thune and Hon. 
      Bill Nelson from Peter G. Peterson, U.S. Secretary of 
      Commerce, 1972-73..........................................    36
    Statement dated January 18, 2017 from Senator Chris Dodd, 
      Chairman and CEO, Motion Picture Association of America, 
      Inc........................................................    37
Statement of Senator Nelson......................................     2
    Prepared statement...........................................     4
    Letter dated January 17, 2017 to Wilbur Ross from Florida 
      scientists: Senthold Asseng, Professor, Department of 
      Agricultural and Biological Engineering, University of 
      Florida; Keren Bolter, Research Affiliate, Center for 
      Environmental Studies, Florida Atlantic University; Jeff 
      Chanton, Professor, The John Widmer Winchester Professor of 
      Oceanography, Department of Earth, Ocean and Atmospheric 
      Science, Florida State University; David B. Enfield (ret. 
      2015), Dept. of Physical Oceanography, NOAA Atlantic 
      Oceanographic & Meterological Laboratory; Pamela Hallock 
      Muller, Ph.D., Professor, College of Marine Science, 
      University of South Florida; David Hastings, Professor, 
      Marine Science and Chemistry, Eckerd College; Barry 
      Heimlich, Vice Chair, Climate Change Task Force, Broward 
      County; Ben Kirtman, Professor, Department of Atmospheric 
      Science, Rosenstiel School for Marine and Atmospheric 
      Sciences, University of Miami; John H. Parker, Professor 
      Emeritus of Chemistry and Environmental Science, Department 
      of Earth and Environment, Florida International University; 
      Randall W. Parkinson, Ph.D., P.G., Research Faculty 
      Affiliate, Institute for Water and Environment, Florida 
      International University; Brad E. Rosenheim, Ph.D., 
      Associate Professor, College of Marine Science, University 
      of South Florida; Philip Stoddard, Professor, Department of 
      Biological Sciences, Florida International University, 
      Mayor of South Florida; and Harold R. Wanless, Professor 
      and Chair, Department of Geological Sciences, College of 
      Arts and Sciences, University of Miami.....................    92
    Article dated December 2016 from NOAA's National Centers for 
      Environmental Information..................................    94
Statement of Senator Cantwell....................................    41
Statement of Senator Blunt.......................................    44
Statement of Senator Klobuchar...................................    45
Statement of Senator Sullivan....................................    47
Statement of Senator Blumenthal..................................    49
Statement of Senator Heller......................................    51
Statement of Senator Wicker......................................    52
Statement of Senator Schatz......................................    54
Statement of Senator Gardner.....................................    56
Statement of Senator Peters......................................    58
Statement of Senator Cortez Masto................................    60
Statement of Senator Johnson.....................................    61
Statement of Senator Hassan......................................    63
Statement of Senator Udall.......................................    65
Statement of Senator Lee.........................................    67
Statement of Senator Young.......................................    68
Statement of Senator Duckworth...................................    70
Statement of Senator Booker......................................    72
Statement of Senator Fischer.....................................    74
Statement of Senator Cruz........................................    75
Statement of Senator Baldwin.....................................    77
Statement of Senator Moran.......................................    79
Statement of Senator Capito......................................    81
Statement of Senator Inhofe......................................    83
Statement of Senator Markey......................................    84

                               Witnesses

Hon. Marco Rubio, U.S. Senator from Florida......................     5
Wilbur L. Ross, Jr., to be Secretary of the Department of 
  Commerce.......................................................     6
    Prepared statement...........................................     8
    Biographical information.....................................     9

                                Appendix

Response to written questions submitted to Wilbur L. Ross, Jr. 
  by:
    Hon. John Thune..............................................    99
    Hon. Roger F. Wicker.........................................    99
    Hon. Deb Fischer.............................................   100
    Hon. Dan Sullivan............................................   100
    Hon. Cory Gardner............................................   101
    Hon. Todd Young..............................................   101
    Hon. Bill Nelson.............................................   102
    Hon. Maria Cantwell..........................................   104
    Hon. Amy Klobuchar...........................................   117
    Hon. Richard Blumenthal......................................   119
    Hon. Brian Schatz............................................   123
    Hon. Edward Markey...........................................   125
    Hon. Cory Booker.............................................   129
    Hon. Tom Udall...............................................   135
    Hon. Gary Peters.............................................   140
    Hon. Tammy Baldwin...........................................   142
    Hon. Tammy Duckworth.........................................   144

 
                   NOMINATION OF WILBUR L. ROSS, JR.,
                           TO BE SECRETARY OF
                       THE DEPARTMENT OF COMMERCE

                              ----------                              


                      WEDNESDAY, JANUARY 18, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room SD-G50, Dirksen Senate Office Building, Hon. John Thune, 
presiding.
    Present: Senators Thune [presiding], Nelson, Cantwell, 
Blunt, Klobuchar, Sullivan, Blumenthal, Heller, Wicker, Schatz, 
Gardner, Peters, Cortez Masto, Johnson, Hassan, Udall, Lee, 
Young, Duckworth, Booker, Cruz, Baldwin, Moran, Capito, Inhofe, 
Markey, and Fischer.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. We are meeting today to 
consider the nomination of Mr. Wilbur Ross to be the next 
Secretary of Commerce. If confirmed, Mr. Ross would bring 
decades of business, entrepreneurial, and civic experience to 
this important position.
    Mr. Ross is perhaps best known for his expertise in 
revitalizing distressed businesses, such as those in the United 
States steel industry. At a time when most inventors had 
abandoned the industry--investors I should say had abandoned 
the industry, he organized International Steel Group in 2002 
and, through acquisitions, made it the largest integrated steel 
company in North America. Later, it merged with Mittal Steel to 
form the largest steel company in the world.
    Mr. Ross's strong record of achievement in business led 
Bloomberg Businessweek to name him one of the 50 Most 
Influential People in Global Finance in 2011. It's also why he 
is the only person elected to both the Turnaround Management 
Hall of Fame and the Private Equity Hall of Fame.
    Mr. Ross's business experience is complemented by his 
service to the community. Mr. Ross served as a First Lieutenant 
in the U.S. Army, and he is currently a Member of the Dean's 
Advisory Board of Harvard Business School. He is also an 
Advisory Board Member of the Yale University School of 
Management, which has presented him with its Legend of 
Leadership Award.
    Mr. Ross's nomination comes at an important time in our 
Nation's economic recovery. I believe his extensive management 
experience in the private sector, and his understanding of the 
challenges faced by workers and businesses alike, will equip 
him well for the job of leading the Department of Commerce.
    This large department, which has 12 different bureaus and 
nearly 47,000 employees located in all 50 states and around the 
world, oversees a diverse array of issues, from trade to 
fishery management, and from weather forecasting to the Census 
Bureau.
    I will be asking Mr. Ross about many of the challenges 
facing the Department and our economy. First and foremost, I 
will be asking how he plans to deal with trade matters as the 
Secretary of Commerce.
    I also want to explore how, if confirmed, he would continue 
to play a lead role in advocating for policies that promote 
American innovation, like freeing up government spectrum for 
private use and facilitating the growing Internet of Things.
    Mr. Ross's experience turning around businesses should help 
him anticipate and mitigate the risks of major programs like 
FirstNet, the independent authority charged with creating a 
nationwide broadband network for first responders, and the 
acquisition of critical weather satellites by the National 
Oceanic and Atmospheric Administration.
    Finally, I would note that collaboration between the public 
and private sectors is one of the hallmarks of the Department's 
work, as exemplified by the ongoing development of 
cybersecurity best practices and standards, which this 
Committee has strongly endorsed.
    Mr. Ross, should you be confirmed, we will be depending on 
you to continue this collaboration and strengthen it where 
necessary.
    Mr. Ross, I believe your business know-how and intelligence 
make you an excellent candidate to serve as the next Secretary 
of Commerce, and I look forward to supporting your nomination.
    I want to turn now to our Ranking Member, the distinguished 
Senator from Florida, Senator Nelson, for any opening remarks 
that he would like to make.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Wilbur Ross and Hilary Ross, we welcome you both to the 
Committee. I want to congratulate you on your nomination. You 
and, interestingly, the incumbent, Secretary Pritzker, have 
some of the most extensive financial holdings of any nominees 
who have appeared before this Committee. After reviewing your 
financial disclosure and ethics agreement, it's my 
understanding that you have agreed to divest the vast majority 
of your personal holdings and resign from nearly 50 boards and 
organizations. I believe that's the right thing to do, and it 
tells me that you are committed to doing the job the right way 
by placing the public's interest ahead of your own. It's my 
hope that President Trump will follow your lead and the example 
that you set to eliminate any business dealings that could pose 
potential conflicts of interest.
    Now, in recent years, the Commerce Secretary post has not 
been one of the most sought after or one of the most 
appreciated positions in Washington, but I have a feeling that 
that's about to change in a big way.
    As the President-elect has indicated, he is going to look 
to you to help lead the Administration's trade agenda. That's a 
departure from past Commerce Secretaries and the role that they 
played, which was much smaller in setting U.S. trade policy. 
Given that expanded role and the incoming President's desire to 
make job creation and overhauling trade deals top priorities, I 
hope that we'll hear from you today, as the Chairman has 
already indicated, on the administration's trade plans and how 
you hope to create jobs that will benefit all Americans.
    I would like for you to tell us more about how your trade 
duties might expand and how this could impact the role of the 
U.S. Trade Representative, who traditionally has taken the lead 
on trade negotiations.
    And while we're on the topic of protecting American 
workers, there has been some negative commentary on how you 
built your business empire by buying and selling troubled 
companies. Others have lauded you for saving companies and 
thousands of jobs. I think it would be most helpful to all of 
us on the Committee if we could get an assessment from you on 
your record of job creation and what lessons you've learned 
that will help you grow the economy and protect American 
workers.
    Now, while I expect a good portion of today will be spent 
talking about trade and jobs and your experience, there is a 
lot more to the Department of Commerce. This Department, of 
some 40,000 employees, impacts our daily lives in a a number of 
ways: providing vital weather forecasts to millions of 
Americans through NOAA and the National Weather Service, 
playing a huge role in building out our Nation's digital 
infrastructure, helping grow and expand minority-owned 
businesses, collecting all sorts of data, including data 
critical to jobs and the economy, as well as monitoring 
environmental conditions and climate change.
    And that brings me to one of my last topics and one that is 
especially important to, Mr. Ross, your state of Florida, that 
is, sea level rise and global warming. Florida has over 20 
million people and 75 percent of them live on the coast, 
including the two of you. The state's highest point is only 345 
feet. That, by the way, a piece of trivia, in the Peninsula 
State, is a position in the middle of the state where Bok Tower 
at Lake Wales is located.
    Because of the work of NOAA and NASA and other agencies, we 
have measurements and forecasts that can tell us when a monster 
storm is coming. And we also have the science to know that 
coastal communities face peril even on sunny days because of 
the long-term atmospheric trends. Scientifically accurate data 
from weather satellites shows that this is, in fact, happening. 
And the problem is that some folks will go to any lengths to 
deny this truth, including gagging climate scientists. Now, 
that shouldn't happen and that should be troubling to all of 
us.
    So given your personal experience of being a Floridian, I 
hope that you will agree on the need to continue vital 
scientific research to inform the public about extreme weather 
events and trends over time. And it's my hope that we'll get a 
commitment from you to not allow intimidation or censorship of 
climate scientists under your jurisdiction.
    And with that, Mr. Chairman, I see my colleague, my fellow 
Floridian, Senator Rubio. He has come back to the Committee, 
and I know you are going to introduce him. I'm looking forward 
to having him formally introduce our nominee.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Mr. Ross, as a fellow Floridian, I'd like to welcome you here and 
congratulate you on your nomination.
    I can't promise you today's hearing will be a piece of cake, but 
I'm looking forward to having a comprehensive and cordial discussion 
about your qualifications and how, if confirmed, you might handle many 
of the pressing issues you could face.
    I'd like to start by acknowledging that it's no secret you have 
some of the most extensive financial holdings of any past or present 
nominee before this committee. After reviewing your financial 
disclosure and ethics agreement, I want to note that it's my 
understanding that you have agreed to divest the vast majority of your 
personal holdings and resign from nearly 50 boards and organizations. I 
believe that was the right thing to do and tells me you're committed to 
doing the job the right way by placing the public's interests ahead of 
your own.
    It's my hope President Trump will follow your lead to eliminate any 
business dealings that could pose potential conflicts of interest.
    Mr. Ross, in recent years the Commerce Secretary post has not been 
one of the most sought after or appreciated positions in Washington. 
But I have a feeling that's about to change in a big way.
    As the President-elect has indicated, he is going to look to you 
and Secretary of State nominee Rex Tillerson to lead the 
administration's trade agenda. That's a departure from the recent past 
when previous commerce secretaries played much smaller roles in setting 
U.S. trade policy.
    Given that expanded role and the incoming president's desire to 
make job creation and overhauling trade deals top priorities, I hope 
we'll hear more from you on the administration's trade plans and how 
they will create jobs and benefit all Americans.
    Additionally, I'd like for you to tell us more about how your trade 
duties might expand and how this could impact the role of the U.S. 
Trade Representative, who traditionally has taken the lead on trade 
negotiations.
    And while we're on the topic of protecting American workers, Mr. 
Ross, there's been some who have suggested that you built your business 
empire on the backs of workers who lost their jobs after buying and 
then ultimately profiting from the sale of troubled companies. Others 
have lauded you for saving companies and thousands of jobs.
    I think it would be most helpful to all of us on the Committee if 
we could get an assessment from you on your record of job creation and 
what, if any, lessons you've learned that will help grow and protect 
American workers.
    While I expect a good portion of today will be spent talking about 
trade, jobs and Mr. Ross' experience, there's lots more to the 
Department of Commerce.
    This little department of some 47,000 employees impacts our daily 
lives by:

  <bullet> Providing vital weather forecasts to millions of Americans 
        though NOAA and the National Weather Service;

  <bullet> Playing a huge role in building out our Nation's digital 
        infrastructure;

  <bullet> Helping grow and expand minority owned businesses; and,

  <bullet> Collecting all sorts of data--including data critical to 
        jobs and the economy, as well as monitoring environmental 
        conditions and climate change.

    That brings me to my last topic and one especially important to 
Florida--sea level rise and global warming.
    Of Florida's 20 million people, over 75 percent live in coastal 
counties, including Mr. Ross. The state's highest point is only 345 
feet above sea level.
    Because of the work NOAA and other agencies are doing, we have 
measurements and forecasts that can tell us when a monster storm is 
coming.
    We also have the science to know that coastal communities face 
peril even on sunny days because of longer-term atmospheric trends.
    I know some people think climate change is a hoax.
    But the data--scientifically accurate data--from weather satellites 
shows that it is happening.
    The problem is that some folks will go to any length to deny this 
truth, including gaging climate scientists. That should be very 
troubling to us all.
    So, Mr. Ross, given your personal experience of living in Florida, 
I hope you agree with me on the need to continue vital scientific 
research to inform the public about extreme weather events and trends 
over time. Additionally, it's my hope we'll get a commitment from you 
to not allow intimidation and censorship of climate scientists under 
your jurisdiction.
    With that Mr. Chairman, I'd like to welcome my colleague and fellow 
Floridian, Senator Marco Rubio, back to the Committee to introduce Mr. 
Ross.

    The Chairman. Thank you, Senator Nelson.
    We are very privileged to have Senator Rubio here, your 
colleague from Florida, and our colleague in the U.S. Senate, 
to introduce Mr. Ross.
    And so I welcome you back to the Committee, Senator Rubio, 
and please proceed with your remarks.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman. I must say to the 
Members, you guys look different from this side of the dais.
    [Laughter.]
    Senator Rubio. But anyway, thank you. I appreciate the 
honor of being here, Mr. Chairman. I'm honored to be here to 
introduce Wilbur Ross, who is a fellow Floridian, and he is 
President-elect Trump's nominee for Secretary of Commerce. I 
also want to thank you and Senator Nelson for allowing me this 
honor, especially as you said, I enjoyed serving on this 
Committee for the past 6 years.
    So to say that Mr. Ross has extensive business experience 
and extensive experience working in the private sector I 
believe is quite an understatement. For more than half a 
century now, there is virtually no part of the American economy 
in which he has not created jobs. This includes industries such 
as airlines and apparel, auto parts, banking, beer, chemicals, 
credit cards, electric utilities, food service, furniture, home 
building, insurance, marine transport, mortgages, oil and gas, 
railcar manufacturing and leasing, real estate, restaurants, 
shipyards, steel, textiles, and trucking.
    In all, Mr. Ross has been Chairman or Lead Director of more 
than 100 companies operating in more than 20 different 
countries. And he would bring this real-world experience to a 
department whose mission is fundamentally about expanding 
opportunity for American entrepreneurs and workers all over the 
world.
    Despite his professional commitments in the private sector, 
Mr. Ross has also devoted time to public service, answering the 
call from leaders in both parties.
    All-in-all, Mr. Ross will bring an important perspective to 
major policy debates we need to have. This includes modernizing 
our tax codes, strengthening our economy, empowering 
entrepreneurs and small businesses, increasing wages for hard-
working families, and ensuring a fair and competitive playing 
field when it comes to selling American products and services 
to the rest of the world. I am confident that Mr. Ross will 
serve this Nation admirably, and I am proud to introduce him to 
the Committee here today.
    And I thank you, Mr. Chairman, and I thank the Ranking 
Member.
    The Chairman. Thank you, Senator Rubio.
    I want to ask Mr. Ross, please come forward and take the 
witness stand, and we'll look forward to hearing directly from 
you.
    I see you're surrounded by Floridians today, Senator 
Nelson. And I know that there are many of Senator Klobuchar's 
and my constituents who end up being part-time constituents of 
yours this time of the year in Florida.
    Senator Nelson. And eventually they become full-time.
    [Laughter.]
    Senator Nelson. And, Mr. Chairman, we are looking forward 
to hosting you in Florida, as you so graciously hosted me in 
South Dakota. So, too, we're going to show you the amazing 
River of Grass, the Everglades.
    The Chairman. Thank you. And thank you for doing it in 
February.
    [Laughter.]
    The Chairman. Mr. Ross, please proceed. Welcome.

   STATEMENT OF WILBUR L. ROSS, JR., TO BE SECRETARY OF THE 
                     DEPARTMENT OF COMMERCE

    Mr. Ross. Thank you, Mr. Chairman, Ranking Member Nelson, 
and Members of the Committee. I am very grateful for the 
opportunity to appear before you today. As a proud resident of 
Florida, I would also like to thank Senator Marco Rubio for his 
kind introduction.
    With me today is my wife, Hilary Geary Ross.
    Since President-elect Trump announced my nomination, I've 
had the opportunity to meet with many of you. In our meetings, 
I've heard firsthand how we can work together to the benefit of 
the American people. These meetings have been helpful to me, 
and I look forward to continuing the dialogue.
    I may be the only nominee ever for Commerce Secretary who 
actually worked as a Census taker. When I was working my way 
through Harvard Business School, I was a Census taker, what 
they more technically call an enumerator, in the Scollay Square 
area of Boston. And that task was quite fascinating in that 
they had me wear a big white belt, it ran diagonally from the 
shoulder to the waist, and then a big white one around the 
waist, and a big kind of school patrol badge, and then we had 
to talk our way into people's households to get them to let us 
take the Census. So I have firsthand expertise in that, and I 
can appreciate the enormity of the task for the 2020 Decennial 
Census.
    I've also been, over the years, a very large consumer of 
various forms of data put out by different departments of the 
Department of Commerce: census data, BEA data, data from NOAA. 
All kinds of information have come out, and I believe it's the 
case that the Commerce Department emits 40 percent of all the 
data to the public that comes out of all of the departments 
combined. So that's a huge task. Getting it right, getting it 
timely, is a big challenge and one that we will work a lot on.
    Another very, very important function, of course, is 
spectrum. We need more spectrum in the private sector. And I 
will try my best to help convince those government agencies 
that have spectrum and don't really need it to permit it to be 
commercialized, and that may very well be a help toward 
extending broadband to some of the more rural communities and 
other segments that are underserved right now.
    I have some firsthand experience there in that I have been 
Vice Chair of my community in southern Florida that's in the 
process of undergrounding its utilities to bring fiber optic 
service and 21st century service throughout the community, and 
also to protect us better against the exigencies of weather, 
which, as Senator Nelson and Senator Rubio pointed out, is a 
big threat in southern Florida.
    Weather sensitivity is something that comes to you 
naturally if you're in Florida. Hilary and I live right on the 
water there, and so we're well aware of the importance of 
timely warning of impending hurricanes. And I'm also aware that 
until NOAA has been launching its new series of satellites, 
there had been an inferiority of our weather forecasting 
relative to what was done in Europe and in Japan. As far as I 
can tell, the new sensing devices will more than bring us up to 
equal and probably ahead of the others.
    Southern Florida also is characterized by very great 
importance of fishing and tourism, and if there is one 
consistent message I got as I met with the various Members of 
the Committee, it's just how important fishing is. I didn't 
really understand quite how intricate an industry it is. I 
think I now have some fundamental grasp of it and its 
importance.
    One of the things I would like to try to help correct is 
we, believe it or not, have a trade deficit in fishing of some 
$11 billion a year. Given the enormity of our coastlines, given 
the enormity of our freshwater, I would like to try to figure 
out how we can become much more self-sufficient in fishing and 
perhaps even a net exporter of fishing.
    As to trade, over the years, I've had businesses that 
actually operated in some 23 countries. For the most part, our 
businesses have been domestic, but we have been on the ground 
in all of the major trading partners of this country. As a 
result, we know directly both what's good and a lot of the 
things that are not so good about the trade policies of many of 
these other countries.
    I am not anti-trade, I am pro-trade, but I'm pro-sensible 
trade, not pro-trade that is to the disadvantage of the 
American worker and the American manufacturing community.
    I think we should provide access to our markets to those 
countries who play fair, play by the rules, and give everybody 
a fair chance to compete. Those who do not should not get away 
with it, they should be punished, and severely.
    I think that we cannot afford trade that is inherently bad 
for American workers and for American businesses, but I think 
there are plenty of opportunities to expand our exports, and I 
think the number one objective will be expanding our exports. I 
think that there are many things that we can do that we haven't 
been doing, and I look forward to discussing some of those as 
we get into more detailed questions.
    Very recently, the President-elect has convened meetings 
with various of the high-tech executives, and I've been 
impressed to learn from them how similar the problems they face 
with the protectionism and a variety of other countries to the 
problems that manufacturing businesses face. So while the exact 
implementation of the improper things is not the same, the 
general direction is the same, trying to thwart American 
progress. That's something we need to try to fix.
    There are many, many more functions that the Commerce 
Department has, but in the limited time of introductory 
remarks, I think I'll stop there and hopefully deal with the 
others during the question and answer period.
    So I thank you again for having me here today.
    [The prepared statement and biographical information of Mr. 
Ross follow:]

   Prepared Statement of Wilbur L. Ross, Jr., Nominee for Secretary, 
                  United States Department of Commerce
    Mr. Chairman, Ranking Member Nelson, and members of the Committee, 
thank you for the opportunity to appear before you today. As a proud 
resident of Florida I am honored by the presence of both of my home 
State Senators, and I would also like to thank Senator Marco Rubio for 
his kind introduction.
    With me today is my wife, Hilary Geary Ross.
    Since President-elect Trump announced my nomination, I've had the 
opportunity to meet with many of you. In our meetings, I've heard 
firsthand how we can work together on behalf of the American people. 
These meetings have been helpful to me. I look forward to our continued 
dialog.
    Mr. Chairman, I am honored to be under consideration for Secretary 
of the United States Department of Commerce. I'm particularly 
interested in the Department of Commerce for several reasons.
    First, I may be the only nominee for Secretary of Commerce that was 
a U.S. Census Taker. I was working my way through Harvard Business 
School and that was one of the jobs that I had during college. At that 
time, we would put on the big white sash along with a badge and we 
would visit individual homes and record information for the Census. I 
was assigned to Scollay Square in Boston. We had to convince people 
through a small opening of the door that we were helping record an 
accurate count. So I have some personal experience with the Census--a 
very important function within the Department of Commerce.
    Second, like many other business people across the United States, I 
have been a consumer of the data and information the Department 
provides an a periodic basis. Data the Department gathers and makes 
public, such as the Census data, the data that the BEA puts out and 
NOAA's reports, to name a few, are essential functions. I believe there 
is greater potential in the breadth and the depth of the data the 
Department provides to encourage new investment.
    Third, in terms of telecommunications, the Department auctions 
spectrum and helps bring access to broadband to communities nationwide. 
In some small way I have direct experience with broadband deployment. 
Before this nomination, I was the Vice Chair of the Utilities 
Undergrounding Task Force where I live in Southern Florida. The Task 
Force is eager to move to fiber optics and telecommunications to our 
community. In order to do so the Task Force had to do it in way that 
was not damaging to the Everglades.
    That brings me to NOAA. Living on the coast in Southern Florida, we 
are all very sensitive to weather because of the yearly hurricane 
season. So weather information is critical to us, like so many 
communities across the United States. I am also well aware of the 
importance of the fishing industry and tourism to coastal economies, so 
I am looking forward to the individual issues on those matters that 
fall within the jurisdiction of the Department of Commerce.
    And then there is trade. I've made my livelihood for over five 
decades dealing in international commerce. My companies have operated 
on the ground in some 23 countries around the world. Sometimes those 
operations have progressed happily, sometimes a lot less happily.
    I've also been in the middle of complicated situations in our 
domestic manufacturing sector and being subjected to some of the bad 
trade activities of other countries, both in terms of non-tariff trade 
barriers that some countries impose on us and state subsidies of 
foreign exports coming into the United States. I think I've probably 
had more direct experience than any prior Cabinet nominee has had with 
unfair trade in the steel business, in the textile business, in the 
auto parts business and other sectors. I am very well aware of the 
issues many companies face and I'm sensitive to both the issues abroad 
and the issues here at home.
    While I have worked with many people across many lands, the thing 
I'm proudest about in my whole career is working with Leo Gerard, the 
President of the United Steel Workers of America, and other unions in 
saving the American steel industry. Working together we were able to 
save thousands of jobs and ensure this important industry continued in 
the United States.
    I also understand that at the end of the day, each of our trading 
partners want access to our market. The United States should provide 
that access to nations who agree to play by our standards of fair 
trade. We should not put up with malicious trading activities, state 
owned enterprises, or subsidized production.
    So I am not anti-trade. I am pro trade. But I am pro sensible 
trade, not trade that is detrimental to the American worker and to the 
domestic manufacturing base.
    During these past few weeks, President-elect Trump has met with 
many business leaders from across many industries. I have attended many 
of the meetings. One of the meetings was with leaders from the tech 
industry. I was amazed how similar the problems they are facing, both 
in terms of trying to compete in foreign jurisdictions and competition 
coming in from abroad, are to the problems faced by more traditional 
industries like steel and textiles. The techniques and products of the 
tech industry are different but the nature of the adverse trade 
activities they face are very similar to those experienced by the 
industries I've worked in for many years.
    The Department serves many more functions, and I very much look 
forward to helping the American entrepreneur, the American worker, and 
American companies both big and small drive this economy forward and to 
create jobs.
    I want to thank my wife for supporting my decision to enter public 
service, and to thank you once again for the opportunity to be here in 
front of this Committee. If confirmed I look forward to working with 
you and with the many dedicated public servants at the Department of 
Commerce.
    I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Wilbur Louis 
Ross, Jr.
    2. Position to which nominated: Secretary of Commerce.
    3. Date of Nomination: November 30, 2016.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: 1166 Avenue of the Americas; 25th Floor, New York, NY 
        10036.

    5. Date and Place of Birth: November 28, 1937; Weehawken, NJ.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Hilary Geary Ross, Writer, Home.

        Children: Jessica Colby Ross, 55; Amanda Colby Ross, 51.

        Stepchildren: Alfred Harrison Geary II, 42; John White Geary 
        III, 39.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Bachelor of Arts, Yale University, 1959.
        Master of Business Administration, with distinction, Harvard 
        University, 1961

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated:

------------------------------------------------------------------------
      Date                    Company                     Position
------------------------------------------------------------------------
2000 to present   WL Ross & Co. LLC                Chairman and Chief
                                                   Strategy Officer
------------------------------------------------------------------------
1997-2000         Rothschild Recovery Fund         Chairman, Chief
                                                   Investment Officer
------------------------------------------------------------------------
1996-98           New Communication Inc.           CEO
------------------------------------------------------------------------
1976-2000         Rothschild, Inc. and its         Executive Managing
                   predecessor. New Court          Director
                   Securities Corp.
------------------------------------------------------------------------
1964-76           Faulkner Dawkins & Sullivan      President
                   Securities Corp.
------------------------------------------------------------------------
1964-66           Winthrop de Vegh Management      Research Analyst
                   Company
------------------------------------------------------------------------
1964-66           Wood Struthers & Winthrop        Research Analyst
------------------------------------------------------------------------
1964-66           De Vegh International Corp.      Vice President
------------------------------------------------------------------------
1961-63           U.S. Army Adjutant General       Served to First
                   Corps, Fort Benjamin Harrison    Lieutenant
                   & Fort Dix
------------------------------------------------------------------------

    9. Attach a copy of your resume.
    Please see Attachment 1 attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.

------------------------------------------------------------------------
             Government Entity                         Position
------------------------------------------------------------------------
Town of Palm Beach--Board of Trustees of     Chairman
 Retirement System
------------------------------------------------------------------------
Town of Palm Beach--Board of Trustees of     Trustee
 Retirement System
------------------------------------------------------------------------
Town of Palm Beach--Fire Fighters            Trustee
 Retirement Fund
------------------------------------------------------------------------
Town of Palm Beach--Utilities Underground    Vice Chairman
 Task Force
------------------------------------------------------------------------

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.
    Please see Attachment 2 attached.
    12. Please list each membership you have had during the past ten 
years or currently held with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    Please see Attachment 3 attached. No such club or organization 
listed therein restricts membership on the basis of sex, race, color, 
religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debet, the amount, and whether you are 
personally liable for that debt.
    No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    Please see Attachment 4 attached.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

  <bullet> Fifty Most Influential People in Global Finance, Bloomberg 
        (2015)

  <bullet> Elected to Private Equity Hall of Fame

  <bullet> Elected to Turnaround Management Association Hall of Fame 
        (2013)

  <bullet> Awarded medals by the governments of the Republic of Korea 
        and Japan

  <bullet> Awarded Businessman of the Year by Florida Trend

  <bullet> Chairman of Marquis Who's Who

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Since entering the workforce in 1963, I have participated regularly 
as a speaker in industry and other events relevant to my professional 
career. Attachment 5 attached includes the speeches over the past ten 
years that I have been able to identify from my records and electronic 
searches, as well as books, articles, and other publications.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

------------------------------------------------------------------------
        Date                   Committee               Subject Matter
------------------------------------------------------------------------
January 30, 1990     House Committee on the        Leveraged Buyouts and
                      Judiciary                     Bankruptcy
------------------------------------------------------------------------
February 29, 1006    House Committee on            Reauthorization of
                      Transportation and            Airport Improvement
                      Infrastructure                Act
------------------------------------------------------------------------
March 10, 2004       House Committee on Small      Spike in Metal
                      Business                      Prices: What Does it
                                                    Mean for Small
                                                    Manufacturers
------------------------------------------------------------------------

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Over the past 55 years, I have participated as an owner, lead 
director, or chairman of over 100 different businesses, providing me 
with a deep understanding of what makes a successful, job-creating 
enterprise. I have experienced first-hand both the power of innovative 
technologies to propel U.S. companies to be industry leaders, as well 
as the job dislocation that can result from these advancing 
technologies, especially for workers in manufacturing and natural 
resource industries. I am fully familiar with the challenges of global 
competition. I am particularly well-versed in the problems of 
manufacturing industries that are confronting a quickly changing 
competitive landscape--and with successful strategies for revitalizing 
them. I am proud of my contributions to help rescue failing firms in 
the automotive, steel, and textile industries.
    I have broad international business experience, some of it quite 
unusual and instructive. In addition to my involvement in the 
purchasing of failed U.S. financial institutions from the Federal 
Deposit Insurance Corporation, I have negotiated the acquisition of 
troubled financial institutions with the governments of Japan, the 
Republic of Korea, the United Kingdom, Ireland, Greece, and Cyprus.
    Other experiences involving public/private partnerships include my 
work as privatization advisor to New York Mayor Giuliani, and service 
on the Board of the U.S.-Russia Investment Fund during the 
administration of President Clinton.
    The opportunity to serve as Secretary of Commerce would present a 
welcome new challenge for me: How to apply the sum of my decades of 
experience to spark innovation and to ensure effective implementation 
of the Dcpm1ment's programs in support of the great task before us: 
Creating strong economic growth, good jobs and, most importantly, a 
shared belief that every American will have abundant opportunities to 
achieve financial stability and personal happiness.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Based on the Inspector General's report, the Department failed to 
achieve targets for 5 of its 24 tasks, and in some cases this failure 
has continued for multiple years. Correcting these shortfalls will be a 
priority. Among many other critical tasks requiring dedicated 
management attention will be the preparation for and implementation of 
an efficient and accurate 2020 Census that utilizes sophisticated 
technologies where possible; launching three more NOAA satellites; and 
shortening the lead time and increasing the depth and breadth of 
information generated by the Department's vast number of users. As 
explained in my response to question 18, I believe that my management 
experience gained over the past 55 years involving the most challenging 
business matters will enable me to lead the Department effectively.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe that the top three challenges facing the Department are:

  <bullet> Increasing the Department's responsiveness to the needs of 
        the Committee and the user universe;

  <bullet> Expanding U.S. exports and reducing the U.S. trade deficit; 
        and

  <bullet> Integrating technology into the Department to improve 
        efficiency as well as the timelines, depth, and breadth of 
        data, while improving the protection of intellectual property 
        created in this country.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have an Individual Retirement Account (IRA) and participate in a 
40l(k) Plan. Please see also my response to Question E7.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I am consulting with the 
Office of Government Ethics and the Department of Commerce's designated 
agency ethics official to identify any potential conflicts of interest, 
including any potential conflicts that may arise in connection with my 
retained investments. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement into which 
I will enter with the Department's designated agency ethics official 
and will provide to this Committee. I am not aware of any potential 
conflicts of interest other than those that will be the subject of my 
ethics agreement.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I am consulting with the 
Office of Government Ethics and the Department of Commerce's designated 
agency ethics official to identify any potential conflicts of interest, 
including any potential conflicts that may arise in connection with my 
retained investments. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement into which 
I will enter with the Department's designated agency ethics official 
and will provide to this Committee. I am not aware of any potential 
conflicts of interest other than those that will be the subject of my 
ethics agreement.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I recall expressing support to Members of Congress and the 
Administration for the Car Allowance Rebate System (CARS) program, 
although I do not recall specific activities regarding that program. I 
do not recall any other active support during the past to years for 
other specific legislative or policy initiatives.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I am consulting with the 
Office of Government Ethics and the Department of Commerce's designated 
agency ethics official to identify any potential conflicts of interest, 
including any potential conflicts that may arise in connection with my 
retained investments. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement into which 
I will enter with the Department's designated agency ethics official 
and will provide to this Committee. I am not aware of any potential 
conflicts of interest other than those that will be the subject of my 
ethics agreement.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain.
    Yes. In September 1991, I was stopped in Southampton, New York, for 
a traffic violation, and subsequently charged with driving while 
ability impaired by alcohol (DWAI). In November 1991, I paid a fine of 
approximately $400, and my license was suspended for 90 days.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a pm1y in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain.
    Yes, please see Attachment 6 attached. In addition, I have been 
associated with a number of corporations and other entities and, from 
time to time, such entities (including, in some instances, their 
directors, officers and employees) in the ordinary course, have been 
involved in judicial or regulatory proceedings relating to their 
businesses.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? lf so, please explain.
    Yes. Please see my answer to Question C.2, above.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                             Attachment One
                     Resume of Wilbur L. Ross, Jr.
Education 

U.S. Army Adjutant General Corps, Fort Benjamin Harrison and Fort Dix
Served to First Lieutenant (1961-1963)

Harvard University
M.B.A., with Distinction (1961)

Yale University
A.B. (1959)

St. Francis Xavier High School, New York City. NY (1951-1955)

Public School #9, North Berger, NJ (1943-1951)
Employment

WL Ross & Co. LLC
Chairman & Chief Strategy Officer (2000-Present)

Rothschild Inc. and its predecessor, New Court Securities Corp.
Executive Managing Director (1976-2000)

Faulkner Dawkins & Sullivan Securities Corp.
President (1964-1976)

Winthrop de Vegh Management Company--Research Analyst
Wood Struthers & Winthrop--Research Analyst
De Vegh International Corp.--Vice President (1964-1966)
Selected Present & Past Boards of Directors

  <bullet> ArcelorMittal

  <bullet> Nexeo Solutions (Chairman)

  <bullet> International Textile Group (Chairman)

  <bullet> International Steel Group (Chairman)

  <bullet> International Auto Components (Chairman)

  <bullet> Navigator Holding (Chairman)

  <bullet> Diamond S. Shipping (Chairman)

  <bullet> Bank of Cyprus (Vice-Chairman)

  <bullet> Bank United

  <bullet> Revere Copper and Brass

  <bullet> Allis-Chalmers Corp.

  <bullet> Air Lease

  <bullet> Greenbrier

  <bullet> Bank of Ireland

  <bullet> Biocraft Labs. Inc.

  <bullet> Fur Vault Inc.

  <bullet> RH Cement

  <bullet> Fresca Credit Land Co.

  <bullet> Clarent Hospital Corp. (Chairman)
Selected Present & Past Public Service & Non-Profit

  <bullet> Mayor Rudy Giuliani (Privatization Advisor)

  <bullet> U.S. Russia Investment Fund (Board Member)

  <bullet> Smithsonian Institution National Board (Chairman)

  <bullet> National Museum of American Art (Chairman)
Activities

  <bullet> New York Historical Society (Chairman)

  <bullet> National Academy of Design (Chairman)

  <bullet> Brooklyn Museum (Vice Chairman)

  <bullet> Yale School of Management (Advisory Board Member)

  <bullet> Yale Beijing Center (Advisory Board Member)

  <bullet> Japan Society (Chairman)

  <bullet> Economic Studies Council Brookings Institute (Chairman)

  <bullet> Whitney Museum of American Art Institution (Trustee)

  <bullet> Brookings Institution (Trustee)

  <bullet> Yale University Council Committee on the Yale (Chairman)

  <bullet> The New Museum, New York City (Trustee)

  <bullet> Sarah Lawrence College (Trustee)

  <bullet> Smithsonian Bi-Centennial Celebration (National Chairman)
Honors

  <bullet> Fifty Most Influential People in Global Finance, Bloomberg 
        (2015)

  <bullet> Elected to Private Equity Hall of Fame

  <bullet> Elected to Turnaround Management Association Hall of Fame 
        (2013)

  <bullet> Awarded medals by the governments of the Republic of Korea 
        and Japan

  <bullet> Awarded Businessman of the Year by Florida Trend

  <bullet> Chairman of Marquis Who's Who
                                 ______
                                 
                             Attachment Two
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

------------------------------------------------------------------------
                Organization                           Position
------------------------------------------------------------------------
Absolute Recovery Capital Partners, LLC      Managing Member
------------------------------------------------------------------------
Absolute Recovery Hedge Fund, Ltd.;          Director
 Absolute Recovery Master Fund Ltd.
------------------------------------------------------------------------
Air Lease Corp                               Director
------------------------------------------------------------------------
ArcelorMittal                                Director
------------------------------------------------------------------------
Assured Guaranty                             Director
------------------------------------------------------------------------
Bank of Cyprus                               Director/Vice Chairman
------------------------------------------------------------------------
BankUnited FSB; Bank United, Inc.            Director
------------------------------------------------------------------------
Blue Ocean Re Holdings Ltd.                  Director
------------------------------------------------------------------------
Brookings Economic Studies Council           Director, Chairman
------------------------------------------------------------------------
Brookings Institution                        Trustee
------------------------------------------------------------------------
Clarent Hospital Corporation                 Director
------------------------------------------------------------------------
The Committee on Capital Market Regulation   Director
 Inc.
------------------------------------------------------------------------
Compagnie Europeenne de Wagons S.a.r.l.      Chairman
------------------------------------------------------------------------
Diamond S Shipping Group, Inc.               Non-Executive Chairman
------------------------------------------------------------------------
Diamond S Shipping LLC                       Chairman
------------------------------------------------------------------------
DSS Holdings LP                              Director/Chairman
------------------------------------------------------------------------
El Vedado LLC                                Managing Member
------------------------------------------------------------------------
Exco Resources                               Independent Director
------------------------------------------------------------------------
First Michigan Bank/Talmer Bancorp           Director
------------------------------------------------------------------------
Governor and Company of the Bank of Ireland  Director
------------------------------------------------------------------------
Greenbrier Companies, Inc.                   Director
------------------------------------------------------------------------
Halla Cement                                 Director
------------------------------------------------------------------------
Homeward Residential, Inc. (f/k/a American   Chairman/President
 Home Mortgage Servicing, Inc. and AH
 Mortgage Acquisition Co. Inc.)
------------------------------------------------------------------------
Huaneng Invesco WLR Investment Consulting    Director
 Company Ltd.
------------------------------------------------------------------------
IAC Asia Holdings, Inc; IACNA                Director
 International, Inc.; IACNA Korea, Inc.;
 IAC Mexico Holdings, Inc.; IAC
 Spartanburg, Inc.; IAC U.S. Holdings, Inc.
------------------------------------------------------------------------
India Asset Recovery Management Limited      Director
------------------------------------------------------------------------
Insuratex, Ltd.                              Chairman
------------------------------------------------------------------------
International Automotive Components Group,   Non-Executive Chairman
 S.A.
------------------------------------------------------------------------
International Automotive Group GmbH          Chairman and Director
------------------------------------------------------------------------
International Automotive Group Japan, LLC    Director/Chairman
------------------------------------------------------------------------
International Automotive Group North         Chairman and Director
 America (Inc., LLC, and Holdings, Inc.)
------------------------------------------------------------------------
International Coal Group, Inc.               Non-Executive Chairman
------------------------------------------------------------------------
International Textile Group                  Non-Executive Chairman
------------------------------------------------------------------------
Invesco, Ltd. and its affiliates             Chairman/Chief Strategy
                                              Officer
------------------------------------------------------------------------
Invesco Private Capital, Inc.                Director
------------------------------------------------------------------------
Invesco Private Capital Investments, Inc.    Director
------------------------------------------------------------------------
Invesco WLR Limited                          Director
------------------------------------------------------------------------
INVESCO WLR Private Equity Investment        Director
 Management Ltd.
------------------------------------------------------------------------
Kansai Sawayaka Bank (Nippon Partners)       Director
------------------------------------------------------------------------
Montpelier Re Holdings Ltd.                  Director
------------------------------------------------------------------------
Nano-Tex, Inc.                               Chairman
------------------------------------------------------------------------
Navigator Holdings Ltd.                      Director/Chairman
------------------------------------------------------------------------
NBNK Investments PLC                         Director/Chairman
------------------------------------------------------------------------
Nikko Electric Industry Co. Ltd.             Director
------------------------------------------------------------------------
Nexeo Solutions (f/k/a WL Ross Holding       Chairman/Director
 Corp.)
------------------------------------------------------------------------
OCM, Ltd.                                    Director
------------------------------------------------------------------------
Ocwen Financial Corp.                        Director
------------------------------------------------------------------------
Ohizumi Manufacturing                        Director
------------------------------------------------------------------------
Palm Beach Retirement System                 Co-Chairman/Trustee
------------------------------------------------------------------------
Panther Re Holdings Ltd.                     Director/Deputy
                                             Chairman
------------------------------------------------------------------------
PB Materials Holdings, Inc.                  Director
------------------------------------------------------------------------
Phoenix International Holding Co.            Director
------------------------------------------------------------------------
PLASCAR and its holding company              Director
------------------------------------------------------------------------
Pan Ross LP                                  Managing Member
------------------------------------------------------------------------
Ross Expansion FLP, LP                       General Partner
------------------------------------------------------------------------
Ross Expansion GP LLC                        Managing Member
------------------------------------------------------------------------
Spice Jet, Ltd.                              Director
------------------------------------------------------------------------
Sun BanCorp                                  Director
------------------------------------------------------------------------
Sun National Bank                            Director
------------------------------------------------------------------------
Syms Corp.                                   Director
------------------------------------------------------------------------
Tong Yang Life                               Director
------------------------------------------------------------------------
Wagon PLC                                    Non-Executive Director
------------------------------------------------------------------------
W.L. Ross & Co., LLC                         Chairman/CEO
------------------------------------------------------------------------
WL Ross & Co. (India) LLC                    Director
------------------------------------------------------------------------
WLR Cardinal Mezzanine Fund L.P.             Director
------------------------------------------------------------------------
WLR China Energy Associates, Ltd.            Director
------------------------------------------------------------------------
WLR/GS (India) Limited                       Director
------------------------------------------------------------------------
WLR Master Co-Investment SLP GP, Ltd.        Director/Chairman
------------------------------------------------------------------------
1116 South Main Street, LLC                  Managing Member
------------------------------------------------------------------------
781 Fifth Ave. LLC                           Managing Member
------------------------------------------------------------------------

                                 ______
                                 
                            Attachment Three
    12. Please list each membership you have had during the past ten 
years or currently held with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

------------------------------------------------------------------------
        Organization                Position                Dates
------------------------------------------------------------------------
American Friends of the      President              2014 to Present
 Rene Magritte Museum
------------------------------------------------------------------------
The Beach Club               Member                 2004 to Present
------------------------------------------------------------------------
Blenheim Foundation USA      Trustee                2008 to Present
------------------------------------------------------------------------
Briarcliff Condominium       Director               2007 to Present
 Apartment Building
------------------------------------------------------------------------
British American Business,   Director               2010 to Present
 Inc.
------------------------------------------------------------------------
Brookings Economic Studies   Director, Chairman     2012 to Present
 Council
------------------------------------------------------------------------
Brookings Institution        Trustee                2013 to Present
------------------------------------------------------------------------
Business Roundtable          Member                 2003-2014
------------------------------------------------------------------------
Century Association          Member                 1987-2010
------------------------------------------------------------------------
Club Collette (Palm Beach,   Member                 2005 to Present
 FL)
------------------------------------------------------------------------
Coconuts                     Member                 2005 to Present
------------------------------------------------------------------------
Financial Analysts           Chartered Financial    >50 years ago to
 Federation, Chartered       Analyst                 Present
------------------------------------------------------------------------
Harry's Bar                  Member                 2005 to Present
------------------------------------------------------------------------
Harvard Business School      Director               2011 to Prescnt
 Club of New York, Inc.
------------------------------------------------------------------------
Harvard Business School      Director               2012-2015
 Dean's Advisory Board
------------------------------------------------------------------------
Harvard Club of the Palm     Member                 2015 to Present
 Beaches
------------------------------------------------------------------------
Harvard University--         Member                 2010 to Prcsent
 Committee on University
 Resources
------------------------------------------------------------------------
The Japan Society, Inc.      Director. Chairman     2005 to Present
------------------------------------------------------------------------
Kappa Beta Phi               Member. Various        2006 to Present
                             Positions
------------------------------------------------------------------------
Mark's Club                  Member                 2005 to Present
------------------------------------------------------------------------
Mory's Association           Member                 2011 to Prcsent
------------------------------------------------------------------------
Musee des Arts Decoratifs    International Council  2014 to Present
                              Member
------------------------------------------------------------------------
New York Society of          Member                 >35 years ago to
 Security Analysts                                   Present
------------------------------------------------------------------------
Palm Beach Civic             Executive Committee    2006 to Present
 Association                  Member
------------------------------------------------------------------------
Palm Beach Preservation      Trustee                2010 to Present
 Foundation
------------------------------------------------------------------------
Palm Beach Fire Fighters     Trustee                2008-2012
 Retirement Fund
------------------------------------------------------------------------
Partnership for New York     Executive Committee    2010 to Present
 City                         Member
------------------------------------------------------------------------
The River Club               Member                 2016 to Present
------------------------------------------------------------------------
Southampton Bath and Tennis  Chairman               2002 to Present
 Club
------------------------------------------------------------------------
U.S.-India Business Council  Member, Chairman's     2006-2013
                              Circle
------------------------------------------------------------------------
Whitney Museum of American   Trustee                2006-2010
 Art
------------------------------------------------------------------------
Yale Club of the Palm        Member                 2015 to Present
 Beaches
------------------------------------------------------------------------
Yale University School of    Member                 2010 to Present
 Management--Board of
 Advisors
------------------------------------------------------------------------
5 Hertford Street            Member                 2013 to Present
------------------------------------------------------------------------

                                 ______
                                 
                            Attachment Four
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    My political contributions over the past ten years are listed in 
the chart below. A separate chart, itemizing the ultimate recipients of 
the joint contributions listed below, immediately follows.

------------------------------------------------------------------------
     Date              Recipient            Amount           Notes
------------------------------------------------------------------------
1/26/2007      John S. McCain (John        $4,200.00
                McCain 2008, Inc.)
------------------------------------------------------------------------
3/19/2007      Rudolph W. Giuliani         $2,300.00
                (Rudy Giuliani
                Presidential Committee,
                Inc.)
------------------------------------------------------------------------
3/19/2007      Rudolph W. Giuliani         $2,300.00
                (Rudy Giuliani
                Presidential Committee,
                Inc.)
------------------------------------------------------------------------
3/23/2007      John S. McCain (John       -$1,900.00
                McCain 2008, Inc.)
------------------------------------------------------------------------
2/22/2008      Rudolph W. Giuliani        -$2,300.00
                (Rudy Giuliani
                Presidential Committee,
                Inc.)
------------------------------------------------------------------------
5/6/2008       Invesco PLC PAC               $750.00
------------------------------------------------------------------------
7/30/2009      Invesco PLC PAC               $750.00
------------------------------------------------------------------------
3/26/2010      Marco Rubio (Marco Rubio    $4,800.00
                For President)
------------------------------------------------------------------------
3/29/2010      Bill Nelson (Bill Nelson    $2,400.00
                For U.S. Senate)
------------------------------------------------------------------------
3/29/2010      Bill Nelson (Bill Nelson    $2,400.00
                For U.S. Senate)
------------------------------------------------------------------------
3/31/2010      Marco Rubio (Marco Rubio   -$2,400.00
                For President)
------------------------------------------------------------------------
3/31/2010      Marco Rubio (Marco Rubio    $2,400.00
                For President)
------------------------------------------------------------------------
4/20/2010      Invesco PLC PAC             $1,000.00
------------------------------------------------------------------------
5/12/2010      Investment Company          $1,000.00
                Institute Political
                Action Committee
------------------------------------------------------------------------
3/26/2011      Mr. Ed Royce (Royce         $2,500.00
                Campaign Committee)
------------------------------------------------------------------------
5/10/2011      Mr. Allen B. West (Deep     $2,500.00
                Strike PAC)
------------------------------------------------------------------------
5/10/2011      Mr. Allen B. West (Deep     $2,500.00
                Strike PAC)
------------------------------------------------------------------------
5/27/2011      Boehner for Speaker        $25,000.00  See Receipts for
                (FOJB-NRCC)                            Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
9/16/2011      National Republican         $5,784.89
                Congressional Committee
------------------------------------------------------------------------
1/18/2012      Mitt Romney/Paul D. Ryan    $2,500.00
                (Romney For President,
                Inc.)
------------------------------------------------------------------------
3/9/2012       Debbie Stabenow             $2,500.00
                (Stabenow For U.S.
                Senate)
------------------------------------------------------------------------
3/9/2012       Debbie Stabenow             $2,500.00
                (Stabenow For U.S.
                Senate)
------------------------------------------------------------------------
4/2/2012       Invesco PLC PAC             $1,000.00
------------------------------------------------------------------------
4/3/2012       Restore Our Future, Inc.  $100,000.00
------------------------------------------------------------------------
4/4/2012       Eric Cantor (Cantor for     $2,500.00
                Congress)
------------------------------------------------------------------------
4/4/2012       Eric Cantor (Cantor for     $2,500.00
                Congress)
------------------------------------------------------------------------
4/23/2012      Romney Victory, Inc.       $50,000.00  See Receipts for
                                                       Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
5/15/2012      Romney Victory, Inc.       $75,800.00  See Receipts for
                                                       Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
5/21/2012      Romney Victory, Inc.      -$35,800.00
------------------------------------------------------------------------
10/31/2012     Romney Victory, Inc.      -$16,700.00
------------------------------------------------------------------------
3/8/2013       Rubio Victory Committee    $10,000.00  See Receipts for
                                                       Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
4/23/2013      McConnell Victory          $15,000.00  See Receipts for
                Kentucky                               Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
5/1/2013       Boehner for Speaker        $25,000.00  See Receipts for
                                                       Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
6/6/2013       McConnell Cornyn            $5,000.00  See Receipts for
                Leadership Victory                     Joint
                Committee                              Contributions
                                                       Chart
------------------------------------------------------------------------
12/3/2013      Elizabeth (Liz) Cheney      $2,000.00
                (Cheney For Wyoming)
------------------------------------------------------------------------
12/18/2013     National Republic          $32,400.00
                Senatorial Committee
------------------------------------------------------------------------
3/18/2014      Reclaim America (Marco      $5,000.00
                Rubio Victory
                Committee)
------------------------------------------------------------------------
5/13/2014      Paul Ryan                   $5,000.00
------------------------------------------------------------------------
6/30/2014      Congressman John Conyers    $1,000.00
------------------------------------------------------------------------
7/28/2014      Republican Governors      $150,000.00
                Association RGA (Aug.
                17th Event)
------------------------------------------------------------------------
8/21/2014      American Opportunity       $50,000.00
                Alliance
------------------------------------------------------------------------
10/16/2014     Kentuckians for Strong     $10,000.00
                Leadership
               (replacing his McConnell
                Victory Kentucky
                contribution)
------------------------------------------------------------------------
10/23/2014     Arkansas Victory Fund       $2,600.00  See Receipts for
                                                       Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
11/24/2014     Senate Battleground Fund   $50,000.00  See Receipts for
                                                       Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
12/1/2014      National Republican        $23,700.00
                Senatorial Committee
------------------------------------------------------------------------
12/15/2014     Republican National        $23,700.00
                Committee
------------------------------------------------------------------------
1/23/2015      Congressman Ed Royce        $5,000.00
                (event)
------------------------------------------------------------------------
2/19/1015      Boehner for Speaker         $5,000.00
                (event)
------------------------------------------------------------------------
2/27/2015      Blunt Toomey Joint          $2,500.00
                Committee: Friends of
                Pat Toomey
------------------------------------------------------------------------
2/27/2015      Blunt Toomey Joint          $2,500.00
                Committee: Friends of
                Roy Blunt
------------------------------------------------------------------------
3/25/2015      Reclaim America PAC         $5,000.00  See Receipts for
                                                       Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
3/25/2015      Rubio Victory Committee       $400.00
                (Marco Rubio)
------------------------------------------------------------------------
3/31/2015      Rubio Victory Committee    $10,000.00  See Receipts for
                                                       Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
4/13/2015      Boehner for Speaker        $10,000.00  See Receipts for
                                                       Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
4/27/2015      Republican Governors      $250,000.00
                Association
------------------------------------------------------------------------
5/21/2015      Republican National        $33,200.00
                Committee
------------------------------------------------------------------------
5/21/2015      Republican National        $33,400.00
                Committee
------------------------------------------------------------------------
6/5/2015       Boehner for Speaker,       $10,000.00
                National
               Republican Congressional
                Committee, Freedom
                Project
------------------------------------------------------------------------
6/12/2015      Marco Rubio (Marco Rubio   -$2,700.00
                For
               President)
------------------------------------------------------------------------
6/18/2015      Friends of John McCain      $5,400.00
------------------------------------------------------------------------
6/30/2015      Rubio Victory Committee    -$4,600.00
------------------------------------------------------------------------
7/13/2015      Boehner for Speaker        $20,000.00  See Receipts for
                                                       Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
7/31/2015      Boehner for Speaker         $5,000.00
------------------------------------------------------------------------
8/21/2015      Republican National           $500.00
                Committee
------------------------------------------------------------------------
8/28/2015      Republican National       $100,000.00
                Committee
------------------------------------------------------------------------
9/1/2015       Republican National        $50,000.00
                Committee
------------------------------------------------------------------------
9/14/2015      John S. McCain (Friends     $2,700.00
                Of John McCain, Inc.)
------------------------------------------------------------------------
11/10/2015     Friends of Jeb              $1,000.00
                Hensarling
------------------------------------------------------------------------
11/16/2015     John A. Boehner (Friends   -$2,700.00
                of John Boehner)
------------------------------------------------------------------------
1/15/2016      Team Ryan (Speaker Paul   $125,000.00
                Ryan) (hosted event)
------------------------------------------------------------------------
3/21/2016      Congressman Joe Heck        $5,400.00
------------------------------------------------------------------------
3/21/2016      Republican National        $50,000.00
                Committee
------------------------------------------------------------------------
6/24/2016      Donald J. Trump for         $5,400.00
                President, Inc.
------------------------------------------------------------------------
6/24/2016      Republican National        $33,400.00
                Committee
------------------------------------------------------------------------
7/8/2016       Marco Rubio For Senate      $5,400.00
------------------------------------------------------------------------
7/18/2016      Trump Victory             $200,000.00  See Receipts for
                                                       Joint
                                                       Contributions
                                                       Chart
------------------------------------------------------------------------
9/30/2016      Marco Rubio For U.S.        $2,700.00
                Senate 2016
------------------------------------------------------------------------


                    Receipts for Joint Contributions
------------------------------------------------------------------------
                                                             Amount of
         Date                      Recinient               Contribution
------------------------------------------------------------------------
5/31/2011              National Republican Congressional      $20,000.00
                        Committee
------------------------------------------------------------------------
6/9/2011               John A. Boehner (Friends Of John        $2,500.00
                        Boehner)
------------------------------------------------------------------------
6/9/2011               John A. Boehner (Friends Of John        $2,500.00
                        Boehner)
------------------------------------------------------------------------
4/23/2012              Republican National Committee          $30,800.00
------------------------------------------------------------------------
4/23/2012              Mitt Romney/Paul D. Ryan (Romney        52,500.00
                        for President, Inc.)
------------------------------------------------------------------------
7/31/2012              Idaho Republican Party                  $4,175.00
------------------------------------------------------------------------
7/31/2012              Massachusetts Republican Party          $4,175.00
------------------------------------------------------------------------
7/31/2012              Oklahoma Leadership Council             $4,175.00
------------------------------------------------------------------------
7/31/2012              Vermont Republican Federal              $4,175.00
                        Elections Committee
------------------------------------------------------------------------
9/4/2012               National Republican Congressional      $20,000.00
                        Committee
------------------------------------------------------------------------
11/2/2012              National Republican Senatorial         -$8,350.00
                        Committee
------------------------------------------------------------------------
11/2/2012              National Republican Congressional      -$8,350.00
                        Committee
------------------------------------------------------------------------
3/8/2013               Marco Rubio (Marco Rubio For            $2,400.00
                        President)
------------------------------------------------------------------------
3/8/2013               Marco Rubio (Marco Rubio For            $2,600.00
                        President)
------------------------------------------------------------------------
3/31/2013              Reclaim America PAC                     $5,000.00
------------------------------------------------------------------------
5/31/2013              John A. Boehner (Friends Of John        $2,600.00
                        Boehner)
------------------------------------------------------------------------
5/31/2013              John A. Boehner (Friends Of John        $2,600.00
                        Boehner)
------------------------------------------------------------------------
5/31/2013              National Republican Congressional      $19,800.00
                        Committee
------------------------------------------------------------------------
6/6/2013               John Cornyn (Texans For Senator         $2,500.00
                        John Cornyn, Inc.)
------------------------------------------------------------------------
6/30/2013              Republican Party of Kentucky            $9,800.00
------------------------------------------------------------------------
6/30/2013              Mitch McConnell (McConnell Senate       $2,600.00
                        Committee)
------------------------------------------------------------------------
6/30/2013              Mitch McConnell (McConnell Senate       $2,600.00
                        Committee)
------------------------------------------------------------------------
12/1/2014              National Republican Senatorial         $23,700.00
                        Committee
------------------------------------------------------------------------
12/6/2014              William M. Cassidy (Bill Cassidy        $2,600.00
                        For U.S. Senate)
------------------------------------------------------------------------
12/15/2014             Republican National Committee          $23,700.00
------------------------------------------------------------------------
3/31/2015              Marco Rubio (Marco Rubio For              $300.00
                        President)
------------------------------------------------------------------------
3/31/2015              Reclaim America PAC                     $5,000.00
------------------------------------------------------------------------
4/13/2015              John A. Boehner (Friends Of John        $2,700.00
                        Boehner)
------------------------------------------------------------------------
4/13/2015              John A. Boehner (Friends Of John        $2,700.00
                        Boehner)
------------------------------------------------------------------------
4/13/2015              National Republican Congressional       $4,600.00
                        Committee
------------------------------------------------------------------------
7/13/2015              National Republican Congressional      $20,000.00
                        Committee
------------------------------------------------------------------------
7/18/2016              Republican Party of Arkansas            $5,545.45
------------------------------------------------------------------------
7/18/2016              Republican Party of Louisiana           $5,545.45
------------------------------------------------------------------------
7/18/2016              Donald J. Trump/Michael R. Pence        $2,700.00
                        (Donald J. Trump For President,
                        Inc.)
------------------------------------------------------------------------
7/18/2016              Donald J. Trump/Michael R. Pence        $2,700.00
                        (Donald J. Trump For President,
                        Inc.)
------------------------------------------------------------------------
7/18/2016              Mississippi Republican Party            $5,545.46
------------------------------------------------------------------------
7/18/2016              West Virginia Republican Party          $5,545.45
------------------------------------------------------------------------
7/18/2016              Republican Party of Virginia,           $5,545.45
                        Inc.
------------------------------------------------------------------------
7/18/2016              Republican National Committee          $33,400.00
------------------------------------------------------------------------
9/27/2016              South Carolina Republican Party         $5,545.45
------------------------------------------------------------------------
9/30/2016              Tennessee Republican Party              $5,545.45
                        Federal Election Account
------------------------------------------------------------------------
9/30/2016              New Jersey Republican State             $5,545.45
                        Committee
------------------------------------------------------------------------
9/30/2016              Connecticut Republican Pm1y             $5,545.45
------------------------------------------------------------------------

                                 ______
                                 
                            Attachment Five
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Speeches
    1. CalPERS Speech, January 10, 2006
    2. Detroit Auto Show, January 11, 2006
    3. Keynote Address: 6th CoalTrans Americas Conference, January 31, 
2006: ``Investment and Growth in Basic Industries: The Case of Coal''
    4. Japan Investor Conference, March 3, 2006: ``Changing Political 
and C01porate Governance Landscape in Japan''
    5. Taiyo CalPERS Conference, March 3, 2006
    6. Hong Kong Convention & Exhibition Centre, March 28, 2006: 
``PRIME SOURCE, The Networking Event for the International Apparel 
Industry''
    7. Federal Reserve Bank of Chicago, Detroit Branch, April 18, 2006: 
``Prospects for Automotive Suppliers''
    8. AlixPartners Conference, Key Biscayne, Florida, April 28, 2006: 
``The Restructuring of American Basic Industries''
    9. Siguler Guff Annual Meeting, New York, New York, May 10, 2006: 
``What Does It Take for Some U.S. Industries to Survive?''
    10. Third Annual Conference on Distressed Investing--Europe, May 
18-19,2006: ``Strategies for Restructuring Legacy Industries''
    11. Organization of Women in International Trade, June 7, 2006: 
``The Restructuring of American Basic Industries''
    12. JP Morgan Auto Conference, August 8, 2006: ``Perspectives on 
the Automotive Supply Sector''
    13. OESA Conference Rationalizing the Auto Supplier Industry: 
Carving Out Profit from M&A Activity Detroit Marriott Pontiac at 
Centerpoint, Pontiac, Michigan, August 23, 2006: ``Realizing Profit 
From Consolidation: Assembling A Global Interior Supplier''
    14. Original Equipment Suppliers Association Conference, Detroit 
Marriott Pontiac at Centerpoint, Pontiac, MI, August 23, 2006: 
``Rationalizing the Auto Supplier Industry''
    15. Credit Suisse Automotive Conference, September 7, 2006: 
``Rationalizing the Auto Supplier Industry''
    16. NanoCon International--Mandalay Bay, Las Vegas, Nevada, 
September 20, 2006: ``Nanotechnology--Impacting Change Today''
    17. SAE Global Leadership Conference, The Greenbrier, West 
Virginia, October 13, 2006: ``Thoughts About the U.S. Auto Supply 
Industry''
    18. 20th Anniversary Dinner of the Program on International 
Financial Systems, October 19, 2006: ''Keynote Presentation''
    19. Amvescap Investors Forum, November 30, 2006
    20. GAIM USA 2007, January 24, 2007: ``Thoughts on Distressed 
Investing Today''
    21. 2007 Turnaround Management & Distressed Investing Forum, 
February 6-7, 2007: ``Thoughts on Private Equity Distressed Investing 
Today''
    22. AIM Analyst Symposium, March 6, 2007: ``Are We Distressed 
Yet?''
    23. Taiyo Pacific Partners 2nd Annual Investor Conference, March 
29, 2007: ``Welcoming Remarks''
    24. Textile and Apparel Products from Vietnam, Import Monitoring 
Program, Public Hearing, April 24, 2007: ``Prepared Testimony''
    25. Blue Cloud Award from the China Institute: June 11, 2007
    26. INVESCO Private Capital--Private Equity Educational Summit, New 
York, NY, June 12, 2007: ''Value Creation Through Distressed 
Investing''
    27. 2007 Japan-U.S. Symposium, Harvard Law School, September 15, 
2007: Topic 3: Retrospective Views on 10 Years of the Symposium and of 
a Financial Reform in the Japan and the U.S.
    28. Financial Services MandA Keynote, September 25, 2007: ''Recent 
tightening of credit markets has caused investors to wonder if this is. 
. .''
    29. The Fall Investment Management Forum for Endowments & 
Foundations, September 25, 2007: ``The Future of the Credit Markets''
    30. INVESCO Board of Directors Meeting, October 9, 2007: ``Are We 
Distressed Yet?''
    31. CoalTech Asia, December 3-4, 2007: ``Overcoming Challenge to 
the Growth of Coal''
    32. 2008 Automotive News World Congress, January 22, 2008
    33. Automotive News Speech, January 2008
    34. AIM Analyst Symposium, March 5, 2008: ``Are We Distressed 
Yet?''
    35. KPMG and Partnership for New York City, March 13, 2008: ``India 
in the 21st Century''
    36. FINAL CNBC, March 31, 2008: ``How We Operate''
    37. North Carolina Investment Forum, March 31, 2008: ``Distressed 
Opportunities in the Financial Services Sector''
    38. Asian Venture Capital Journal, Middle East 2008: P1ivate Equity 
& Venture Forum, Emirates Palace, Abu Dhabi, April 21, 2008: ``The 
Financial Crisis in the U.S.''
    39. DuPont, April24, 2008: ``The Financial Crisis in the U.S.''
    40. Long Island Chapter of Turnaround Management Association, April 
24, 2008: ``The Financial Crisis in the U.S.''
    41. GPL U.S. Financial Crisis, April 25, 2008
    42. Florida Atlantic University/Harry & Anna Trust, Video 
Conference, April 25, 2008: ``The Financial Crisis in the U.S.''
    43. Siguler Guff Annual Meeting, May 6, 2008: ''The Financial 
Crisis in the U.S.''
    44. ABI Sub-Prime Panel, May 12, 2008: ``Potential Topics''
    45. California Bankruptcy Forum Annual Conference, May 16, 2008: 
``The Financial Crisis in the U.S.''
    46. FRB Story AIM Trimark, California Bankruptcy Forum Annual 
Conference, May 28, 2008: ``The Financial Crisis in the U.S.''
    47. Wards 2008 Auto Interiors Show, June 5, 2008: ``The Outlook for 
Auto Suppliers''
    48. Invesco Perpetual's Investment Summit, Henley-on-Thames, UK, 
July 10, 2008: ``The Implications & Opportunities of Major Economic 
Problems''
    49. August 20, 2008: ``Institutional Sales''
    50. The United States Bankruptcy Court for the District of 
Delaware, September 11, 2008: ``Delaware Bankruptcy)''
    51. Huaneng Signing Ceremony, September 16, 2008: ``Remarks''
    52. Invesco Investors' Forum 2008, Tokyo, September 18, 2008
    53. Institutional Investor 5th Annual India Forum, New York, 
September 23, 2008
    54. September 2008: ``CIO Statement''
    55. The Post, September 25, 2008
    56. Invesco Global Headquarters, October 2, 2008: ``The Outlook for 
the Economy Post the TARP Bill Failure''
    57. Minister of Coal, Government of India, October 9, 2008: ``His 
Excellency Santosh Bagrodia''
    58. October 12, 2008: ``James Doan''
    59. Invesco Private Capital Annual Partners Meeting, October 23, 
2008
    60. November 19, 2008: ``Malcolm Gladwell Intro''
    61. 2008: ``Mike Gibbons''
    62. Museum of American Finance, January 21, 2009: ``President 
Obama's Economic Programs''
    63. Tuck School of Business at Dartmouth, February 6, 2009: 
``Private Equity''
    64. Taiyo's 4th Annual Investors Conference, February 25, 2009: 
``Speech''
    65. 2009 Wharton Restructuring Conference, February 27, 2009
    66. M&A Advisor Lifetime Achievement Award Ceremony, March 16, 
2009: ``2009 M&A Advisor Lifetime Achievement Award Ceremony''
    67. Securities Conference, March 19, 2009: ``SIFMA Insurance & 
Risk-Linked''
    68. PLATTS Coal Conference videotaped, March 20, 2009
    69. Skadden Arps Restructuring Group, Apri1 21, 2009: ``'Distressed 
Investments & Turnarounds in the Current Economic Environment''
    70. Housing Policy Council, May 6, 2009: ``Keynote Address''
    71. Sixth Annual Distressed Investing Europe Conference, May 7, 
2009: ``What Have We Learned from this Crisis About Distressed 
Investing?''
    72. International Bar Association 15th Annual Global, May 18, 2009: 
``lnsolvencv & Restructuring Conference--Cash of the Titans Keynote 
Speech''
    73. 14th Annual NEPC Client Conference, May 20, 2009:''Where Do We 
Go From Here?''
    74. International Insolvency Institute, June 1, 2009: ``Keynote 
Address''
    75. The Coller Institute of Private Equity, June 4, 2009
    76. Allen & Co. LLC Sun Valley Conference, July 8, 2009: ``'The 
State of Finance''
    77. AIM Investment Symposium, June 24, 2009
    78. Auto Conference Frankfurt Germany, September 17, 2009: ``New 
Directions for Auto Suppliers: A Radical Industry Reconfiguration?''
    79. Invesco AIM Focus 2009 Investment Symposium, September 24, 
2009: ``Keynote Address''
    80. International Insolvency Institute 9th Annual Conference--New 
York, October 22, 2009: ``Keynote Address''
    81. 15th Annual ABS East Conference, October 27, 2009
    82. Goldman Sachs Alternative Investments Conference, October 29, 
2009
    83. BAB Awards Dinner, November 3, 2009
    84. State Administration of Foreign Exchange 2010 Perspective, 
Hainan Island China, November 13, 2009: ''Distressed Environment Today, 
Opportunities & Pitfalls''
    85. November 17, 2009 ``Welcome Address''
    86. WL Ross & Co. Limited Partners' Meeting, November 17, 2009
    87. State of South Carolina Retirement System Investment Commission 
Investment Retreat, November 18, 2009
    88. Town of Palm Beach United Way Business and Professional 
Breakfast, December 10, 2009
    89. Norton Annual Review of International Insolvency, December 15, 
2009: ``Keynote Address''
    90. Temasek Annual Offsite Speech, January 7, 2010
    91. Detroit Auto Show, January 13, 2010: ``2010 Automotive News 
World Congress''
    92. 1st Annual Private Equity Symposium, January 21, 2010: ``The 
New Private Equity Paradigm''
    93. Bank of America Merrill Lynch Auto Conference Speech, March 26, 
2010
    94. Bank of America Merrill Lynch's Inaugural New York Automotive 
Summit, March 31, 2010
    95. Australian Investor Conference, April 12, 2010
    96. Investor Conference 2010, Taiyo Pacific Partners LP, April 14, 
2010: ''Sovereign Debt Considerations for Investors in Japanese 
Equities''
    97. Reference: Greece, May 10, 2010
    98. May 11, 2010: ``The Crisis Two Years Later: Opportunities in 
the Distressed & Where We Go From Here''
    99. HBS Honor, May 17, 2010
    100. Siguler Guff Annual Meeting, May 20, 2010
    101. Japan Society Annual Dinner, May 24, 2010
    102. Invesco Investment Symposium, May 26, 2010
    103. Invesco Investment Forum, June 8, 2010: ``The Latest Crisis''
    104. July 21, 2010: ``WL Ross & Co. and Invesco Private Capital 
Presentation to the Invesco Ltd. Board of Directors''
    105. PFNYC Geithner Meeting, August 2, 2010
    106. KBW Insurance Conference, September 7, 2010: ``Thoughts About 
the Mortgage Crisis''
    107. INVESCO Board Meeting, October 11, 2010
    108. Japan Society Board of Directors Dinner, October 20, 2010: 
``Remarks''
    109. Bank of America/Merrill Lynch 4th Annual Private Company 
Conference, October 28, 2010: ``What's Next''?
    110. The Chinese Finance Association Conference, October 30, 2010: 
``Global Recovery and Financial Structural Changes after Crisis: 
Opportunities and Challenges for China''
    111. Invesco Real Estate Conference, November 3, 2010: ``Distressed 
Investment Opportunities''
    112. 9th Annual M&A Advisor Awards & Summit, December 14, 2010: 
``Keynote & Roundtable''
    113. National Retirement Fund Investment Committee, December 14, 
2010
    114. Automotive News World Congress, January 11, 2011: ''National/
Industrial Manufacturing Policy: Do we need one? How do we create and/
or save jobs?''
    115. 2011 Leadership in the Distressed Markets Argyle Executive 
Forum, January 13, 2011: ``Where Are the Distressed Investment 
Opportunities?''
    116. Japan Society, January 19, 2011: ''What's Next for the Global 
Economies?''
    117. Tiger 21 Annual Conference, January 27, 2011: ``Where Are the 
Distressed Investment Opportunities?''
    118. BankUnited Closing Dinner, February 10, 2011: ``A Rhyming 
Thank You For BKU'
    119. Atlantic Trust Client Conference, February 11, 2011: ``Where 
Are the Distressed Investment Opportunities?''
    120. February 16, 2011: ``An Ode to Mario''
    121. Palm Beach Civic Association Community Forum, February 28, 
2011
    122. March 1, 2011: ''USIBC: India's Annual Budget Briefing''
    123. New York State Common Retirement Fund Investment Conference, 
March 23, 2011: ``Distressed Investment Opportunities''
    124. Partnership For New York City China--U.S. Business Leaders 
Roundtable, April 7, 2011
    125. Siguler Guff Annual Meeting, May 17, 2011
    126. J.P. Morgan China Conference 2011, June 1, 2011
    127. Bloomberg Markets 50 Summit, September 15, 2011: ``Austerity 
and Other Growth Obstacles''
    128. Marcum LLP, September 21, 2011: ''Alternative Assets and the 
Outlook on the Capital Markets''
    129. CICC Forum Panel II, September 26, 2011
    130. September 28, 2011: ``Extra Pages''
    131. Tokyo Nikkei Forum, October 24, 2011: ``Facing Challenges with 
Superior Management Vision''
    132. Blenheim Foundation, October 27, 2011
    133. Marine Money 12th Annual Ship Finance Forum, November 10, 
2011: ``An Investor's Perspective on the Shipping Industry''
    134. WL Ross & Co. LLC 2011 Annual Partners Meeting, November 16, 
2011
    135. 17th Annual Beard Group Distressed Investing Conference, 
November 28, 2011
    136. The M&A Advisor, December 12, 2011: ``Deal of the Decade 
Awards''
    137. January 19, 2012: ``Kappa Beta Phi Speech''
    138. Meeting with Bank of Ireland, January 27, 2012
    139. Meeting with NTMA Brian Murphy & National Pension Reserve 
Fund, January 27, 2012
    140. Daiwa Capital Markets America Luncheon, February 8, 2012: 
``What's Next for Investors in Japan?''
    141. The Ireland Funds, February 16, 2012
    142. Ireland-US Council Lunch, February 17, 2012
    143. Yale SOM Leaders Forum, April 10, 2012
    144. 40 Under 40 Awards Commentary, May 1, 2012
    145. Invesco Investment Symposium, May 2, 2012
    146. NYU Economic Forum, May 10, 2012
    147. Marine Money Week, May 2012
    148. 2nd Annual American Banker M&A Symposium, May 21, 2012
    149. Siguler Guff & Company 2012 Conference, May 23, 2012: ``A Tale 
of Two Cities: Athens & Dublin''
    150. June 23, 2012: ``Transcription of IPI Keynote Interview with 
Consuelo Mack''
    151. June 2012: ``IPI Summary''
    152. Japan Society, June 7, 2012: ``Remarks''
    153. Marine Money, June 20, 2012: ``The Shipping Industry in 2015''
    154. Marine Money Singapore, September 25, 2012: ``A Marine 
Transport Investor's Point of View''
    155. Invesco U.S. Retail Client Investment Symposium, September 27, 
2012
    156. Invesco Board Speech, October 7, 2012
    157. Invesco Board Meeting, October 7, 2012
    158. Japan Society Evening, January 15, 2013: ``Banker to the 
World--Lessons from the Front Lines of Global Finance''
    159. Automotive News Congress, January 16, 2013: ``Our Changing 
Industry''
    160. YPO Economic Summit V, January 18, 2013: ``Keynote Speech''
    161. Yale SOM Leaders Forum Speakers Series, January 29, 2013: ''A 
Conversation with Wilbur Ross''
    162. The Ireland-U.S. Council Winter Meeting, February 15, 2013: 
``Presentation to The Ireland-U.S. Council Winter Meeting''
    163. Worldwide Ireland Fund Leadership Forum: February 26, 2013
    164. NMS Family Office Forum, March 5, 2013; ``A Look Ahead'
    165. BritishAmerican Business CEO Roundtable, March 13, 2013: 
``Lessons Learned from Corporate Restructuring''
    166. The Ireland Day Pre Summit Dinner, March 14, 2013: 
``Outstanding Contribution to Business in Ireland''
    167. Ireland Day 2013 at the NYSE, March 15, 2013: ``Opportunities 
for Ireland Inc.''
    168. Gatestone Luncheon, March 21, 2013: ``How to Jumpstart the 
Economy''
    169. American Bankruptcy Institute Commission Hearing to Study 
Reform of Chapter 11, April 19, 2013
    170. Berkeley Point Annual Customer Conference, May 2, 2013: 
``Thoughts on Current Major Events Affecting Global Economies''
    171. May 22, 2013: ``Lessons from Other Banking Crises''
    172. Japan Society Annual Dinner, June 3, 2013: ``Chairman's 
Remarks''
    173. June 19, 2013: ``Private Equity in Shipping''
    174. Tokyo Speech Investment Strategies, July 18, 2013: ``Our 
investment Strategies''
    175. Finance Panel Discussion Boehner for Speaker Team Retreat, 
August 29, 2013
    176. RBS Credit & Asset-Backed Conference, September 5, 2013: 
``Opportunities Created by the Financial Crisis''
    177. Invesco Board Meeting, October 9, 2013
    178. October 18, 2013: ``WLR Speech''
    179. Marine Money Conference, February 27, 2014: ``2014 Private 
Equity and Shipping''
    180. Capital Link Shipping Forum Luncheon Keynote, March 20, 2014: 
``Private Equity View of Marine Transport''
    181. WL Ross & Co. LLC 2014 Annual Meeting, March 25, 2014: ``WL 
Ross Organizational Changes''
    182. The Ben Graham Centre Value Investing Conference, April 8, 
2014: ``Lessons from the Bank of Ireland Saga''
    183. 15th Anniversary of Leading Brands of Spain Association, April 
24, 2014: ``Competing Globally: Perspectives from a Leading Investor''
    184. Invesco Canada Client Event Luncheon Keynote, May 18, 2014
    185. St. George's Society of New York, May 21, 2014: ``St. George's 
Medal Acceptance Speech''
    186. Daiwa Capital Markets Speech, May 27, 2014: ``What's Next for 
Investors in Japan?''
    187. Japan Society, September 10, 2014: ``The Central Banks of 
U.S., Europe and Japan and Their Impact on Each Economy''
    188. Daiwa 50th Anniversary, September 18, 2014
    189. Quarterly Call, October 15, 2014
    190. American Irish Historical Society, November 6, 2014
    191. Marine Money, November 12, 2014
    192. December 11, 2014: ``Oil-OPEC''
    193. The Yale CEO Leadership Summit, December 18, 2014: ``Legends 
of Leadership Award''
    194. Aegon Annual Meeting, January 16, 2015 ``Where Is Oil Going?''
    195. Palm Beach Pundits Luncheon Keynote Speech, March 2, 2015: 
``Income Inequality and Upward Mobility in the U.S.''
    196. National Institute of Social Sciences, March 6, 2015: ``Income 
Inequality and Upward Mobility in the U.S.''
    197. James Gorman Japan Society Lunch Intro, March 12, 2015
    198. Ireland Day Keynote, March 13, 2015: ``The Irish Economy: 
Laying Foundations for Sustainability and Success''
    199. March 23, 2015: ``Capital Link Shipping Conference Keynote 
Speech''
    200. March 23, 2015: ``WL Ross Limited Partner Annual Dinner 
Speech''
    201. NY Common Videoconference, April 15, 2015
    202. Invesco Canada Client Event Keynote Speech, May 21, 2015: 
``The Economic Outlook for the U.S. Europe, Japan, China and Canada''
    203. June 4, 2015: ``Questions for Rutgers Business School Panel''
    204. June 10, 2015: ``Macro Environment''
    205. Japan Society Annual Dinner, June 11, 2015
    206. Invest Cyprus Awards, July 1, 2015
    207. The Vietnam Conference, July 1, 2015: ``Why U.S. Corporate and 
Private Equity Investors Should Look at Vietnam Now''
    208. Wall Street Journal Europe, July 3, 2015: ``The Lessons Greece 
Didn't Learn''
    209. Ascension Health Meeting, July 16, 2015: ``Three Complex 
Topics: Greece, Oil and China''
    210. BritishAmerican Business, July 20, 2015: ``Is the Sovereign 
Debt Crisis Over?''
    211. NYSSA, July 27, 2015: ``Greece''
    212. SentryWorld Badger/Gopher Roundtable, July 31, 2015: ``Three 
Puzzles: Greece, Oil and China''
    213. August 26, 2015: ``Governor Kuroda Introduction''
    214. August 26, 2015: ``Potential Initial Questions for Governor 
Kuroda''
    215. The Future of Finance Conference, September 9, 2015: ``IT and 
Regulatory Challenges and Opportunities Facing Bank Managements''
    216. Brookings Dinner for the President of Cyprus, September 24, 
2015: ``President of Cyprus Intro''
    217. NYSSA Annual Dinner, October 10, 2015: ``NYSSA Lifetime 
Achievement Award'
    218. JP Morgan Private Client Event, November 20, 2015
    219. 2015: ``The strategic issue steel versus other materials''
    220. Stifel Transportation & Logistics Conference, February 9, 
2016: ``Keynote Speech''
    221. Foreign Policy Association, February 10, 2016: ``China & Oil: 
Two BIG Issues''
    222. Mayor and Town Council, Palm Beach, Florida, March 30, 2016, 
``Pension Fund Presentation''
    223. Marriott Essex House, April 11, 2016: ``Fund VI & Tactical 
Energy Meeting with Pepperdine University''
    224. Capital Roundtable Conference, April 14, 2016: ``Capital 
Roundtable PE in Distressed Companies''
    225. IPI Spring Forum, May 17, 2016
    226. Market Groups Private Equity Americas Forum, May 18, 2016: 
``Macro Outlook on Private Equity''
    227. June 1, 2016: ``Introduction of Brian Moynihan, BOA''
    228. Japan Society Annual Dinner, June 1, 2016: ``Chairman 
Remarks''
    229. June 28, 2016: ``Brexit and Trump''
    230. July 6, 2016: ``How to Create 200,000 High-paying Jobs While 
Lowering the Federal Deficit by $50 Billion''
    231. Town Hall of Palm Beach, Florida, July 12, 2016: ``Retirement 
Fund Information''
    232. July 13, 2016: ``How to Fix Our Trade Policy''
    233. July 27, 2016: ``Donald Trump's Repatriation Solution for 
Infrastructure Funding''
    234. August 3, 2016 Speech
    235. August 17, 2016 Speech
    236. August 22, 2016: ``Hillary's Plan Doesn't Work''
    237. August 30, 2016 Speech
    238. September 6, 2016: ``Wilbur L. Ross Background Information''
    239. September 12, 2016 Speech
    240. China institute, September 27, 2016: ``China and Trump''
    241. October 14, 2016 Speech
    242. October 15, 2016: ``Speech for Teddy''
    243. 2016 IIF Annual Membership Meeting, October 3, 2016: 
``International Trade''
    244. 2016 IIF Annual Membership Meeting, October 8, 2016; ``Free 
Trade Agreement''
    245. 2016 IIF Annual Membership Meeting, October 8, 2016: ``Panel 
Presentation to the institute for International Finance''
    246. October 13, 2016: ``TPC Panel Speech''
    247. Real Clear Policy, October 30, 2016: ``Donald Trump's Contract 
with the American Voter''
    248. November 7, 2016: ``Marine Money Speech (if Trump Wins)''
    249. November 16, 2016
    250. 2016: ``Regulatory and Trade Talking Points''
Books
    1. Workouts and Bankruptcy Reorganization Workshop (1986)
    2. My One Big Break, Spotlight Press (2004)
    3. 10-Year Treasury Runs Risk of 25 percent Decline (2013)
    4. Afterword: Opportunity Knocking: Lessons from Business Leaders 
(2014)
Articles/Columns/Publications
    1. The Wall Street Journal Online, October 25, 2016, OPINION, 1008 
words, A Vote for Trump Is a Vote for Growth; The Republican's policies 
will create 25 million new jobs, boost incomes and generate trillions 
in additional tax revenues.
    2. Wall Street Journal Abstracts, October 14, 2016 Friday, A; Pg. 
10, 26 words, TRUMP'S RIGHT: NAFTA HAS BEEN LOSER FOR US.
    3. September 29, 2016, Scoring the Trump Economic Plan: Trade, 
Regulatory and Energy Policy Impacts
    4. Washingtonpost.com, September 27, 2016 Tuesday 4:11 AM EST, 
Editorial; Pg. A19, 863 words, How Trump would boost the U.S. economy.
    5. Financial Times, August 28, 2016, Trade Imbalances
    6. Wall Street Journal Abstracts, August 26, 2016 Friday, A; Pg. 
10, 32 words, WILBUR ROSS RESPONDS TO HIS CRITICS ON TRADE.
    7. Wall Street Journal Abstracts, August 15, 2016 Monday, A; Pg. 
10, 28 words, MR TRUMP MAKES SOME GOOD POINTS ON TRADE.
    8. Detroit Free Press (Michigan), August 12, 2016 Friday, 1 
Edition, OPINION; Pg. Al2, 725 words, Clinton is taking the wrong 
approach to trade deals.
    9. Toledo Blade (Ohio), August 2, 2016 Tuesday, FINAL Edition, 
PAGES OF OPINION; Pg. A6, 666 words, Unions won't support Clinton's 
flip-flop.
    10. Pittsburgh Post-Gazette, August 1, 2016 Monday, SOONER EDITION, 
EDITORIAL; Pg. A-9. 607 words. CLINTON'S BAIT-AND-SWITCH ON TRADE; WHY 
HILLARY CLINTON IS GOING TO BE A TOUGH SELL IN THE UNION HALLS.
    11. The Wall Street Journal Online, July 2, 2015, OPINION, 622 
words, The Lessons Greece Didn't Learn; If Athens had implemented 
reforms swiftly, it would be on the road to prosperity today.
    12. Welath Arabia, June 2012, How I made it.
    13. WALL STREET JOURNAL ABSTRACTS, June 25, 2009 Thursday, Section 
A; Column 4; Pg. 14, I6 words, NOTHING DARWINIAN ABOUT GM BANKRUPTCY.
    14. Avenue Magazine, April 2009, MoneyTalk.
    15. The New York Post, November 6, 2008 Thursday, All Editions; Pg. 
37, 511 words, O'S JOB NO. 1: AMERICAN JOBS.
    16. The New York Post, October 2, 2008 Thursday, All Editions; Pg. 
36, 589 words, A PLAN FOR EVERY HOMEOWNER--A FEDERAL INSURANCE SCHEME 
TO BENEFIT WALL STREET AND MAIN STREET.
    17. The New York Post, September 28, 2008 Sunday, All Editions; Pg. 
35, 666 words, PASS THE PLAN NOW! WARTS AND ALL, $700B BAILOUT IS BEST 
STEP FORWARD: ROSS.
    18. WALL STREET JOURNAL ABSTRACTS, March 10, 2008 Monday, Section 
A; Column 1; Pg. 14, 42 words, REVIEW & OUTLOOK--THE MUNI PLAY.
    19. WALL STREET JOURNAL ABSTRACTS, September 24, 2007 Monday, 
Section A; Column 5; Pg. 10, 37 words, IN BRIEF--ROSS OFFERS TO ACQUIRE 
MAJOR MORTGAGE SERVICE,
    20. WALL STREET JOURNAL ABSTRACTS, November 21, 2006 Tuesday, 
Section C; Column 5; Pg. 5, 36 words, LEAR CORP.
    21. The News & Observer (Raleigh, North Carolina), August 15, 2006 
Tuesday, Final Edition, EDITORIAL/OPINION; Point of View; Pg. A9, 16 
words, Textiles' stake in trade with Vietnam.
    22. The Sunday Telegraph (LONDON), July 30, 2006 Sunday, CITY; Pg. 
7, 1414 words, `Here comes a bankruptcy boom' As leveraged deals get 
ever larger, Wilbur Ross expects a rapid rise in the number of 
companies falling into difficulty.
    23. The Wall Street Journal Asia, June 8, 2006 Thursday, Pg. 13, 
827 words, Who Does Arcelor Belong To?
    24. The Wall Street Journal Europe, June 7, 2006 Wednesday, 
Business Europe; Pg. 12, 931 words, A Raw Deal for Shareholders.
    25. WALL STREET JOURNAL ABSTRACTS, June 7, 2006 Wednesday, Section 
A; Column 4; Pg. 14, 57 words, WHO DOES ARCELOR BELONG TO?
    26. Information Bank Abstracts, WALL STREET JOURNAL ABSTRACTS, 
August 12, 2003, Tuesday, Section A; Page 13, Column 1, 24 words, BUSH 
MUST STAY THE COURSE ON STEEL TARIFFS.
    27. The Bond Buyer, February 26, 1996, Monday Correction Appended, 
OPINION; Pg. 30, 726 words, Theory Aside, Privatize When the Numbers 
Show Consumers Will Benefit.
    28. The Bond Buyer, April 3, 1995, Monday, OPINION; Pg. 31, 557 
words, How an Internal Revenue Service Rule Is Standing in the Way of 
Privatization.
    29. Information Bank Abstracts, WALL STREET JOURNAL, June 6, 1991, 
Thursday, Section A; Page 19, Column 1, 29 words, LETTERS TO THE 
EDITOR.
                                 ______
                                 
                             Attachment Six
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain.
    Following are matters of which I am aware, based on my records and 
an electronic search. As noted in the response to Question C.3, I also 
have been associated with a number of corporations and other entities 
and, from time to time, such entities (including, in some instances, 
their directors, officers and employees) have been involved, in the 
ordinary course, in judicial or regulatory proceedings relating to 
their businesses.

------------------------------------------------------------------------
                             Dates(s)
         Caption               Filed       Description      Resolution
------------------------------------------------------------------------
Storper v. Ross, No.       May 23, 2016  Contract         Dropped as
 652772/2016                                               defendant
(N.Y. Sup. Ct.)
------------------------------------------------------------------------
Lowinger v. Ross, No.      Apr. 29,      Contract         Discontinued
 651440/2015 (N.Y. Sup.     2016
 Ct.)
------------------------------------------------------------------------
Kramer v. Ross, No. 6470   May 11, 2011  Fiduciary duty   Settled
(Del. Chancery)
------------------------------------------------------------------------
Lusk v. Ross, No. 603825/  Oct. 27,      Contract         Settled
 2005                       2005
(N.Y. Sup. Ct.)
------------------------------------------------------------------------
Ross v. Caraher, No.       Aug. 21,      Zoning           Remanded for
 18898/2003                 2003                           new hearing
(N.Y. Sup. Ct.)
------------------------------------------------------------------------
Ross v. McCaughey Ross,    Apr. 11,      Divorce          Settled/
 Nos. 108031/2000, 350272/  2000                           divorce
 1999, 350723/1998 (N.Y.   Apr. 21,                        granted
 Sup. Ct.)                  1999
                           Nov. 4, 1998
------------------------------------------------------------------------
Ross v. Ross, Nos. 128305/ Nov. 29,      Divorce          Divorce
 1995, 300010/1993 (N.Y.    1995                           granted
 Sup. Ct.)                 Jan. 5, 1993
------------------------------------------------------------------------
Ross v. Commissioner of    Apr. 1, 1986  Tax              Settled
 IRS, No. 008580-85
 (U.S.T.C.)
------------------------------------------------------------------------


    The Chairman. Thank you, Mr. Ross.
    Before we begin our questions, I want to ask unanimous 
consent to put multiple letters of support for Mr. Ross into 
the record, including those from four former Secretaries of 
Commerce from both parties endorsing him for the position.
    Without objection, it's so ordered. Thank you.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

    The Chairman. And we will now turn to questions.
    Mr. Ross, according to media accounts, should you be 
confirmed as Secretary of Commerce, President-elect Trump will 
formally tap you to oversee the Nation's trade policy, and I'm 
wondering what you might be able specifically to describe in 
terms of what you'll be seeking to accomplish with regard to 
trade policy in the first 100 days of the Trump administration. 
If you could hone in a little bit because a lot of the media 
reporting, specifically with regard to China, and also there 
were some stories this morning regarding Canada and NAFTA. So 
if you could talk, speak, to those issues.
    Mr. Ross. Surely, sir. We are well aware of the legislated 
powers of the U.S. Trade Representative. And obviously, neither 
the President nor I is going to try to do anything that is 
adverse to the congressional mandate given to the U.S. Trade 
Rep.
    Having said that, though, we think it is good for trade 
policy to bring all of the intellectual resources that we can 
muster----
    [Interruption by protestors.]
    Mr. Ross. That was not part of my prepared remarks.
    [Laughter.]
    The Chairman. Thank you. Please proceed.
    Mr. Ross. I was saying I think it's important to bring all 
the intellectual resources and experience that we can to 
helping solve the trade issues. And, therefore, we view that 
there will be a collaborative process among the U.S. Trade Rep, 
myself, and Peter Navarro, the White House Director of the 
National Trade Council. We will try our best, collectively, to 
do what's best for this country. So that's how we visualize the 
interaction of those parties working.
    As to Canada and Mexico, the President-elect has made no 
secret in his public remarks, nor have I, in earlier remarks 
during the campaign that NAFTA is logically the first thing for 
us to deal with. We ought to solidify relationships in the best 
way we can in our own territory before we go off to other 
jurisdictions. So I think that should be, and hopefully will 
be, if I'm confirmed, a very, very early topic in this 
administration.
    The Chairman. And China?
    Mr. Ross. China is the most protectionist country of the 
very large countries. They have both very high tariff barriers 
and very high non-tariff trade barriers to commerce. So they 
talk much more about free trade than they actually practice. We 
would like to levelize that playing field and bring the 
realities a bit closer to the rhetoric.
    The Chairman. Mr. Ross, you coauthored President-elect 
Trump's America's Infrastructure First plan, which is described 
as featuring a major private sector, revenue-neutral option to 
help finance a significant share of the Nation's infrastructure 
needs. There is bipartisan interest in working together on 
infrastructure issues, but there are also questions about how 
the new administration's plan will address infrastructure 
projects do not have a readily available revenue source, and 
that would apply to most rural projects.
    Could you provide some insights as to how the America's 
Infrastructure First plan will address the infrastructure needs 
in rural America?
    Mr. Ross. Surely. Well, first of all, as to the plan that 
we wrote about during the campaign, that concept of the public-
private partnership with tax incentives for equity investment 
was simply meant to be yet another tool because I think there 
are three categories of infrastructure projects. One are the 
ones that are simple to finance, where they have inherent well-
documented, reliable source of revenue from user fees. Those 
don't really need much more help because they have access to 
the tax-exempt bond market and to the corporate debt market.
    The third category is the trickiest one, and some of the 
rural activities go in that. That's ones where it's very hard 
to find a convincing source of revenue. It seems to me those 
will have to be subsidized by someone as part of an overall 
infrastructure project.
    The one in the middle is the ones that have a potential 
revenue source, but it isn't as clearly defined that you can 
just do it without needing equity. So the purpose of the plan 
that we put forward, the public-private partnership, was to 
fill that second gap. So it's not in place of concepts like 
Build America Bonds, it's not in place of conventional 
financing, it simply was meant to provide another tool. And the 
reason I think we need another tool is the infrastructure needs 
of this country are so monumental that we need any available 
source of capital in order to meet it on a timely basis.
    The Chairman. Well, I would just simply say that there are 
a lot of Members of this Committee on both sides of the aisle 
that represent large geographic areas and would look forward to 
working with you as you shape that plan to ensure that rural 
areas are not left out of the equation.
    My time is expired, but before we turn to other Members for 
questions, I wanted to seek clarification from you, Mr. Ross, 
on one additional subject. Upon your nomination and as part of 
this confirmation process, it's my understanding that you 
determined that you had hired a household employee in 2009 who 
presented a Social Security card, and the employee's name along 
with a valid driver's license, but who recently was unable to 
provide similar documentation again.
    Once you made this discovery, I understand you immediately 
terminated that particular household employee and informed the 
Committee. Prior to this discovery, however, you had used the 
Social Security Number this person provided you to pay all 
applicable taxes for this household employee from 2009 to 2016 
without incident.
    I want to say, Mr. Ross, thank you for being forthcoming 
with the Committee about this particular matter, and I would 
ask you if I have explained accurately the facts, and if there 
is anything further that you would like to add about this 
matter at this point.
    Mr. Ross. Those are the facts, and we did the best that we 
thought we could do in order to verify the legality of the 
employment, and it turned out that was incorrect. So, but we 
did pay all of the withholdings, so did that employee, and so 
did all the other employees that we've had.
    What happened was when I was getting ready for this 
hearing, I wanted to recheck all of our present and former 
employees. They all produced the appropriate records again, and 
in many cases, they had now advanced to the point where they're 
actually citizens, so I'm very happy with that. This one 
employee was unable to, and, therefore, was terminated.
    The Chairman. Thank you, Mr. Ross.
    Senator Nelson.
    Senator Nelson. And I think it's important to point out 
that that wasn't just one or two employees; you had a battery 
of employees over those years.
    Mr. Ross. Yes, Senator, that's correct, a dozen or so.
    Senator Nelson. I have, of course, talked to the Chairman 
about this. You were forthcoming in your questionnaire that you 
filled out for the Committee. You were a private citizen all 
that period of time, and it was only until such time that you 
had been named Commerce Secretary that you rechecked and then 
found out that one of your dozen or so employees had, in fact, 
deceived you. Is that correct?
    Mr. Ross. Yes, it is, Senator.
    Senator Nelson. And then you immediately dismissed that 
employee.
    Mr. Ross. That is correct, sir.
    Senator Nelson. And that all occurred sometime within the 
past month.
    Mr. Ross. That is correct also.
    Senator Nelson. OK. Can you share with the Committee what I 
referred to in my opening statement about how you have bought 
and sold many businesses. You know what the critics have said. 
You know those who have said that you have been a job creator, 
praising your work.
    So could you share with us how you would characterize that 
part of your businesses? And does your record demonstrate that, 
as Secretary of Commerce, you're going to be putting businesses 
first, and especially American workers first?
    Mr. Ross. Thank you for that question, Senator. Some of the 
companies that we have been cited, International Steel Group, 
there is clearly no question whatsoever, the work that Leo 
Gerard, the head of the Steel Workers Union, and I did 
together, Leo believes and I believe probably saved 100,000 
jobs in America. And, frankly, that's the series of events I'm 
most proud of in my entire career.
    Second, there was talk in one of the press about 
International Auto Components and a couple of hundred jobs 
being moved to Mexico during a little time period. During that 
same time period, we grew net-net-net our jobs in this country 
to 11,000 jobs, which was more than a 10 percent increase from 
what we had before it.
    The only reason we moved a couple of workers to Mexico was 
our business is making interior parts for cars. Those are just-
in-time deliveries, so you have to be right contiguous to the 
factory that you're supplying, the original equipment 
manufacturer or factory. The customer of those factories that 
laid the people off moved to Mexico, so there was no longer a 
customer. That customer asked us to relocate workers to Mexico. 
We really didn't have much alternative to do so because once 
the customer is gone, and since he insists that you be right 
next-door to him so that he doesn't have to keep any inventory, 
we had no choice. But net-net IAC was an adder of jobs.
    Similarly, International Textile Group, it is true that it 
had to reduce its workforce. It is also true we are probably 
the last large domestic manufacturer of textiles left standing 
with maybe one or two other exceptions. And subsequent to our 
work at ITG, their main union became--used its pension fund to 
invest in my funds. So, clearly, UNITE, which is the union that 
has organized the textile and apparel industry, felt that we 
did responsible things and that we were certainly not anti-
worker.
    I think, in reality, if we hadn't also begun some foreign 
operations, we would have had to shut down far more of the 
domestic activities. So I believe if you add and subtract, we 
have been a very large net creator of jobs during this whole 
period in the United States.
    Senator Nelson. Mr. Chairman, I'm going to take the 
prerogative to ask one more question, and I emphasized it in my 
opening remarks.
    Under the NOAA Scientific Integrity Policy, NOAA scientists 
do not need to ask for permission to share their expertise on 
scientific matters with the public or with the press. Do you 
support that right?
    Mr. Ross. I support the dissemination of valid information 
to the public. I don't think that valid information should be 
concealed. And in general, I have great respect for the 
scientific quality of NOAA. It's my understanding that there 
are four Nobel Prize winners at NOAA, and that is certainly a 
measure of their expertise.
    So I think that communication of factual information and 
data is very, very important.
    Senator Nelson. Do you consider the rise of the sea level 
as valid scientific data?
    Mr. Ross. It's very hard for me, Senator Nelson, to parse 
which part of data is what, but in general, I think that there 
will be a very big report forthcoming from NOAA. Every three 
years they send a report to the International Climate Group. 
That should be coming out very, very shortly, and I think it 
will be very, very interesting to see what their updated 
findings are on that topic as well as on other topics.
    Senator Nelson. Well, Mr. Chairman, just in closing, I will 
point out that NOAA and NASA measurements over the course of 
the last 4 decades have shown in southeast Florida that the sea 
level has risen from 5 to 8 inches. That is data that should be 
reported again in this report that you're talking about that's 
coming out. Thank you.
    Mr. Ross. Since you've asked me, sir, not to edit the 
report, I probably won't have any control over whether they put 
those specific facts in or not, but I am sure they are mindful 
of the facts.
    The Chairman. Thank you, Senator Nelson.
    I've got Senator Cantwell followed by Senator Blunt 
followed by Senator Klobuchar.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I thought you 
were going back and forth.
    The Chairman. I am.
    Senator Cantwell. OK. Don't leave the room. I guess that's 
the key thing there.
    Mr. Ross, you mentioned obviously maritime issues and 
fisheries, and for us in the Northwest, this is big jobs--$30 
billion in annual revenue and 148,000 direct and indirect jobs 
in the maritime sector. And I don't have the information right 
in front of me, but your ethics documentation is not requiring 
you to divest your Diamond Shipping Company, which operates 33 
tanker vessels and transports petroleum products of over $1.2 
billion. Is that correct, you're not divesting from that?
    Mr. Ross. That is correct. The research we've done suggests 
that there has never been a shipping case come before the 
Department of Commerce. And in our case, the vessels are the 
most environmentally up-to-date vessels that you are going to 
find on the water.
    As you know, there are some new regulations coming in about 
ballast water and other things, but we believe that our 
vessels, even before those rules came in, have been very well 
brought, for the most part, up to snuff. So we are proud that 
the vessels are the best we can do environmentally.
    In addition, we don't take any risk in the cargo. We simply 
are like a taxicab. They put cargo on it, we discharge it in 
another location, and we're paid a fee for so doing. But I will 
have no involvement with the operation of the business.
    Senator Cantwell. And I think my question--well, first of 
all, I'm sure when we get into larger infrastructure 
discussions, there will be a lot of Members of this Committee 
that will say, ``What can we do to provide more shipbuilding 
jobs in the United States of America?'' and I would think there 
are probably many Members of this panel who believe in 
shipbuilding in the United States and that there is much more 
to do.
    But I'm sure you remember the Exxon Valdez, and I'm sure 
you appreciate that the pristine waters all throughout the 
Pacific Northwest are of high economic value. I'm sure you get 
that, being a Floridian, there is a high economic value to the 
pristine coastlines of a state.
    Mr. Ross. Sure.
    Senator Cantwell. So my question--and I'm happy to provide 
this for you for the record, but there are many, many, many, 
many aspects of your new job that will be about the regulation 
of this industry: the Oil Spill Liability Trust Fund and how 
much shippers pay into that; there were obviously after the 
Deepwater Horizon catastrophe similar issues; and there's the 
Oil Pollution Act governing our maritime liability and 
response.
    So I want to make sure that as these issues are discussed 
within your organization, if you're still going to hold that 
position in that company or whether you're going to recuse 
yourself from those issues.
    Mr. Ross. Well, on issues--our vessels are only 
transoceanic vessels. We are not Jones Act participants, so we 
don't do port-to-port----
    Senator Cantwell. Do you support the Jones Act?
    Mr. Ross. The Jones Act is a fact. I've been living with 
it. I have never voiced any opposition to it. It's just not 
relevant to what we've been doing.
    But the Jones Act has been useful in continuing U.S. 
shipbuilding. I think without the Jones Act, you would have 
even less U.S. shipbuilding than you have now because of the 
requirement that the intracoastal activities be Jones Act-
qualified vessels and Jones Act-qualified crews.
    Senator Cantwell. Well, I want to make sure that--I will 
get this to you, and you can respond in writing, but there will 
be times in which those interests will be impacted by decisions 
made by your organization. And if you would take a look at the 
specific questions and areas where you would recuse yourself in 
addition to what you've already done with ethics, I would so 
appreciate this.
    Mr. Ross. Oh, I intend to be quite scrupulous about recusal 
and any topic where there is the slightest scintilla of doubt.
    Senator Cantwell. Thank you. Well, we'll get back to you. I 
have a few minutes, a few seconds left. The President-elect's 
administration is trying to bring in a lot of private sector 
experience. I appreciate private sector experience, but 
oftentimes that experience is about answering to shareholders 
and other special interests. This is about answering to the 
public interest. And as it regards the huge issues we have on 
pensions, you know, we've had so many things that have happened 
in these last several years of our economy where people have 
been able to come in, reap the assets of companies and 
organizations, and then leave the Federal Government or the 
workers with the liability.
    Do you support shoring up the miners' pension multiemployer 
program, and do you support shoring up the PBGC?
    Mr. Ross. Well, let me talk about the pension situation in 
general. What happens in bankruptcy court is that the debtor, 
not the potential buyer, but the debtor itself, has the burden 
of proving to the court that it is not reorganizable without 
dealing with the pension and retiree health liabilities. The 
court makes that determination. In every case where we've 
bought and where the pension plan was terminated, that decision 
had been made by the court prior to our advent on the scene. So 
the idea that we terminated anybody's pension plan is simply 
false.
    Senator Cantwell. I'm not asking that. And I'm out of time. 
We can come back to this in round two, but I want to know now, 
when wearing that hat, you know, as Commerce Secretary, I want 
to know what your viewpoint is from the worker perspective and 
whether you support shoring up that aspect of the pension 
program?
    And since I'm out of time, Mr. Chair, we can go to round 
two or we can get a written answer on those questions.
    Mr. Ross. Should I answer the question, sir?
    The Chairman. Well, if--can you be very, very brief?
    Mr. Ross. I will. I'm quite familiar with the Pension 
Benefit Guaranty Corp, and, as you know, we--Commerce has a 
board seat on PBGC. They are the insurer of last resort. I 
think they need to be even more scrupulous about risk-based 
pricing so that they themselves don't run out of money as 
further pension obligations find their way to them.
    The Chairman. Thank you, Senator Cantwell.
    Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman.
    And thank you, Mr. Ross, for being here, for being willing 
to serve. And I look forward to your leadership at Commerce and 
what I think, from everything I read, would be an expanded role 
beyond Commerce because of the President-elect's confidence in 
you.
    On the infrastructure side, we had Secretary Chao, former 
Secretary of Labor, and I suspect the future Secretary of 
Transportation, in the other day, and one of the questions I 
asked her was about the importance of better intermodal 
strategy for transportation.
    I live in Missouri. The Mississippi River is there, the 
Missouri River flows into the Mississippi, but across the--we 
are really at the water nexus of the country, but also the rail 
and highway nexus of the country. I'm sure all of those need to 
work together even better for us to have the competitive 
potential we need. And I would like you to talk just a little 
bit about your sense of how we look at those more interrelated 
transportation systems.
    Mr. Ross. Well, as you know, we have been in the railcar 
manufacturing business for quite a long time, and one of our 
major products were the types of cars that were best suited to 
intermodal because there's a role for truck, there's a role for 
barges, there's a role for rail.
    And I think people keep trying, and will eventually 
succeed, at finding new and better ways to facilitate those 
transfers from one mode of transportation to another. I think 
that's a very, very vital thing for this country because for 
many industries, transportation cost is as much as 20 percent 
of their total cost. So anything that can be done to facilitate 
transportation will help the economy just in and of itself, let 
alone infrastructure spending has a very high labor content, 
generally around 44 percent. So it's a very good way to provide 
high-paying jobs to ordinary people.
    Senator Blunt. And if I understood your three-level matrix 
of how you finance, one was things that have an obvious and 
easy-to-understand financing component that have access to the 
credit world because of that; another may have some components, 
like a rural cable, that could pay part of the bill, but not 
all of the bill; but then in the middle, you had that greater 
category of things that just can't happen without a 
partnership.
    Would you give me an idea both of what one of those might 
be and what the private sector opportunity that we're not 
seeing or not using effectively could be as we look down the 
road?
    Mr. Ross. Yes, sir. I think we're fortunate to be coming to 
grips with infrastructure in a relatively low-interest-rate 
environment because that will facilitate getting a lot of 
projects done that could not be done in a lower interest rate 
environment because there would be a crowding out effect.
    But even so, there will be, in many cases, a need either 
for the public policy decision to have government play a direct 
role or for a way to encourage private sector to participate.
    So I think it won't be one size fits all. It's a very large 
and every complex problem, and it needs very large, very 
inventive, and complex solutions.
    Senator Blunt. And you're also proposing that as you look 
at infrastructure, that we're making a greater effort to 
incorporate new technologies into that infrastructure?
    Mr. Ross. Yes, sir. And that's a lot of what we're doing in 
Florida right now. It's not just to get away from the 
hurricanes, we're also building in extra conduit beyond even 
the optical fiber that we're putting in, in the first instance 
to allow for potential developments in the future because it's 
a lot easier to lay the second or third conduit at the same 
time than it would be to have to close that up and then come 
back 5 years from now. So we've been trying to get a little bit 
ahead of the game. And in that particular case, it's being 
financed by tax-exempt bonds.
    Senator Blunt. So Senator Klobuchar and I have been 
particularly involved in the travel and tourism issues, 
thinking that is often described as the low-hanging fruit in 
the economy, particularly foreign travel to our country. The 
current Secretary has been very interested in that; it's part 
of the portfolio of Commerce.
    Would you talk just a little bit about that and how it 
impacts the economy?
    Mr. Ross. Surely. First of all, having been involved--I 
worked with the labor unions and the Pan American World Airways 
bankruptcy. I was their financial adviser. I was bondholder 
adviser in TWA, preferred stock adviser in Eastern. So I'm 
pretty familiar with the airline industry, and actually had 
been on the board of Wien Airlines up in Alaska for quite a 
while.
    I'm a big proponent of the Open Skies policy. I think 
that's an important thing. I think developing tourism is 
extremely important. And I think something like a ninth of all 
the jobs in this country are one way or another dependent on 
tourism. So it is a powerful economic factor, and it is one of 
the segments of Commerce Department that I will certainly be 
paying attention to, if confirmed.
    Senator Blunt. And I'll just say in closing, Mr. Chairman, 
and, too, Mr. Ross, it's also an area where we've got a very 
active public-private effort going on right now to encourage 
people to discover America.
    So thank you, Chairman.
    The Chairman. Thank you, Senator Blunt.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much.
    Congratulations on your nomination, Mr. Ross.
    Mr. Ross. Thank you.
    Senator Klobuchar. And thank you, Senator Blunt, for asking 
those important tourism questions. Of course, Senator Blunt and 
I won't ask you if you think the Mall of America in Bloomington 
or Branson, Missouri, are better places to visit than Florida, 
but I think one of our reasons in taking this on is there is 
tourism all across America that's very important.
    I want to lead with something you and I discussed, and that 
is iron ore and steel. My state, as you know, is one of the 
leading producers of iron ore. It's in my family. My grandpa 
worked as an iron ore miner 1,500 feet underground most of his 
life. We've had an incredible downturn due in part to 
overcapacity, but also due to steel dumping that is illegal. 
And recently there have been some good actions taken by the 
Commerce Department. Congress has given more funds, which has 
been helpful. And we've seen a bit of improvement.
    And I wonder if you could address how you would build on 
this work and improve it even more for our hard-working miners 
and people in the steel industry.
    Mr. Ross. Well, sure. As you can appreciate, I probably 
have greater familiarity with mining than most people up for 
this position.
    The fundamental problem with the steel industry is 
overcapacity, particularly in China. China has 1 billion tons 
of capacity. That's half of the world's capacity. They need 
something like 700 million tons domestically. They're actually 
producing 800 million tons and putting 100 million tons out 
into the world markets often at dumping prices. And so I think 
one of the things where we do need very careful attention to 
more tariff activity is the anti-dumping requirements that we 
should impose on the steel industry and on the aluminum 
industry as well.
    That's a very big issue, and unfortunately until fairly 
recently, Europe was even more reticent to impose 
countervailing duties than we are, but finally they seem to be 
feeling the pinch of it, and they're starting to come around as 
well.
    Senator Klobuchar. Right. As you know, they just launched 
the Global Forum on Steel Excess Capacity in Berlin in 
December. So I assume you will be willing to work with our 
allies on that.
    Mr. Ross. Oh, absolutely. I know many of them anyway 
because Arcelor had been very active throughout Europe.
    Senator Klobuchar. OK. Thank you. And will you work with 
our Customs and Border Patrol? You and I discussed the issue of 
these shipments coming in with illegal steel.
    Mr. Ross. Yes. One of the things that horrified me as I 
studied enforcement is there are literally billions of dollars 
of countervailing duties that are never collected because the 
foreigners set up little shell companies here, we impose a 
duty, there's nobody home when we come time to collect. I think 
that kind of thing has to be fixed. There's not much point 
going through a multiyear trade case, if then, in case you win, 
you don't even collect the countervailing duties. That doesn't 
change anybody's behavior, and it's a loss of revenue to the 
Federal Government.
    Senator Klobuchar. Thank you. And I appreciate that. I 
think that's one of the reasons you just got the Steelworkers 
support from Leo Gerard in a letter dated January 9.
    The last thing I wanted to ask you about was Cuba. I lead 
the battle to lift the embargo. I know that it's an issue in 
Florida on both sides, and we, of course, have Republican 
support on this bill as well. My view is 50-plus years of a 
failed policy is enough. What's your position on ending the 
embargo?
    And then also a second related question deals with the 
rollbacks. How do you think we should be rolling back any of 
the existing opportunities for American air carriers' 
businesses that have come about because of President Obama's 
executive orders, because a lot of these businesses in America 
are making plans. We have 1.5 million visitors now forecasted 
from our country a year.
    Mr. Ross. Well, I must make a confession, I've never been 
in Cuba, so I have no firsthand knowledge. I do have quite a 
number of Cuban American friends in Florida, and I notice that 
it's a sufficiently complex issue that even within individual 
families there are people who disagree about what should be 
done. So this is one area I would like to become much more 
educated in as time goes.
    I am aware that Starwood and some other hotel people have 
already made some deals for Cuba, so there seems to be a lot of 
interest on the part of American companies in doing business 
there, but I don't feel I am expert enough in that right now to 
have a firm view.
    Senator Klobuchar. All right. Well, we look forward to 
talking with you about that. I will put in the record some 
questions about broadband, the Dig Once proposal we have so 
that when people are digging for utilities we make sure we lay 
fiber for broadband, and also about the importance of the 
foreign commercial service, and, finally, softwood lumber. But 
we can leave that for the written questions.
    Thank you very much.
    Mr. Ross. Thank you, Senator.
    The Chairman. Thank you, Senator Klobuchar.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    And, Mr. Ross, welcome. I appreciate your willingness to 
serve and your previous service to our country. And you and I 
talked about it in our meeting before this hearing, but I had 
an opportunity to have a front-row seat in some ways working at 
the National Security Council staff at the White House on 
economic issues on what happened with the steel industry and 
what you were able to do, and I think that's something that is 
an important and positive part of your record. And I know that 
there are thousands and thousands of steelworkers who 
appreciated that.
    We also had the opportunity to talk about that to me, one 
of the most important issues that we can face as a Nation right 
now, and that's the issue of economic growth. And as you know, 
over the last 10 years, we've had a lost decade of economic 
growth. President Obama is going to be the first President 
never to hit 3 percent GDP growth ever in a year, almost never 
hit it in a quarter. And so the Obama administration has now 
said, well, that's the new normal, we shouldn't expect to hit 
traditional levels of American growth, 3.5, 4 percent, 4.5 
percent.
    Do you agree with that, that the new normal is something 
that we're achieving our full maximum potential as an American 
economy at 1.5, 2 percent growth, the numbers over the last 10 
years, or can we get back to traditional levels of American 
growth? And if so, how do we do that?
    Mr. Ross. I think we can. During the campaign, I 
characterized the 1.5, 2 percent, not as the new normal, but as 
the new dismal. I don't think we need to have the new dismal--
--
    Senator Sullivan. So you think the narrative that's very 
pervasive in Washington, D.C., that the new normal is here to 
stay, this is what we should achieve, this is what we should 
expect. I think it's a surrender. So you disagree with that.
    Mr. Ross. I'm pretty sure that if that proves true, you 
won't be seeing me much longer because the President-elect 
won't put up with it.
    Senator Sullivan. So how do we get to traditional levels of 
American growth, 3.5, 4 percent, 4.5 percent? Which, by the 
way, Democrat and Republican administrations have achieved 
this.
    Mr. Ross. Right.
    Senator Sullivan. This has been the--that's the new--that's 
the normal for America.
    Mr. Ross. Well, I think--I wrote an editorial with Peter 
Navarro that outlined four planks to the economic policy. One 
was regulatory reform. I'm not against all regulations, 
obviously, but I do think that pendulum perhaps has swung a bit 
further than it should. And I believe the President will roll 
back some of the regulations. I don't know which ones, but I 
think he'll roll back some. And that's one of the most frequent 
complaints I hear from the business community, is about 
overregulation.
    Second is the energy policy, both making us closer to being 
energy self-sufficient because we still are a net importer of 
energy, and however you look at it, that's a drain on the 
economy.
    Third is what we've been talking about before, helping our 
balance of trade, particularly by increasing the exports. I 
think if we combine each of those and just get a fraction of a 
percent more growth from each, we'll get to the kinds of 
numbers that you were talking about.
    And last, of course, being the infrastructure. We 
desperately need infrastructure, not only because of the direct 
jobs it creates, but inefficient and archaic infrastructure is 
itself a drain on the economy, the grid. All kinds of things 
have to be fixed if we're going to be a truly competitive 
economy.
    Senator Sullivan. Thank you. And we want to work with you 
on those four elements of getting back to the traditional 
levels of American growth.
    I want to talk next--and I appreciate you highlighting the 
issue of fisheries and their importance to coastal communities. 
You know, in my state of Alaska, employment in the fishing 
industry is actually bigger than even in the oil and gas 
industry. So healthy coastal communities, a well-managed 
sustainable fishery--our fishery is considered probably the 
most well-managed sustainable fishery on the planet--is very 
important.
    I have the honor of chairing the Subcommittee on Oceans and 
Fisheries and the Coast Guard on this Committee. So I just want 
to get your commitment that, as you know, a big part of the 
Commerce Department is NOAA, is fisheries, is focusing on that 
data to keep our fisheries well managed.
    I just want to get your commitment to working with this 
Committee, working with me, working with the Subcommittee, on 
those important issues for the country, for my state, and also 
on some of the personnel decisions that you'll be making, that 
the Administration will be making, on having the best people 
who understand fisheries, understand Alaska. You know, I like 
to say we're the superpower of seafood. Almost 60 percent of 
all seafood harvested in the United States comes from Alaska's 
waters. So if confirmed, I would like to get your commitment to 
working closely with us on those important issues.
    Mr. Ross. Well, you certainly have it. And I am very 
mindful of the discussion we had about king crabs coming in 
from Russia as part of our trade problem. And I assure you 
that, too, will be something I'll look into if confirmed.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sullivan.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    Welcome to the Committee, and thank you for being willing 
to serve, Mr. Ross.
    Let me begin where my colleague Senator Sullivan finished. 
On the issue of fisheries, as you know, you have very 
substantial authority under your emergency powers to correct 
for inequities and overfishing. I would like a commitment that 
you will consider using those emergency powers to address the 
flow of certain fish stocks, which you and I have discussed, 
from the middle Atlantic states to the New England states 
without the authority to fish at sufficient quotas for the 
fishermen of New England.
    Mr. Ross. Right. Well, I do remember very clearly our 
conversation. And I think it will be important to make sure 
that quotas are allocated properly. I'll need to do research to 
follow up on the indications you gave me in order to figure out 
exactly where I come out on exact details.
    Senator Blumenthal. This system is broken. It is broken 
from an environmental and an economic standpoint. It's costing 
jobs, and it is preventing the United States from using its 
fish stocks, and instead, as you and I discussed, has resulted 
in importing----
    Mr. Ross. Right. Well----
    Senator Blumenthal.--which destroys livelihoods and 
economic well-being in the New England states, and I would like 
your commitment that you will work with me to use your 
emergency powers, but also to support legislative reform.
    Mr. Ross. I'm very interested in helping balance the 
payments. I'm very interested in helping the fisheries. So I 
look forward to seeing the details of the suggested 
legislation.
    Senator Blumenthal. And I want to welcome your 
modification, I'll put it somewhat delicately, of the plan that 
you and Mr. Navarro submitted, or your clarification of it, to 
permit other authorities like an infrastructure bank and a 
public financing authority, which I think are key to the public 
side of investment. And there has to be a robust public 
investment in our infrastructure, taking advantage of the low-
interest environment as you very correctly suggested.
    Mr. Ross. Yes, I think we're very fortunate, Senator, that 
it is a low-interest rate environment where we're trying to 
solve this problem. If it were a very high-interest rate 
environment, the problem would be two or three times as hard to 
solve.
    Senator Blumenthal. Let me focus on another area where I 
think you have really made a very personal sacrifice. Your 
service has resulted in your divesting yourself of literally 
hundreds of millions of dollars in assets so that you could 
reach an agreement with the Office of Government Ethics. I 
don't want to embarrass you or presume, but obviously of all of 
the billions of dollars in holdings that you own now, you have 
divested more than 90 percent, and you have resigned from 50 
positions. The process has been enormously complex and 
challenging and costly to you personally; correct?
    Mr. Ross. Yes, sir.
    Senator Blumenthal. And I want to ask you very directly, 
shouldn't the President of the United States do the same?
    Mr. Ross. Well, as I understand it, the ethics rules that 
apply to Senate-approved nominees do not apply to the 
President.
    Senator Blumenthal. But simply as a matter of appearance 
and morality for that matter, you were able to do it. Why not 
the President?
    Mr. Ross. I'm not familiar enough, Senator, with the 
exactitudes of his holdings to have any judgment as to how easy 
or hard it would be to do it.
    Senator Blumenthal. You did it to avoid any conflicts of 
interest; correct?
    Mr. Ross. That is correct, sir.
    Senator Blumenthal. You may head an agency that will have 
direct authority that potentially could impact very seriously 
the President's financial well-being; correct? You had, for 
example, the Patent and Trademark Office.
    Mr. Ross. Yes, sir.
    Senator Blumenthal. The President's organization has eight 
pending applications for new trademarks. His trademarks for 
hotel, clothing, and real estate, could well come before the 
Trademark Trial and Appeal Board. You appoint that Board; 
correct?
    Mr. Ross. Well, I had a discussion yesterday morning with 
the current head of the U.S. Patent and Trademark Office, and I 
asked her how she was feeling with the matters relating to her 
former relationship with Google, and she outlined what I 
thought was a very thorough process for recusal and determining 
recusal, and I would intend to emulate the standard that she 
has set.
    Senator Blumenthal. But there is no way to avoid a conflict 
of interest when the one with that interest is the President of 
the United States. He is your boss; he's her boss; he is the 
one who presides over the entire United States Government, and 
you appoint the judges who will sit on that Appeals Board; 
correct?
    Mr. Ross. That is correct.
    Senator Blumenthal. And so I would respectfully suggest 
that that conflict of interest is inevitable so long as the 
President of the United States refuses to divest himself. 
Creating the trust as he has done is no substitute for complete 
divestiture. I realize you can't order him to do so, but you 
will be in effect put in a very difficult, if not impossible, 
position as the Secretary of Commerce, who has appointing 
authority and ultimately approval authority over the Patent and 
Trademark Office.
    Mr. Ross. Well, I am quite sure everyone will be watching 
all of those matters, and, therefore, they will certainly be 
subject to public scrutiny.
    Senator Blumenthal. My time is expired. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you.
    And, Mr. Ross, congratulations to you and to Hilary and to 
any family member that may be here or may be watching today's 
hearing. I'm grateful that you're here, and I'm grateful that 
you are willing to take this upon yourself.
    The article that you referred to, based on the questioning 
from Mr. Sullivan, that you wrote on your four platforms for 
economic growth, you mentioned regulatory reform. And I thought 
about that a little bit. You said you weren't sure where the 
President might be on regulatory reform or what he's going to 
do the first days of office.
    Not knowing that, what would you recommend to him, with 
your background and experience, that would help immediately in 
regulatory reform?
    Mr. Ross. Well, I think what we ought to do is to try to 
deal with things that really inhibit business and yet aren't 
all that important, a kind of cost-benefit analysis. The part 
of the CBO that reviews regulations is a very small department, 
I think it has fewer than 50 employees, so many, many new 
things that have been put in have never had a cost-benefit 
analysis. I think the majority of them, in fact, have not. It 
would be very useful to conduct that kind of analysis as part 
of the process for determining which things should be rolled 
back and which should be preserved.
    Senator Heller. So you don't have any specific 
recommendation at this point?
    Mr. Ross. At this point, no. The President has not asked me 
for specific recommendations.
    Senator Heller. I appreciate your comments, though, on 
cost-benefit analysis. I've been arguing for that since I've 
been here in Congress, that any new regulation that comes out 
of this Committee or any other committee should have to be run 
through some cost-benefit analysis in order to be assured that 
it isn't costing more than the benefits of that particular 
regulation.
    Let's go down to the balance of trade. You mentioned in 
your four steps also. What's your process, thought process, 
here on increasing trade?
    Mr. Ross. A couple of things. One, in general, I think it's 
easier and quicker to negotiate bilateral agreements than it is 
multilateral. And my concerns about the multilaterals are not 
that there is anything inherently wrong with them, but as 
somebody who has negotiated a lot of transactions, I can tell 
you the more complex the environment within which you're 
negotiating, the less likely you are to get to a sensible 
result because what really happens is several things.
    Say you're negotiating with 12 different countries. You go 
to the first one and you want some concession from them. They 
say, ``Yes, we'll give you that concession, but we want 
something back.'' So that takes a little nick out of us. Then 
you go to the next country and you negotiate with them, they 
take a little nick. You keep doing that 12 times, you get a lot 
of nicks, and what happens is the other countries get the 
benefit of things they didn't even ask for because you had to 
give them to someone else. So I think that's a fundamental 
concern.
    Second----
    Senator Heller. Mr. Ross, I hate to cut you off because I 
don't have a lot of time, but am I to take from that that you 
weren't impressed with TPP?
    Mr. Ross. Initially, when I read the first press reports of 
TPP was very favorable toward it. As I delved into the 
thousands of pages of document, I came across some things that 
I felt were not consistent with what had been advertised.
    I'll give you a couple of examples. One is the concept of 
TPP was to build a wall around the countries that were 
participants, but in automotive, for example, they permit more 
than 60 percent of the content of a car to come from outside 
TPP and yet have all the tariff benefits. That didn't strike me 
as the world's best idea, particularly from the point of view 
of protecting the automotive industry because in automotive, 
about 70 percent of the jobs are in the parts suppliers, not in 
the OEs. So----
    Senator Heller. Again, sorry to cut you off, but I only 
have a couple seconds.
    Mr. Ross. I'm sorry.
    Senator Heller. Would that argument be that you would then 
oppose a 35 percent tariff, as the President-elect has 
proposed, on foreign cars?
    Mr. Ross. I think that it's a complicated issue whether you 
should have one flat tariff on everything or whether it should 
be more tailored to the individual situations, and----
    Senator Heller. Do you support tariffs?
    Mr. Ross. I think tariffs play a role both as a negotiating 
tool and, if necessary, to punish offenders who don't play by 
the rules.
    Senator Heller. Mr. Chairman, my time has run out. Thank 
you.
    The Chairman. Thank you, Senator Heller.
    Senator Wicker has returned. He's up next.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you very much.
    Mr. Ross, there has been a lot of talk about outsourcing.
    Mr. Ross. About?
    Senator Wicker. About outsourcing of jobs.
    Mr. Ross. Yes, sir.
    Senator Wicker. And we need to continue talking about that. 
But the other side of that is insourcing, and I can just tell 
you that in my state of Mississippi, we're tickled to death to 
have Toyota, Nissan, Airbus, Yokohama Tire, building things for 
the rest of the world and employing Americans right there in 
Mississippi.
    Of course, our states have a lot to do with recruiting 
these industries, but can you highlight for us your ideas about 
how to have more of this? As we try to combat outsourcing of 
American jobs to other countries, how can we insource companies 
like Nissan and Toyota and Airbus?
    Mr. Ross. Sure. I think the best incentive for foreign 
companies to come here is, first of all, we're the world's 
largest markets, and so that's a big encouragement, but if we 
lowered the corporate tax rate, it will be a further inducement 
for them to come.
    Right now, we're not competitive in terms of our marginal 
tax rate with many other countries against whom we compete. 
Take, for example, Mexico; the corporate tax rate there is 
about half what it is in our country, and that's true in many 
of the other countries. So I think if we can become more 
competitive in the tax rate, it would be a very good thing not 
only for keeping American companies staying here, but also for 
encouraging foreign companies to come here. So I think that's 
probably the biggest single tool that we could use.
    Senator Wicker. OK. That's the biggest single tool. You're 
free to give other suggestions.
    Mr. Ross. Oh, surely. I think some degree of deregulation 
would also be very, very helpful. And if we can use an energy 
policy that keeps energy costs low, that would be very, very 
powerful as well. So I'm much more in favor of carrots than of 
sticks.
    Senator Wicker. With regard to a 21st century tax structure 
that puts us more in line with the modern day and gets us out 
of 1986, are you involved in those discussions at the 
transition level? And will you be part of writing the 
administration's tax proposal?
    Mr. Ross. I believe the President will be listening to some 
suggestions from me, but he has a whole apparatus on tax that's 
quite independent of me. But because tax is so important to 
commerce, I hope that he will have some consultation with me.
    Senator Wicker. Well, I think based on your answer to the 
previous question, the President-elect would be well advised to 
listen to you.
    You've had a lot to say about infrastructure, and let me 
just tell you, I hope I'm able to assist the Trump 
administration in supporting an infrastructure program for the 
United States of America. Infrastructure includes roads, 
bridges, highways, rail. Do you consider the buildout of 
broadband to be part of infrastructure? And should it be part 
of the Trump administration's infrastructure plan?
    Mr. Ross. I think broadband is an essential part. Broadband 
is, to a very large degree, a path to the future, and I think, 
therefore, it's a very essential component of economic policy 
altogether, including the infrastructure component.
    Senator Wicker. All right. And you're going to look around 
the room here and see people from Nevada to Hawaii to 
Mississippi to Nebraska, and a lot of rural folks on this 
Committee. I hope you will commit to this Congress and to this 
Committee that you will work with us on making rural broadband 
more accessible and make the buildout more expeditious.
    Mr. Ross. I certainly will try to cooperate with you. As 
you know, it's the intersection of myriad policy decisions, 
some of which are quite outside my control.
    Senator Wicker. You're probably aware of this, and my time 
has expired, but you've been around the track. There is a 
second level of bureaucracy in your department. There is a 
third level of bureaucracy. You're going to have to fight those 
people, and sometimes you're going to have to make sure that 
they understand that elections have consequences.
    I want to do a shout-out to your predecessor, Secretary 
Pritzker, who helped Senator Cochran and me and the Governor of 
our state and the people in Mississippi who wanted to save 
lives through an innovative way to put doctors in emergency 
vehicles, and it took quite an effort on the part of Secretary 
Pritzker to cut through that bureaucracy and make sure the law 
was followed.
    I hope you can show that kind of determination, too, and we 
can work on a bipartisan basis with people, with my Democratic 
friends, and people on our side of the aisle, too, to cut 
through some of this red tape and do things like Secretary 
Pritzker did in helping save lives for Americans in 
Mississippi.
    Mr. Ross. I'm certainly in favor of saving lives, and I'm 
clearly certainly in favor of enforcing the law, so I look 
forward to working with you on it.
    Senator Wicker. Thank you, sir.
    The Chairman. Thank you, Senator Wicker.
    Next up is Senator Schatz followed by Senator Gardner.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Mr. Ross, thank you for your commitment to serve the 
public. Your predecessor successfully negotiated a couple of 
very thorny issues over the last few years regarding 
telecommunications: the U.S.-EU Privacy Shield and the IANA 
transition. The successful negotiation of the U.S.-EU Privacy 
Shield and the smooth transition of the IANA functions from the 
Department of Commerce to the global multistakeholder community 
were widely supported by a range of stakeholders, including the 
Congress. Do I have your commitment to continuity in these 
respects?
    Mr. Ross. Well, as I understand it, there is no real 
alternative on the table to the ICAP situation. So for the 
moment, there is nothing else to consider. I'm not aware that 
there's a realistic way to do anything about it.
    On the privacy side of life, I think we need to balance a 
couple of things going forward. The treaty, the agreements, 
that exist obviously exist, but I think going forward, there 
will be a tension between privacy on the one hand and problems 
of localization of data and the implications that they have for 
the Internet as we go forward. So I think that's going to be a 
very tricky balancing act, but I look forward to consulting 
with you on it.
    Senator Schatz. Thank you. In Fiscal Year 2016, the NOAA 
budget was about $6 billion, making up 60 percent of the 
Department of Commerce's budget, but in recent years, NOAA's 
budget has stagnated, as critical coastal and ocean programs 
have been held level to pay for satellites. As a result, NOAA 
has had to rely on aging, rundown buoys and ships to measure 
high-impact global ocean conditions such El Nino events. El 
Nino events originate in the Western Pacific, as you know, but 
their impact is felt around the world. The data that NOAA 
gathers in the Pacific using a small network of buoys is 
essential for forecasting these impacts across the country.
    These NOAA coastal and ocean programs are critical, but 
they're not as interesting, not as expensive, as the satellite 
programs that you referred to earlier. What is the strategy to 
restore balance to the NOAA budget so that all of its critical 
programs are adequately funded?
    Mr. Ross. Well, the big capital expenditures right now are 
for the satellites. As you know, there are several more that 
are scheduled to be launched. And then the next biggest capital 
expenditures will be to update the vessels.
    As someone who has operated vessels, I'm well aware that 
old vessels are quite inefficient to operate, number one. And 
number two, that the technology of these research ships has 
improved quite a bit in the years since those vessels were 
built.
    To the best of my knowledge, they actually are beyond their 
depreciable life, so they're pretty ancient. As for 
appropriations and finance to wrestle through, how much money 
do we get altogether and how much of that gets spent on what? 
But I do think that it's important to continue both the 
existing service functions and meet these very pressing capital 
expenditure needs.
    There's a similar problem with the Census. It has been hard 
getting commitments for the appropriation the Census really 
needs for its mission, and that's something I hope we'll have 
further discussion about as well.
    Senator Schatz. I would like to follow up on Senator 
Nelson's question regarding scientific integrity. As you know, 
in 2011, NOAA adopted an explicit Scientific Integrity Policy 
essentially ensuring independence for NOAA scientists. I'm 
satisfied with your answer both in this forum as well as in our 
private conversations, but just so that the record is totally 
clear, do you intend to uphold the 2011 Scientific Integrity 
Policy?
    Mr. Ross. Well, as I've said, I believe that science is 
science, and scientists should perform science. I haven't 
studied the intricate details frankly of that document, so I 
can't make a formal commitment to it. But as to the general 
concept of scientists doing the science, I'm totally in support 
of that.
    Senator Schatz. Thank you. And, finally, on the question of 
trying to facilitate the reaching of our goal with respect to 
international visitors, and there are a lot of members of this 
Committee who care very deeply about tourism, part of the role 
of the Department of Commerce is not just to be a cheerleader 
for that stated goal that the Department of Commerce under 
Secretary Pritzker established, but to serve as a convener 
because there has to be a little bit of wrangling among 
departments. Some of the issues have to do with the Department 
of Transportation and their throughput capacity and certainly 
the Department of Homeland Security and Customs and Border 
Protection.
    So can we have your commitment to continue the leadership 
of Secretary Pritzker in terms of convening the agencies and 
working with the White House and making sure that as we deal 
with all of our security and homeland security concerns, that 
commerce and tourism and those national policy objectives have 
a seat at the table?
    Mr. Ross. Well, I know Secretary-designate Chao quite well 
from some of her former incarnations, and I look forward to 
working with her on stimulating tourism.
    Senator Schatz. Thank you.
    The Chairman. Thank you, Senator Schatz.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Ranking Member Nelson, as well as Mr. Ross, for 
being here this morning. Thank you to your family for being 
here. I'm all the way over here at the end, so it's--yes, I 
know. Elaine Chao was here last week, and I think she actually 
thought I was in the audience sitting over here. So thanks for 
your willingness to serve the country and I appreciate the time 
we've been able to spend together in my office.
    We talked a little bit about trade and the importance of 
trade in Colorado, $9 billion worth of exports from Colorado, 
about half of which, $4.5 billion worth of goods, annually are 
sent to nations in Asia, and half of our state's exports go to 
Asian nations. Given the position of the new administration on 
the Trans-Pacific Partnership, how do we make sure that we are 
increasing American exports abroad? And just as importantly, 
what areas, what markets, do you see as the most lucrative 
opportunities for the U.S. in the next 4 years?
    Mr. Ross. Well, that's obviously a very complex question, 
and we discussed it some in your office. The things we're the 
best at in many ways are the technologically advanced things, 
and I think more research and development, more encouragement 
of technological breakthrough, is clearly an important thing. 
But at the same time, we need to protect our existing 
industries because they really are very much labor-intensive.
    And I think we also are going to have to cope with the 
challenge that's combined with the opportunity of some of the 
technological advances. For example, driverless cars are 
probably a very good thing, they seem to be, in any event, an 
inevitable thing, but that presumably will also lead to 
driverless trucks. Well, there is something like 3 million 
American adults who depend on over-the-road trucks for their 
livelihood, and it's a pretty good livelihood. And then you 
also have the shorter trip drivers as well.
    So I think what we have to do is to figure out how to make 
sure we get the benefits of the improved technology and yet 
cope with the dislocation that it inevitably will produce in 
certain of the industries. So I think that's going to be a real 
balancing act.
    Senator Gardner. Thank you. In my opportunities to meet 
with leaders from around the globe, it's very important that we 
make sure that we continue to be a leader in trade and exports 
and commerce because as nations look to other nations for 
leadership, as they look to economic opportunity, we need to 
make sure that international norms are set on standards that we 
believe are best for the world and economic opportunity. We 
should not give other nations a chance to take over U.S. 
leadership, which is very important because they're relying on 
the United States to continue to lead.
    I want to thank you for your opening statement. Senator 
Rubio and I last year worked on and will continue to work this 
year on evaluation of Federal spectrum holdings to make sure 
that we understand the opportunity cost that having that 
spectrum held and not utilized means to this country and to the 
government. So thank you very much for that commitment to the 
evaluation.
    The National Institute of Standards and Technology has a 
laboratory in Boulder, Colorado, a major campus. Of course, one 
of the key areas of work that NIST at Boulder pursues is cyber 
areas. It's a nonregulatory approach that NIST continues, and 
that's their mission, but they do a lot of work when it comes 
to cyber. I'm very concerned about our construct in government, 
the way the Congress works, the way our Executive Branch works, 
when it comes to understanding cyber, being fully capable of 
implementing ideas that will protect both our private sector as 
well as national security interests.
    And so will the Trump administration--will you at Commerce 
continue to--can you commit to preserving the non-regulatory 
status of NIST to ensure that this work with the private sector 
on cyber can continue?
    Mr. Ross. Well, I think cyber, if nothing else, was a big 
enough issue in the campaign that everybody is very sensitized 
to it for very local reasons. But it is going to be an 
increasing issue from a whole variety of directions. And, 
again, it's one of these that's very complicated. You don't 
want to compromise the privacy side of things; on the other 
hand, you need real-world protection against people who intend 
to do us harm, economic harm or military harm. So I think 
that's a difficult thing that will have to be balanced, and it 
wouldn't surprise me at all if that will be the kind of thing 
that will come before the Congress over and over again.
    Senator Gardner. Thank you. In 2015, there were estimates 
in 2015 that up to $2 billion a day was lost in economic 
productivity due to the West Coast ports slowdown. Labor 
agreements for workers on the West Coast and East Coast ports 
are scheduled for near simultaneous expiration in both 2018 and 
2019 respectively, excuse me, 2019 for West Coast, 2018 for 
East Coast.
    In the last Congress, I introduced the Ports Act, which 
would have provided Governors with the flexibility to address 
slowdowns and strikes at our Nation's ports to reduce the 
damage of such catastrophes.
    Given how these dates are quickly approaching, and future 
labor negotiations are moving, how do you plan to avoid similar 
disruptions at our ports? And will you commit to making sure we 
have a report on the economic impact it would have?
    Mr. Ross. Well, that, thank you, is a very good and very 
complex question. We have tried very hard in our commercial 
activities to avoid strikes and showdown--slowdowns and things 
of that sort. I think in general, those are the failure of 
negotiation, and I think, therefore, the first thing is to try 
to figure out, how can there be a better process for 
negotiation so that we come to a resolution without this sort 
of showdown at the OK Corral? I think that's number one, 
preventive medicine.
    Number two, that is clearly much more in the province of 
the Labor Secretary than it would be Commerce. We will be 
interested observers, and given that we've had a history with 
successful work with Labor, to the degree that they want, I 
will be glad to give my thoughts on how to try to help.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner. That is an 
important issue because it affects the supply chain. Everybody 
was very much impacted by that incident a year ago.
    Senator Peters is up next.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And, Mr. Ross, welcome to the Committee. I appreciate the 
time that we spent in the office together talking about a 
variety of issues, and certainly one thing that I was very 
pleased to hear was your extensive knowledge of Michigan and 
the industry there from the work that you did with the steel 
industry as well as automotive sector and other industries 
there.
    And I am particularly pleased as well with the comments 
that you made in regard to a question from one of my colleagues 
here related to TPP and the impact that the TPP would have on 
the auto industry, a very negative impact, in particular, with 
the suppliers in that industry. It would have had a devastating 
impact on jobs. And it's not about protecting the auto 
industry; this is just about having fair rules where we treat 
the auto industry and the workers in America fairly with 
others. And we know we can outcompete anybody as long as the 
rules are fair, and I appreciate your stance on that and your 
comments.
    And along those lines, I wanted to address something that 
is critically important, which is enforcement. If we're dealing 
with any kind of rules, whether they're trade deals or the 
legal authority under the WTO, certainly the administration 
will play a vital role. In fact, you, if confirmed as the 
Secretary of Commerce, will play a vital role in enforcing 
those rules.
    And under current law, the Secretary can self-initiate 
anti-dumping and countervailing duty investigations. However, 
the use of this tool under previous administrations, I'm sad to 
say, has been virtually non-existent. In fact, I think the last 
time was in the 1990s. It's been a long time since the Commerce 
Department has self-initiated these types of investigations.
    And normally we only have investigations that are initiated 
after a formal complaint by an industry. You know firsthand 
about that from your work in the steel industry. And that's a 
very imperfect process. Usually, it's large companies with 
high-priced lobbyists that get noticed and get action in the 
Commerce Department, but if you're dealing with small-and mid-
sized businesses in Michigan and other states around the 
country, they don't have the resources, and the impact of 
unfair trade practices often goes unnoticed and unfortunately 
not investigated.
    If confirmed, will you be more aggressive and commit to 
using your legal authority as Secretary to enforce the rules 
protecting against unfair trade practices and self-initiate 
anti-dumping and countervailing duty investigations?
    Mr. Ross. As we discussed, Senator, when I was in your 
office, I'm an activist, and I think that that tool of self-
initiation is a very useful one for several reasons. One is the 
one you mentioned. Industries that have a lot of small 
companies, it's very hard for them to get the data together, to 
get the funding together, and worst of all, it takes a very 
long time for them to initiate a case.
    I think the duration of these cases has got to be 
shortened, and anything we can do to shorten it at the front 
end would be good. Self-initiation is a very good tool for 
that, and I think it's a good tool in another regard in that, 
to me, part of any negotiation is the psychology of the 
participants. And to the degree that we show them we're willing 
to self-initiate, that's a more aggressive stand on cheating 
than perhaps has been exemplified before.
    So I think it's important both from its actual curative 
effect, its preventive effect, and the psychological effect on 
the cheaters.
    Senator Peters. Well, I appreciate that answer, Mr. Ross. 
And I guess the pushback that we have had from previous 
administrations as we have attempted to do this is that they 
have said that they lack some of the resources necessary. 
That's why I've led efforts to fund the Interagency Center on 
Trade Implementation, Monitoring, and Enforcement, which is a 
mouthful, but what they do is assist our efforts in trying to 
get the self-initiated enforcements. So I would hope that I can 
enlist your support with bipartisan support here in Congress to 
provide resources necessary to do that critical function.
    Mr. Ross. We would welcome more resources.
    Senator Peters. Great. Great. Final question, as my time is 
expiring here: The issue of outsourcing is a critical concern 
as we continue to see American jobs go overseas. And I know you 
are committed to trying to stem that tide and bring jobs back 
and keep the jobs that we have. But what I have found is that 
it's often difficult to get information as to what jobs are 
actually being outsourced, where jobs are being created. 
Companies and others will report that they are hiring workers, 
but we don't know where those workers necessarily are. We find 
that the information regarding outsourcing is opaque, 
incomplete, and often entirely inaccessible. Will you, as 
Commerce Secretary, commit to work with Congress to develop 
some new corporate transparency measures that will allow us to 
have that information so that we can make sure our policies are 
actively addressing the problem of outsourcing?
    Mr. Ross. Well, I have a very heartfelt saying in 
management that anything you can't measure you can't manage. So 
that's one of the things that's good about the Commerce 
Department, it has all kinds of measurement activities. And I 
was not aware that this was a particular problem, but certainly 
understanding the parameters of problems helps you figure out 
how to deal with them. So I look forward to further discussions 
with you.
    Senator Peters. Great. Thank you.
    The Chairman. Thank you, Senator Peters.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Welcome, Mr. Ross. It's nice to meet your wife as well. And 
I want to thank you for taking the time to meet with me, and I 
thought we had a good conversation.
    I want to follow up on some of the comments that you've 
made just to put it on the record. I suspect, based on our 
conversation, I know where you stand on these, but when it 
comes to tourism in Nevada, it's obviously a very important 
issue. Most people don't realize, but just in 2016 alone, there 
were approximately 43 million visitors to Southern Nevada. This 
injects $45 billion into our economy, and actually provides 
good-paying jobs for 400,000 Nevadans.
    So something that's very important for Nevada is Brand USA. 
And we've talked about this, and I just want a commitment. Are 
you committed to supporting Brand USA as it fits into your 
strategy to promote travel and tourism?
    Mr. Ross. Everything I've heard about Brand USA is that 
it's been positive and that it's been helpful. So in the 
absence of some sort of contrary information, it sounds to me 
like a pretty good idea.
    Senator Cortez Masto. Great. Thank you. Along those lines, 
the Survey of International Air Travelers is a primary research 
program which gathers statistical data about air passenger 
travelers in the U.S. overseas, and U.S.-Mexican air markets. 
And the Survey data provides information on passenger trip 
planning, travel patterns, demographics, and spending. It is a 
survey that is used to analyze visitor segments, and it is used 
by the Convention Authority in Southern Nevada and all industry 
groups, and they use the data directly as part of their 
marketing plans. Will you commit to expanding the scope and 
size of the Survey of International Air Travelers so that 
industry can better target their marketing campaigns and 
attract more tourists from around the world?
    Mr. Ross. As I've said, Senator, I'm in favor of the idea 
that you can't manage things that you don't measure, so we need 
measurement of those kinds of data.
    Senator Cortez Masto. Thank you. And I appreciate that 
because I'm a big proponent of data analytics, and I don't 
think we do enough of that particularly in government.
    A part of your role will be overseeing the Minority 
Business Development Agency. I think the small businesses in 
the country, this country, are the backbone of our economy, and 
particularly in Nevada there are over 230,000 small businesses, 
many of them owned by Latinos, Asians, and African Americans.
    One thing I find after talking to small businesses is the 
lack of access to capital, particularly access to capital for 
small, minority-owned businesses. We haven't had a discussion 
on this. I'm questioning your thoughts on promoting and 
continuing to support minority-owned businesses, not only in 
Nevada, but across this country.
    Mr. Ross. I've been a supporter of minority-owned 
businesses. In fact, at the International Automotive Group, we 
have had a number of joint ventures with minority-owned 
businesses in the auto parts space, and I think they can be 
done very, very well, and they help develop leadership within 
those communities so that they can go on and do independent 
businesses on their own. And I think the automotive industry 
has been relatively a leader in fostering minority business 
development.
    Senator Cortez Masto. So can I get your commitment? I know 
the Minority Business Development Agency has business centers 
around the country. I think they're underfunded. I think they 
need more resources to work with our small businesses. Will you 
commit to looking at that funding and continuing to support 
those centers?
    Mr. Ross. Well, as I explained to you, I very much like the 
idea. I'm not intimate enough with the details of it yet to 
know exactly what it needs, but the idea I certainly support.
    Senator Cortez Masto. Thank you. And then, finally, we've 
talked about this as well. Many major U.S. corporations are 
taking a public stance in supporting immigration reform efforts 
because we know that passing immigration reform will contribute 
to our economy. And I know in our private meeting we talked 
about this, and you said you were open to anything that will 
stimulate the economy. That is our job at Commerce.
    So a question for you is, can you commit today to 
supporting a comprehensive immigration reform package with a 
pathway to citizenship for undocumented immigrants that would 
be positive for the economy and stimulate job growth?
    Mr. Ross. Well, as I said when we were together, anything 
that stimulates the economy in truth, I would be in favor of.
    Senator Cortez Masto. Thank you. Mr. Ross, thank you so 
much. And again congratulations on your nomination.
    Mr. Ross. Thank you very much, Senator.
    The Chairman. Thank you, Senator Cortez Masto.
    Next up we have Senator Johnson.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Ross, I'm over here where Senator Gardner was. First of 
all, thank you for being willing to leave your life in the 
private sector and serve our Nation here. I truly appreciate 
that.
    To me, our number one priority has to be to grow our 
economy, to make sure that we realize the full potential of 
this marvel we call the American economy. What do you believe 
is the growth potential of the American economy? Do you have 
kind of a figure in your head?
    Mr. Ross. Well, I think we can certainly get north of 3 
percent growth if we do all the elements of the President's 
program.
    Senator Johnson. By the way, that has been the average 
since the Great Depression, about 3.2 percent to the American 
economy. So I would hope that's a minimum goal.
    You know, from my standpoint, there are four main reasons 
we're not achieving that full potential: overregulation; 
completely uncompetitive tax system; we're not using our energy 
resources; and the fourth I often don't list because there are 
so many lawyers here, tort reform.
    Can you talk about, from your perspective, maybe you've got 
other ones, I know you're talking about expanding exports, but 
what do you think are the primary reasons, and kind of expand 
on the answer if you would, that we're not realizing the full 
potential of our economy?
    Mr. Ross. Well, I wrote an editorial that outlined the 
four, what I think are the four, or five key planks: regulatory 
reform, not just wildly abolishing all regulation, but doing 
cost-benefit analysis and having sensible regulation; second, 
improving our trade balance, particularly by stimulating 
exports; third, having an energy policy that takes advantage of 
our natural resources and keeps energy prices low; fourth, an 
infrastructure program that's a sensible one that leads to more 
efficiency in the economy and a better capability for dealing 
with the new technologies as they come through. I think if we 
do all those and we have a sensible tax system, I think the 
economy will do very, very well.
    Senator Johnson. Talk about your plans or what you would 
think would be best suited toward stimulating exports.
    Mr. Ross. Well, I think the first thing we have to do is to 
deal with the unfair both tariff and non-tariff trade barriers 
that other countries impose on us. It's a little weird that we 
have very low tariffs, and that China has very high tariffs. 
That seems to me to be a bit of an imbalance. And it's one 
thing to talk about free trade; we would like to have our 
trading partners also practice free trade and do it in a more 
balanced manner than has been done at present.
    So I think a lot of what we need is elimination of 
inappropriate and, in most cases, improper trade barriers to 
us. I think American ingenuity, American management, and 
American labor can compete very, very effectively if it's a 
fair fight. In a lot of cases, it's not a fair fight.
    Senator Johnson. Talk about the non-tariff trade barriers. 
You talked earlier about we have to adjudicate those claims in 
a far more rapid fashion. But specifically talk, prioritize and 
rank, how harmful the non-tariff trade barriers are.
    Mr. Ross. Well, take, for example, automobiles. Some 
countries with whom we've had treaties agree to lower the 
tariff, but then they'll suddenly say, ``We have a different 
environmental standard for cars than what you have, and, ha-ha, 
your cars don't qualify as environmentally correct in our 
country.'' I can't imagine that there is anything that our 
environmental requirements have missed that other countries 
have found. So it's clearly just a device to make it more 
difficult for American companies to have to tailor-make cars 
for that market. So that's one example.
    The famous debates over mad cow disease I think are another 
very glaring example. I eat quite a lot of beef, and as far as 
I know, I don't have mad cow disease, although some people 
think applying to be Secretary of Commerce is a sign that 
perhaps I do.
    [Laughter.]
    Mr. Ross. But leaving that aside, it's hard for me to 
imagine that there is any legitimacy to saying that our beef 
shouldn't be exported to wherever. If it's good enough for 
Americans to eat, it ought to be good enough for foreigners to 
eat. So I think those are a couple of glaring examples.
    Other ones are inordinate delays at the ports for undue 
inspections delaying products getting in, just harassing the 
export process in general. There are myriad, myriad ways, and 
as you can gather, I'm quite familiar with a lot of the tactics 
because I've been a personal victim of them.
    Senator Johnson. So your approach would be to simply target 
those abuses.
    Mr. Ross. Yes, sir.
    Senator Johnson. OK. Thank you, Mr. Ross.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Johnson.
    Next up we have Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair.
    And, Mr. Ross, congratulations on your nomination.
    Mr. Ross. Thank you, Senator.
    Senator Hassan. And I'm sorry, we have two hearings going 
on at the same time, so we're back and forth. And I wanted to 
thank you again for coming to my office and meeting with me.
    I wanted to touch on just about three issues. The first is 
small business. New Hampshire has been rated the best state for 
business friendliness in the country, and many of the 
businesses in New Hampshire are small businesses. In fact, the 
majority of them are.
    During our meeting, you emphasized that one of the 
Department of Commerce's main roles in finding ways to help 
small businesses is to help small businesses find ways to grow 
and be able to export their products. In the most recent 
monthly report from the Export-Import Bank, New Hampshire 
businesses and small businesses financed almost $800,000 in 
exports from New Hampshire.
    How will you coordinate and work with other departments and 
administrations, such as the Small Business Administration and 
the EXIM Bank, through existing or new collaborative programs 
to achieve these goals?
    Mr. Ross. Well, I believe that we need some mechanism that 
helps finance exports. All the other countries around the world 
have one. I know there have been some individual criticisms of 
various aspects of EXIM, but I think the idea of some sort of 
financing tool, particularly for small businesses, is really 
important. If you're a little manufacturer somewhere in the 
Heartland and you've never exported, just trying to figure out, 
``How do you get letters of credit so that you can really do 
the business?'' can be daunting.
    And I think that part of the Department of Commerce, with 
its field offices, needs to be even a better outreach to the 
small business community to say, ``Yes, we know it's a big 
challenge. We're here to help you. We'll help you figure out 
the letter of credit.'' Because however good their product is, 
if they're not able to work out things like letter of credit, 
they're not going to export.
    And I think it's tragic that only a couple percentage 
points of all American businesses ever export anything. That 
can't be the best solution and it can't be the right solution.
    Senator Hassan. Thank you. I wanted to talk a little bit 
about what the Department and we can all do to help innovation-
based companies. In Manchester, New Hampshire, we have 
businesses like Scribe Software and Retrieve Technologies, 
SilverTech, and Dyn, and it's really helping position our 
largest city as one of the top emerging areas for tech jobs in 
the country.
    So how can the Department of Commerce on its own and with 
other organizations support innovation-based new and young 
businesses and really help them grow?
    Mr. Ross. Well, I think we need to outreach. There are also 
private sector enterprises, like the National Association of 
Manufacturers, which has some 14,000 mostly smaller companies 
as members. I'm very grateful that they are one of the groups 
that has endorsed my nomination for Commerce, and I intend to 
work very closely with them because I think they have very many 
of the similar objectives to what you and I discussed in your 
office.
    Senator Hassan. Great.
    Mr. Ross. And there are other groups similarly. The state 
development agencies can also be useful things because more and 
more states have export development agencies, not just those to 
attract factories to their locales.
    Senator Hassan. Great. Thank you. Third, and I know a 
couple of the other Senators have touched on the issue of 
fisheries this morning. I just wanted to touch on a New 
Hampshire-specific issue.
    The work that NOAA does is so important, and I look forward 
to working together with them in the future. It provides 
essential and sometimes life-saving information and services, 
weather forecasts, severe storm warnings, climate monitoring.
    But in New Hampshire, we have a particular issue. We have 
almost, if not exclusively, a small boat fishing industry. The 
industry is more sensitive to changes in the fee structures 
prescribed by NOAA than many. And in the new rules, NOAA has 
said that fishermen will have to pay for at-sea monitors, which 
in New Hampshire is costing small boat fishermen as much as 
$700 a day, and it's just not sustainable.
    So in 2016, NOAA agreed to pay 85 percent of that cost, but 
in 2017, unless we do something about it, that cost is going to 
shift back to our fishers unless another agreement is reached. 
So how would you approach negotiations with small businesses 
and industries in this and other situations similar to this?
    Mr. Ross. Well, as we discussed, it's really a question of, 
how can we set up the least expensive mechanism for assuring 
that people are adhering to the rules?
    Senator Hassan. Yes.
    Mr. Ross. And usually putting in technological devices is a 
net saver of costs. It sounds in this particular case like it's 
the reverse. So I would look forward to researching that and 
trying to figure out, how do we accomplish the necessary 
objective of enforcement without putting undue hardship on the 
small boat fishermen?
    Senator Hassan. Thank you very much. And again thank you 
for being here this morning.
    The Chairman. Thank you, Senator Hassan.
    Senator Udall has returned, he's up next. And then I have 
Senator Lee.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Mr. Chairman.
    And, Mr. Ross, I want to welcome you today and thank you 
for your willingness to serve. I appreciated meeting with you 
in my office earlier this month. And you have an extensive 
business background that spans numerous industries. This 
experience should prove useful to you at the Department of 
Commerce, where you will lead a diverse collection of agencies. 
Commerce does everything from forecasting the weather to 
managing Federal use of wireless spectrum. But the common 
thread is promoting job creation, economic development, 
sustainable development, and improved standards of living for 
Americans. So I certainly want to work with you to ensure that 
the Commerce Department meets those goals in my home state of 
New Mexico.
    I would like to follow up today on some of what we've 
discussed in my office earlier this month.
    First, Mr. Ross, you are reportedly going to be taking a 
big role on in renegotiating trade agreements in international 
trade policy. The President-elect and his family have a wide 
variety of assets around the world that other countries could 
seek to use as leverage with the U.S. in negotiations.
    If confirmed as Secretary of Commerce, you are committed to 
divesting your assets, a major undertaking. Would it make your 
job negotiating international trade issues easier if the 
President-elect did as you are doing and divested his financial 
holdings to avoid any complications?
    Mr. Ross. I made the decision that I did because I thought 
and agreed with the OGE that this was the right thing for me to 
do. As I understand it, the rules are different as they apply 
to the President, and I think it's for him to judge what is the 
appropriate disposition or non-disposition of his assets. I'm 
not intimate enough with the details of his holdings to even 
have a clear understanding of just how extensive they are, 
although I know they are quite huge. So I think that's really a 
personal decision that he'll have to make.
    Senator Udall. Mr. Ross, but you understand that his 
businesses are in many countries; the Trump Organization is all 
over the world, and this could raise some real conflicts for 
you in terms of doing your job. Will you commit that you will 
notify this Committee if another country offers incentives or 
threatens consequences to the Trump family or Trump 
Organization's assets in the course of your international trade 
negotiations and efforts to promote exports?
    Mr. Ross. Well, anything that interferes with my job is 
something that I will have very little tolerance for if I'm 
confirmed. That I can assure you of.
    Senator Udall. And will you commit to report to this 
Committee--that's kind of a yes-or-no answer--if another 
country offers incentives or threatens consequences to the 
Trump family or the Trump organization assets in the course of 
doing your job and working on trade?
    Mr. Ross. Well, certainly if they threaten me, I would be 
able to make people aware of it, but the hypothetical that 
you're posing might very well be something I'm not even aware 
of. So that would make it very difficult to inform anyone of 
anything.
    Senator Udall. Well, I'm talking about if in the course of 
doing your job----
    Mr. Ross. Right.
    Senator Udall.--and working on trade negotiations somebody 
comes to you with either a threat or incentive that involves 
the Trump Organization, would you let us at this Committee know 
that that was happening?
    Mr. Ross. Well, I'll tell you two things. I know the 
President-elect quite well, and I think people who threaten him 
or offer inappropriate things will find he doesn't take that 
very lightly. There will be a very strong response on his part, 
quite independently of anything I would do.
    Senator Udall. Well, I'm urging you to try to let us know 
if that situation comes up because I think it's very important 
in terms of the objectives of your Department to make sure we 
keep those conflicts out.
    Now, Mr. Ross, Democrats understand a lot of the 
frustration about trade that President-elect Trump campaigned 
on. During my time in Congress, I've supported some trade 
agreements and opposed others that I believed hurt American 
workers and chipped away at environmental protections. For 
example, I voted against permanent normalized trade relations 
with China and more recently came out in opposition to the 
Trans-Pacific Partnership.
    My question really is, will the Trump administration use 
TPA to pass trade deals without amendment from Congress, which 
really cuts our constituents out of this and cuts Congress out?
    Mr. Ross. Well, that is certainly a decision the President 
would have to make. If confirmed, I don't believe I would have 
the unilateral power to make that decision. That's something 
that would be at the Presidential level, and I'm sure he would 
take into account whatever considerations he could under the 
prevailing facts at that particular point in time.
    Senator Udall. Do you personally support the use of TPA for 
trade deals?
    Mr. Ross. I think you need to assure your counterparty that 
there's a reasonable and quick process for solving the 
negotiations. So far, TPA is the law of the land, and until 
there is some specific alternative proposed, I don't think 
there is any real alternative to it.
    Senator Udall. Thank you for your courtesy.
    Sorry, Mr. Chairman, for running over a little bit there.
    The Chairman. Thank you, Senator Udall.
    Senator Lee is up next.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thank you, Chairman Thune.
    And thank you, Mr. Ross, for being here today. I look 
forward to our conversation. I've enjoyed hearing your 
responses to questions asked by my colleagues. And I enjoyed 
meeting with you last week as well.
    Throughout the 2016 election cycle, we heard a lot from 
President Trump about our country's approach to international 
trade and about the fact that international trade generally, 
and, in particular, international trade agreements, have 
culminated in things that Mr. Trump insisted were negative 
consequences to American workers and to the economy.
    He stated that he would have the Secretary of Commerce, the 
person holding the seat that we're now considering you for and 
that you will hold if you're confirmed, along with the U.S. 
Trade Representative to, quote, identify all foreign trading 
abuses that unfairly impact American workers and direct them to 
use every tool under American and international law to end 
those abuses immediately.
    I certainly believe that our country should not accept any 
trade deal or any practice under any trade deal that unfairly 
harms Americans. And for similar reasons, I also think that we 
should be cognizant of the fact that any action we take in 
retaliation, whether through retaliatory tariffs or otherwise, 
can also bring about a set of circumstances that could be 
adverse to the American people, some unpleasant consequences. 
There are some risks that have to be taken into account where 
you have to wonder whether in some cases the medicine might be 
worse than the underlying ailment for which the medicine was 
administered.
    So I would ask you, if you're confirmed to this position, 
as you're considering in that position a particular trade deal 
or a particular action to be taken relative to trade, will you 
take into account the potential retaliation on American 
consumers and American supply chains what spillover 
consequences these might have and take those into account in 
making the decision?
    Mr. Ross. Well, surely. Having been part of those supply 
chains, I have some fair understanding as to how they work and 
how they're essential.
    But on the topic of retaliation, my mindset will be that of 
a world's largest customer dealing with his vendors. I view 
these other countries with whom we have trade deficits as our 
vendors. And while you need to treat the vendors with respect, 
they must also treat you as their largest customer, both with 
respect and, more importantly, playing by the rules of the 
road. And to the degree they don't, it must be enforcement 
because we are a country of the rule of law. Some of these 
other countries are instead the law of the ruler. That's an 
asymmetry that permeates all kinds of sectors of their 
economies and ours, and we need to deal with that.
    Senator Lee. Thank you. I appreciate your commitment to 
that, to the rule of law. It absolutely is important. It's been 
a key part of why our economy has been so successful and a key 
part of what makes us competitive in the global marketplace. 
And I appreciate your willingness to consider those potential 
spillover effects.
    You know, as you know, Article I, Section 8, the very first 
clause of Article I, Section 8, where most of Commerce's powers 
are outlined, gives Congress the power to set tax rates, among 
other things, to lay and collect taxes, duties, imposts, and 
excises, and the third clause of that same section also gives 
Commerce the power--Congress the power to regulate Commerce 
with foreign nations in between the states.
    Do you believe that Congress should have a role in 
determining trade policy? And will you commit to work with us 
and to consult with us before taking any action on your own?
    Mr. Ross. Well, I certainly believe it has to be an 
interactive process between Congress and each of the 
departments. And I see no reason that I would deviate from that 
practice.
    Senator Lee. In the final seconds I have, I just want to 
note I appreciate your willingness to look at spectrum, to take 
a look at the spectrum that the Federal Government currently 
holds and to look at areas where we might be able to release 
some of that federally held spectrum that will help us address 
some real significant needs that we have in rural states and 
states like mine, like the state of Utah, where we could 
benefit from it.
    I see my time is expired. Thank you, Mr. Ross.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lee. And ditto on the 
spectrum issue.
    Next up is Senator Young.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Thank you, Chairman.
    And, Mr. Ross, thanks for your interest in serving here in 
this capacity. I enjoyed our visit some days ago.
    And I would like to begin by asking you a question about 
the steel industry. In my state of Indiana, the steel industry 
employs directly roughly 25,000 Hoosiers, and I routinely hear 
from those individuals, their families, members of their 
community, that they have concerns about the market-distorting 
practices from the Chinese government, something that may have 
come up earlier today in the midst of my other two confirmation 
hearings.
    This overcapacity issue that threatens numerous Hoosier 
manufacturing jobs is one that has really come to the fore over 
the last 8 years. And the incoming administration has routinely 
pledged to fight very hard on behalf of American workers. 
They've indicated the Department of Commerce would have an 
expanded role in advocating on behalf of fair trade practices.
    Could you please elaborate on your plans to push back 
against unfair trade practices from China and other steel-
dumping countries?
    Mr. Ross. Yes. I'm glad you point out that it isn't just 
China, and part of my feeling is that China is the largest but 
by no means the only problem in that regard. There is a global 
problem of overcapacity, but it's mainly focused in China.
    And an interesting fact in terms of the question of 
government subsidy, there are some of the state-owned 
enterprises, something like a third of them, have never made a 
profit, they keep--they're being kept alive by the state-owned 
banks. To me, that looks and feels and tastes a lot like 
artificial subsidy.
    So I think we need to be very sophisticated in the way we 
look at the forms of subsidy. It isn't just things like VAT and 
it isn't just things like that, it's all kinds of intricate 
corporate relationships, many of which have not really been 
attacked before. I think we will be very scrupulous if I'm 
confirmed at dealing with those issues.
    Senator Young. Well, that's very encouraging. We don't want 
to jump to conclusions too quickly. One is very quick when 
prices rise, to charge monopolistic pricing; when prices are 
the same level roughly, they charge parallel pricing; and when 
a competitor has undercut us, we often say that dumping is 
going on. So we want to make certain that we are sure that's 
what's occurring, but at the same time, we want to act, and we 
want to act boldly. And I hear your commitment to do that here 
today.
    Indiana is home to many auto manufacturers that have global 
supply chains, something that was just invoked. For example, 
GM's assembly in Roanoke employs nearly 4,000 Hoosiers. Subaru 
in Lafayette employs 5,000; Toyota in Princeton, roughly 4,500 
Hoosiers. Then we have a whole distinct recreational vehicle 
industry up near Elkhart.
    So these jobs provide Hoosiers with a secure middle-class 
income at a time when a lot of people are anxious about their 
ability to land those jobs and to keep them. Can you reassure 
the tens of thousands of Hoosiers, autoworkers and others, 
whose jobs rely on free trade, that their livelihoods will not 
be put at risk by restrictive tariffs which might interrupt 
these global supply chains?
    Mr. Ross. Well, as I've said quite often publicly, I think 
the best way to deal with the trade deficit is increased 
exports. I think that's the A number 1 priority. B, number two 
is to get the Toyotas and other companies like that to build 
their factories here so that workers do have not only continued 
employment but enhanced employment. And I think with the right 
tax policies, regulatory policies, and other policies, we can 
accomplish that.
    Senator Young. But it's your goal with respect to tariff 
policies that you consult with others in the Administration----
    Mr. Ross. Well, I----
    Senator Young.--for there to be no interruption to those 
Hoosiers, tens of thousands, who are currently employed in the 
auto industry and other industries who reply upon global supply 
chains.
    Mr. Ross. Well, I well understand that, having been part of 
it----
    Senator Young. Yes.
    Mr. Ross.--I very well understand it. Tariffs do have a 
useful role. They do have a useful role in correcting 
inappropriate practices. They also do have a useful role as a 
negotiating tool. I'm keenly aware of Smoot-Hawley and the 
effect that it had on trade in general and our trade in 
particular, and if there is nothing else, we can learn from 
history that that kind of approach didn't work very well, and 
it didn't work very well then, and it very likely wouldn't work 
very well now.
    Senator Young. I'm encouraged that those historical lessons 
will inform your practices as the next head of the agency. 
Thank you.
    The Chairman. Thank you, Senator Young.
    Senator Duckworth is up next? Are you ready, Senator, or 
would you like us to----

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you, Mr. Chairman. We had some 
microphone issues. There we go.
    Mr. Ross, congratulations on your nomination, and thank you 
so much for visiting with me last week to discuss the issues 
that are so important to Illinois' workers and our economy.
    When we met last week, I think we had common cause in our 
shared conviction that rule breakers should be held 
accountable, and if those rules are set by the international 
trading system, then we should exercise our rights to enforce 
those rules and penalize the rule breakers.
    And we talked at length about the impact illegal steel-
dumping has had on our Nation's economy, and particularly in 
Illinois, where it has contributed to over 2,000 Granite City 
steelworkers getting laid off, through no fault of their own, 
just days after Christmas a couple years ago.
    I've been pushing for stronger enforcements against 
violation of trade laws that make it difficult for American 
manufacturers, including steel, to compete. Will you work with 
me to crack down on currency manipulation?
    Mr. Ross. Yes. I think currency manipulation is just 
another device, another non-tariff barrier, that countries use 
to attack our economy.
    Senator Duckworth. How would the Commerce Department plan 
to make enforcement of trade laws a priority, and here I'm 
talking about timely enforcement, before workers have lost 
their jobs?
    You and I spoke a little bit, and I told you the story of 
U.S. Steel in Illinois, where because of illegal dumping of 
foreign steel, they had to cut down production and lay off all 
of those workers. And the steel company itself that was going 
into bankruptcy had to take on the responsibility of bringing 
the case to the international court system. That is, I feel, an 
unfair burden on these companies that are already suffering 
from the currency manipulation, the dumping of products, by 
competitors. At the same time, their competitors abroad don't 
have to take on that burden. Can you speak a little bit more to 
this process?
    Mr. Ross. Yes. As we discussed, Senator, I like the idea of 
occasionally using self-initiation by the Department of 
Commerce to bring these cases. It will shorten the duration of 
the preparatory time, and if we're also stricter about not 
granting extensions to the perpetrators. Historically, the 
people who have been the dumpers refuse to comply on a timely 
basis with requests for information. I'm not going to look--if 
confirmed, I would not look very kindly on the perpetrators 
deliberately delaying cases by not providing information.
    Senator Duckworth. You had mentioned the potential in our 
meeting for having a special liaison in your office or someone 
who would work to be the point person--and you can correct my 
phrasing--for bringing forth these cases when American industry 
is being unfairly burdened so that it's not on the shoulders of 
U.S. Steel to bring the case to the international court system. 
But they would have someone in Commerce who is already looking 
out and able to be that point person.
    And can you talk about how you would set up that, I don't 
know if it's a person or an office, what the relationship would 
be to you as Secretary?
    Mr. Ross. Right. Well, first of all, we're not going to 
self-initiate every case, we don't have the staffing to do it, 
but I think by picking strategic cases and initiating them, it 
will, A, send a message to the people on the other side that 
we're getting more serious about this; second, it would 
definitely accelerate the process. And, therefore, I'll figure 
out some way, if confirmed, to allocate people power to that 
activity. It will be a much more important activity if I'm 
Secretary of Commerce than it had been historically.
    Senator Duckworth. Thank you. I think for the families of 
those steelworkers, time is of the essence. They're the ones 
who are missing mortgage payments. They're the ones who now 
have to tell their children, ``You can't go back to college 
because we can't afford tuition.'' They're the ones who are 
about to lose their homes. So anything that we can do to speed 
up that process for any of America's industries, not just the 
steelworkers.
    I would like to shift a little bit and talk about the 
Minority Business Development Agency. What new support will you 
give the MBDA to answer the growing call for a larger footprint 
of services so more minority businesses can grow through M&A 
and high-tech opportunities?
    Mr. Ross. Well, I think it's an essential thing because 
those are some of the industries of the future. I think what we 
will need to do is to find people who have the technological 
capabilities. And as you and I discussed, one of the problems 
is our educational system is stinting on STEM--science, 
technology, engineering, and math courses, and we're also 
stinting on vocational training.
    So one of the problems is there is a lack, particularly in 
some of the minority communities, of the capabilities to do 
that. And that's a very serious problem. We can hope to cope 
with some of that with apprenticeship programs. We, as a 
country, are the worst in the OECD on having apprenticeship 
programs. We're also the worst on having vocational training.
    So I think we have to have an overall approach to solving 
the problem of making sure that people are qualified to do the 
technological innovation.
    Senator Duckworth. Thank you. And if there is a second 
round of questions, I will definitely be asking about what you 
are going to do for existing minority-owned businesses today.
    I'm out of time, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Mr. Ross. Well, the entity within Commerce, I have been 
told, has done a pretty good job. I hear reports that people 
are pretty satisfied with what it's been doing, but there is 
always more that you can do to be more aggressive in helping. 
So I will work with the staff of the MBDA to try to figure out 
how we can most sensibly expand those activities.
    The Chairman. Thank you, Senator Duckworth.
    Mr. Ross, I would defer to you on this, in terms of when, 
if you would like a break. We have a number of Members to get 
to in the first round, and a couple who would like to ask 
questions in a second round. So I assume at some point you 
would want to take a break, but I'll--whenever that point 
occurs----
    Mr. Ross. Well, I could go another 10 minutes, sir.
    The Chairman. OK. We have in order right now Senator Booker 
and Senator Fischer.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Mr. Chairman, as always, I would defer to 
Senator Fischer on anything. So if she would like to go first, 
I can go second.
    Senator Fischer. No, no, you were here before me.
    Senator Booker. Thank you very much.
    Mr. Chairman, thank you.
    Mr. Ross, it's very good to see you. Thank you very much 
for taking time to come and sit with me. I know it's an 
expected gesture, but it meant a lot to me, and I appreciated 
our conversation.
    I want to start with the first issue I started with when 
you came to my office, and that's the issue of infrastructure. 
In last week's hearing with the Secretary of Transportation 
nominee Chao, she told me that she believes that President-
elect Trump's $1 trillion infrastructure package will include 
direct Federal spending.
    While I know you and I talked about the totality of the 
picture in my office, the report that you co-authored for the 
campaign really only talked about tax breaks to private 
investors. You and I both know there are many ways to invest in 
projects, especially those, as we discussed, that don't have a 
clear obvious revenue stream, especially those that often 
affect people in rural areas, people in poor communities, 
people that often need critical infrastructure to live healthy 
lives to be able to pursue happiness, life, and their liberty.
    Your report says, rightfully, that there are about 2,000 
additional water systems with excessive levels of 
contamination, including those that serve our schools and day 
care centers. Do you agree that repairing and rebuilding water 
infrastructures in places like Flint and Newark, where 
residents cannot afford utility rates, requires direct Federal 
spending, especially given the consequences to the development 
of children who have elevated blood lead levels, which are not 
lead poisoning, but just elevated blood lead levels, which are 
directly correlated to poor performance in school, a lack of 
executive function. For the most important economic agents in 
our Nation, lead undermines their success and contributions in 
the economic marketplace.
    Mr. Ross. Well, those situations, it seems to me, are a 
matter of public policy, and that will take cooperation between 
the Congress and the President to solve. The infrastructure 
paper that I put out, as you know, Senator, was meant to 
provide another tool, not to be the be-all and end-all. And I 
certainly think there's a role for the Federal Government to 
play, just as there is for state and local government to play, 
in dealing with some of these critical infrastructure needs of 
communities.
    Senator Booker. So I appreciate that. And just succinctly 
then, you support direct spending by government on 
infrastructure.
    Mr. Ross. I think there will be some necessity for it. 
Whether it's in the form of guarantees or direct investment or 
whatever, but it's really for the Congress and the President to 
figure out what should be the quantity of it and what should be 
the nature of the projects.
    Senator Booker. But as a person with vast business 
experience, understanding how balance sheets work, people who 
are concerned about debt to GDP ratio, investments in 
infrastructure, especially in the region that you and I both 
know best, you might call it the greater New York metropolitan 
area, I call it the greater Newark metropolitan area, you 
understand that investing in infrastructure produces two to 
three dollars of return in economic growth, and that could be a 
wise business investment; yes?
    Mr. Ross. Well, as you know, I think the labor content and 
the profit content of infrastructure construction can go a long 
way toward offsetting tax revenues that aren't there because 
labor content is around 44 percent in an infrastructure 
project. So if you allow for the wages on that, then you allow 
for taxes on the profit of the contractor, you have something 
coming back in.
    Senator Booker. I appreciate it could be really 
economically stimulative; correct?
    Mr. Ross. Yes.
    Senator Booker. Yes, sir. And so I also understand that the 
President-elect team is putting together a list of specific 
high-priority infrastructure projects from around the country 
that they plan to seek funding for. What's the criteria for 
those projects to be included on the list? And will that list 
be shared soon? And do you and President-elect Trump plan on 
requesting direct Federal spending for those high-priority 
projects?
    Mr. Ross. Well, I don't think the list has been refined as 
yet. You probably saw in the media recently he has appointed a 
business partner of mine, Richard LeFrak, and Steve Roth to 
head up the infrastructure consulting project. So I think they 
will play a big role in helping him determine what are the key 
projects and how to implement them.
    Senator Booker. And not just because you're a young man 
born and raised in New Jersey, and Mr. LeFrak is obviously from 
New Jersey as well, but you understand that the busiest river 
crossing in all of North America is the Hudson River crossing, 
that that is a chokepoint for our Nation in one of the most 
economically productive regions on the globe, and the fact that 
that infrastructure is failing now. It is critical that we open 
up those arteries like a stint on the Northeast Corridor, where 
more people travel by rail than they travel by air. You 
understand the urgency of that project given the role of this 
region in the GDP of our country.
    Mr. Ross. I surely do, Senator. You and I have probably 
made that crossing more often than anybody else in this room.
    Senator Booker. Thank you, sir. Thank you very much.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator Booker.
    Next up is Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    And thank you, Mr. Ross, for your willingness to serve this 
country in the position of Secretary of Commerce. As you know, 
the Department of Commerce has put a lot of work into thinking 
of ways to encourage the growth of the Internet of Things, and 
I commend the Department for those efforts. Senators Booker and 
Gardner and Schatz and myself, we recently reintroduced the 
Digit Act, which would create a working group convened by the 
Department of Commerce to make recommendations to Congress on 
ways to advance the Internet of Things.
    As Secretary, would you plan to continue the Department's 
efforts to collaborate with both private stakeholders and other 
government entities, including Congress, to encourage the 
development of the Internet of Things?
    Mr. Ross. Well, I think all aspects of Internet need 
encouragement. There are issues, technical issues, privacy 
issues, and such as that that come up, so it's not a simple 
subject. But when President-elect Trump convened the meeting of 
the high-tech CEOs some weeks ago, he was kind enough to have 
me be very much involved with that. And I was impressed with 
how willing the high-tech people were to work with the new 
administration to try to deal with these kinds of issues even 
though, as it happens during the campaign, we would not 
necessarily be the recipient of much support from them.
    So I think that was a very good thing, and some of those 
leaders have followed up with me subsequently with some more 
specific suggestions. So I look forward to a constructive 
relationship in that series of areas.
    Senator Fischer. That's good to hear. As you know, the 
Internet of Things, when we look at all that can be created and 
the innovation that takes place and really the business growth 
for entrepreneurs, it is going to be a huge area for growth in 
this sector and one that I've enjoyed working with on a 
bipartisan basis with Members of this Committee.
    We also discussed during our meeting that agriculture is 
the economic engine of the state of Nebraska. In fact, cattle 
outnumber people four to one in our state. And Nebraskans work 
very hard to produce food, fiber, and fuel for the rest of the 
world.
    In 2015, Nebraska's agricultural exports amounted to 
roughly $6.4 billion, and of that, our delicious Nebraska beef 
exports accounted for about $1 billion. And that is why access 
to global markets is really extremely important to my 
constituents, all the people of Nebraska.
    If confirmed, what approach do you believe that you will 
take to ensure that we have those global market opportunities 
and that they are available for industries like Nebraska, where 
we can continue to grow and develop?
    Mr. Ross. Well, agriculture certainly is one of the 
industries where we remain the world leader in technology and 
in execution. So it's one of the very strong points of our 
economy.
    Second of all, many of the other countries, our trading 
partners, literally cannot feed themselves, so they're going to 
have to buy food from somewhere outside.
    Take China, for example, only 13 percent of that huge land 
mass is arable because so much of it is desert, so much is 
mountainous, so much is just not farmable. So there are some 
structural disadvantages that many of our trading partners have 
where they very much need us. I think that is actually not 
something to be feared in those negotiations; I think it's one 
of our strengths.
    Senator Fischer. Yes, obviously.
    Mr. Ross. And soybeans basically come from two places, U.S. 
and Brazil. I don't know where they would get the soybeans if 
somehow they tried to cut us off.
    Senator Fischer. Right. Thank you. There was some talk 
earlier about federally held spectrum, and the NTIA has a very 
important role in making more spectrum available for commercial 
use, which I think is a laudable goal.
    I am also a Member of the Senate Armed Services Committee, 
and as such, I believe it is also very important that the 
agencies that are responsible for protecting the homeland have 
the spectrum that they need to do that.
    As Secretary of Commerce, how would you approach the task 
of balancing the commercial sector's need for additional 
spectrum while still obviously recognizing but also putting as 
a priority the importance of our national security and making 
sure we have the spectrum needed to defend this country?
    Mr. Ross. Well, for sure, the first--the vast majority of 
the federally occupied spectrum that's unused now is in the 
hands of the Department of Defense. So the first objective has 
to be do no harm. We can't compromise national defense homeland 
security at all, but we also need to be rational, and it can't 
be that there's hoarding. And I think one of the tricky 
problems is, how do you incentivize any department that has the 
spectrum to give it up? I think that's the trickiest part, is 
how to motivate them to do so, and that's something we should 
all give some thought to.
    Senator Fischer. Thank you very much.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Fischer.
    How are we doing, Mr. Ross? Would you like to----
    Mr. Ross. This would be an opportune moment.
    The Chairman. All right. Good. Well, let's take a quick 10 
minutes and reconvene as quickly as possible so we can keep 
plowing on. So thank you. We will briefly recess.
    Mr. Ross. Thank you, Chairman.
    [Recess.]
    The Chairman. All right. We're back. We will pick up where 
we left off and start with Senator Cruz for his questions.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman.
    Mr. Ross, congratulations to you and your family on this 
nomination. I think you're going to do a terrific job, and I 
look forward to this Committee working closely with you.
    I'll tell you one of the things I'm most excited about. You 
and I had an opportunity to visit at length, and your 
commitment to regulatory reform, to working to reduce the 
burdens of Washington on small businesses and job creators, I 
think is critically important, and I think it is shared by 
Cabinet appointees throughout this administration, and that is 
one aspect that is going to have among the most dramatic 
impacts on bringing back jobs, expanding the number of high-
paying jobs, and raising wages across the country, and so I 
commend you for that.
    I want to talk about a number of specific areas. I want to 
start with addressing spectrum, which, as you know, has been a 
long time interest of this Committee. And the demand for 
spectrum continues growing at remarkable levels. Indeed, U.S. 
mobile data doubled usage from 2012 to 2013, and it's projected 
to increase by 650 percent by 2018.
    And spectrum is always scarce, but that's exacerbated by 
the fact that the Federal Government owns or shares roughly 
half of the spectrum, and that presents both a challenge and an 
opportunity. It is a challenge in that government agencies have 
been notoriously reluctant to give up or share any of the 
spectrum that they have control of. It is an opportunity in 
that it provides the potential for billions of dollars of 
revenue to the Federal Government while at the same time 
opening up new spectrum that can create millions of high-paying 
jobs and increase wages across the country.
    So I wanted to ask you, I think there is room for a lot of 
creative policymaking working with your fellow Cabinet members 
who have control of spectrum to find a way to incentivize those 
agencies to work to make more spectrum available for the public 
and have it be a win-win all around. I wanted to ask you to 
comment on that, and, in particular, for your commitment to 
work with me and work with this Committee to explore 
significantly increasing the bandwidth and spectrum that's 
available to the public and the revenue accordingly that would 
be available to the Federal Government.
    You need to turn your microphone on, sir.
    Mr. Ross. I think it's absolutely essential, Senator, that 
we do that. I think the tricky part is the one that you and I 
discussed at some length, which is, how do you incentivize 
other agencies to give up the spectrum that perhaps they don't 
really need? I think there is a natural tendency for everyone 
to want to keep on to things in case they need it.
    So I think the tricky thing, which probably would involve 
public policy questions for the Congress, would be, how do you 
provide some sort of an incentive? If there is something that 
Commerce itself can do, if confirmed, I will do my best to put 
that into effect, but I don't see anything immediately obvious 
as a solution that Congress itself could do.
    Senator Cruz. Well, I look forward to our working together 
and to solve that together creatively.
    Let me shift to a different topic, which is there has been 
growing concern about China making acquisitions in the United 
States, and, among other things, gaining significant influence 
in the U.S. movie industry, making major acquisitions, 
potentially creating an environment where entertainment 
companies in the United States engage in self-censorship 
because of foreign ownership. That concerns all of us who care 
about free speech and do not want to see speech censored by 
other nations.
    Do you share those concerns? And what steps do you see 
potentially that we could take to mitigate those concerns?
    Mr. Ross. Thank you, Senator, for that question. I think 
it's one of the most important questions facing us right now. 
And it's not just food. The food is certainly an element of 
national security by any measure, but it's also little high-
tech companies. They're making a lot of venture capital 
investments, and maybe the dollars aren't so significant, but 
the technology potentially is. In areas like semiconductor, I'm 
very, very concerned about that because they are the world's 
largest--they, the Chinese, are the world's largest consumer of 
semiconductors, so far are mainly importing it a lot from here. 
And semiconductors are a basic building block.
    Second, when President-elect Trump convened the high-tech 
CEOs a few weeks ago, I was struck to learn from them that the 
closer they get to content, the more constrictive the Chinese 
are on their activities. So it seems not very reciprocal that 
they want to control entertainment and other media here and yet 
are denying our companies anything getting remotely close to 
that. So there isn't even a balance, and that's a separate 
problem that's characteristic of a lot of the relationships 
with them.
    Senator Cruz. I look forward to working with you on that 
issue. My time is expired, but let me briefly ask a final 
question, which is this Committee has expressed considerable 
concern over the decision of the prior administration to 
transfer control of ICANN, the basic infrastructure of the 
Internet, to a consortium of foreign countries, including 
countries like Russia and China and Iran.
    Do you share those concerns and will you commit to working 
with this Committee to ensure that we protect free speech on 
the Internet and that we do not allow enemies of free speech to 
exercise authority that restricts our freedoms here in America?
    Mr. Ross. Yes. As such a big market and really as the 
inventors of the Internet, I'm a little surprised that we seem 
to be essentially voiceless in the governance of that activity. 
That strikes me as an intellectually incorrect solution. But 
I'm not aware of what it is that we actually can do right now 
to deal with that. It exists. If some realistic alternative 
comes up, I'll be very interested to help explore it.
    Senator Cruz. Very good. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cruz.
    Senator Baldwin is up next.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Mr. Chairman.
    And, Mr. Ross, it's good to see you again. I appreciate 
your coming by my office last week to discuss various trade 
issues, and that's where I want to start. You authored the 
Trump Trade Doctrine, and it's something I think I shared with 
you. At first glance, I agree with substantial parts of it.
    Like you and President-elect Trump, I believe that we need 
a new approach to trade, and I hope that we can, in fact, work 
together on creating a new trade agenda that increases wages, 
creates jobs, cracks down on cheating from countries like 
China, and strengthens the manufacturing sector in our country 
and in states like Wisconsin.
    I hope that we can work together to achieve these goals in 
the years ahead. While trade has gained a lot of national 
attention recently, it's really been on the top of my mind for 
many years, and certainly my constituents, too. Given that we 
share some of the trade priorities, I would like to take the 
opportunity of this Q&A to drill down a bit further into some 
of your plans to ensure that they will improve economic 
opportunities of Wisconsinites, who are on the brunt of some 
bad trade deals very directly.
    Mr. Ross, you and the President-elect have spoken often 
about your desire to renegotiate one of our Nation's trade 
agreements, NAFTA. I, too, have concerns with that agreement, 
most notably, its prohibition of Buy America programs. The 
procurement chapter of that agreement allows Mexican and 
Canadian companies to bid for American taxpayer-financed 
projects as domestic companies. Can you commit to eliminating 
the procurement chapter in NAFTA?
    Mr. Ross. I think all aspects of NAFTA will be put on the 
table, and that certainly is going to be a topic that would 
come up, but you don't have a deal on anything until you have a 
deal on everything, so exactly what would come in a final 
treaty or not is a little bit premature to say, but I'm 
certainly aware of the issue and certainly aware of the 
President-elect's view about Buy America.
    Senator Baldwin. Let me ask it then in a slightly different 
way, understanding the complexities of renegotiating 
multilateral trade agreement. Going forward, do you believe 
that our trade agreements should allow foreign companies to bid 
as American companies for taxpayer-funded projects?
    Mr. Ross. I think it's a highly questionable practice, and 
I think that it is one that has to be done with extreme care. 
There are probably some few segments where there may be a 
technology that someone has that we can't avail ourselves of. 
There may be some circumstances where it's totally appropriate. 
But many countries have the equivalent of Buy America, so 
that's not an unusual factor.
    And the Chinese, most of all, have very good--good in the 
sense of strong--policies, and I think that there should be a 
reciprocity, and at least if American companies can't bid on 
projects there, it doesn't strike me as very logical that their 
companies should be able to bid on projects here.
    Reciprocity seems to me as a fundamental principle, even of 
the WTO, and it's one that's mostly honored in the breach by 
some of our major trading partners.
    Senator Baldwin. In the Trump Economic Plan, you discuss 
the outsourcing phenomenon as caused by both a push of 
burdensome American regulations and the pull from foreign 
countries who do not have our labor or environmental standards. 
You've also been critical of the Obama administration and their 
actions to prevent climate change and to protect labor rights 
domestically.
    In order to level the playing field, as you propose, will 
you commit to holding our trading partners to higher standards 
or only to lowering ours?
    Mr. Ross. Well, the existing trade agreements have very, 
very weak enforcement in general, and particularly weak 
enforcement on environmental and labor. Take Mexico for 
example. The minimum wage in Mexico has barely changed in pesos 
for quite a few years, and the peso has depreciated quite a lot 
against the dollar. So on a purchasing power basis, the average 
Mexican worker is far worse off than he or she was 5 or 10 
years ago. That was not the original intent of NAFTA. One of 
the original intents was to bring up the standard of living 
there, bring up the labor conditions there, make them a little 
bit more stable and more prosperous economy, and, frankly, 
reduce the gap in productivity-adjusted wages between the two 
countries. It hasn't worked that way, and that has to be, or if 
I'm confirmed, will be, a very serious topic for consideration.
    Senator Baldwin. Thank you.
    The Chairman. Thank you, Senator Baldwin.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Ross, thank you very much for your 
interest in public service and your care for Americans and 
their jobs. Let me first just associate myself with what the 
Senator from Mississippi, Senator Wicker, indicated to you and 
the conversation that we had in my office. I would add to his 
voice that an infrastructure program needs to include broadband 
expansion, particularly in rural and unserved areas. And so Mr. 
Wicker raised that topic with you. I won't spend any more time 
on it.
    I wanted to talk a bit about spectrum, wireless. First of 
all, Senator Udall and I have worked on legislation that was 
included in the Bipartisan Budget Act of 2015. It provided more 
funding and flexibility for Federal agencies to use the 
Spectrum Reallocation Fund for research and development related 
to their spectrum activities. It was our intention that this 
additional funding and flexibility would result in a more 
efficient use of spectrum by Federal users and free up more 
government spectrum for commercial use.
    OMB oversees that fund, but it does so in consultation with 
the National Telecommunications and Information Administration 
that's part of the Department of Commerce. I would like to have 
you assure me that the SRF will be utilized to achieve those 
goals in your administration at the Department of Commerce.
    And as a follow-on, I would indicate to you in following 
the Senator from Nebraska's commentary about the use of 
spectrum, there's a 2011 GAO Report that basically said that 
NTIA needed to improve its spectrum management policies to 
promote more efficient use of Federal spectrum. And the way I 
read that, I think it bluntly indicated that NTIA oversees--
while it oversees the spectrum, it is often pushed around by 
bigger Federal agencies and departments, and therefore it's 
difficult to get them, those agencies and departments, who have 
little incentive to cooperate, to give up their valuable 
spectrum, and I would ask you, what can be done at NTIA to get 
this to work better than it does today?
    Mr. Ross. Well, I don't intend to be pushed around by 
anyone.
    Senator Moran. I like the answer.
    [Laughter.]
    Senator Moran. It also allows me to ask an additional 
question.
    [Laughter.]
    Senator Moran. We've taken a special interest in the 
efficiency of IT procurement. And you indicated in your 
testimony that it's an area of your--that you have interest in. 
Senator Udall again and I introduced an Act we call ``Move 
It.'' It later evolved into legislation that is designed to 
better accommodate agencies who seek to update their IT 
systems, but they're unable to do so in their current budget 
framework. I again would ask you to commit attention toward 
modernizing the Department of Commerce and its IT 
infrastructure, particularly its legacy IT. And do you believe 
that the Federal Government can better leverage commercial 
cloud-based solutions to save money and increase security?
    Mr. Ross. Well, I'm a very big proponent of cloud. We've 
used it a lot in private sector. And as far as we can tell, it 
is not only more efficient, it's probably also more secure for 
lots of very complicated, technical reasons. I think that it's 
a very important thing for government to do. And also to have 
systems that talk to each other. There's an awful lot of 
siloing both within Commerce and outside of Commerce, and I 
think that is not a very satisfactory end result. We need to 
all be on similar quality and efficiency of communication.
    I think the tricky part of it is, where do you get the 
funding to make the changeover? Because there are some one-time 
costs to doing these. Commerce already has several initiatives 
underway, and I'm certainly encouraged by what I've learned 
about those, and I think much more could be done.
    Senator Moran. Mr. Ross, thank you. I would indicate that 
too many times the headline issues that we can deal with are 
left--they overcome the good government issues that so 
desperately need attention.
    Let me finally say, as I indicated in my office, that trade 
is an important--exports are an important matter to Kansans, 
manufacturing of airplanes sold around the globe, agriculture 
commodities. I would highlight that for you, but I also would 
point out the view that China recently increased its anti-
dumping duties and its anti-subsidy tariffs on U.S.-dried 
distillers grain. The decision came just days after the Chinese 
government decided to increase tariffs on U.S. ethanol from 5 
percent to 30 percent.
    Kansas farmers also continue to be held back by China's 
refusal to approve new varieties of biotech corn, which 
happened in 2014. I supported a WTO case that brought 
challenging China's domestic support of rice, corn, and wheat.
    My point is that too often we negotiate trade agreements 
and they are designed to level the playing field in regard to 
tariffs, that in all the other issues that a country can bring 
to play, we high-five ourselves with the satisfaction of 
reaching a trade agreement, but then we miss the point of 
defending and fighting the other things that prevent our 
products from getting into other countries, and it seems 
compatible with what you've been testifying.
    Mr. Ross. Oh, it is. I've been a victim over the years of 
some of these non-trade and untariffed trade barriers, and 
they're quite insidious, but also, unfortunately, they can be 
quite effective. We need to deal with those.
    It's not enough to have a trade agreement that just hits 
tariffs, and it's one of the reasons I think there should be 
systematic reopeners of trade agreements after a few year 
period because it's hard to anticipate the ingenuity that some 
of these folks have to get around the intent of the agreement.
    So I think an automatic reopener, whether it's a sunset 
provision or just a reopener, would be a very useful thing to 
look back on what was originally contemplated, look back on 
what was originally projected to occur, and to say, well, if we 
didn't achieve those objectives, why not, and what do we need 
to do to fix them? And I think an agreement like NAFTA, that is 
more than 40 years old and there has never been a systematic 
transparent review of it.
    Senator Moran. Mr. Ross, if you are confirmed, I intend to 
be gum on your shoe in regard to the exports of agricultural 
products and commodities from Kansas and manufactured airplanes 
and the other things we do in the global economy.
    Mr. Ross. I got that impression the other day, sir.
    Senator Moran. Thank you, sir.
    The Chairman. Thank you, Senator Moran.
    He's gum on our shoe a lot, too, so just to that point, 
we've been victims, my state has, our agricultural producers, 
particularly bee producers of this gaming, and we call it honey 
laundering, which is something that the Chinese have been 
particularly effective at, and we do need to enforce our laws 
and make sure that people are playing by the rules. So a very 
important issue to a lot of people on this Committee.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you.
    Good afternoon now, Mr. Ross, and thank you as well for 
joining me in my office last week. I enjoyed our conversation. 
And I just wanted to kind of reiterate a few of the issues that 
you and I talked about, and no surprise here for you in terms 
of what's important to the state of West Virginia. We talked 
about the transitioning of our state from a coal economy 
hopefully to a more high tech, keeping our coal economy going 
but also trying to diversify.
    And one of the administrations under the Department of 
Commerce is the EDA. Recently, the EDA has taken a renewed 
interest, thank goodness, at my and other people's urging, to 
really look at the severe job loss in our regions and to use 
those dollars to maximize the effect of entrepreneurship, 
capacity building, and other ways for us to diversify our 
economy, whether it's agriculture, high tech, energy sector 
jobs.
    And so I would just like to reiterate to you, since the 
last 2 years we've made good strides here, that this is 
important. Even though it's not a large agency in terms of 
appropriation, it does and can have a far-reaching effect in 
the distressed areas in our country where I'm living and where 
many of us are.
    So I would just like to reiterate my commitment and 
hopefully your commitment to work together to see that the EDA 
continues the progress we've made over the last several years.
    Mr. Ross. Yes. I think EDA can be a very valuable source of 
seed money for projects----
    Senator Capito. Right.
    Mr. Ross.--and kind of matching things, triggering other 
sources of economic help to get things jumpstarted. I think 
given its budgetary constraints, that's probably the most that 
it can do, but I think that can be a very valuable function if 
properly applied.
    Senator Capito. It absolutely can, and in some of the rural 
areas where we have trouble attracting capital and attracting 
investment, it can be first in or last in, and have some 
complete projects at the same time.
    So I don't want you to think that you're in an echo 
chamber, but I am going to talk a bit about rural broadband, 
which we discussed. I was really pleased to learn, and you told 
me that day, but you reiterated in your remarks, that you have 
some direct experience with broadband deployment in the state 
of Florida. A little bit different terrain than the state of 
West Virginia, that's for sure, but the rural areas are really 
behind here. And, again, if we're transitioning or if we're 
going to go to the next economy, if we don't have that stool of 
infrastructure development, we're going to be further behind.
    Secretary Chao was here last week. I reiterated to her how 
important I think an infrastructure package has to include 
broadband deployment in the underserved and unserved areas. And 
since you have experience in this issue, I'm sure that you can 
see what it can do to the development of areas that have been 
undeveloped, and what it can do for health care, education, and 
other aspects of people's quality of life.
    So, I look forward to working with you in this area and 
learning from you on the best ways to get to that broader and 
bigger elimination of the digital divide that exists.
    Mr. Ross. Thank you very much, Senator.
    Senator Capito. Last, I mentioned to you that, and I was 
glad to see in your remarks you talked about NOAA and how 
important it is from the aspect of living in Florida. NOAA has 
a large and significant presence in West Virginia, and I think 
I can reasonably state it was probably an earmark from Senator 
Robert C. Byrd, so it's still there and doing well, and it's 
the primary backup for all of NOAA's emergency contingency 
operations. It's key to making sure, for instance, the GOES-16 
satellite that was just launched, this facility serves as the 
consolidated backup facility for the mission.
    We've still got capacity to grow here, so we're hoping that 
NOAA, because I have confidence in our abilities now, will work 
with us in West Virginia to grow that footprint and use us as 
the highly technical skilled folks that we have. And we're 
growing a technology corridor down through sort of the middle 
of the state to try to work with that. So I want to work with 
you with NOAA, and hopefully we can visit those facilities 
together.
    Mr. Ross. Yes. From everything I've heard, NOAA is quite 
happy with the relationship they have with the local community 
there.
    Senator Capito. Well, good. That's great. The FBI is right 
down the street, so maybe they have to be happy.
    [Laughter.]
    Senator Capito. Thank you very for--sorry, I think I might 
be the last one of the--oh, no. I forgot Chairman Inhofe right 
to my left here. So I appreciate it and I look forward to 
working with you at the Department of Commerce and look forward 
to voting in the affirmative for your nomination.
    Mr. Ross. Thank you, Senator.
    Senator Capito. Thank you.
    The Chairman. Thank you, Senator Capito.
    Senator Inhofe is next, and then Senator----

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Yes. Thank you, Mr. Ross. And I enjoyed, 
first of all, the visit we had in my office. And I'll make mine 
a lot quicker than most of them. I do apologize. The reason for 
all of us being late is that, in my case, we have our Oklahoma 
Attorney General up, has been nominated to be the Director of 
the EPA, and I have more than just a casual interest in that. 
In fact, the last four of the Members here are late because 
they're over at that hearing. So this is not the way it should 
be, I suppose, but it's the best that we can do.
    Let me just mention one thing. Back, way back, when NAFTA 
was passed, in our delegation of seven Members from Oklahoma, I 
was the only one who voted against it. And I would just like to 
be drawn into the loop as you make progress on the changes you 
may want to make just so that we'll be aware of that and can 
perhaps participate in a small way.
    Mr. Ross. Surely. I believe there is a consultative process 
provided in the TPA regulations and that, therefore, there will 
be at least that level of consultation.
    Senator Inhofe. Good. I talked to you also about Taiwan 
being a close friend and ally of the United States, and our 
ninth largest trading partner. That's very significant, and we 
could further strengthen the U.S.-Taiwan relationship by 
engaging in direct bilateral trade agreements.
    Now, these, in negotiations, would need to address Taiwan's 
current ban on importing pork containing ractopamine, a food 
additive that the Chairman of this Committee has talked about, 
he's concerned about some of the things that we want to do with 
Taiwan.
    So I would say, as Secretary, would you just consider 
prioritizing the United States' trade relationship with Taiwan 
and consider laying the groundwork for direct bilateral 
negotiations?
    Mr. Ross. Well, as you know, that's a very complex issue--
--
    Senator Inhofe. I know it is.
    Mr. Ross.--because of the One China/Two China policies. So 
I think that there we would need some guidance from the 
President as to what direction he wishes to go.
    Senator Inhofe. And that's the very reason I worded it the 
way I did, just consider.
    As I mentioned at my office, you were kind enough to give 
me quite a bit of time. I've had a very close relationship with 
Africa and have actually made 144 African country visits. I am 
concerned about Africa and our lack of a good relationship that 
we've had historically.
    Now, when we did our NDAA, National Defense Authorization 
Act, I put an amendment on there that we titled the African 
Free Trade Initiative Act that was passed that is now a part of 
the bill that is going to take care of our NDAA needs for the 
next year.
    Now, it's a step in the right direction to partner and 
secure deeper ties with a fast-growing economy such as that in 
Sub-Sahara Africa. There are nations eared to engage in direct 
bilateral negotiations on trade with the United States, and I 
just would hope that you would work with me to focus U.S. trade 
efforts in Africa.
    Mr. Ross. It's almost impossible to imagine ignoring such a 
large continent with such rapid growth to it with such 
strategic importance and potentially such economic importance. 
So clearly there's a role for us to play with Africa, and I 
think one of the concerns that we should all share is that 
China has been all over the map in Africa building high 
schools, building soccer playing fields, doing all kinds of 
things, and gobbling up natural resources as well. Nature 
abhors a vacuum, and to the degree that we've let a vacuum be 
created there, there's a countervailing force that's going to 
fill it, and that's not us.
    Senator Inhofe. That is a beautiful response. I appreciate 
that very much. I might add China doesn't even use their labor 
when they're in these projects.
    So anyway, I look forward to supporting your confirmation, 
and thank you very much for being willing to do it.
    Mr. Ross. Thank you, Senator.
    The Chairman. Thank you, Senator Inhofe.
    And I think last up on the first round is Senator Markey. 
Senators Inhofe and Capito both left time on the clock. I think 
that's the first time that's happened today, so we must be 
winding down.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Ross, we're in the world of the Internet of Things, as 
the Internet is built into the appliances which we use, the 
machines which we use, the automobiles, the SUVs, everything 
now is part of the world of the Internet of Things. But IoT 
isn't just going to stand for Internet of Things, it's also 
going to stand for the Internet of Threats to the security, to 
the privacy, of all Americans, as this technology is built into 
every device.
    So as we move forward, we have to think at the same time 
about cybersecurity, about privacy, about what are the 
protections which we're going to give to Americans so that 
their privacy and security is not constantly subject to 
compromise. Could you tell the Committee what your views are on 
that issue and what you would recommend that we do in order to 
protect Americans?
    Mr. Ross. Well, we've had some direct--I've had some direct 
experience with it. As you know, we've invested in a number of 
small and medium-sized banks around the country, and even they 
are subject to cyber attacks from all over the place. Some are 
just from hackers who simply seem to want to prove that they 
can do it, but others are evil ones trying to steal people's 
identities, trying to steal people's money, all kinds of 
things.
    So it certainly is a serious problem and it's the 
unfortunate flipside of interconnectedness, is, how do you 
balance interconnectedness and two-way communication and two-
way or multiple-way everything with protecting people?
    I think we need to be extremely vigilant and keep 
developing new and better systems because the people who have 
bad intent are certainly trying to develop new and better ways 
to break in. So it's a continuing challenge.
    Senator Markey. I've introduced legislation, which is 
essentially a cyber labeling program, that would just say to 
industries of the United States you have to label your devices 
in terms of how secure they are from being hacked, from having 
privacy compromised. What do you think about that idea? And 
don't you think on a voluntary basis that is something that we 
could ask for American industry now to adopt as a practice?
    Mr. Ross. Well, I'm quite sure that American industry is 
becoming more and more sensitized to the problem. There is no 
company I know of, of any size whatsoever, that hasn't been 
having these threats, ranging from electric utilities to every 
other kind of endeavor.
    So I think everybody appreciates the problem. Exactly 
what's the solution and whether one size fits all I think is a 
more complicated issue and one that needs a lot of very 
thorough investigation, but----
    Senator Markey. And I appreciate that. The one problem, of 
course, is that there are many companies that are never going 
to invest in cybersecurity protections, and that is where the 
problem is going to be created, where the vulnerability is 
going to be created. So I'm looking forward to working with you 
on that.
    Senator Fischer and I have introduced the Federal Spectrum 
Incentive Act, which offered new incentives for Federal 
agencies to relinquish underutilized spectrum. I know that 
Senator Cruz just asked about whether we should incentivize 
Federal agencies to vacate or share spectrum they don't need. 
Will you commit to working with Senator Fischer and me so that 
we can try to find a way of moving forward legislation that 
does create those incentives for the Federal agencies to free 
up the spectrum that the private sector could use?
    Mr. Ross. Right. Well, I think it probably would need to be 
a legislative solution because it's fairly clear to me that 
Commerce does not have the power to do it on its own. So to the 
degree that there is going to be an incentive given, I think it 
would absolutely have to be legislated.
    Senator Markey. And New Bedford, Massachusetts, is the 
highest grossing fishing port in the United States. What 
actions would you support to ensure that seafood brought to the 
market is legally caught and sustainable?
    Mr. Ross. Well, I think that's very, very important. For 
one thing, in terms of the domestic catch, clearly the 
objective should be the maximum sustainable yield, so that, as 
a starting principle. But also a lot of the imports that come 
in are produced under conditions that would not be tolerable in 
the United States, and I think that needs to be dealt with. It 
needs to be dealt with also at the port level.
    My understanding is that if a shipment of food comes in 
that for whatever reason is rejected at a given port, all that 
happens is then that vessel diverts to another port and hopes 
to get the same food in. Well, since only 2 percent of the 
cargos are ever inspected, that means they've got a 98 percent 
chance to get away with it the second time, and meanwhile the 
food is a couple of days older and perhaps a couple of days 
worse condition. So I think we need to deal with it at a whole 
series of levels.
    Senator Markey. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    And, again, I would echo what's been said about finding 
more spectrum. We're going to absolutely have to have it. We 
have 16 billion wireless devices today and headed toward 50 
billion by 2020, so it's absolutely essential.
    Senator Blumenthal I think wanted to ask some additional 
questions.
    Senator Blumenthal. I have just a few questions. As you 
know, one aspect of the very broad and varied responsibilities 
that you would have, if confirmed, pertain to fighting boycotts 
of American companies that, in effect, refuse to do business 
with countries. Israel is one where action has been taken.
    Your Department has within its authority the Bureau of 
Industry and Security, which is tasked with prohibiting 
businesses with a U.S. presence from boycotting those countries 
like Israel based on foreign laws or at the request of a 
foreign government.
    In 2015, I wrote to the Commerce Department, and I was 
joined by a number of my colleagues, including several on the 
Committee: Senators Booker, Schatz, and Markey. We wrote in 
response to a number of claims and incidents in which travelers 
with Israeli passports were denied. And we wrote to the United 
States Department of Transportation, which agreed that the 
incidents warranted further inquiry.
    The Department of Commerce, in effect, deflected our 
inquiry, providing little information or concern. That raises 
for me a very important overall issue, standing up to efforts 
to boycott Israel or any other country in these kinds of 
business dealings.
    I'm asking you to commit to make this issue a priority and 
agree to enforce the anti-boycott laws to the fullest extent of 
your authority. We're talking about existing laws that need 
enforcement.
    Mr. Ross. I believe, Senator, that the President-elect has 
made clear his pro-Israel attitude, and I certainly will do my 
part to uphold the laws.
    Senator Blumenthal. Thank you. I would like to ask you also 
about cybersecurity, following up on the very helpful comments 
you just made. As you well know, this Nation is under cyber 
attack literally every day from the Russians, Chinese, North 
Koreans. There have been repeated instances of it. In this very 
room, where the Armed Services Committee meets and holds 
hearings--I'm a Member of that Committee--we've heard chilling 
and staggering accounts about the extent and magnitude of cyber 
warfare.
    Would you agree that this Nation has to develop better 
policies to deter and punish the Russians and other countries 
that currently are attacking us literally every day and 
interfering with our economic system, threatening our economic 
network, our electronic grid, our transportation system, as 
well as our military defense?
    Mr. Ross. I absolutely do, Senator Blumenthal. I think to 
me the most terrifying form of warfare would be if there was 
some simultaneous cyber attack on our grid, on the banking 
system, and on our transportation system. That would be quite a 
devastating thing, and yet, in theory, absent some real 
protective measures, that could happen.
    Senator Blumenthal. And we should send the Russians or any 
other country that would threaten us in that way an 
unmistakable message that such an attack will be met by a 
aggressive effective response.
    Mr. Ross. I think we don't have very much choice because 
the danger is both large and imminent.
    Senator Blumenthal. And imminent is also extraordinarily 
frightening because so much of our Nation depends on the 
interconnection between different sectors of our economy, and 
our private sector needs to be given impetus to do better.
    Mr. Ross. Yes. And it was either in my discussion with you 
or perhaps with Senator Markey that we talked about the 
situation where a fellow had a generator in his house in case 
the power went off, but the generator was interconnected or was 
on natural gas, which presumably would also get cut off. So 
partial prophylactics are not a very good solution in this 
area. We need things that are quite all-embracing and quite 
thorough.
    Senator Blumenthal. Would you agree with me that deterrents 
against this kind of attack should include measures not only in 
the cyber domain but also economic sanctions if necessary, and 
foreign exchange sanctions?
    Mr. Ross. Well, I think what we need is an overall 
coordinated policy to deal with these cyber problems. But it 
gets into a lot of departments that go well beyond Commerce, as 
you're aware.
    Senator Blumenthal. I fully agree, but Commerce can play 
and should play an important role.
    Mr. Ross. I promise you we're on it.
    Senator Blumenthal. One last question. I will be 
introducing a measure that would prohibit look-alike toy guns, 
which can cause tragedies. You may be familiar with the 
tragedies that have occurred around the country where police in 
tense situations encounter sometimes young people with look-
alike toy guns that they mistake for real weapons, and the 
result is the police respond by using their weapons and people 
may be injured or killed.
    The measure that I am going to introduce will strengthen 
the protections against those kinds of look-alike or toy guns. 
I am asking for your support because the Secretary of Commerce, 
along with the Consumer Product Safety Commission, the CPSC, 
would have responsibility for developing regulations under this 
law.
    I'm asking for your support to ensure that toy look-alike 
or imitation firearms are not allowed to enter Commerce unless 
they are made abundantly clear to be toy guns. Will you commit 
to supporting such legislation?
    Mr. Ross. I look forward to reading the legislation and 
discussing it with you, Senator.
    Senator Blumenthal. Do you agree, in principle, that this 
kind of protection is necessary?
    Mr. Ross. Well, I think anything that prevents people from 
being killed or injured unnecessarily is a good idea, but we 
would have to look at--I would have to look at the actual draft 
legislation.
    Senator Blumenthal. In the course of your investments or 
other endeavors, have you ever done any work on smart guns?
    Mr. Ross. Smart guns? No, sir. What is that?
    Senator Blumenthal. Well, guns that may be limited to 
firing or use if they have the biometric kinds of----
    Mr. Ross. Oh. Yes, I've heard of it. I've never seen them 
in action, and so I don't really have a very well-formed 
opinion of them.
    Senator Blumenthal. Well, I look forward to talking to you 
about this topic. I'm out of time. And you've been very patient 
because you do have jurisdiction over the National Institute of 
Standards and Technology, which could play a part in developing 
standards and technology for smart guns.
    Mr. Ross. Sure. Well, developing standards for any 
innovative process is obviously a very critical function and 
one that the Department takes quite seriously.
    Senator Blumenthal. I hope you will take this one 
seriously. I know you will.
    Mr. Ross. I will, Senator.
    Senator Blumenthal. Thank you.
    The Chairman. Thank you, Senator Blumenthal.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Ross. And I know you heard 
that a number of us are moving between committees for other 
confirmation hearings. So if I ask a question that you already 
answered, please bear with me.
    But I very much appreciated your focus in earlier rounds of 
questions on economic growth where you're talking about energy. 
As you know, in Alaska, we have a lot of it, and we need to 
produce more of it. And we're very much looking forward to 
having an Executive Branch that wants to help us, not stop us 
from producing energy, like we have with the Obama 
administration, rolling back some of the unnecessary 
regulations, infrastructure, and then trade.
    And I think on the issue of trade, I know you've answered a 
couple questions on it, but as you and I discussed, I believe 
the Trump administration is going to be the first 
administration in U.S. history to come into office with trade 
promotion authority, and a number of us supported that in part 
because President Obama had 2 years of it, but we were hoping 
the next President would be a Republican and would have 4 years 
of it. That's happened. The Administration doesn't have to 
spend one ounce of political capital on getting TPA, and that's 
usually hard to get over the goal line.
    So, can you just talk a little bit about your views on 
bilateral trade priorities? But also there have been reports in 
the press about some kind of 35 percent tariff. That would seem 
to me to be about as anti-growth as possible. I know you 
mentioned in some of your answers Smoot-Hawley. But how are you 
going to look at the trade element and really take advantage of 
what's an enormous opportunity, which is TPA, that you can use 
that's a very, very powerful tool to help American exports?
    Mr. Ross. Well, TPA is an important tool because what it 
gives is relative assurance to the party with whom you are 
negotiating that you can deliver because any negotiation is 
handicapped if you're not sure the other guy can deliver on 
what has been negotiated. So it's a big help in that regard.
    And there are, as you know, some consultative steps that 
are required vis-a-vis between the President and the Congress 
on TPA. And I'm quite sure that if he uses it, the President-
elect will adhere to those requirements. So those are good and 
useful components of the trade process.
    And in terms of the 35 percent and some of the other 
statements, I think the President has done a wonderful job 
preconditioning the other countries with whom we'll be 
negotiating that change is coming. The peso didn't go down 35 
percent on accident. Even the Canadian dollar has gotten 
somewhat weaker, also not an accident.
    So I think he has done some of the work already that we 
need to do in order to get better trade deals because when you 
start out with the adverse party understanding that he or she 
is going to have to make concessions, that's a pretty good 
background for any negotiation to begin. So I'm very grateful 
that he has made this task a little bit easier by alerting 
everybody that change is coming.
    Senator Sullivan. Well, would 35 percent tariffs be pro-
growth or not?
    Mr. Ross. Oh, I think that the pro-growth thing is 
stimulating exports much more than just curtailing imports, but 
tariffs can be--countervailing duties and punishment to people 
for dumping is essential because there are inappropriate and 
illegal trade practices being performed, and if you don't 
really punish them, you're never going to modify their 
behavior. So there is certainly a role for it there.
    Senator Sullivan. Let me ask just a related question when 
you're talking about trade tools, and that's--I know there's 
been a lot of focus on China. That's in the area of 
reciprocity. But right now, as you know, there are stories, and 
it's happening, China has two very large investment funds where 
they're buying up strategic companies in Western Europe, trying 
to in the United States. Some are strategic, some are just 
important, you know, they're looking certainly at the movie 
industry in Hollywood and ship manufacturers.
    And yet I think it's pretty common knowledge that if our 
companies wanted to go to China and buy up a big movie industry 
or buy up a big ship manufacturer or buy up a tool and die 
industry that's very--or a company that's very strategic, the 
answer would certainly be no.
    Mr. Ross. Right.
    Senator Sullivan. So in the WTO, their accession, as far as 
I know, did not have a reciprocity requirement with regard to 
investment. However, do you think it would be in the interest 
of the United States--and it's a debatable topic here, a number 
of us are looking at legislation to maybe include investment 
reciprocity as part of the CFIUS process--do you think that 
would be wise or do you think that would undermine the vitality 
of the United States by restricting investment even though 
there is clearly no reciprocity going on right now between the 
number one and number two economies in the world? And in my 
view, it's an unlevel playing field. China can do it, they're 
doing it. If want to go over and do it, we couldn't. How do we 
deal with that?
    Mr. Ross. Well, I think reciprocity in an important concept 
in trade agreements, and I think there are other important 
concepts as well. To me, another one is simultaneity of 
concessions. We have tended in prior trade agreements to make 
our concessions up front, and the other party makes their 
concessions later, but the problem is that later sometimes 
doesn't come, because when you have weak enforcement provisions 
and you've already made your concessions, it's a little bit 
hard to unscramble the egg.
    So I think reciprocity is an important concept going 
forward. I think simultaneity is an important concept going 
forward. I think, as I mentioned I think while you were out of 
the hearing room, the concept of an automatic reexamination 
after a period of time to find out, well, what worked? what 
didn't work? and what should we fix?
    I think there are a number of these conceptual issues that 
have not been present in prior trade agreements. But I would 
hope that if confirmed, I can contribute toward designing kind 
of a model trade agreement where we would introduce into it 
certain principles that would have to be in any agreement. I 
think it's a huge mistake to start out each time with kind of a 
blank page from ground zero. It makes it take longer, it makes 
it harder to negotiate.
    The best negotiating tool is to be able to tell someone, 
``I can't change this. This is official policy. You know it is. 
We've got it in 10 other deals. We're not going to give you 
anything different.'' That's a much better position, in my 
opinion, than starting out with a blank slate.
    Senator Sullivan. Thank you.
    Mr. Chairman, may I have the opportunity to answer--or ask 
one more question?
    [No audible response.]
    Senator Sullivan. Thank you.
    Mr. Ross, I wanted to talk just a little bit on the 
infrastructure element. I think you're going to see a number of 
Senate colleagues on both sides of the aisle be supportive of 
doing more with regard to infrastructure. And as we talked 
about, one element that I think a number of us see as critical 
when we move forward on a big, large-scale infrastructure 
initiative is fixing the Federal Government's broken permitting 
system.
    Mr. Ross. Yes.
    Senator Sullivan. So whether that's--on average right now 
it takes 6 years to permit a bridge in the United States of 
America. We had a hearing here on airport infrastructure last 
year. It took the Seattle Airport to build a new runway 15 
years to get the Federal permits. In Alaska, it took Shell 7 
years to get the Federal Government's permission to drill one 
exploration well in 100 feet of water. It's a broken system. 
And if we have an infrastructure package that's in the hundreds 
of billions without a dramatic overhaul of our permitting 
system, I fear it's going to be money that can't be deployed.
    Would you agree to work with us on not only focused on the 
financing of infrastructure, but the very, very important issue 
of fixing a broken Federal permitting system where this country 
used to build big things on time, and now we can't permit a 
bridge inside of a half a decade?
    Mr. Ross. Well, I know the permitting is an issue. I think 
it's one of the reasons why there weren't so many shovel-ready 
projects when President Obama got money for infrastructure. And 
the permitting isn't just on big projects. In some parts of 
this country, if you want to put a porta-potty on a well site, 
you have to go get a permit, and it takes weeks to do that. 
That's not even drilling a hole in the ground, it's not 
invasive, it's not anything. I think we've gone a little permit 
nutsy.
    Senator Sullivan. Well, I look forward to working with you 
on that, and I look forward to your speedy confirmation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Sullivan. All good lines 
of questioning. I know I have found the answers and responses 
today on some of the trade issues to be somewhat reassuring. I 
think there are a lot of folks who are spooked when they hear 
rhetoric surrounding 35 percent tariffs and that sort of thing, 
and I think you've given good insights into how that might be 
interpreted today.
    Senator Nelson I think has a couple of cleanup questions, 
and we'll probably get you out of here shortly.
    Senator Nelson. Well, you have certainly seen by the 
questions today and the breadth of the subjects covered by the 
Commerce Committee the intense interest, and you have comported 
yourself quite well. You have been very detailed and non-
evasive in your answers, and that is appreciated. And albeit 
the length of this hearing, let me assure you that this hearing 
is a piece of cake compared to some of the other nominees that 
are going through the process of the constitutionally required 
advise and consent.
    Your wife, Hilary, has been most patient back there and has 
not looked around the room. She has been very attentive, so my 
compliments to her as well.
    Just for a couple of cleanup things here. I want to insert 
in the record, Mr. Chairman, a letter by 10 scientists, many of 
whom are professors at Florida universities, having to do with 
a concern of our state being so fragile when it comes to sea 
level rise. And I would quote just one paragraph in this letter 
addressed to you. ``Like you, climate scientists are facing a 
distressing situation as we study the projected impacts of sea 
level rise. However, we remain optimistic that our challenges 
can be solved with American ingenuity, entrepreneurship, 
strategy and new technologies.''
    The Chairman. Without objection, we'll have it included in 
the record.
    [The information referred to follows:]

                                                   January 17, 2017
Wilbur Ross,
Invesco Global Headquarters,
Atlanta, GA.

Dear Mr. Wilbur Ross,

    Congratulations on your nomination. You have a distinguished career 
and now you are presented with the opportunity to become the next 
Secretary of Commerce--a position with enormous influence on American 
society.
    We are a group of Florida scientists, many of whom work daily with 
data from the National Oceanic and Atmospheric Administration (NOAA); 
one of the agencies you will be in charge of at the Commerce 
Department.
    Like you, we share an affinity for Florida. As a Florida resident, 
you know how precious the coastline is, and the fragile beauty of our 
state.
    You are known for your problem solving skills, and your ability to 
salvage distressed businesses. We were struck by a statement you made 
in your CNBC interview where you said, ``the solutions are always more 
fun than identifying problems. We're basically optimists even though 
we're dealing with situations that have a lot of pessimism.''
    Like you, climate scientists are facing a distressing situation as 
we study the projected impacts of sea level rise. However, we remain 
optimistic that our challenges can be solved with American ingenuity, 
entrepreneurship, strategy and new technologies.
    We encourage you to use your exceptional problem solving skills to 
look closely at the intersection between our changing climate, our 
economy, agriculture, industry, jobs and human health.
    The Commerce Department defines part of its mission as ``work[ing] 
with businesses, universities, communities, and the Nation's workers to 
promote job creation, economic growth, sustainable development, and 
improved standards of living for Americans.''
    In your new role as the Secretary of Commerce, you have a unique 
ability to influence multiple sectors of our economy. You will direct 
scientific research both within government, and at universities through 
NOAA. You can also work with businesses, engineers, and industries to 
develop solutions to address climate and energy challenges.
    We call on you to:
Protect our coastline.
    Florida has over 1,100 miles of coastline, a portion of which you 
are intimately familiar with, and surely appreciate. Current forecasts 
predict up to six feet of sea level rise in the next century. Under a 
worst-case scenario we could see two feet of sea level rise by 2060. 
And while that may seem like a distant threat, right now with king 
tides there can be ``sunny day flooding'' in coastal states.
    In order to protect our coastlines, it is crucial to continue the 
monitoring and projection of future environmental changes in the 
atmosphere and the ocean. None of this research can happen without 
adequate funding. We must prioritizing research funding in the 
direction of climate change studies, especially in the context of sea 
level rise. Vital observations and research into phenomena affecting 
climate change impacts, such as variations in the ocean circulation 
that can, and already are, increasing sea level rise along our 
coastline must be maintained.
Support robust science.
    The same way that you evaluate companies before you purchase them, 
scientists are learning about our climate, our weather, our oceans, and 
our coast, so that policymakers can make informed decisions. We echo 
The Union of Concerned Scientists' call for a strong and open culture 
of science and believe in adhering to high standards of scientific 
integrity and independence. You know from experience the role of in-
depth research in executing a successful strategy, and so you should 
appreciate the value that scientists bring to the table to understand 
the impacts that change in our natural world will have on human 
systems--our ports, our coastal properties, and our weather patterns.
Embrace clean technology.
    As the Secretary of Commerce you can help put America at the 
forefront of scientific research, and position us as leaders in the 
international competition for clean technology development.
    We know many of your investments have been in traditional 
industries like coal and steel, but we encourage you to learn as much 
as you can about new energy technologies. Embrace clean energy 
solutions not only to address our energy needs but to create good 
paying jobs in our communities.
    The Department of Commerce encompasses much more than just NOAA, 
but we want to make a heart-felt plea to you to understand how 
incredibly important NOAA's contribution to society is. NOAA states on 
its website that it ``enriches life through science.'' NOAA's mission 
is ``Science, Service and Stewardship.''
    You have an incredible opportunity to be a steward who will help 
restructure America's energy problems, and turn our climate crisis into 
another American success story.
    We want to emphasize the magnitude of the problem--the future of 
Florida hangs in the balance. The stakes could not be higher.
    You are in a critical position to support sound science and 
solutions that can help America solve this problem. We implore you to 
recognize the urgency of climate change, and take your new position 
with great humility and the same dedication and tenacity you have shown 
throughout your career.
    Thank you, and good luck on your nomination hearing.
            Sincerely,

Senthold Asseng, Professor
Department of Agricultural and Biological Engineering
University of Florida

Keren Bolter, Research Affiliate
Center for Environmental Studies
Florida Atlantic University

Jeff Chanton, Professor
The John Widmer Winchester Professor of Oceanography
Department of Earth, Ocean and Atmospheric Science
Florida State University

David B. Enfield (ret. 2015)
Dept. of Physical Oceanography
NOAA Atlantic Oceanographic & Meteorological Laboratory

Pamela Hallock Muller, Ph.D., Professor
College of Marine Science
University of South Florida

David Hastings, Professor
Marine Science and Chemistry
Eckerd College

Barry Heimlich, Vice Chair
Climate Change Task Force
Broward County

Ben Kirtman, Professor
Department of Atmospheric Science
Rosenstiel School for Marine and Atmospheric Sciences
University of Miami

John H. Parker, Professor Emeritus of Chemistry and Environmental 
Science
Department of Earth and Environment
Florida International University

Randall W. Parkinson, Ph.D., P.G., Research Faculty Affiliate
Institute for Water and Environment
Florida International University

Brad E. Rosenheim, Ph.D., Associate Professor
College of Marine Science
University of South Florida

Philip Stoddard, Professor
Department of Biological Sciences
Florida International University
Mayor of South Miami

Harold R. Wanless, Professor and Chair
Department of Geological Sciences, College of Arts and Sciences
University of Miami

Disclaimer: The views and opinions expressed in this letter are 
strictly those of the individuals and do not necessarily reflect the 
official policy or position of their respective organization.

    Senator Nelson. That sounds like quite a reasonable 
approach. And here I would also like to insert a document just 
released this morning at 10:30 from NOAA's National Centers for 
Environmental Information, marking some of the measurements 
with regard to consecutive years of record warmth on the globe. 
And I think that's instructive for us to have from NOAA itself.
    The Chairman. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Nelson. Senator Blumenthal asked what I was going 
to ask about our support for Israel and your attitude about 
that, and I think you've covered that.
    And I would, finally, appeal to you, as a Floridian who 
lives on the coast, that there is not only a tourist industry, 
which is an $85 billion a year industry, in Florida, almost a 
million jobs connected with tourism, much of which depends on 
the very attractive and pristine beaches that we have. And we 
learned a valuable lesson in the Deepwater Horizon oil spill 
when that oil fortunately did not get to all of our beaches, 
but, instead, got to Pensacola Beach, which was covered in oil, 
some oil on Destin Beaches, as well as tar balls as far east as 
Panama City. But what it did, is it shut down the tourist 
season for one entire year on the Gulf Coast.
    And had that spill been at a time when the loop current 
that comes off of the western end of Cuba and loops up into the 
Gulf of Mexico, then turns south, goes around the Florida Keys 
and becomes the Gulf Stream that hugs the coast not only at 
Miami, but at your residence in West Palm Beach all the way up 
to Fort Pierce before it takes off further out into the 
Atlantic from the coast--had that spill or any future spill 
gotten into the loop current, we would have had that effect on 
the east coast of Florida and the resulting debacle with regard 
to our tourism industry.
    Now, there is one other reason why this is so important to 
us, and you and I have not had a chance to talk about this. The 
largest training and testing area for the United States 
military in the world is the Gulf Coast off of Florida.
    Mr. Ross. Right.
    Senator Nelson. It is the Gulf Testing and Training Range, 
and, thus, the extensive activities at not only Eglin Air Force 
Base, but also Tyndall Air Force Base at Panama City. I have 
two letters from two Republican Secretaries of Defense saying 
we simply cannot have oil drilling activities, that it is 
incompatible with the testing and training of some of our most 
sophisticated weapons. When you combine that with the fact that 
the geology shows that there is very little oil off of Florida, 
the oil is off of Louisiana, where all of the sediments came 
down the Mississippi----
    Senator Sullivan. And Alaska.
    Senator Nelson. I'm talking about the Gulf of Mexico right 
now. I won't get into the Bering Sea and the North Slope and 
all of that. I'm tending to Florida. You tend to Alaska.
    [Laughter.]
    Senator Nelson. That the effects would be devastating so 
much so that my colleague, a Republican former Senator, Senator 
Mel Martinez, joined with me for all of the reasons that I've 
stated, and we put in law, off limits until the year 2022 
drilling in the Gulf of Mexico off of Florida; that's in law.
    And so I ask you to consider this because there are going 
to be others in the Cabinet in which you serve and their idea 
will be ``Drill, baby, drill.'' This Senator is not objecting 
to drilling if it's in the right places. But for all the 
reasons that I've stated, I felt it incumbent for me to bring 
it up to you since you are going to be, obviously, by virtue of 
your testimony today, you're going to be a very, very 
influential voice in the Cabinet, and I hope in the White 
House.
    So with that, Mr. Chairman, thank you for the extent to 
which your, mine, and Mr. Ross's posteriors have endured almost 
4 hours.
    The Chairman. Thank you, Senator Nelson.
    And, yes, this has been a lengthy hearing, but I think a 
very, as you pointed out, productive one in terms of the 
responses it has generated and the substance of the discussion. 
There has been, I think, a wide range of questions posed from 
Members of this Committee, who represent very different areas 
of the country. But the range of the issues this Committee has 
jurisdiction over is such that it requires a good amount of 
knowledge on behalf of our nominee, and we certainly appreciate 
the way in which he's stepped up to that challenge and 
responded to our questions today.
    I have one last question and then we'll let you get out of 
here, and I think it's the only subject that hasn't been 
covered today, or at least it hasn't been covered much, and 
that is, Mr. Ross, in 2012, FirstNet was established as an 
independent authority to implement a nationwide broadband 
network dedicated to first responders. And as FirstNet makes 
progress, and it has made some progress in acquisition 
activities, consultation, and internal controls, it still faces 
a good number of challenges.
    So I want to emphasize that FirstNet is an independent 
authority, but I want to ask also whether you will commit to 
being engaged on the progress of FirstNet and to inform this 
Committee if you observe any waste, fraud, or abuse within that 
program should you be confirmed.
    Mr. Ross. I certainly support the concept of FirstNet. I 
gather there is some controversy in some states about it. And I 
gather there have been some technical issues. I'm obviously not 
yet conversant with them. But the idea of giving the first 
responders all the tools that you can imagine that could be 
useful has to be the right direction to go. So I'm certainly 
supportive of that. And to the degree there are issues with it, 
I'll do my best, if confirmed, to try to figure out how to 
overcome them.
    The Chairman. Well, and we look forward to having you bring 
your expertise in solving problems and managing difficult 
circumstances to bear on this issue as well.
    I believe that's it. Given our hope to confirm Mr. Ross as 
soon as possible, we'll keep the hearing record open until 
12:30 p.m. tomorrow. During this time, Senators are asked to 
submit any additional questions for the record, and upon 
receipt, we would ask our nominee to submit written answers to 
the Committee as soon as possible so that we can get about the 
process of scheduling you and reporting you out of here and 
getting you to the floor for a vote.
    So with that, I thank Members of the Committee.
    Thank you, Mr. Ross, for your willingness to serve our 
country, and for those who came with you today, and your wife, 
Hilary, for your patience. It's a long hearing, but it's an 
important one.
    So with that, this hearing will be adjourned.
    Mr. Ross. Thank you, Senators.
    [Whereupon, at 1:55 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                          Wilbur L. Ross, Jr.
    Question 1. The United States faces growing cybersecurity threats. 
As recent news reports show, malicious hackers harm our economy and 
national security through unauthorized access to private sector 
intellectual property, sensitive data, and critical infrastructure. 
Cyberespionage costs companies billions of dollars every year. While 
Congress and the Department of Commerce's National Institute of 
Standards and Technology (NIST) collaborated on the successful 
Cybersecurity Framework for Critical Infrastructure, the battle is far 
from over. Under your leadership, what will be the Department's 
approach to working with industry in order to combat ongoing cyber 
threats?
    Answer. Cybersecurity is a huge and immediate problem. 
Strengthening our cybersecurity is critical to U.S. trade and national 
security. If confirmed, I will work proactively through NIST and with 
our interagency and industry partners to address the cybersecurity and 
privacy challenges that our Nation currently faces and will regularly 
review the Department's efforts to ensure that markets remain open to 
U.S. innovators.

    Question 2. The Committee has struggled for some time with 
receiving timely responses to letters, questions following hearings, 
and other requests for information from NOAA. There have also been 
instances when the Congressional Budget Office (CBO) has had a hard 
time getting responses from NOAA, which has slowed down CBO's ability 
to issue scores on bills the Committee is trying to advance. Such 
delays make effective Congressional oversight and passing legislation 
difficult, and are unacceptable. Do you commit to ensuring NOAA 
provides me and my staff with timely and complete responses to 
inquiries?
    Answer. If confirmed, I will do my best to ensure that all 
components of Commerce including NOAA will be responsive.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Wilbur L. Ross, Jr.
    Question 1. The Department of Commerce has a critical role to play 
in protecting U.S. industries from the unfair practices of our trading 
partners. This has been particularly true over the last 30 years with 
respect to our domestic softwood lumber industry, which the outgoing 
administration recognized as a ``vital'' part of the U.S. economy just 
last June.
    Forest products are certainly a vital part of Mississippi's 
economy, generating more than $1.1 billion in 2015. I support trade 
practices that will allow the softwood lumber industry to continue to 
thrive in my state and across the country. Over 350,000 Americans work 
in the softwood lumber industry, and approximately 11 million private 
U.S. landholders depend on the strength of that industry in managing 
their own family-owned timberlands.
    With the 2015 expiration of the softwood lumber agreement, the 
Department of Commerce is once again at the forefront of protecting 
U.S. jobs through its enforcement of the United States' trade remedy 
laws.
    Are you committed to the strong enforcement of our Nation's 
antidumping and countervailing duty laws, and will the use and 
enhancement of trade remedies be a priority for the Department?
    Answer. I will work with all the stakeholders, including those at 
Commerce and the other Federal agencies, industry and the Congress, to 
ensure U.S. companies can compete in international markets while 
protecting our national security and foreign policy interests. I favor 
quotas to offset stumpage subsidies.

    Question 2. Recently, the President-Elect announced a Manufacturing 
Council to be coordinated by the Commerce Department and the 
President's Strategic Policy Forum. Each of these initiatives provide 
business leaders a forum to offer their expertise and advice to the 
Administration on how to grow the economy and create jobs. As you may 
know, multinational companies employ 20 percent of our Nation's 
manufacturing force and pay salaries 30 percent greater than the 
economy-wide average.
    Will you commit to ensuring that these companies have a seat at the 
table for both the Manufacturing Council and the President's Strategic 
Forum?
    Answer. If confirmed, I will do my best.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                          Wilbur L. Ross, Jr.
    Question. Mr. Ross, if confirmed, will you commit to taking all 
steps needed to ensure that FirstNet will stay within its existing $7 
billion authorization as the network is deployed, and that it will not 
come back to seek more money from Congress? It is important to me, and 
I expect that several of my colleagues on the Committee share this 
view, that the network be built in a cost-effective and efficient way.
    Answer. If confirmed, I look forward to being fully briefed on 
FirstNet and its deployment strategy. Based on press reports, I am 
concerned that existing delays point toward cost overruns and, if that 
appears to be the case, will make corrective measures a priority.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                          Wilbur L. Ross, Jr.
    Question 1. Commercial and recreational fishing provide significant 
contributions to our Nation's economy. Alaska's fisheries are by far 
the largest in the nation, accounting for over 50 percent of total 
domestic landings and more than 60,000 jobs--making the fisheries 
industry our largest private employer. Alaska is the superpower of 
seafood. In many communities, our fisheries are the backbone of their 
economy. The Magnuson Stevens Fishery Conservation and Management Act 
(MSA) is a big part of the reason that the United States has the 
world's best managed fisheries, particularly in Alaska, where we have 
no overfished stocks. A hallmark of the MSA is the Council process, 
which are stakeholder driven decision-making bodies that allow those 
most qualified and invested in the sustainability and health of the 
resource, the fishermen themselves, to make decisions regarding the 
management of their fisheries.
    Do you share our commitment to sustainable management of U.S. 
fisheries? Will you support maintaining the existing consensus-based 
regional council system for fisheries management?
    Answer. I share the Committee's commitment to sustainable fisheries 
as embodied in the Magnuson-Stevens Act. Good science on fish stocks 
and oceanic conditions is essential to meet the MSA's sustainable 
fishery goals. I also support the Council system, though I recognize 
that fishery management under the Council system faces different 
challenges in each region and look forward to working with each region 
to address those challenges.

    Question 2. In the middle of 2014, Russia put an embargo on seafood 
imports from the U.S. If we look at what the U.S. exported to Russia 
before this ban took effect, we can extrapolate and estimate that we've 
lost well more than $200 million in export value in those two and a 
half years--most of which would have come from Alaska. In that same 
period, the U.S. has imported roughly $1 billion in seafood from 
Russia. We know that the Trump Administration places a high value on 
having fair trade relationships our trading partners.
    How will you use your post as Secretary of Commerce to restore 
fairness to our seafood trade with Russia and other trade partners?
    Answer. Russia undoubtedly and unfairly used seafood as a response 
to our sanctions. We need to find a way to deal with it.

    Question 3. There is a significant backlog of hydrographic charting 
nationwide, which can adversely affect maritime commerce and increase 
the risk of marine casualties. This is a huge problem in Alaska where 
some areas off our coast have chart data collected back in the 1800s 
when Russia still owned the territory. There is potential to address 
this backlog through partnerships with the private sector, but there is 
a need for leadership to make this happen.
    Will you work with me to aggressively reduce this charting backlog 
and increase the use of public private partnerships to achieve this 
goal?
    Answer. Yes. The charting back-log poses a significant challenge. 
If confirmed I look forward to being briefed on this issue and working 
with the Department and Congress to address it.

    Question 4. For Alaska, NOAA's missions--managing our Nation's 
fisheries, charting our waters, and providing accurate weather 
forecasting--are of significant importance. Yet, much of the NOAA 
staffing and infrastructure for Alaska is located elsewhere.
    Will you work with me to ensure NOAA personnel and assets are 
deployed in a manner that makes sense for both completing the mission 
and the taxpayers?
    Answer. Yes. I support cost-effective measures to improve the 
NOAA's ability to carry out its mission, and, if confirmed, look 
forward to working with Congress to implement those measures.

    Question 5. The increasingly ice free Arctic is one of the most 
dynamic regions of growth and investment on Earth. Russia continues to 
make investments to develop the Northern Sea Route to not only export 
natural resources from Russia's Arctic, but also to increase 
international transshipment with Asian countries. The United States has 
virtually no strategic infrastructure along its Arctic coastline. The 
United States remains critically unprepared to manage an Arctic open 
for business.
    If confirmed, would you be willing to work with my office on 
advancing ways to address infrastructure investment in the Arctic?
    Answer. Yes. If confirmed, I look forward to being briefed on the 
efforts to date to improve America's position in the Arctic and working 
with Congress and the State of Alaska to enhance those efforts.

    Question 6. In 2018, the International Whaling Commission will 
consider quota renewal for our subsistence whaling communities in 
Alaska. The Department of Commerce plays a critical role in preserving 
the ability for our Alaska Native communities to continue whaling as 
they have for millennia.
    If confirmed will you work to ensure that our communities can 
continue to hunt the bowhead whale?
    Answer. Yes. If confirmed, I look forward to learning more about 
the Department's work to support Alaska Native subsistence whaling.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Cory Gardner to 
                          Wilbur L. Ross, Jr.
    Question. Mr. Ross, in January, the President signed into law my 
legislation, the American Innovation and Competitiveness Act, which I 
introduced with Senator Peters, Chairman Thune, and Ranking Member 
Nelson. This legislation promotes the great work the American 
scientific community has done to make America globally competitive and 
aims to refocus our research efforts to keep us competitive.
    A portion of this bill highlights the national network of 
Manufacturing Extension Partnerships (MEPs), which provide small 
manufacturers with resources and guidance to improve manufacturing 
processes and bolster domestic manufacturers. My state's MEP, 
Manufacturer's Edge, has helped numerous Colorado manufacturers gain a 
competitive advantage and the success of the MEP program is a great 
example of valuable public-private partnerships.
    Will you commit to supporting the MEP program to ensure that our 
Nation's manufacturers have the tools that they need to compete on a 
global playing field?
    Answer. I have heard only good things about the NIST Manufacturing 
Extension Partnership. If confirmed, I look forward to being fully 
briefed on the program and will carefully consider it when allocating 
resources within the Department.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Todd Young to 
                          Wilbur L. Ross, Jr.
    Question 1. Intellectual property is crucial to the well-being of 
our economy. More money is spent on Research & Development in the U.S. 
than in any other country in the world. In fact, approximately 30 
percent of the American workforce is employed either directly or 
indirectly in IP-intensive industries. In order to continue 
accelerating the pace of innovation in our economy, our trading 
partners must all play by the same rules with respect to market access 
and protecting intellectual property. How do you plan to utilize trade 
negotiations to ensure that any potential new trade agreements achieve 
true 21st century standards in pharmaceutical IP, including, 
patentability, patent term linkage, patent linkage, and data protection 
(at least 5 years for small and at least 12 years for large molecules)?
    Answer. If confirmed, I look forward to being fully briefed on 
intellectual property issues. Intellectual property rights should be 
part of any new negotiations with our trading partners, and agreed upon 
provisions in both existing agreements and new agreements need 
enforcement vigorously and urgently.

    Question 2. Mr. Ross, one issue we discussed in our meeting was the 
sheer size and scope of the Commerce Department and the challenges that 
alone presents to you in leading such a large organization. We also 
discussed the many opportunities to streamline department functions, 
reduce redundancies, and eliminate certain Federal Government functions 
that should be left to the states or private sector. Can I get a 
commitment from you that you will report to me within 180 days of your 
confirmation on efficiencies you will recommend to streamline the work 
of the Commerce Department?
    Answer. If confirmed, I intend to conduct a thorough review of the 
Department's programs and will urgently develop and report an 
efficiency program.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Wilbur L. Ross, Jr.
    Question 1. Last Congress, this committee hosted two weather-
related hearings: one on the communication of weather information and 
the other on hurricanes. Since you live on one of Florida's beautiful 
barrier islands, I know you personally understand these issues. To save 
lives and property, we simply must have accurate, timely, and 
consistent forecasts delivered in a way that is meaningful so that 
people take action to protect themselves. This is the essential 
function of the National Weather Service.
    Would you agree with me, then, that the dedicated employees of the 
National Weather Service--like trained meteorologists--are essential 
public safety personnel? There are vacancies at the National Weather 
Service that threaten public safety, and I can tell you that rehiring 
those positions takes months on end. NOAA has been working to improve 
the efficiency of the hiring process.
    Answer. I agree that the National Weather Service serves an 
essential function. Timely and accurate weather information is crucial 
to protect both lives and property, and is also essential to the smooth 
functioning of numerous areas of commerce, including aviation, 
shipping, fishing and farming, to name just a few. Proper staffing the 
NWS is therefore important and, if confirmed, I intend to review the 
current efforts and see how they can be improved.

    Question 2. Will you commit to addressing the employment vacancies 
and exempting National Weather Service public safety employees from any 
hiring delay or freeze?
    Answer. If confirmed, I will do my best to quickly fill all 
essential positions at the National Weather Service.

    Question 3. In 2007, the National Science Board recommended the 
establishment of a National Hurricane Research Initiative. At the time, 
Senator Mel Martinez and I introduced legislation to create one. It 
didn't pass, but NOAA initiated one anyway and called it the Hurricane 
Forecast Improvement Project. The goal was to reduce the error of 
hurricane track and intensity forecasts by 20 percent within five years 
and by 50 percent within 10 years. NOAA has met the five-year goal, 
which is excellent. But it is essential that we continue that progress 
and meet the ten-year goal. That's why I worked with the former 
Chairman of this Committee, Senator Rockefeller, to hold hearings on my 
bill to congressionally authorize the program. That is why I have 
worked with Senator Rubio for two Congresses in a row now to authorize 
the program. Sure enough, in 2016 we had an active hurricane season in 
Florida, which devastatingly cost lives, damaged property, and harmed 
our economy. We intend to get the bill signed into law, but in the 
meantime will you also commit to maintaining and supporting NOAA's 
Hurricane Forecast Improvement Program?
    Answer. As a resident of Southern Florida, I certainly appreciate 
how important it is that our communities have accurate warnings and 
forecasts. If confirmed, I look forward to being fully briefed on the 
National Weather Service and its programs. As I stated at the hearing, 
it is my experience that European forecasts have been more accurate, 
and I am optimistic that the new satellites that NOAA is launching will 
provide better information that will restore the NWS to world 
leadership in terms of accurate and timely weather forecasting. I am 
pleased to learn that the Hurricane Forecast Improvement Project has 
been successful to date, and I look forward to learning more about it 
and working with you on this important issue.

    Question 4. Your questionnaire mentions that one of the tasks at 
the Department of Commerce requiring dedicated management attention is 
``launching three more NOAA satellites.'' To which satellites are you 
referring?
    Answer. My understanding is that the next three scheduled launches 
are the JPSS-1 polar orbiting satellite in 2017, and the GOES-S and 
GOES-T geostationary satellites in 2018 and 2019, respectively. These 
are the satellites to which I was referring. These satellites are a 
significant expense item in the Department's budget that must be kept 
on track.

    Question 5. You graciously provided responses to written questions 
that I sent you prior to this hearing. One of those questions had to do 
with NOAA's aging fleet of ocean-going ships. I was glad to see in your 
answer that you know from experience how older inefficient vessels can 
limit the mission of a fleet. NOAA maintains a fleet of aircraft from 
which they take scientific readings, like the fleet of hurricane 
hunters that fly around, on top of, and even right through the monster 
storms. These hurricane hunter planes are aging. In fact, during 
Hurricane Hermine, NOAA had to ground its one and only Gulfstream jet 
to do emergency repairs. Luckily, the National Science Foundation and 
the University Corporation for Atmospheric Research were able to step 
in so that they still got the measurements we needed to know what the 
storm would do. Would you agree with me that it's too risky to not have 
a backup plan for planes that are aging?
    Answer. As you know from my previous answer, my experience with 
managing shipping assets makes me well acquainted with the costs and 
inefficiencies of operating older equipment. If confirmed I look 
forward to learning more about the status and issues associated with 
the hurricane hunter aircraft and will weigh carefully the options for 
their expeditious replacement if needed.

    Question 6. This committee led the effort to create the National 
Network for Manufacturing Innovation, currently known as Manufacturing 
USA, which is a network of public-private institutes that promote 
advanced manufacturing in the United States. The Manufacturing USA 
network is spearheaded by an interagency office housed at NIST. 
President-elect Trump has pledged to bring well-paying manufacturing 
jobs back to the United States. In this effort, if confirmed, will you 
continue to support the Manufacturing USA network in order to promote 
the growth of advanced manufacturing in the U.S.?
    Answer. I have heard only good reports about the Manufacturing USA 
program, and look forward, if confirmed, to a thorough briefing on it. 
As you are aware, President Trump intends to make increased 
manufacturing in the United States a priority, and programs like 
Manufacturing USA would appear to be in line with that goal.

    Question 7. Since the E.U. has very few phosphate reserves, they 
rely heavily on imports. However, the E.U. levies a 6.5 percent tariff 
on U.S. phosphate producers, while the U.S. levies no tariff on 
phosphate entering our country. That tariff largely shuts out U.S. 
producers from European markets, leaving it to producers from China, 
Morocco and other countries to export to the E.U. What do you plan to 
do to address this problem?
    Answer. I believe in fairness, equality and reciprocity in trade 
relations. If confirmed, I will look into the situation with respect to 
phosphates and other items where exports from the United States are 
treated differently from imports into the United States. To the extent 
there are existing tools available to the Department to address the 
issue I would give serious consideration, after consultation with the 
White House and Congress, to making expeditious use of those tools.

    Question 8. According to some news reports, President-elect Trump 
detests multilateral trade agreements. What do you believe is the best 
way to harmonize regulatory standards across a variety of trade 
partners, particularly with regard to the automotive industry, medical 
device industry, boating industry, aerospace industry, and other high 
tech industries?
    Answer. One benefit of reviewing and re-opening as needed our 
existing trade agreements, as well as negotiating agreements with new 
partners, is that the negotiations present an opportunity for the 
United States to harmonize regulatory standards in different industry 
sectors through these new agreements. By negotiating on a bilateral 
basis, the United States can maintain a consistent position with 
respect to standards and each negotiating partner can decide for 
themselves whether accepting our proposed standards is an acceptable 
exchange for access to our markets.

    Question 9. You have stated that a top priority will be making 
changes to the North American Free Trade Agreement (NAFTA). Please 
provide some examples of how you would like to change NAFTA?
    Answer. It is obviously premature to discuss the details of what 
might be negotiated, but during the campaign concerns with compliance 
and with trade agreement details were frequently raised. NAFTA issues 
of concern include rules for country of origin, dispute resolution 
mechanisms, and simultaneity of concessions. Addressing these concerns 
will be part of any future negotiations.

    Question 10. In Section 9 of your Ethics Agreement, you commit to 
divesting yourself of significant assets within 90 days and additional 
assets within 180 days. How do you intend to handle potential conflicts 
of interest that may arise during this extended period of retained 
ownership?
    Answer. In the event that a matter involving an asset I still hold 
should arise, I assure you that I will recuse myself in accordance with 
the commitments that I made in my ethics agreement. Further, I will at 
all times rely on the monitoring and judgment of the Department's 
ethics officials to ensure that I do not participate in any matter 
about which they advise me that a conflict of interest would arise.

    Question 11. If confirmed, you will be responsible for overseeing 
the decennial census in 2020, which is required by the U.S. 
Constitution and used to apportion seats to states for the House of 
Representatives, redistricting state legislatures, and distributing 
Federal funds to local communities. The 2010 Census was far costlier 
than initial estimates due in large part to poor planning and lack of 
oversight of its acquisitions. I am concerned that the Census Bureau is 
repeating some of the same mistakes.
    Will you commit to working with the administration to make sure it 
has the necessary resources and provide regular briefings to Congress 
to ensure that the Census Bureau effectively manages the 2020 Census so 
that it is completed on time, on budget, and accurately?
    Answer. I will do my very best to ensure that there is a full, fair 
and accurate 2020 Census, and I look forward to working with the Census 
Bureau, the Congress and the public in this regard.

    Question 12. The American Community Survey (ACS), which replaced 
the census long form, is conducted every year, and responses are 
mandatory. The purpose of the ACS is to get more timely and accurate 
information about communities across the country so that local and 
state governments and the Federal Government can make informed 
decisions about the best allocation of resources. Nevertheless, some 
are concerned that the ACS is too detailed, and privacy advocates worry 
about the amount and type of information the Federal Government 
collects. Do you support efforts to keep the ACS mandatory?
    Answer. If confirmed, I look forward to being fully briefed on the 
American Community Survey. I would like to work with the Census Bureau, 
the Congress and the public to address any concerns and make the ACS as 
effective as possible in providing full, fair and accurate census data.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Wilbur L. Ross, Jr.
    Question 1. I am concerned about the new Administration's 
orientation toward Russia and their autocratic leader, Vladimir Putin, 
especially after the intelligence community's stunning conclusions 
about Russia's attempts to influence our elections.
    You, personally, have experience working with people who are quite 
close to President Putin. After the Bank of Cyprus was forced to 
confiscate deposits to stay afloat, many from wealthy Russians 
suspected of using Cyprus for laundering money and evading taxes back 
home, you led a group to purchase a large portion of the bank, helping 
bail out many of these Russian-insider investors.
    Several close Putin allies are large investors in the bank and 
serve on the Bank's board of directors. You've agreed to step down from 
your positon as vice chair of that very board, and divest yourself of 
those holdings, but obviously those relationships remain.
    How will you shift your focus to represent the interest of the 
American people instead of your former Russian business partners?
    Answer. The Russians who invested in the Bank of Cyprus were not my 
partners. The Bank of Cyprus is a publicly traded company listed on the 
London Stock Exchange. I had never had dealings with any of them prior 
to my investment in the Bank. I have only met once, for one hour, the 
principal Russian investor, and then only after he had invested in the 
Bank.

    Question 2. The National Telecommunications and Information 
Administration (NTIA) is principally responsible for advising the 
President on telecommunications and information policy issues.
    Historically, NTIA's programs and policymaking focus largely on 
expanding broadband Internet access and adoption in America, expanding 
the use of spectrum by all users, and ensuring that the Internet 
remains an engine for continued innovation and economic growth. These 
goals are critical to America's competitiveness in the 21st century 
global economy and to addressing many of the Nation's most pressing 
needs, such as improving education, health care, and public safety.
    In addition NTIA represents the President in both domestic and 
international telecommunications and information policy activities. 
NTIA is also a leading source of research and data on the status of 
broadband availability and adoption in America.
    Promoting a free and open Internet and unleashing spectrum for 
broadband applications have been two key drivers of domestic economic 
growth. And promoting these policies overseas have helped our tech 
companies gain and maintain strength. How do you intend to continue 
these policies in order to create jobs and promote the competitiveness 
that undergirds the success of the Internet economy?
    Answer. If confirmed, I will work with NTIA to promote the 
availability of spectrum for broadband applications and new innovation, 
including the Internet of Things, while ensuring that the long-term 
needs of the United States continue to be met.

    Question 3. The economy's future success depends on delivering 
educational opportunities in computer science based on proven 
strategies. Research funded through this program will enable educators 
to teach this critical subject more effectively and bring new skills to 
underserved communities. Computing jobs are growing in every industry 
and in every state. Despite this compelling fact, there are currently 
more than 20,000 open computing jobs in Washington state, and more than 
500,000 nationwide.
    The U.S. Department of Labor estimates there will be 4.4 million 
jobs in computer and information technology occupations by 2024. 
Despite the clear need for a workforce with coding and programming 
skills, students in 75 percent of our Nation's schools graduate high 
school with no computer science education.
    The American Innovation and Competitiveness Act S. 3084 which 
passed at the end of last year represents an important in investment in 
American ingenuity and continued and research and development to 
promote ingenuity and innovation.
    It improves the investment in computer science education by 
creating a program within commerce's National Science Foundation to 
promote research on computer science teaching models, tools, and 
materials, with a focus on instruction for low-income, rural, and 
tribal students.
    The program also emphasizes preparing incoming teachers to 
integrate computer science and computational thinking into their 
classrooms in innovative ways.
    What is your view on the role of government to support science 
research and computer science learning?
    Answer. I agree that science research and computer science learning 
are important to the economy. If confirmed, I look forward to working 
with the Department and Congress on this important issue.

    Question 4. Mr. Ross, I want to ensure that you are aware of an 
ongoing dispute between the U.S. and the European Union (EU) regarding 
illegal aircraft subsidies. Last September, the World Trade 
Organization (WTO) ruled that European governments had not removed the 
harm caused to America's aerospace sector by $17 billion of illegal 
subsidies and--to add insult to injury--found that the Europeans have 
dispensed and additional $5 billion in illegal subsidies for the 
development of the Airbus A350 wide body aircraft. That brings the 
total of illegal European subsidies for Airbus to $22 billion.
    In fact, the original WTO panel concluded: ``It is in our view 
clear that Airbus would have been unable to bring to the market the 
Large Commercial Aircraft (LCA) that it launched but for the specific 
subsidies it received from the European Communities and the governments 
of France, Germany, Spain and the United Kingdom.'' This company--that 
the WTO found would not have existed but for these huge government 
subsidies--drove McDonnell Douglas and Lockheed out of the commercial 
aircraft business, taking with them thousands of American jobs.
    Government subsidies to Airbus continue to destroy American jobs. 
As you may know, Boeing manufacturers the vast majority of its 
commercial aircraft in my home state of Washington. And, the export of 
these aircraft support high-skilled jobs in Washington State and 
throughout the country. According to the Commerce Department: ``In 
2015, the U.S. aerospace industry contributed $144.1 billion in export 
sales to the U.S. economy. The industry's positive trade balance of 
$82.5 billion that year was the largest trade surplus of any 
manufacturing industry, supporting high-wage jobs for hundreds of 
thousands of American workers.''
    It is imperative that U.S. companies compete with overseas rivals 
on a level playing field. If confirmed, I would urge you and the rest 
of the incoming Administration to continue to press the Europeans to 
stop massively subsidizing Airbus aircraft.
    Answer. Based on everything I have read the WTO was correct in 
finding that Airbus received major illegal subsidies but erred in its 
finding that Boeing received illegal state support.

    Question 5. American competitiveness in critical parts of the 
global innovation economy is at risk. While the U.S. economy continues 
to rely on longstanding principles of private markets and competition, 
U.S. companies are increasingly facing competition in a host of 
industries from foreign companies backed by the power of their home 
governments.
    My colleagues and I in Congress are troubled to observe that 
certain foreign governments are subjecting American companies to 
antitrust investigations that lack due process protections in an effort 
to transfer U.S. patented technology to their domestic companies, or to 
insulate their domestic companies from U.S.-based competition. Korean 
and Chinese antitrust investigations in particular have targeted U.S., 
European, and other Asian life sciences companies, automobile 
companies, and technology companies.
    Over the past two years, we are aware of nearly 30 investigations 
across a range of industries--including manufacturing, life sciences, 
and technology--brought against foreign companies by Chinese and Korean 
antitrust authorities.
    In particular, foreign governments are using their antitrust 
authority to diminish U.S. intellectual property rights, including 
patent licensing. As you know, our patent system has been a driver of 
American innovation since the founding, and the protection of 
intellectual property has been a key component of American economic and 
foreign policy.
    The use of antitrust as a tool of industrial policy undermines U.S. 
patent rights, suppresses innovation, and puts U.S. competitiveness in 
the industry at risk. In addition, antitrust investigations in China 
and Korea have been marred by serious procedural deficiencies that 
violate fundamental norms of due process and are inconsistent with 
international trade obligations.
    How should the U.S. respond to these aggressive tactics to steal 
U.S. intellectual property? What mechanisms are available to U.S. 
companies subjected to industrial policy motivated competition 
investigations in foreign jurisdictions? U.S. trade agreements include 
important Intellectual Property (IP) and due process protections. If 
you are confirmed, how will ensure that our trading partners are living 
up to their end of the bargain to treat our companies fairly, including 
in competition proceedings? What actions do you recommend Congress 
pursue to address these challenges?
    Answer. I regard abusive ``anti-trust'' proceedings as one of the 
most insidious means of intellectual property theft and will work hard 
to prevent the perpetrators from benefitting from such activities. It 
may well be necessary for there to be Congressional action to deal with 
this problem and I look forward to working with you to determine if 
such action would be effective.

    Question 6. The U.S. semiconductor industry serves as an 
instructive example of the impact of foreign antitrust policy. 
According to a 2016 Report from the U.S. Patent and Trademark Office 
and the Economic and Statistics Administration, semiconductors are 
among the highest-value intellectual property-intensive exports from 
the United States, accounting for over $54 billion in exports. As a 
recent report on the semiconductor industry from the President's 
Council of Advisors on Science and Technology highlights, foreign 
government efforts to support their domestic companies through 
antitrust enforcement against foreign companies comes as several Asian 
companies position themselves to dominate the 5G wireless standard, 
which the international standards community is currently developing.
    The use of antitrust as a tool of industrial policy undermines U.S. 
patent rights, suppresses innovation in wireless technology, and puts 
U.S. competitiveness in the industry at risk.
    Are you concerned that these policies, if left unchecked, could 
result in foreign control of the 5G wireless standard? Do you agree 
that foreign control of the state-of-the-art communications standard 
would have serious implications for U.S. privacy and cybersecurity for 
years, if not decades? If confirmed, how would you address these 
national security concerns? How can we protect U.S. innovators from 
being eclipsed by government-backed competitors? If confirmed as 
Secretary of Commerce, what policies or initiatives would you pursue to 
bolster U.S. innovation and competitiveness in the global marketplace?
    Answer. It is my understanding that multiple bureaus of the 
Department are involved in tracking the development of the 5G wireless 
standards. I share your concern about foreign efforts to control 
standards or processes that are essential to continued innovation in 
communications and other important economic sectors. Standard setting 
is among the functions of NIST and, if confirmed, I do not intend to 
yield standard setting to foreigners.
    Intellectual property theft by government-backed competitors and 
State-owned enterprises is also an issue, and if confirmed I will work 
with the Bureau of Industry and Security, USPTO and other elements of 
the Department to address the multiple elements of this issue.
    Strengthening our cybersecurity is critical to U.S. trade and 
national security. If confirmed, I will work proactively with our 
interagency and industry partners to address the cybersecurity and 
privacy challenges that our Nation currently faces and will regularly 
review the Department's efforts to ensure that markets remain open to 
U.S. innovators.
    Foreign control of the semi-conductor industry is also a critical 
issue. If confirmed, I will work with the Bureau of Industry and 
Security and the Committee on Foreign Investment in the United States 
(CFIUS), along with other elements of the U.S. Government, to 
counteract this problem.

    Question 7. Washington state's export markets are our North 
American partners as well as Asia. Exports to Mexico, Canada, and China 
make up more than a third of Washington's total exports. These markets 
have allowed our state to enjoy a tremendous trade surplus and to 
create and maintain jobs, something I imagine you see as a goal for the 
Nation. However, the incoming Administration's proposed trade policies 
will likely have a negative effect on my state's trade. Do my apple, 
pear, and cherry growers, who together export more than $180 million of 
product to Mexico every year, need to worry about becoming the victims 
of a major trade dispute? How are your trade policies going to work for 
all of us and avoid jeopardizing the gains we've made in international 
trade?
    Answer. The choices are not NAFTA or a trade war. The President-
elect and I do favor renegotiation. Because agriculture is one of the 
activities that Americans do best, if confirmed, one of my goals in a 
renegotiation would be to increase our agricultural exports.

    Question 8. Our aerospace industry relies heavily on supply chain 
integration with Mexico and Canada, our North American partners. This 
is a sector where the U.S. value added is at 60 percent. The NAFTA 
agreement has enabled us to create a seamless supply chain, where 
inputs often cross the border multiple times before going into a final 
product. This has enhanced North America's competitiveness, allowing 
our industries to create 21st century jobs for America.
    You are likely familiar with similar cross-border synergies, having 
served as Chairman of the International Auto Components Group. 
Dismantling the agreement would severely impact Washington's aircraft 
industry and our entire state's economy. How will the incoming 
Administration's proposed policies ensure that these longstanding ties 
between private businesses continue to thrive?
    Answer. I am thoroughly familiar with the necessity for fully 
seamless supply chains.

    Question 9. You have been a vocal advocate of tariffs as a way to 
protect domestic manufacturers and increase domestic employment, but 
data consistently proves that imposing tariffs on imports does little 
to bring jobs back to the United States. For example, when the United 
States imposed significant duties on Chinese tire imports in 2009, 
estimates found that--at best--1,200 jobs were saved in the United 
States, but costs to American consumers went up by about $1.1 billion.
    That works out to a cost of $900,000 spent by Americans per job 
saved. Tariffs on other products would likely have the same effect--few 
jobs saved, since manufacturing would likely either shift to other low-
cost production sites or to more automation, rather than hiring more 
workers at home.
    Separate from that, of course, is the jobs that will be lost at 
home when our trading partners respond in kind by putting tariffs on 
imports into their countries or stop buying the goods and services of 
U.S. companies operating in their markets directly. Are you concerned 
the tariff proposals you are considering may ignite trade wars?
    Answer. As I said at the hearing, tariffs are simply one tool in 
our trade toolbox. Used properly, tariffs can be an effective tool to 
redress dumping and other unfair trade practices.

    Question 10. Thousands of U.S. businesses, large and small, have 
customers overseas. With the explosion of cloud computing, nearly all 
of them depend on their ability to transfer information rapidly and 
efficiently to and from facilities and customers outside the United 
States. Digitally-enabled trade to and from the United States amounts 
to more than $500 billion and generated a services trade surplus of 
over $230 billion. It has played a role in the creation of up to 2.5 
million U.S. jobs. But digital trade is vulnerable to protectionist 
restrictions imposed by foreign governments restricting the free flow 
of data and requiring that it be stored within foreign countries. These 
forced localization restrictions are increasing across the globe. The 
Commerce Department has been a leader in U.S. efforts to combat such 
restrictions. As Secretary, what efforts will you undertake with 
foreign governments to enable digital trade to thrive and grow?
    Answer. The United States must ensure continued trust in the 
privacy and security of the Internet, which is necessary to facilitate 
the continued free flow of information around the world. American 
businesses in the digital space, both large and small, depend on an 
online digital ecosystem that has the confidence of potential users and 
customers. That is why, if confirmed, I will ensure the Department of 
Commerce has a seat at the table, alongside intelligence, diplomatic 
and other agencies, in all policy discussions related to practices that 
may affect digital data flows.

    Question 11. American businesses of all sizes are world leaders in 
the new data-driven economy, driving the fields of cloud computing, 
data analytics, the Internet of Things, and others. They depend on the 
ability to transfer information across borders to and from the United 
States. However, many foreign governments are restricting the free flow 
of data. We are increasingly seeing policies that try to force U.S. 
businesses to shed jobs in the U.S. and localize them into foreign 
markets. Congress has called for action against digital trade 
impediments. The President has extensive trade enforcement authorities. 
As Secretary, what actions will you pursue to obtain a level playing 
field for America's digital trade champions?
    Answer. I oppose localization of data and if confirmed will work 
hard to protect our companies against it. It may well be useful to take 
some countervailing measures. As to Congressional action, if confirmed, 
I will work with Commerce Department's General Counsel to determine 
whether our response to the problem might necessitate legislation.

    Question 12. Transatlantic data flows are enormous, and critical to 
U.S. business and to job growth in the United States. But the European 
Union repeatedly has destabilized data transfers to the United States, 
most recently by invalidating the Safe Harbor Framework administered by 
the Department of Commerce. Commerce led successful efforts to put a 
successor agreement, the U.S.-EU Privacy Shield, in place in 2016. 
Close to 1,800 companies of all types and sizes already have joined or 
are in the process of signing up for the Privacy Shield. It is of 
particular benefit to smaller and medium-sized companies. European 
privacy advocates have challenged the Privacy Shield, however, 
including in a pending European court case. As Secretary, what efforts 
will you take to implement and defend this important agreement?
    Answer. If confirmed, as Secretary of Commerce I will be 
responsible for promoting the foreign and domestic commerce of the 
United States. I will do my best to do so in all areas, including with 
respect to digital trade and data privacy. Should the European courts 
find any essential part of the Privacy Shield is contrary to law, the 
Department will once again lead efforts to find a solution.

    Question 13. Cloud computing, data analytics and other 
technological advances have led to incredible growth in the amount and 
economic importance of data flowing between the United States and 
Europe. Small and large businesses of all kinds in the U.S. rely on 
data transfers to compete and grow in the EU. However, these data flows 
to the U.S. have been under attack in Europe. One of the most serious 
problems recently was the invalidating of the Safe Harbor Framework 
administered by the Department of Commerce. Concerns about U.S. 
Government surveillance of European communications were a principal 
cause of this attack on data flows to the US. The Commerce-negotiated 
successor agreement, the U.S.-EU Privacy Shield, has been enormously 
important for U.S. businesses to operate and expand in Europe. The 
ongoing success of the Privacy Shield requires European confidence that 
our government sufficiently respects foreign privacy interests when 
conducting national security surveillance. As Secretary, will the 
Commerce Department work with U.S. intelligence and diplomatic agencies 
to maintain the level of trust on which the free flow of data for 
commercial purposes depends?
    Answer. I am a strong believer in the benefits of cloud computing. 
If confirmed I look forward to learning more about the Department's 
work in this area and what additional steps the Department can take, 
both alone and in concert with other Federal agencies, to facilitate 
cloud computing and other forms of electronic commerce and 
communications.

    Question 14. The Commerce Department has an important role in 
licensing and enforcing U.S. export controls on dual use goods that 
could be used for either civilian or military purposes. There is always 
tension between promoting exports and the free flow of commerce and 
protecting U.S. national security. It is also difficult for the U.S. to 
keep up with technology as it rapidly improves to keep U.S. export 
policy up to date with current technology. What are your priorities for 
updating U.S. Export policy? How will you balance the promotion of 
exports and the control of technology to protect U.S. national 
security?
    Answer. I will work with all the stakeholders, including those at 
Commerce and the other Federal agencies, industry and the Congress, to 
ensure U.S. companies can compete in international markets while 
protecting our national security and foreign policy interests.

    Question 15. We do not want to give Russia, China or North Korea 
any additional tools to hack into U.S. systems and infrastructure. Our 
power grids and other infrastructure are already way too vulnerable. 
How will you make sure that Russian and other foreign companies do not 
end up with controlled U.S. Technology given some of their recent 
aggressive and hostile actions against the United States?
    Answer. If confirmed, I will review the existing controls with the 
relevant stakeholders to ensure the controls are sufficient to prevent 
sensitive U.S. technology from ending up in the wrong hands.

    Question 16. Mr. Ross, you have been quoted as being against free 
trade agreements including the Trans-Pacific Partnership and have 
stated that the U.S. needs a ``more radical, new approach to 
government.'' The TPP is significant as it includes for the first time 
ever in a fair trade agreement provisions protecting wildlife and farm 
animals, and some of the toughest environmental protections of any 
trade agreement in history. What does your approach to trade agreements 
look like and does it include consideration for environmental, farm 
animals, and wildlife protections?
    Answer. Those are certainly appropriate topics for negotiations. 
But I am a big believer in quantification of objectives and having 
clear tools for enforcement.

    Question 17. As the Secretary of Commerce, you would oversee NOAA, 
and the National Weather Service. President-Elect Trump has called for 
a ``hiring freeze on Federal employees to reduce the Federal 
workforce.'' This freeze would not apply to the military, or to jobs 
that impact public health and safety.
    Mr. Ross, if confirmed, would you determine that National Weather 
Service employees fall under the latter category: jobs that impact 
public health and safety? As of mid-December, more than 650 jobs were 
vacant at the National Weather Service, including many that are deemed 
``Emergency Essential'' by the Department of Commerce. Will filling 
these vacancies be a priority for you, if confirmed? What will you do 
to ensure that a huge employee deficit, like the one impacting the 
National Weather Service today, does not happen during your tenure as 
Secretary?
    Answer. An early priority, if confirmed, will be to meet with the 
management of the National Weather Service to understand why they have 
so many positions unfilled. I will take steps to see that ``emergency 
essential'' personnel responsibilities are being appropriately handled, 
and if I am convinced the NWS are understaffed I will work diligently 
to address the issue.

    Question 18. Under your leadership, what improvements could be made 
to the operations, management and effectiveness of the National Weather 
Service? Do you see opportunities for increased stakeholder engagement 
in identifying and addressing gaps in technologies and research?
    Answer. If confirmed, I look forward to getting fully briefed on 
the Weather Service and its programs. I agree the NWS plays a critical 
role in protecting lives and property, and I look forward to working 
with you and Congress to address these important issues.

    Question 19. One of the primary criticisms of the Weather Service 
is the fact that the operational forecasters at The National Weather 
Service are in a different silo compared to the NOAA scientists in the 
Office of Atmospheric Research (or OAR) who are tasked with research 
and development of new weather forecasting models, etc. While we have 
been aware of this problem for some time, very little has been done to 
address it. How do you propose we improve research, development and 
operations of weather research and operations between the National 
Weather Service and the Office of Atmospheric Research?
    Answer. See the answer to the previous question.

    Question 19. In 2011, Washington state became the first state to 
receive full dual polarization Doppler radar coverage--the best Doppler 
radar technology available. Despite this upgrade, there are still 
Doppler radar coverage gaps, including a large gap in Central 
Washington. Forecasting in this region is essential for emergency 
responders who need accurate and timely weather data to safely fight 
wildfires. This gap also impacts highly populated areas, including 
Seattle and Tacoma, because it is difficult to track weather systems 
approaching from the East. I am concerned that NOAA does not have a 
plan to fill the Doppler radar gap in Central Washington. As Secretary, 
will you work with me to address the Doppler radar gap in Central 
Washington?
    Answer. I agree that the NOAA plays a critical role in protecting 
lives and property through accurate and timely weather forecasting. As 
a resident of Southern Florida, I certainly appreciate how important it 
is that our communities have accurate warnings and forecasts. If 
confirmed, I look forward to working with you on this issue.

    Question 20. Every day men and women serving in the Coast Guard 
risk their lives to carry out search and rescue missions. On average, 
the Coast Guard conducts 45 search and rescue cases per day with many 
of these operations occurring in very remote areas of our country. 
Success of these missions and the lives of these brave men and women 
are heavily reliant on timely and accurate weather forecasts.
    If confirmed, what is your plan to improving weather data, 
forecasting, and modeling for remote areas of the country and ensuring 
these weather products are readily available to the Coast Guard and the 
public? There are a number of heavy weather stations in Washington 
state. These stations are in areas with significant oceanographic and 
atmospheric monitoring needs to ensure safe transportation there. Often 
buoys are damaged by extreme storms, or are lost at sea. Yet due to 
aging vessel assets and vessel availability, sometimes there is a long 
lag before NOAA weather buoys can be repaired. What will you do to 
improve response to broken and lost oceanographic infrastructure, 
particularly in areas that are known to be dangerous to mariners, as 
well as areas that are critical for Coast Guard search and rescue 
operations?
    Answer. I support NOAA's fleet modernization plan, which would help 
to address this issue. A clear goal of the Weather Service is to 
provide accurate and timely weather forecasting to the public, and if 
confirmed I look forward to learning more about the situation for 
Washington state and remote communities.

    Question 21. Believe it or not--fisheries will be a big part of 
your job as Secretary of Commerce. Part of supporting fishing and 
maritime jobs, is ensuring that we will continue to support and rebuild 
sustainable fish stocks that those jobs depend on. Will you support 
Pacific salmon funding including: Pacific Coastal Salmon Recovery Fund, 
the Mitchell Act, Salmon Management, Protected Species: Salmon, and 
hatchery funding?
    Answer. I have not yet been briefed on Pacific salmon fishing 
issues. If confirmed, I look forward to working with you on this 
important matter.

    Question 22. As Secretary of Commerce, you would oversee programs 
critical to job growth in Washington state's $30 billion maritime 
sector. Fishing supports shipbuilding, gear manufacturing, seafood 
processing, restaurant, trade and other jobs. Will you commit to making 
fishing jobs a priority of the Department of Commerce? What is your 
plan to support fishing and maritime jobs in the United States?
    Answer. I support sustainable fishing under the Magnuson-Stevens 
Act. By maintaining healthy fish stocks the Department of Commerce 
ensures the continuation of good jobs in the commercial and 
recreational fisheries and the marine industries that support fishing.

    Question 23. I understand that as a key part of the business plan 
for Diamond Shipping company--one of your ventures--was to build all 33 
tanker vessels overseas, in South Korea and Japan not in American 
shipyards. While you acquired this company when these 33 vessels had 
already been built, your S1 form submitted to the SEC in 2014 indicated 
that Diamond Shipping intended to build 6 new medium range tanker 
vessels in South Korea, for delivery in 2014 and 2016--when you had 
acquired shares and served as the Director. I am concerned that this is 
another example of exporting potential American middleclass jobs 
overseas, when we need good shipbuilding jobs here at home. As 
Secretary, what will you do to support American shipyards?
    Answer. I support NOAA's fleet modernization plan. All NOAA vessels 
are U.S. flagged vessels built and repaired in U.S. shipyards.

    Question 24. Yes or no: Do you support the Jones Act?
    Answer. As I said at the hearing, I support the Jones Act and 
believe it has been instrumental in maintaining American shipbuilding 
jobs.

    Question 25. In an effort to support American shipyards, what 
shipbuilding, training and other maritime workforce investments will 
you consider as a part of the Trump infrastructure plan?
    Answer. If confirmed, I look forward to working with the President 
and Congress to enact an infrastructure plan that maximizes jobs for 
American workers while improving our Nation's economic foundation and 
enhancing our technological leadership.

    Question 26. Thousands of commercial, subsistence and recreational 
fishermen have contacted me about protecting salmon in Bristol Bay, 
Alaska. Bristol Bay is home to the largest sockeye fishery in the 
world, and one of the largest Chinook fisheries. The commercial sockeye 
fishery is worth $1.5 billion alone, supporting thousands of jobs in 
Washington state.
    According to EPA's Draft Watershed Assessment released on April 30, 
2013, ``An Assessment of the Potential Mining Impacts on Salmon 
Ecosystems of Bristol Bay, Alaska'' (EPA 910-R-12-004Ba), the proposed 
Pebble Mine threatens Bristol Bay salmon habitat. The Pebble Mine would 
be one of the largest hard rock mines in the world and the largest 
copper porphyry mine in the United States. Water contamination and 
habitat loss from the construction and operation of a hard rock mine in 
Bristol Bay would put thousands of fishery-related family wage jobs at 
risk.
    NOAA is responsible for research and aspects of salmon management 
in the Bristol Bay region. What is your position on the proposed 
Bristol Bay Pebble Mine? Are you prepared to direct NOAA fishery 
scientists and economists to become more engaged with the EPA?
    Answer. NOAA scientists will provide comments on EPA permits for 
matters under NOAA's jurisdiction as part of the National Environmental 
Policy Act (NEPA) process. I look forward to reviewing those comments, 
and discussing this issue with you as it unfolds.

    Question 27. In addition to the $1.5 billion annual economic value 
of the Bristol Bay sockeye fishery, are you aware of the importance 
Bristol Bay salmon to Alaska Native subsistence users? Subsistence 
salmon harvest is 60 percent of the overall diet of most area 
residents. Not only is subsistence salmon at the center of Alaska 
Native culture, but today, an economic imperative as well. Are you 
familiar with the cost of living in rural Alaska? The cost of one 
gallon of milk can be as high as $10.00. There is no replacement value 
for subsistence fish that is a necessary part of the subsistence diet. 
How do you view the Department of Commerce's role in ensuring 
subsistence salmon users have healthy salmon runs for generations to 
come? How will your agency work with Alaska Native people to ensure 
they have a voice in fisheries management and research?
    Have you ever consulted with a federally-recognized Tribe? What 
training have you received regarding the Federal Government's treaty 
trust responsibility to Indian Tribes? What training will you receive 
to understand and participate in government to government consultation 
with Indian Tribes?
    The Council on Environmental Policy in the Executive Office of the 
President has been working with the Department of Commerce and NOAA to 
better support the Treaty Rights At Risk Initiative of the Northwest 
Indian Fisheries Commission. Will you support this work to ensure our 
tribes have fish for generations to come?
    Answer. If confirmed, I look forward to being involved in 
government to government consultations with Federally-recognized Tribes 
and being briefed on the treaties and statutes that are in place to 
protect subsistence fishing resources in Alaska and the Pacific 
Northwest. It is my understanding that the United States has been a 
global leader in ending high seas driftnet fishing practices that 
adversely impacted U.S. and Canadian salmon, and that the North Pacific 
Fishery Management Council regularly adopts fishing quotas and bycatch 
limits that are designed to ensure sustainable subsistence catches in 
Alaska.

    Question 28. The Commerce Department undertakes many important 
missions, and fisheries management is one of the most significant. As 
you know, commercial and recreational fishing provide material 
contributions to our Nation's economy. In 2015, the commercial marine 
fishing industry contributed $48.7 billion to the gross national 
product, and U.S. consumers spent an estimated $96 billion on fishery 
products. Some 8.9 million marine recreational anglers fished in 2015, 
contributing additional billions to the U.S. economy. Over the past 
twenty plus years, this Committee has overseen a significant 
improvement in the status of the Nation's fisheries. Since 2000, NOAA 
Fisheries reports that 40 formerly overfished species have been rebuilt 
and the number of overfished species has dropped from 92 to 38. 
Continuing this positive trend remains one of the Commerce Department's 
most important missions, since struggling fish populations curtail 
fishing opportunities.
    Do you share our commitment to improving sustainable management of 
U.S. fisheries, including increasing U.S. jobs and revenue for fishing 
businesses?
    What should the role of science be in fisheries management?
    What do you see as the primary challenges to improving fisheries 
management, and how would you address those challenges?
    In your submissions to the Committee, you stated that one of the 
principal challenges facing the Commerce Department is: ``Integrating 
Technology into the Department to improve efficiency as well as the 
timeliness, depth, and breadth of data . . .''
    Many fishermen and others have expressed concern about the nature 
of fisheries data collected by the National Oceanic and Atmospheric 
Administration, one of the Department's largest subagencies. 
Stakeholders doubt that NOAA collects data as efficiently and 
effectively as it could, and that antiquated internal processes limit 
the utility of that data when it is collected.
    How would you improve fisheries data collection and analysis? How 
important is user generated data, and to what extent can we leverage 
that data to improve the science behind fishery management decisions?
    Collecting, analyzing and deploying accurate and timely data on the 
nature, condition, and extent of our fisheries can help ensure that 
these stocks are managed in the most economically effective ways to the 
long-term benefit of our fishermen and fishing communities. As part of 
this system of management, electronic monitoring and reporting of catch 
can be a cost-effective way to more quickly and efficiently embrace 
these goals.
    Would you support continuing to integrate this technology in order 
to help fishermen by improving management?
    Answer. I share the Committee's commitment to sustainable fisheries 
as embodied in the Magnuson-Stevens Act. Good science on fish stocks 
and oceanic conditions is essential to meet the MSA's sustainable 
fishery goals. Collecting accurate information regarding directed 
fishing and bycatch is a critical component of effective fishery 
management. I am aware that stationing observers on smaller fishing 
vessels can be challenging. If confirmed, I would support continuing to 
work with industry to find cost effective, accurate and timely methods 
for catch and bycatch reporting in order to improve fishery management.

    Question 29. Two-thirds of all seafood landed in the U.S. is 
exported and two-thirds of those exports come from seafood companies 
operating in Alaska and the Pacific Northwest. Our most important 
markets are China, Japan and the EU. At least from a seafood trade 
perspective, the Trans-Pacific Partnership (TPP) was the kind of big 
win that President-elect Trump has touted for trade agreements. Japan 
reduced or eliminated tariffs for a number of important seafood 
products exported from Washington State, including Alaska pollock, 
Pacific cod and salmon. The U.S. didn't make any meaningful concessions 
because we have few tariffs on imported seafood. Washington state 
strongly supported the seafood provisions in the TPP which also could 
have set the stage for a T-TIP agreement that would have provided 
further benefits.
    Both NOAA Fisheries trade offices and the International Trade 
Administration should be working closely with our seafood industry to 
knock down foreign tariffs and eliminate other trade barriers. 
Washington seafood companies are facing strong headwinds from a strong 
dollar and stalled trade agreements.
    Will you make seafood export promotion a priority working through 
two key agencies within the Department of Commerce?
    How do you propose the Administration could work more closely with 
the fishing industry on trade priorities and vulnerabilities?
    Much of the Alaska fishing fleet is based in Washington, creating 
thousands of jobs in both states. Over the past five years, 
approximately 80 percent of Alaska's groundfish and crab production was 
sold to export markets--and about one-third of that production volume 
is reprocessed in China. After secondary processing in China, these 
products are re-exported to markets in Europe, the United States, and 
Japan--ultimately bringing money back to the United States and 
improving our trade deficit. Fishing companies and fishermen in 
Washington are concerned that significant import tariff adjustments to 
reprocessed Alaska groundfish and crab products could increase their 
cost of business, increase prices and harm our state's economy. Do you 
support maintaining the current tariff schedule for these products?
    Answer. If confirmed, I look forward to finding ways to address the 
current trade imbalance in fisheries so that our fishery resources 
create more jobs here in America. I have not been briefed on the work 
that NOAA fishery trade offices and the International Trade 
Administration are doing with industry, but if confirmed I will 
certainly learn more about those efforts and look forward to working 
with you and other members of the Committee on these matters.

    Question 30. The REFI Pacific Act was enacted into law as part of 
the 2014 National Defense Authorization Act. The REFI Pacific Act 
authorizes NOAA Fisheries to refinance a buyback loan originally issued 
in 2005 to the west coast groundfish sector. The original loan was 
issued to reduce capacity by decreasing the number of participants in 
the fishery through a voluntary buyback program to be repaid by the 
remaining participants in the fishery. While it effectively removed 
excess fishing capacity and was an important first step towards the now 
rationalized and sustainable fishery, the original loan resulted in 
unintended consequences for the remaining participants in the fleet, 
including:

  1.  The interest rate on the original loan is high, at 6.95 percent, 
        much higher than the treasury rate.

  2.  The landings fee used to collect the loan payment is high at 5 
        percent of ex-vessel landings value per trip.

  3.  Due to a failure of NOAA Fisheries to issue regulations in a 
        timely manner to implement the landings fee nearly $8 Million 
        in excess interest accumulated on the loan before payments 
        could be made.

    The REFI Pacific Act was enacted into law in order to lower the 
interest rate down to PRIME + 0 percent and lower the landings fee down 
to 3 percent or lower. At the time of its passage, we understood the 
cost of the legislation to be fully covered by the offsets provided in 
the NDAA. After enactment, the Office of Management & Budget determined 
that implementation of the Act would require a $10 Million 
appropriation to NOAA Fisheries to offset the foregone revenue to the 
Treasury.
    While NOAA included this $10M in its FY15 and FY16 Budget requests, 
the lack of completed appropriations bills has made securing this 
appropriation impossible. More importantly, we believe the OMB 
determination is in error and that such an appropriation should not 
even be required.
    Will you pledge, if confirmed, to work with my office and the other 
sponsors of the REFI Pacific Act as well as OMB to find an effective 
pathway forward to resolve this issue once and for all and provide our 
west coast fishermen with the economic relief they need? Would you 
support creative approaches, including third party financing to allow 
fishermen to pay off the loan, soonest?
    Answer. I have not yet been briefed on the REFI Act but if 
confirmed commit to reviewing the matter carefully to identify ways to 
resolve it.

    Question 31. I am concerned about potential conflicts of interest 
and appearance of conflicts between your position, if confirmed, as 
Secretary of Commerce, and your financial interest in the Diamond S. 
Shipping Group. In your letter to the Department of Commerce Designated 
Agency Ethics Official Mr. David Maggi, dated January 15, 2017, you 
stated your intent to retain financial interest in the Diamond S. 
Shipping Group, the second largest medium-range tanker company in the 
world. Diamond S. Shipping owns and operates 33 tanker vessels that 
transport petroleum and other potentially hazardous products. The 
Department of Commerce plays a significant role in oil spill research, 
mitigation, recovery and response of petroleum products, and plays an 
oversight role when oil is spilled from a ships, including medium range 
tankers. I request that you supply the members of the Senate Committee 
on Commerce Science and Transportation with a detailed accounting of 
which specific shipping and oil spill related activities you will 
recuse yourself from, if confirmed as the Secretary of Commerce.
    In March 1989, the Exxon Valdez tanker spilled 11 million gallons 
of oil in Prince William Sound in Alaska, resulting in devastating 
impacts to the environment and the regional economy. Shortly after, the 
Oil Pollution Act of 1990 (33 U.S.C. Sec. 2701 et seq.) was signed into 
law by President George H.W. Bush on August 18, 1990. The Oil Pollution 
Act is the primary law governing polluter liability, the Oil Spill 
Liability Trust Fund, and oil spill response, prevention and research. 
In summary, the Oil Pollution Act is how we make polluters--not 
taxpayers--pay for oil spills. The law grants the Department of 
Commerce significant authorities and responsibilities with regards to 
oil spill response and environmental restoration. In the decades since 
the passage of this iconic bill, former Secretaries of Commerce have 
had a critical role in oil spill response, enhancing and expanding oil 
spill monitoring, research, risk management and economic development 
activities related to oil spills under their authority.
    As Secretary of Commerce, you would oversee oil spill activities 
related to the shipping industry. Your decisions could impact the 
regulatory environment for both your own and your competitor's shipping 
companies. You would also have authority to determine the financial 
liability facing tanker companies that pollute our waters.
    In your letter to Commerce ethics on January 15, 2017, you stated:

        ``I will not participate personally and substantially in any 
        particular matter that to my knowledge has a direct and 
        predictable effect on the financial interests of the entity or 
        its underlying assets for as long as I own it, unless I first 
        obtain a written waiver, pursuant to 18 U.S.C. Sec. 208(b)(1), 
        or qualify for a regulatory exemption, pursuant to 18 U.S.C. 
        Sec. 208(b)(2).''

    However, when I inquired about your intentions to recuse yourself 
from oil spill related duties if confirmed at your nomination hearing 
in the Department of Commerce, your response was:

        ``The research has suggested that there has never been a 
        shipping case before the Commerce Department.''

    The Exxon Valdez tanker oil spill is a glaring example of a 
``shipping case'' before the Department of Commerce. It has been 27 
years since this oil spill--and the Department of Commerce and the 
National Oceanic and Atmospheric Administration (NOAA) are still 
monitoring, studying and mitigating the oil spill impacts to the 
environment. In 2014, NOAA published a report on the lessons learned 25 
years after the spill. The report contained a catalog of devastating 
ongoing impacts including the likely local extinction of a pod of 
orcas, severe damage to Pacific herring populations, and significant 
declines in important forage fish species in the marine ecosystem.
    While you stated that your research had not identified a shipping 
case before the Department of Commerce, your own Securities and 
Exchange Commission filings contradict your statement to the Senate 
Commerce Committee. Diamond S. Shipping Group's 2014 S1 Form filed with 
the Securities and Exchange Commission outlined the Oil Pollution Act 
as a law that applies to the company's shipping operations, and 
therefore, investors such as yourself. The Department of Commerce is 
responsible for carrying out significant portions of the Oil Pollution 
Act. This clearly presents a conflict of interest between your 
potential role as Secretary, and your role an investor in the shipping 
industry as a participant, and a competitor.
    To that end, I ask you to clarify the types of activities that you 
will recuse yourself from, if you are confirmed, as the Secretary of 
Commerce. Specifically, will you recuse yourself from:

  <bullet> Natural Resource Damage Assessments related to oil spills in 
        the marine environment or other environments that fall under 
        the Department of Commerce (33 U.S. Code Sec. 2706);

  <bullet> Oil spill monitoring decisions, including oversight of the 
        Federal budget requests with respect to monitoring during and 
        after oil spills, as well as determinations with regard to 
        developing baseline datasets needed for future oil spill 
        Natural Resource Damage Assessments (33 U.S.C. Sec. 2712);

  <bullet> Federal fishery disaster determinations in areas during or 
        after an oil spill (16 U.S.C Sec. 1861a and 1864);

  <bullet> Oil spill research, including oversight of the NOAA budget 
        on oil spill prevention, response, risk management, policy and 
        other research (33 U.S.C. 2761 and 2762);

  <bullet> Any decisions related to NOAA's participation on the 
        Interagency Coordinating Committee on Oil Pollution Research 
        (33 U.S.C. 2761) as well as any influence on the prioritization 
        of agency exclusive or collaborative oil spill research 
        projects and initiatives;

  <bullet> Membership, actions, and decisions related to the Gulf Coast 
        Ecosystem Restoration Council as established by the Resources 
        and Ecosystems Sustainability, Tourist Opportunities, and 
        Revived Economies of the Gulf Coast States Act (33 U.S.C. 
        1321):

  <bullet> Any oversight of oil spill response, preparedness, 
        prevention, risk assessments and research which relate to Puget 
        Sound (33 U.S.C. 2761).

    Answer. I am fully supportive of the vital work NOAA is engaged in 
with respect to planning for and executing responses to oil spills in 
our Nation's marine waterways, for assessing natural resource damage 
that results from such spills, and for working on mitigation and 
recovery plans. As I hope I made clear in my testimony, I regard the 
scientific enterprise of NOAA, and other elements of the Commerce 
Department, as a great national resource. Particularly as a Floridian, 
I share your concern for protection of all marine environments, and for 
the economic disruption that may result from an oil spill in vital 
commercial waterways.
    You are certainly correct that, if confirmed, my duties as 
Secretary of Commerce will include oversight to ensure effective 
execution by NOAA of its oil spill response and recovery 
responsibilities. Indeed, it is exactly because of my role as head of 
the Department, as well as my commitment to these programs, that I 
cannot undertake the broad and preemptive recusal that you propose. 
Your proposal is far broader than the recusal required by Congress in 
section 208 of Title 18, United States Code, and the Executive Branch 
in implementing regulations. This law and the implementing regulations 
are administered by Department of Commerce ethics officials and the 
Office of Government Ethics, both of whom review and determine the 
extent of any recusals necessary under the law.
    As you know, Congress in section 1006 of the Oil Pollution Act (33 
U.S.C. 2706) specifically identified the NOAA Administrator as the 
primary person in the Department responsible for natural resource 
damage assessment implementation. The vast majority of NOAA oil spill 
response and recovery activities are conducted within NOAA by 
scientists, NOAA Corps officers, and other professionals under the 
direction of NOAA's Administrator and Assistant Administrator, and the 
NOAA Administrator will remain the lead official in the Department in 
this regard. In the unlikely event that a matter involving a vessel 
associated with Diamond S. Shipping Group should arise, I assure you 
that I will recuse myself in accordance with the commitments that I 
made in my ethics agreement. Further, I will at all times rely on the 
monitoring and judgment of the Department's ethics officials to ensure 
that I do not participate in any matter about which they advise me that 
a conflict of interest would arise.
    If there is another unfortunate event of the magnitude of the Exxon 
Valdez or Deepwater Horizon disasters, then there may well be a need 
for leadership and support of NOAA's efforts at the Secretarial level. 
In such a case, and only with the agreement of the Department's ethics 
officials, it would be my duty as Secretary to provide the public and 
the President the benefit of my experience to supplement that of the 
NOAA Administrator.

    Question 32. I am also concerned about other Department of Commerce 
activities regarding shipping--

  <bullet> NOAA maps and monitoring anthropogenic sound impacts on the 
        marine environment--including shipping noise. Shipping noise 
        has had a negative impact on endangered Southern resident orcas 
        in Puget Sound and the Salish Sea. Will you recuse yourself 
        from anthropogenic sound research, funding for research, risk 
        assessments and related endangered species act consultations?

  <bullet> As that shipping noise has an impact on Southern resident 
        orcas, will you recuse yourself from all activities related to 
        Southern resident orca conservation, research, and critical 
        habitat determinations and consultations?

  <bullet> Will you recuse yourself from ballast water policy, 
        research, treatment technology evaluations and invasive species 
        introduction risk assessments and consultations?

    Answer. I share your concern for the marine environment and 
recognize the many different and complex interactions that can have 
impacts on the health of the marine ecosystem. Invasive species 
transported by ballast water and noise in the marine environment are 
two significant examples of how activities vital to our Nation's well-
being--for example maritime commerce and national defense--can have 
unintended impacts on the marine environment. NOAA plays a crucial role 
in researching and understanding these impacts, and in recommending and 
implementing strategies to address or mitigate them. I fully support 
the work NOAA and other agencies of the Department do in this regard.
    The recusal you request above goes well beyond the scope required 
by law and my ethics agreement and would hinder the performance of my 
duties to the public and the President should I be confirmed as 
Secretary of Commerce. If confirmed, I will faithfully execute the law 
and the commitments in my ethics agreement, and will follow the advice 
of the Department's ethics officials with respect to any matter about 
which they advise me that a conflict of interest would arise.

    Question 33. You are founder and former Chairman of the 
International Coal Group, a subsidiary of Arch Coal. Arch Coal was a 
partner in the proposed Longview coal export terminal until May 2016, 
when it gave up its 38 percent share to Lighthouse Resources, the 
project's last remaining supporter. This move came after Arch filed for 
bankruptcy in January 2016. After receiving a $275 million bankruptcy 
loan, Arch announced that it would continue its operations, despite 
laying off hundreds of miners. In October 2016 the company announced 
its intent to submit a bankruptcy exit strategy in early 2017.
    As Secretary of Commerce, you would be responsible for overseeing 
departments that play a major role in protecting waterways from coal 
pollution.
    Will you recuse yourself from research, analysis, policy and budget 
recommendations regarding the impact of coal dust to marine habitats in 
Washington and the United States?
    Do you believe in Climate Change and that humans are part of the 
problem? Or do you believe it is a ``hoax'' like President-Elect Trump?
    Please describe the role of the Department of Commerce in 
combatting climate change?
    I am very concerned about the impact of ocean acidification to 
marine resources. In Washington state ocean acidification is a jobs 
issue. The shellfish industry supports thousands of jobs in Washington, 
and shellfish are dying because their shells are dissolving. 
Furthermore, ocean acidification impacts species up the food chain, 
including salmon-which also support thousands of jobs and billions in 
economic activity. Mr. Ross, as someone with a history operating coal 
companies which contributed to climate change, how will you work to 
support ALL jobs, including the jobs impacted by burning coal in my 
state?
    Answer. To be clear, Arch Coal acquired International Coal Group in 
2011. I have never had a position with Arch Coal.
    I share your concern for protection of all marine environments, and 
for the economic benefits that accrue from healthy waterways. The work 
of NOAA in support of these goals is one of the vital missions of the 
Department. While I expect the NOAA Administrator to exercise primary 
policy and administrative oversight of these responsibilities, I will 
lead the Department and participate in decisions as necessary and 
appropriate. If confirmed, I will faithfully execute the law and the 
commitments in my ethics agreement, and will follow the advice of the 
Department's ethics officials with respect to any matter about which 
they advise me that a conflict of interest would arise.

    Question 34. NOAA currently operates and maintains a fleet of 16 
ships with a goal of providing 235 days at sea per ship, annually. 
These vessels provide ocean observation data and support crucial 
species stock assessments which are critical for the health and 
economic vitality of our Nation's fisheries. Currently, 8 ships in the 
fleet will either meet or exceed design service life by 2028.
    If confirmed, how would you avoid a gap in NOAA Corps fleet 
capabilities to ensure timely and fiscally responsible recapitalization 
of the NOAA Corps fleet?
    Answer. I support modernization of NOAA's fleet. If confirmed I 
look forward to being briefed fully on NOAA's current plans and working 
with you and other members of the Committee to avoid the gap you 
describe.

    Question 35. The West Coast of the United States is a risk from a 
near-field tsunami, generated from the 800 mile long Cascadia 
subduction zone located off the coasts of Washington, Oregon and 
Northern California. Due to the close proximity of the fault, small 
warning windows, the magnitude of previous earthquakes resulting from 
the fault, and growing populations in the tsunami zone, this could be a 
devastating national emergency with a potential loss of life of over 
14,000 Americans. More than 7,000 highway bridges and 16,000 miles of 
roadway are expected to suffer moderate to severe damage, including all 
routes to the Pacific Coast and Washington's major east-west corridors 
and ports. The four-day Cascadia Rising exercise carried out in Pacific 
Northwest in June revealed a grossly inadequate plan and lack of 
resources available to sufficiently address the Cascadia scenario.
    As Secretary of Commerce you will be responsible for all tsunami 
forecasting, monitoring, warnings, and research.
    Is investing the Department of Commerce's time and resources to 
expand and enhance the country's tsunami preparedness a priority for 
you?
    If confirmed, what steps and actions will you take within your 
authority to improve and ensure the best available technology is used 
to protect the tens of thousands of people who will be impacted by a 
Cascadia Rising tsunami event?
    I am particularly concerned about the Coast Guard members, and 
their families, stationed in the Cascadia inundation zone. I have been 
working with the Pacific Marine Environmental Laboratory to improve 
data available to the Coast Guard for contingency planning needed to 
assist the Coast Guard in preparing for a tsunami event. If confirmed, 
will you support continuing the relationship between Coast Guard 
District 13 and the Pacific Marine Environmental Laboratory? What other 
suggestions do you have to improve data availability and coordination 
to the Coast Guard?
    Answer. I support utilizing every cost-effective means at the 
Department's disposal to improve the accuracy and usefulness of NOAA's 
weather and oceanic data in order to protect life and property. Tsunami 
warnings are important to protect people in coastal areas prone to such 
events, and if confirmed I look forward to learning more about the 
Department's tsunami warning systems and working with Congress to 
address the needs of affected coastal areas.

    Question 36. Aluminum had been very important to my state for many 
years. However, unfair trade practices have driven ALCOA to close 
smelters and eliminate jobs in Washington state and around the country. 
In 2015, aluminum smelting and fabricating was prioritized, along with 
steel, in bilateral negotiations, including the Strategic & Economic 
Dialogue (S&ED) and the Joint Committee on Commerce and Trade (JCCT).
    In order to level the playing field and bring back American jobs 
for manufacturing sectors that have been adversely affected by 
pervasive overcapacity such as aluminum and steel, what policies will 
this administration put forward?
    What is the new Administration's plan to address overcapacity in 
bilateral engagements with China?
    The USTR announced that it is filing a consultation request at the 
WTO regarding subsidies for Chinese aluminum smelters.
    What role to you anticipate the Department of Commerce to have in 
that and similar cases addressing pervasive overcapacity of Chinese 
production in the future?
    Answer. As long as the Chinese have massive overcapacity they will 
continue to dump. State-owned enterprises are not required to make a 
profit because state owned banks continue to prop them up. This sort of 
behavior is part of the proof that China is not a market economy. If 
confirmed, I will seek to implement faster and more certain 
enforcement, ensure collection of duties that are imposed, and will 
include a discussion of the State-owned enterprise problem in all 
future trade negotiations with the aim of presenting a common front 
against this problem.

    Question 37. How would you anticipate the Department of Commerce 
strengthening trade enforcement activities, particularly in cases where 
foreign producers are using innovative but questionable trade practices 
including transshipment, intentional product misclassification, and 
other tools of circumvention, to avoid U.S. tariffs and AD/CVD orders--
as is the case for aluminum metal and for specific aluminum products?
    How will the U.S. Department of Commerce foster and protect high 
growth, innovative U.S. manufacturing sectors such aluminum?
    Answer. If confirmed, I intend to address transshipment, 
misclassification and other questionable trade practices as part of all 
future trade agreements. By addressing these and other issues in fair 
and balanced trade agreements we create an environment in which 
innovative businesses can thrive and provide high quality jobs here in 
the United States.

    Question 38. The U.S. Department of Commerce works closely with 
other U.S. Government agencies to promote U.S. exports. One of those 
agencies is the U.S. Export-Import Bank (EXIM Bank). However, EXIM Bank 
does not have a quorum on its Board of Directors and it is currently 
unable to support deals over $10 million. In 2014, the Bank authorized 
more than $20 billion in export financing and supported almost 165,000 
American jobs. However, last year, because it did not have a quorum, it 
was only able to do a fraction--authorizing $5 billion in financing and 
supporting 52,000 jobs. The Bank has been without a quorum despite 
having broad bipartisan support in both chambers as demonstrated when 
it was reauthorized by a supermajority in 2015.
    Given the Bank's ability to reduce risk and help American 
manufacturers stay globally competitive, do you agree that the Export-
Import Bank should be fully operational?
    Do you agree that a working quorum is needed as soon as possible 
for American job growth?
    Answer. I agree that some form of financing is needed to provide a 
level playing field for American companies to export their products 
overseas. This is particularly the case for small and medium size 
companies who lack the resources and expertise available to larger 
companies. Whatever mechanism Congress chooses to use needs to be able 
to make decisions and award financing in order to be effective in 
support American companies seeking to export overseas.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Wilbur L. Ross, Jr.
    Question 1. As Co-Chair of the Senate Broadband Caucus, I believe 
that expanding access to broadband is the infrastructure challenge of 
our generation. I have worked on ``dig once'' policies to coordinate 
highway construction and installation of broadband infrastructure and 
streamline regulations to promote broadband deployment. I understand 
you have experience with broadband deployment, including installing 
conduit to minimize repeated excavations, a key ``dig once'' principle.
    Given the leadership the Department of Commerce has shown on 
broadband issues, will you work with me to strengthen broadband 
deployment policies throughout the Federal Government including 
ensuring that any infrastructure investment efforts include ``dig 
once'' principles?
    Answer. I believe in the ``dig once'' principle and look forward to 
working with Congress to implement policies that promote broadband 
deployment in the most expeditious and cost effective manner possible.

    Question 2. The Broadband Opportunity Council was formed to 
coordinate efforts across the Federal Government to support and 
streamline broadband deployment. Twenty five Federal agencies and 
departments are members and it is co-chaired by the Department of 
Commerce and Department of Agriculture. In September 2015, the Council 
issued a report with its recommendations, which incorporated several of 
the comments I had submitted. Since the report was released some of the 
recommendations have been implemented, but there is still much work to 
be done.
    If confirmed, will you continue to work with agencies and 
departments across the Federal Government to promote broadband 
deployment, including by working to implement the outstanding 
recommendations from the Broadband Opportunity Council?
    Answer. Yes, I support broadband deployment as an important asset 
needed to promote jobs and facilitate advanced manufacturing and 
technology innovation. I look forward to being briefed on the 
Department's broadband efforts to date and working to maximize the 
effectiveness of the Department's programs in this regard.

    Question 3. In 2010 my bill, the Export Promotion Act, was signed 
into law to improve export assistance for small and medium-sized 
businesses. Since then, the U.S. Foreign and Commercial service has 
been doing excellent work in Minnesota to help these businesses find 
export markets they could never locate by themselves. I have also been 
an advocate of making our foreign embassies more outward facing with a 
greater focus on discovering opportunities for U.S. businesses. Do you 
agree that the Department of Commerce including the U.S. Foreign and 
Commercial Service have an important role to play in promoting exports?
    Answer. Yes. One objective of the President is to increase exports 
by U.S. companies, and the USFCS provides assistance to small and 
medium size U.S. businesses that otherwise would face significant 
barriers to entry in foreign markets due to lack of access to local 
knowledge and assistance understanding foreign government practices and 
regulations.

    Question 4. The 2006 Softwood Lumber Agreement expired in 2015 and 
the one-year extension of the agreement expired October 2016. I was 
active in urging the Obama administration to ensure that any negotiated 
solution provides a long-term solution that adequately addresses 
Canadian timber policies and subsidies. In July President Obama and 
Prime Minister Trudeau made a commitment to seek an agreement that 
maintains Canadian exports ``at or below an agreed market share.'' That 
commitment is vital because without an effective agreement to cap 
Canada's market share, Canadian subsidies will allow Canada to continue 
to gain a larger market share, displacing and harming U.S. 
manufacturers and mill workers. What are your views on the softwood 
lumber issue and how do you plan to work with the USTR to ensure that 
U.S. manufacturers and mill workers are protected?
    Answer. Because the Canadian softwood lumber industry continues to 
receive stumpage subsidies, the United States should take action to 
address that unfair trade practice.

    Question 5. As a former prosecutor and co-chair of the Next 
Generation 911 Caucus in the Senate I know how important it is for our 
public safety community to be able to communicate during times of 
crisis. FirstNet--the new national public safety broadband network--
will be an important tool for first responders in the field. As it is 
being implemented it is critical that states have a seat at the table 
and a chance to give meaningful input. In Minnesota this consultation 
process has gone well and I hope other states have the same chance to 
provide feedback. Do you agree that FirstNet should continue to work 
closely with state officials to make the new network a success?
    Answer. Yes. If confirmed, I look forward to being briefed on 
FirstNet and its deployment strategy. As I currently understand it, 
maximizing state participation is important in order to minimize the 
cost to each participant of using the network.

    Question 6. The Department of Commerce and the Economics and 
Statistics Administration provide crucial up-to-date information about 
the social and economic needs of communities. Both the 2020 Census and 
American Community Survey are important sources of this information. 
Still, most people aren't aware that business leaders heavily rely on 
this data.
    Will you continue to strengthen and promote the use of economic 
statistics provided by the Department of Commerce and are you committed 
to ensuring the Census Bureau has the resources it needs to conduct an 
accurate and efficient census in 2020?
    Answer. Yes. I understand the importance of conducting a full, fair 
and accurate Census in 2020, and look forward to working with the 
Census Bureau to accomplish that result. Throughout my business career, 
I have been a consumer of information provided by different bureaus of 
the Department of Commerce, and view the continued provision of 
information to the public by the Department as an important national 
resource.

    Question 7. Chinese officials have pushed for the United States to 
designate China as a market economy. Treating China as a market economy 
would allow China to bypass antidumping laws by manipulating prices to 
avoid dumping tariffs. In December President Obama announced the U.S. 
would not change China's status as a non-market economy. What is your 
position on granting China market economy status? How will you work 
with U.S. allies like the EU and Canada to support the U.S. position on 
China's market economy status at the World Trade Organization?
    Answer. I do not believe China is a market economy. As long as the 
Chinese have massive overcapacity they will continue to dump. State-
owned enterprises are not required to make a profit because state owned 
banks continue to prop them up. This sort of behavior is part of the 
proof that China is not a market economy.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Wilbur L. Ross, Jr.
    Question 1. Cybersecurity is a vital element of our national 
security and it is essential that there are protections in place to 
protect our nation, businesses, and critical infrastructure from 
sabotage and espionage. Last week, the National Institute of Standards 
and Technology (NIST) issued a draft update for its Cybersecurity 
Framework. This updated draft provides new details on managing cyber 
supply chain risks, clarifies key terms, and new measurement methods 
for cybersecurity. One concern often expressed about the Cybersecurity 
Framework is that its use in the industry is voluntary.
    If confirmed, what will you do to increase adoption of the 
Cybersecurity Framework and ensure that our trade secrets and critical 
infrastructure are adequately protected?
    Answer. Cybersecurity is a huge and immediate problem. 
Strengthening our cybersecurity is critical to U.S. trade and national 
security. If confirmed, I will work proactively through NIST and with 
our interagency and industry partners to address the cybersecurity and 
privacy challenges that our Nation currently faces and will regularly 
review the Department's efforts to ensure that markets remain open to 
U.S. innovators.

    Question 2. Do you agree with the designation of our election 
infrastructure as critical infrastructure? Will you commit to working 
with the Secretary of Homeland Security to ensure robust protection?
    Answer. If confirmed, I look forward to working with the Department 
of Homeland Security on a range of issues important to our trade and 
national security, including robust enforcement of our trade laws and 
effective responses to cybersecurity threats.

    Question 3. The Help America Vote Act and the Military and Overseas 
Voter Empowerment Act require NIST to work with the Election Assistance 
Commission to research and develop standards to help uphold voting 
rights--a bedrock of our Constitution. Can you assure me that you will 
do everything you can to ensure these laws are fully implemented?
    Answer. If confirmed, I look forward to being fully briefed on this 
issue and will work with NIST to effectively implement its statutory 
obligations.

    Question 4. Several reports in the past decade have shown that many 
of the forensic science practices relied upon in investigations and 
prosecutions lack foundational validity and require significant further 
research. In hundreds of recent exonerations, faulty forensics 
contributed to the wrongful convictions in almost half of these cases. 
NIST plays a crucial role in forensic science, particularly in 
conducting scientific research and developing science-based standards 
to ensure that any forensic science used in expert testimony is 
scientifically valid. It has organized hundreds of criminal justice 
stakeholders in a comprehensive effort to set standards for their use 
moving forward.
    If confirmed, how would you set the research agenda for forensic 
science? What mechanisms would you use to gather input to inform this 
agenda?
    Answer. If confirmed, I look forward to being briefed on what NIST 
has done to date to improve forensic science and will carefully 
evaluate those efforts.

    Question 5. If confirmed, will you continue to work with Members of 
this Committee and the Judiciary Committee to ensure that law 
enforcement and criminal justice stakeholders--such as judges, 
attorneys, and fact-finders--have the strongest and most accurate 
forensic tools possible to ensure that crimes are correctly solved, 
public safety is protected, and wrongful convictions are avoided?
    Answer. I agree that accurate and reliable forensics are an 
important tool in our criminal justice system, and look forward to 
working with Congress on this important issue.

    Question 6. I believe forensic science disciplines have a lot of 
promise to be an economic generator and jobs creator. America has led 
the way in standardizing the use of DNA in criminal proceedings; the 
scientific and technological advances upon which this work is based 
have also resulted in significant economic growth.
    If confirmed, will you commit to supporting this work at NIST, 
including ensuring sufficient resources are available to continue this 
work?
    Answer. NIST is instrumental to many important research and 
standards setting efforts, including this one. If confirmed, I will 
carefully evaluate NIST's priorities and will do my best to ensure that 
the available funding is used to maximum effect.

    Question 7. As you may know, NIST and the Department of Justice are 
party to an MOU that establishes a National Commission of Forensic 
Science, which formulates recommendations on matters such as 
accreditation requirements for forensic science service providers. The 
Commission's work has not been completed and I am interested in seeing 
that work continue.
    Will you direct the incoming director of NIST to renew the MOU and 
continue to fully support the Commission until its work is completed?
    Answer. If confirmed, I look forward to being fully briefed on the 
Memorandum of Understanding and the National Commission on Forensic 
Science. As stated above, I agree that accurate and reliable forensics 
is an important tool in our criminal justice system, and I will do my 
best to ensure that available funding for NIST is used to maximum 
effect.

    Question 8. Do you agree that establishing scientific underpinnings 
to forensic science is absolutely vital to ensuring the integrity of 
our criminal justice system? If confirmed, how would you work with the 
Department of Justice and broader criminal justice community to ensure 
that research results are incorporated into practice?
    Answer. If confirmed, I will work cooperatively with the Department 
of Justice to maximize NIST's ability to disseminate its research aimed 
at improving the Nation's forensic science capabilities.

    Question 9. The Department of Commerce plays an important role in 
leading research and setting guidelines on the use of facial 
recognition technology. For example, NIST has announced it will begin a 
new evaluation of facial recognition technologies starting in February 
2017, to better understand performance accuracy. As you may know, a 
recent study found that some face recognition algorithms have been 
shown to misidentify African-Americans, women, and young people at 
higher rates compared to whites, men, and older individuals, 
respectively. Such inaccuracies raise the risk that, absent appropriate 
safeguards, innocent African Americans and others may mistakenly be 
placed on a suspect list or investigated for a crime solely because of 
a flawed algorithm.
    If confirmed, do you commit to ensuring that NIST's facial 
recognition evaluation includes regular examination of whether facial 
recognition systems demonstrate racial bias?
    Answer. I support development and implementation of new 
technologies that are mission appropriate, cost effective and produce 
accurate, reliable results. I have not yet been briefed on NIST's 
facial recognition programs or the evaluation protocols being used. If 
confirmed I will endeavor to ensure NIST provides Congress and the 
public with the information needed to evaluate the usefulness of any 
new technology for its proposed public purpose.

    Question 10. If confirmed, do you commit to ensuring that NIST's 
facial recognition evaluation includes thorough analysis of real-time 
face recognition systems?
    Answer. If confirmed I will endeavor to ensure NIST provides 
Congress and the public with the information needed to evaluate the 
usefulness of any new technology for its proposed public purpose.

    Question 11. If confirmed, do you commit to make publicly available 
NIST's findings on the performance of facial recognition technologies 
on an ongoing and regular basis, and cooperating with law enforcement 
and other entities so that they are aware of any findings?
    Answer. I support public release of accurate scientific data and 
cooperation with law enforcement.

    Question 12. As I understand, when China joined the World Trade 
Organization, it agreed to open its market to foreign electronic 
payment companies, many of which are based in the U.S., no later than 
December 11, 2006. China failed to do so. In 2012, a WTO panel ruled 
that China has discriminated against U.S. card companies and must allow 
foreign electronic payment companies to process domestic transactions 
in China. Now, 10 years after China was supposed to open its market, 
and five years after the WTO decision, not a single U.S. company has 
been allowed to process domestic transactions in China. USTR has stated 
in its 2016 report to Congress on China's WTO Compliance that ``China 
has not yet taken needed steps to authorize access by foreign suppliers 
to this market.'' It is important for American companies to compete and 
operate internationally.
    If confirmed, what will you do to ensure that China's lives up to 
its WTO commitments in this area?
    Answer. The basic premise behind the U.S. Government's support of 
China's accession to the WTO was that China would play by the rules. 
That premise was incorrect. Stronger enforcement is the key to 
obtaining compliance.

    Question 13. As Secretary of Commerce, you would be in charge of a 
number of Bureaus that are chiefly scientific and research 
organizations.
    How would you foster a culture of scientific transparency and 
accountability, and protect scientists and engineers from political 
interference in their work?
    Answer. Science should be done by scientists. I support the release 
of factual scientific data.

    Question 14. American businesses that hope to reach consumers 
around the globe depend on access to markets. Increasingly, businesses 
reach consumers online. However, there are threats to these open 
markets, and the continued growth of and access to the digital economy 
is not guaranteed.
    To promote American business' access to consumers, what role should 
the Department of Commerce play in supporting and strengthening the 
digital economy by advocating for the free and open internet?
    Answer. Most of our existing trade agreements were negotiated and 
agreed to before the advent of the Internet. Our future trade 
agreements need to address the importance of the Internet to global 
commerce and ensure that the core attributes of the Internet's success 
remain intact.

    Question 15. Do you agree that a free and open Internet is also 
critical for businesses reaching consumers here in the U.S.?
    Answer. The United States must ensure continued trust in the 
privacy and security of the Internet, which is necessary to facilitate 
the continued free flow of information around the world. American 
businesses in the digital space, both large and small, depend on an 
online digital ecosystem that has the confidence of potential users and 
customers. That is why, if confirmed, I will ensure the Department of 
Commerce is at the table in all policy discussions related to practices 
that may affect digital data flows.

    Question 16. As you noted in your testimony, you have unique 
experience working to implement the Census early in your career. The 
responsibility for carrying out the Census falls under the Department 
of Commerce. This process is as old as the republic and is mandated 
under Article I, Section 2 of the Constitution. The data that results 
from conducting the Census has immense implications and is used to 
calculate the number of seats that each state has in the House of 
Representatives and helps to allocate critical funding for new roads, 
hospitals, schools, emergency services, and many other essential 
services in all of our communities.
    Given the Census' nationwide implications, having an accurate count 
of the U.S. population is paramount. Do you agree? How will you ensure 
that the Census remains free of political influence?
    Answer. If confirmed, I look forward to working with the Census 
Bureau and all stakeholders to ensure a full, fair and accurate count 
in Census 2020.

    Question 17. In your testimony, you state that expanding exports 
will be one of the top challenges facing the Department of Commerce. 
Connecticut has many aerospace manufacturers, and one entity we 
strongly support is the Export-Import Bank. Although the Export-Import 
Bank is often portrayed as helping only large corporations, we have 
many small businesses in Connecticut that are crucial parts of the 
supply chain for these larger companies and their products--
manufacturing the components of the planes, helicopters, and satellites 
that companies like General Electric and UTC sell overseas.
    The bank falls outside the Department--which has many trade-related 
responsibilities--but still the bank is critical to my state in 
advancing a goal we both agree should be a priority: increasing the 
export of American products. The President-elect has said in regards to 
the Export-Import Bank ``when you think about free enterprise, it's 
really not free enterprise. I'd be against it.'' But the Vice 
President-elect has voted to reauthorize the bank in the past. In your 
initial answers to this committee, you said ``you support the 
concept.''
    Would you agree that the Export-Import Bank provides an important 
source of support for many small manufacturers?
    Answer. I agree that some form of financing is needed to provide a 
level playing field for American companies to export their products 
overseas. This is particularly the case for small and medium size 
companies who lack the resources and expertise available to larger 
companies. Whatever mechanism Congress chooses to use, it needs to make 
decisions and award financing in order to be effective in support of 
American companies seeking to export overseas.

    Question 18. Will the incoming administration work to ensure that 
the Export-Import Bank has the resources it needs to continue its 
support for small manufacturers?
    Answer. I favor every tool that can increase effectively the 
present trivial percentage of businesses that export anything.

    Question 19. How will you ensure that the Administration's trade 
policies protect not just large exporters but smaller manufacturers as 
well?
    Answer. Over the course of my career I have worked with both large 
and small manufacturers, and am very familiar with the problems small 
manufacturers face. Small businesses account for a significant amount 
of innovation and job creation, so it is important to the President's 
objectives that our trade policies establish an environment in which 
both large and small enterprises flourish.

    Question 20. In section C(3) of the Committee's questionnaire, you 
were asked the following: ``Have you or any business or nonprofit of 
which you are or were an officer ever been involved as a party in an 
administrative agency proceeding, criminal proceeding, or civil 
litigation? If so, please explain.'' Your response listed eight 
proceedings and noted ``I have been associated with a number of 
corporations and other entities and, from time to time, such entities 
(including, in some instance, their directors, officers and employees) 
in the ordinary course, have been involved in judicial or regulatory 
proceedings relating to their businesses.''
    Please list and describe these judicial and regulatory proceedings, 
including any resolution.
    Answer.

  <bullet> Moncavage v. Faris et al., No. 9:14-cv-81378 (S.D. Fla.):
        This complaint was never served and was voluntarily dismissed 
        without prejudice 6 days after it was filed.

  <bullet> In re: International Textile Group Merger Litigation, C.A. 
        No. 2009-CP-23-3346 (Related Action: Menezes v. WL Ross & Co., 
        403 S.C. 522, 744 S.E.2d 178(2013)):
        I was named as an individual defendant. The case settled.

  <bullet> Saratoga Advantage Trust v. ICG, Inc. et al., No. 2:08-cv-
        00011 (S.D. W.Va.):
        I was named as individual defendant. The case settled.

  <bullet> City of Ann Arbor Employees' Retirement System v. ICG, Inc., 
        2008 WL 4509356 (S.D. W.Va.):
        I was named as individual defendant. The case was dismissed.

  <bullet> Giles v. ICG, Inc. et al., No. 3:11-cv-00330 (S.D. W.Va.):
        I was named among various individual defendants. The case 
        settled. This case was related to Kramer v. Ross, et al., Court 
        of Chancery of Delaware 6470-VC, which is listed in Attachment 
        Six of the questionnaire response. Another related action was 
        Isakov v. International Coal Group, Inc., et al., Court of 
        Chancery of Delaware 6505-VCP.

  <bullet> In re Mego Financial Corp. Securities Litig., 213 F.3d 454 
        (9th Cir. 2000):
        As I had been an outside director of Mego (the target 
        defendant), I was named as an individual defendant. The case 
        settled.

  <bullet> Weiss v. Sunasco Incorporated, 295 F. Supp. 824 (S.D.N.Y. 
        1969):
        As I was an outside director of Sunasco (the target defendant), 
        I was originally named as an individual defendant. I was later 
        dropped from the complaint.

  <bullet> In the Matter of WL Ross & Co. LLC (August 24, 2016):
        This was an SEC administrative proceeding. I was not 
        individually named.

  <bullet> Parker v. AHMSI Insurance Agency Inc. d/b/a Belt Line 
        Insurance Agency, No. 1:15-cv-23840 (S.D. Fla.):
        This case is currently pending in SD Fla., with several funds 
        named as defendants: WL Ross & Co., LLC, WLR AHM Co-Invest, 
        L.P., WLR IV Parallel ESC, L.P., WLR Recovery Fund III, L.P., 
        WLR/GS Master Co-Investment, L.P., WLR Recovery Fund II, L.P. I 
        am not individually named.

    <ctr-circle> Related Action: Nungester, et al., v. AHMSI Insurance 
            Agency Inc. d/b/a Belt Line Insurance Agency, No. 14-cv-
            7338 (S.D.N.Y.):
                This case was dismissed before any fund defendants 
                entered an appearance. I was not individually named.

  <bullet> DIGJAM Limited v. WL Ross & Co. LLC, 09-cv-01607 (S.D.N.Y.):
        This case was dismissed. I was not individually named as a 
        defendant.

  <bullet> Perez v. WL Ross & Co. LLC, No. 08-cv-00243 (N.D. Ill.).:
        This case was dismissed after initial status conference on 
        Plaintiff's own motion. WL Ross & Co. LLC was named as a 
        defendant, but I was not individually named.

  <bullet> Levchenko et al v. MERS et al, 1:10-cv-01804-NGG-LB 
        (E.D.N.Y.):
        WL Ross & Co. was named as a defendant, but I was not 
        individually named. WL Ross & Co was never a party because the 
        case was dismissed for failure to complete service.

  <bullet> Weinstein v. American Residential Funding, Inc. et al., 
        2:10-cv-00487-PMP-PAL (D. Nev.):
        WL Ross & Co. was named as a defendant in this case, but I was 
        not individually named. The case was dismissed with prejudice.

  <bullet> Mullin v. WL Ross & Co. LLC, 1:16-cv-10060-RJS (Dec. 30, 
        2016 S.D.N.Y.):
        WL Ross & Co. is named as a defendant in this pending case. The 
        complaint alleges breach of contract and fiduciary duty claims. 
        An initial conference has been set for February 24.

  <bullet> Sokolowski et al v. Erbey, 9:14-cv-81601-LSS (S.D. Fla.):
        Plaintiffs' motion to approve settlement in this securities 
        case is pending, and a hearing on the motion was held on 
        January 18. WL Ross & Co. is named as a defendant. I was also 
        individually named.

  <bullet> Hutt v. Erbey et al., 9:15-cv-80392-RLR (S.D. Fla):
        I was named as a defendant in this shareholder derivative suit 
        against Ocwen Financial. The case was voluntarily dismissed by 
        the plaintiff. It had previously been filed in the Northern 
        District of Georgia (1:15-cv-00891-WSD) and transferred.

  <bullet> Spreitzer et al v. Michitsch, 2:11-mc-00008-WFD (D. Wyo.):
        This pro se case named myself and WL Ross & Co. as defendants. 
        It was dismissed shortly after it was filed for failure to show 
        cause.

  <bullet> Bowen v. Farris, 1:16-cv-00799-TCB (N.D. Ga.):
        This case filed by a pro se plaintiff against Ocwen Financial 
        named me as a defendant. It was voluntarily dismissed by the 
        plaintiff.

  <bullet> Sparks, et al v. Ross, et al, 1:02-cv-00045-IMK (N.D. 
        W.Va.):
        This ERISA case focused on Anker Coal Group, Anker Group, Inc., 
        SIMBA Group, Inc., and Anker Energy Corporation. I was named as 
        a defendant individually because of my involvement with these 
        companies. The case settled.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                          Wilbur L. Ross, Jr.
    Question 1. If confirmed, you will likely play a leading role in 
formulating U.S. trade policy. During your tenure, we may revisit 
existing trade agreements and rethink the U.S. model agreement.
    A top priority should be reexamining our negotiating objectives in 
the Trans Pacific Partnership (TPP). When TPP was being negotiated, I 
was told that it would be the gold standard for environmental, health 
and safety, and labor standards. But when I read the final agreement 
closely, I was extremely disappointed. The commitments in TPP were 
basically just strongly worded suggestions with very few requirements.
    I was encouraged to hear that you have called for more ``stringent 
environmental and health and safety standards'' in trade agreements.
    What is your view of TPP's environmental, public health, and labor 
commitments?
    What should these commitments in U.S. trade agreements look like 
going forward?
    Answer. As you will recall from our meeting, I believe the long-
term objective should be to bring other countries up to our labor, 
environmental and health standards. The absence of reciprocal standards 
creates a competitive advantage for the country with the lower 
standards. In the future trade agreements should include reciprocal 
commitments in this regard and the necessary mechanisms to see that any 
commitments are enforced.

    Question 2. Another area I believe we need to revisit in our trade 
agreements is the inclusion of investor state dispute settlement 
(ISDS).
    ISDS provides a special forum outside of our well-established court 
system that is just for foreign investors. It is not open to domestic 
businesses, labor unions, civil society groups, or individuals that 
allege a violation of a trade agreement obligation.
    Foreign investors are given the right to sue governments over laws 
and regulations that impact their businesses. While the investors are 
only entitled to monetary damages, we have seen how ISDS can be used to 
extract changes in policy. In effect, ISDS gives foreign investors 
final say over laws and regulations meant to improve and protect the 
lives of Americans.
    What are your views on the inclusion of investor state dispute 
settlement in trade agreements?
    Answer. As you will recall from our meeting, I believe the long-
term objective should be to bring other countries up toward our labor, 
environmental and health standards. To do that we need to review 
carefully any dispute resolution mechanisms in future trade agreements 
to ensure that they do not create an opportunity for countries to use 
non-tariff trade barriers and dispute settlements to create a 
competitive advantage for their products.

    Question 3. When we talk about increasing America's exports, we 
should also aim to increase travel, which is our Nation's number one 
service export. In 2015, 77.5 million international travelers visited 
the U.S., spending $246.2 billion across the country.
    In Hawaii, travel and tourism is a major driver of our economy. 
These industries make up 20 percent of our economy and provide the 
state's second largest source of jobs.
    Because of the economic importance of travel, the Commerce 
Department developed a National Travel and Tourism Strategy in 2012. A 
primary goal of the strategy is to attract 100 million international 
visitors to the United States by 2021. Unfortunately, we are 22.5 
million short of meeting this goal.
    What would you do to help the U.S. meet our visitor goal and, more 
generally, to increase international visitation to the U.S.?
    Answer. If confirmed, I look forward to being fully briefed on the 
Department's efforts in this regard, and will work with you and other 
interested Members of Congress on this important issue. While there may 
be many ways we can advance the goal of promoting tourism, certainly 
efforts to increase the foreign exchange rate will assist in both 
increasing demand for U.S. exports and making the United States a more 
attractive travel destination, both of which help create more jobs in 
the United States.

    Question 4. At your hearing, I highlighted the important role of 
the Department of Commerce in convening other agencies for the purpose 
of developing U.S. tourism policy. Without the Department's leadership, 
it would be difficult to continue the productive cross-agency 
collaboration we saw during your predecessor's tenure. The Department 
has accomplished this through its active role on the interagency 
Tourism Policy Council and its National Travel and Tourism Office.
    In your response to my question about continuing the Department's 
role as convener, you mentioned your willingness to work with Elaine 
Chao should she be confirmed as secretary of the Department of 
Transportation. I wanted to follow up on your answer to ask about your 
commitment more broadly to interagency collaboration on tourism policy.
    Would you commit to continuing the Department's leadership in 
convening the relevant agencies to advance the U.S.'s travel and 
tourism policy?
    Answer. Advancing travel and tourism to the United States helps 
promote jobs and foreign investment in the United States. If confirmed, 
I look forward to being fully briefed on the Department's efforts in 
this regard, and will work with you and other interested Members of 
Congress on this important issue.

    Question 5. Cross-border data flows between the U.S. and Europe are 
the highest in the world. This movement of data is critical to 
students, families, businesses and promotes employment, free speech, 
innovation, and cultural expression.
    In 2015, the European Court of Justice invalidated a core agreement 
that governed the transfer of data between the EU and U.S. Fortunately, 
the Department of Commerce and their European counterparts successfully 
negotiated the EU-U.S. Privacy Shield Framework to provide companies on 
both sides of the Atlantic with a mechanism to comply with EU data 
protection requirements. The framework supports transatlantic commerce, 
while safeguarding individual's privacy. The Privacy Shield has seen 
great success so far. Nearly 1,400 U.S. organizations--big and small--
have certified their compliance with the framework.
    The framework is up for its annual review later this year and is 
currently being challenged in the EU courts.
    How will you ensure the Department of Commerce conducts an 
effective first review of the program in 2017 with European 
counterparts so the program can continue to operate smoothly for the 
benefit of all Americans?
    Answer. If confirmed, as Secretary of Commerce I will be 
responsible for promoting the foreign and domestic commerce of the 
United States. I will do my best to do so in all areas, including with 
respect to digital trade and data privacy. I will work with the 
appropriate agencies of government to ensure an effective review in 
accordance with our commitments under the Privacy Shield Framework. 
Should the European courts find any essential part of the Privacy 
Shield is contrary to law, the Department will once again lead efforts 
to find a solution.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                          Wilbur L. Ross, Jr.
    Question 1. Many important technologies and applications rely on 
unlicensed spectrum, which is typically used for Wi-Fi connectivity. 
How will you ensure that the Federal Government makes spectrum 
available for unlicensed uses?
    Answer. Unlicensed use of spectrum has been an engine of innovation 
and economic activity. This will continue as devices and applications 
for the Internet of Things proliferate. If confirmed, I will ensure 
NTIA continues to make spectrum available in a manner that advances 
innovation and economic prosperity as well as meeting the long term 
needs of the United States.

    Question 2. In order to meet our Nation's spectrum needs, we should 
share and more efficiently use spectrum. If confirmed, how will you 
promote research and deployment of technologies to share and more 
efficiently use spectrum?
    Answer. I support the efficient use of spectrum and look forward, 
if confirmed, to working with NIST and NTIA to enhance the Department's 
efforts in this regard.

    Question 3. Please list any deductible or nondeductible charitable 
donations you made in the last three years, including, for each 
contribution, the name of the recipient and the amount.
    Answer.

  1/02/2016      #4008      $2,000.00  Brigham and Women's Hosp.
  1/04/2016      #4009      $1,000.00  Glades Academy Fdn., Inc.
  1/10/2016      #4010     $10,000.00  Autism Speaks
  1/11/2016      #4012      $1,000.00  Boys' Club of New York
  1/18/2016      #4014        $500.00  Fountain House
  1/22/2016                 $1,000.00  Palm Beach Zoo
  1/23/2016      #4282      $5,000.00  Glades Academy Fdn., Inc.
  2/06/2016      #4291     $20,000.00  Blenheim Foundation
  2/08/2016      #4295      $2,000.00  Museum of the City of New York
  2/08/2016      #4296        $750.00  Southampton Fresh Air Home
  2/19/2016      #3818      $2,500.00  Society of the Four Arts
  2/22/2016      #4309      $1,000.00  Open Future Institute
  2/26/2016                   $250.00  Fountain House
  2/27/2016      #4310      $2,500.00  Prince of Wales Fdn.
  2/27/2016      #4025      $4,000.00  Mem. Sloan Kettering Cancer
                                        Center
  2/29/2016      #4026        $550.00  Central Park Conservancy
  2/29/2016      #4027      $2,000.00  Lenox Hill Neighborhood House
  3/20/2016      #4322      $2,500.00  SCO Family Dynamics
  3/20/2016      #4323        $500.00  American Friends of the Louve
  4/01/2016      #4223     $12,993.74  Duke Of Edinburgh Fdn.
  4/04/2016      #4236      10,000.00  Duke of Edinburgh Fdn.
  4/25/2016      #4246        $400.00  Kips Bay Boys and Girls Club
  4/30/2016      #4249      $1,000.00  Carnegie Hall Society
  4/30/2016      #4251      $2,500.00  PEN America
  4/30/2016      #4252        $500.00  Madison Square Boys & Girls Club
  4/30/2016      #4253      $2,000.00  Checkerboard Foundation,Inc.
  5/15/2016                 $3,050.00  Cancer Research Institute
  5/15/2016                $15,000.00  Cancer Research Institute
  6/05/2016      #4340      $2,000.00  Mem. Sloan Kettering Cancer
                                        Center
   6/5/2016      #4341        $900.00  Southampton Fresh Air Home
  7/28/2016                 $1,000.00  CureFA Fdn.
  8/19/2016      #4379      $5,000.00  Palm Beach Civic Association
  8/19/2016      #4380        $500.00  St. Andrew's Dune Church
  8/19/2016      #4381      $1,000.00  UCLA Medical Center Dept. of
                                        Neurosurgery
  8/19/2016      #4382      $1,000.00  Hearst Castle Preservation Fdn..
  8/19/2016      #4383      $5,000.00  Palm Beach Zoo
  9/01/2016      #4414      $1,000.00  Hope for Depression Research Fdn.
  9/12/2016      #4433     $25,000.00  Palm Beach Preservation Fdn.
  9/23/2016                $10,000.00  Federation of Cypriot American
                                        Org
 10/03/2016      #4491      $1,000.00  Animal Medical Center
 10/10/2016                 $5,000.00  God's Love We Deliver
 10/14/2016      #4505      $1,000.00  Groton School
 10/03/2016      #4492      $1,000.00  Palm Beach Zoo
 10/03/2016      #4493      $2,500.00  NYSPCC
 11/04/2016                   $500.00  Peggy Adams' Animal Rescue League
 11/27/2016      #4466         $75.00  Southampton Village Volunteer
                                        Ambulance
 11/28/2016                 $5,000.00  Brigham and Women's Hospital
 12/19/2016                $12,000.00  Metropolitan Museum of Art
 

    Question 4. During Mr. Trump's campaign, there were reports that 
even volunteers were required to sign non-disclosure agreements. After 
his election, President-elect Trump's team demanded lists of career 
officials who worked on climate science issues at the Energy Department 
and women's and gender issues at the State Department. Any suggestion 
that the incoming administration is targeting career officials for 
retaliation simply because they worked on policies that the new 
President disagrees with threatens to create a chilling effect on 
employees who are simply trying to do their jobs. It is against the law 
to retaliate against career officials for following lawful policy 
directives. It is also against the law to interfere with career 
employees communicating with Congress. I have included a summary of 
these laws below:

        5 U.S.C. Sec. 7211, provides that: The right of employees, 
        individually or collectively, to petition Congress or a Member 
        of Congress. or to furnish information to either House of 
        Congress, or to a committee or Member thereof, may not be 
        interfered with or denied. Pursuant to 5 U.S.C. 
        Sec. 2302(b)(8), it is a violation of Federal law to retaliate 
        against whistleblowers. That law states: Any employee who has 
        authority to take, direct others to take, recommend, or approve 
        any personnel action, shall not, with respect to such authority 
        . . . take or fail to take, or threaten to take or fail to 
        take, a personnel action with respect to any employee or 
        applicant for employment because of. . . . (A) any disclosure 
        of information by an employee or applicant which the employee 
        or applicant reasonably believes evidences--(i) a violation of 
        any law, rule, or regulation, or (ii) gross mismanagement, a 
        gross waste of funds, an abuse of authority, or a substantial 
        and specific danger to public health or safety, any disclosure 
        to the Special Counsel, or to the Inspector General of an 
        agency or another employee designated by the head of the agency 
        to receive such disclosures, of information which the employee 
        or applicant reasonably believes evidences a violation of any 
        law, rule, or regulation . . .'' In addition, pursuant to 18 
        U.S.C. Sec. 1505, it is against Federal law to interfere with a 
        Congressional inquiry: Whoever corruptly, or by threats or 
        force, or by any threatening letter or communication 
        influences, obstructs, or impedes or endeavors to influence, 
        obstruct, or impede the due and proper administration of the 
        law under which any pending proceeding is being had before any 
        department or agency of the United States, or the due and 
        proper exercise of the power of inquiry under which any inquiry 
        or investigation is being had by either House, or any committee 
        of either House or any joint committee of the Congress.

    If you are confirmed, will you commit to protect the rights of all 
career employees of the Commerce Department, including their right to 
speak with Congress? Will you commit to communicate employees' 
whistleblower rights via e-mail to all Commerce Department employees 
within a week of being sworn in?
    Answer. I will adhere to the law and contracts. If confirmed, I 
will also make sure that the employees of the Department know of their 
rights and protections under the Whistleblower law.

    Question 5. The President-elect appears to be planning to ignore 
the advice he was given by bipartisan ethics experts to divest himself 
from his business interests. Do you commit to ensure that no employee 
of the Commerce Department is pressured to take--or not take--any 
regulatory or enforcement action because that decision would adversely 
impact business interests associated with the President-elect or his 
family? If not, why not? If yes, how will you know exactly what all of 
the Trump family interests are in the absence of the release of his tax 
returns?
    Answer. If confirmed, I will work to ensure that I and all 
employees of the Department act with integrity and comply with all 
applicable laws.

    Question 6. As our environmental intelligence agency, do you 
believe that the National Oceanic and Atmospheric Administration (NOAA) 
should look at both short-term and long-term changes in our 
environment? What do you see as NOAA and the National Weather Service's 
role in working with communities prior to a weather event?
    Answer. Early and accurate weather forecasts and warnings, and 
hopefully increased coordination with emergency services as FirstNet is 
brought on line.

    Question 7. Given the importance of data collection to NOAA's 
mission, will you continue to support NOAA efforts to increase and 
enhance observations of the atmosphere and ocean, including physical, 
chemical, and biological parameters? Specifically, how will you 
continue increase and enhance the atmosphere and ocean observing 
systems?
    Answer. I will support NOAA's capital expenditure requests.

    Question 8. Will you continue to use NOAA's existing scientific 
integrity policy?
    Answer. The integrity of scientific examination and reporting on 
data is essential.

    Question 9. Education is a key component to ensuring we have a 
solid future generation of Earth scientists. NOAA's education programs 
provide lesson plans for teachers and support professional development 
opportunity. They also provide opportunities to students including the 
Ernest F. Hollings Undergraduate Scholarship Program and the Sea Grant 
John A. Knauss Fellowship. What are your educational priorities for 
NOAA, and how do you see education for students and teachers in NOAA's 
mission and critical functions?
    Answer. I believe that NOAA's educational initiatives are generally 
strong but, if confirmed, will encourage staff to develop even more 
outreach.

    Question 10. What are your priorities for the National Oceanic and 
Atmospheric Administration (NOAA) Fisheries and specific plans for 
maintaining continued success?
    Will you work with Congress to ensure that the Department of 
Commerce continues to allocate the appropriate personnel and resources 
to manage U.S. fisheries to the best extent possible?
    What is your approach for using science to achieve healthy stock 
levels, support a robust fishing industry and inform fisheries 
management decisions?
    Improving the data management system, including enhancing 
uniformity, standardization, and protocols will allow for a more 
responsive fisheries management process. What specific plans do you 
have to improve the collection and data management systems, given the 
current resources of NOAA Fisheries?
    Answer. I share the Committee's commitment to sustainable fisheries 
as embodied in the Magnuson-Stevens Act. Good science on fish stocks 
and oceanic conditions is essential to meet the MSA's sustainable 
fishery goals. Collecting accurate information regarding directed 
fishing and bycatch is a critical component of effective fishery 
management. I am aware that stationing observers on smaller fishing 
vessels can be challenging. If confirmed I would support continuing to 
work with industry to find cost effective, accurate and timely methods 
for catch and bycatch reporting in order to improve fishery management.

    Question 11. As Secretary of Commerce, what actions would you 
support to ensure that seafood brought to the market is legally caught 
and sustainable?
    Answer. I strongly oppose illegal importation of anything. Ensuring 
that seafood brought to the U.S. market is legally caught and 
sustainable is very important. I understand that NOAA is working on 
several initiatives on this front. I look forward to working with you 
and the Committee to address these important issues.

    Question 12. The Northeast published the first regional ocean plan, 
providing a framework for all the activities that occur within our 
ocean waters. This ground-up approach set out to better the cooperation 
from users and local governments to the state and Federal Government. 
Will you continue to support these regional plans?
    Answer. I look forward to reviewing the plans and intend to 
continue NOAA's participation in these collaborative efforts.

    Question 13. The National Weather Service is in negotiations with 
their employees' union for the first time in 15 years. Will you commit 
to allowing the process to continue as agreed upon already?
    Answer. If confirmed, I will promptly undertake to understand the 
status of the labor negotiations.

    Question 14. The National Ocean Service helps promote the swift and 
safe movement of vessels by providing important charting and mapping 
services. How will you ensure that our Nation's navigation charts and 
hydrography data are up to date and accessible?
    Answer. I agree that mapping and charting is an important function 
of NOAA, and, if confirmed, I look forward to working with the Congress 
to address this important issue.

    Question 15. The Commerce Committee questionnaire asked if ``you or 
any business or nonprofit of which you are or were an officer [have] 
ever been involved as a party in an administrative agency proceeding, 
criminal proceeding, or civil litigation.'' While you have identified 
eight lawsuits in which you were a party, you noted in your response 
that you could ``also have been associated with a number of 
corporations and other entities and, from time to time, such entities 
(including, in some instances, their directors, officers and employees) 
have been involved, in the ordinary course, in judicial or regulatory 
proceedings relating to their businesses.'' Will you commit to recuse 
yourself without waiver and for the entirety of your tenure at the 
Department of Commerce from participating in any issue relating to a 
case in which you (or your company, or an organization with which you 
were affiliated) were a named party? If no, why not?
    Answer. In the event that a matter involving an asset I still hold 
or a legal proceeding I was or am involved in should arise, I assure 
you that I will recuse myself in accordance with the commitments that I 
made in my ethics agreement. Further, I will at all times rely on the 
monitoring and judgment of the Department's ethics officials to ensure 
that I do not participate in any matter about which they advise me that 
a conflict of interest would arise.

    Question 16. Were you or any business or nonprofit of which you are 
or were an officer involved as a party in any of the following cases? 
If yes, please a) explain why each such case was not included in the 
response to your questionnaire, and b) respond to the question of 
whether you will commit to recuse yourself without waiver and for the 
entirety of your tenure at the Department of Commerce from 
participating in any issue relating to each such case, and if no, why 
not?
    Answer.
  <bullet> Moncavage v. Faris et al., No. 9:14-cv-81378 (S.D. Fla.):
        This complaint was never served and was voluntarily dismissed 
        without prejudice 6 days after it was filed. I was named as a 
        defendant, but was not a party because service was never 
        completed.

  <bullet> In re: International Textile Group Merger Litigation, C.A. 
        No. 2009-CP-23-3346 (Related Action: Menezes v. WL Ross & Co., 
        403 S.C. 522, 744 S.E.2d 178(2013)):
        I was named as an individual defendant. The case settled.

  <bullet> Saratoga Advantage Trust v. ICG, Inc. et al., No. 2:08-cv-
        00011 (S.D. W.Va.):
        I was named as an individual defendant. The case settled.

  <bullet> City of Ann Arbor Employees' Retirement System v. ICG, Inc., 
        2008 WL 4509356 (S.D. W.Va.):
        I was named as an individual defendant. The case was dismissed.

  <bullet> Giles v. ICG, Inc. et al., No. 3:11-cv-00330 (S.D. W.Va.):
        I was named among various individual defendants. The case 
        settled. This case was related to Kramer v. Ross, et al., Court 
        of Chancery of Delaware 6470-VC, which is listed in Attachment 
        Six of the questionnaire response. Another related action was 
        Isakov v. International Coal Group, Inc., et al., Court of 
        Chancery of Delaware 6505-VCP.

  <bullet> In re Mego Financial Corp. Securities Litig., 213 F.3d 454 
        (9th Cir. 2000):
        As I had been an outside director of Mego (the target 
        defendant), I was named as an individual defendant. The case 
        settled.

  <bullet> Weiss v. Sunasco Incorporated, 295 F. Supp. 824 (S.D.N.Y. 
        1969):
        As I was an outside director of Sunasco (the target defendant), 
        I was originally named as an individual defendant. I was later 
        dropped from the complaint.

  <bullet> In the Matter of WL Ross & Co. LLC (August 24, 2016):
        This was an SEC administrative proceeding. I was not 
        individually named.

  <bullet> Parker v. AHMSI Insurance Agency Inc. d/b/a Belt Line 
        Insurance Agency, No. 1:15-cv-23840 (S.D. Fla.):
        This case is currently pending in S.D. Fla., with several funds 
        named as defendants: WL Ross & Co., LLC, WLR AHM Co-Invest, 
        L.P., WLR IV Parallel ESC, L.P., WLR Recovery Fund III, L.P., 
        WLR/GS Master Co-Investment, L.P., WLR Recovery Fund II, L.P. I 
        am not individually named.

    <bullet> Related Action: Nungester, et al., v. AHMSI Insurance 
            Agency Inc. d/b/a Belt Line Insurance Agency, No. 14-cv-
            7338 (S.D.N.Y.):
                This case was dismissed before any fund defendants 
                entered an appearance. I was not individually named.

  <bullet> DIGJAM Limited v. WL Ross & Co. LLC, 09-cv-01607 (S.D.N.Y.):
        This case was dismissed on July 7, 2009. I was not individually 
        named as a defendant.

  <bullet> Perez v. WL Ross & Co. LLC, No. 08-cv-00243 (N.D. Ill.).:
        This case was dismissed after initial status conference on 
        Plaintiff's own motion. WL Ross & Co. LLC was named as a 
        defendant, but I was not individually named.

    Question 17. Will you support and advance on a timely basis the 
replacement of NOAA Fisheries' fleet of aging and outdated scientific 
research vessels to support the science necessary for effective 
management of the Nation's fisheries, especially given the changing 
ocean and climate systems?
    Answer. I support NOAA's fleet renovation program.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                          Wilbur L. Ross, Jr.
    Question 1. Last year, the Department of Commerce sought comment on 
issues relating to the Internet of Things as part of the agency's 
Digital Economy Agenda to help inform decisions to foster growth of the 
Internet of Things. I've worked with a bipartisan group of colleagues 
on legislation that would create an Internet of Things working group 
led by the Secretary of Commerce to further expand this technology and 
enable government to keep pace with innovation. Do you plan to continue 
the Department of Commerce's support for innovative new technologies 
including the Internet of Things?
    Answer. Yes. The NTIA and NIST both play direct roles in supporting 
innovative new technologies, including those that support the Internet 
of Things. If confirmed, I will work with NTIA to promote the 
availability of spectrum for broadband applications and new innovation, 
including the Internet of Things, while ensuring that the long-term 
needs of the United States continue to be met.

    Question 2. Previous administrations have recognized the broad 
benefits the digital economy brings to the overall U.S. economy. The 
Internet sector alone makes up 6 percent of U.S. GDP and is responsible 
for more than 3 million American jobs. Additionally, 75 percent of the 
value created by the Internet is captured by companies in traditional 
American industries who embrace the Internet to connect with new 
customers and suppliers.
    Past Administrations have made a point of having senior level 
technology advisors to help ensure our policies take these vast 
economic benefits into account.
    Will you prioritize the digital economy as secretary and will you 
appoint a senior digital economy official to advise you on these 
economically critical issues?
    Answer. I agree that it is important to be fully briefed on new 
technologies and the digital economy. To that end I will develop a 
structure to ensure that I receive the soundest advice possible.

    Question 3. The Department of Commerce is responsible for the 
release of vital data, whether through the National Institute of 
Standards and Technology (NIST) or at the Economics and Statistics 
Administration that releases GDP data and runs the Census. Are you 
committed to keeping with consistent release of information and data to 
the general public?
    Answer. I favor the prompt distribution of the maximum depth and 
breadth of high quality, reliable data that is feasible.

    Question 4. The National Oceanic and Atmospheric Administration 
(NOAA) makes up 60 percent of the Department of Commerce budget. Our 
nation's ocean economy contributes almost twice as much as the entire 
farm economy to the Nation's GDP and employs more people. How important 
do you think NOAA is to the Commerce Department's mission, and what do 
you think its most critical functions are?
    Answer. NOAA is hugely important. Improving the accuracy and 
timeliness of weather information will protect lives and property. 
NOAA's fishery activities are equally important, and it plays a vital 
role in providing accurate maps for safe navigation. Finally, I favor 
pure scientific research of all forms. As a resident of Southern 
Florida, I am very aware of the importance of these functions.

    Question 5. Will you commit to allowing NOAA to publish vital 
weather and atmospheric data so that the public can continue to be 
informed about the state of our environment?
    Answer. I am not aware of any artificial constraints on NOAA's 
publication of data and have no present intention of changing that 
situation.

    Question 6. The Exclusive Economic Zone (EEZ) of the United States 
encompasses an ocean area larger than that of any other country and one 
and a half times the size of the continental U.S. What do you see as 
NOAA's role in understanding and managing this area?
    Answer. NOAA has a clear role in the management and scientific 
exploration of the EEZ--from fisheries management, to reviewing 
activities for the exploration and extraction of resources, to mapping 
and nautical charting for safe and efficient navigation. If confirmed, 
I am looking forward to working with you on these matters.

    Question 7. Do you support the ability of coastal states to 
determine the consistency of Federal actions, including the leasing of 
Federal offshore lands for oil and gas exploration and drilling, with 
the states' federally approved coastal zone management programs, as 
required by the Federal Coastal Zone Management Act?
    Answer. If confirmed I intend to comply with the Coastal Zone 
Management Act.

    Question 8. Do you believe that government scientists should ever 
be restricted in when and how they communicate their research findings?
    Answer. Scientists should be free to communicate data clearly and 
concisely.

    Question 9. Is there ever a point in which a political appointee 
should ask a scientist to change or modify their research results?
    Answer. Scientists should be free to communicate data clearly and 
concisely.

    Question 10. NOAA's current scientific integrity policy 
articulates, among other things, that agency scientists should avoid 
conflicts of interest and conduct science free from political 
interference. Do you agree with these principles?
    Answer. Science is science and should not encompass bias. If 
confirmed, I look forward to a full briefing on NOAA's scientific 
integrity policy.

    Question 11. Commercial fishermen in the United States are 
currently struggling with the impacts of climate change. For example, 
two thirds of the commercial fish species in New England have moved 
northward due to warming waters. NOAA recently developed regional 
research plans to help better manage our commercial fisheries in the 
face of climate change. Will you support this research agenda?
    Answer. As I mentioned in the hearing, I have enjoyed talking with 
the Members of the Committee about the fishing interests in the 
different states. I understand that this is an important industry and 
that this is an important issue. If confirmed, I look forward to 
working with Congress on these issues.

    Question 12. NOAA oversees a large proportion of climate research. 
Will you maintain current budgets for that important area of science?
    Answer. I have not been briefed on the details of NOAA's budget and 
naturally have not reviewed NOAA management's recommendations. 
Supporting accurate and timely weather forecasts to safeguard life and 
property and facilitate commerce and tourism will be a priority.

    Question 13. Over the past three years, states from Maine to 
Virginia have worked in coordination with multiple Federal agencies, 
regional fisheries managers, and tribes--and with extensive industry 
and public involvement--to develop two regionally specific ocean plans 
that will help ensure the waters off our shores remain healthy and 
continue to serve as an economic engine for the long haul. The plans 
set out best practices for coordination between state and Federal 
agencies on a host of burgeoning issues from sand mining to aquaculture 
so that agencies will work together more efficiently to advance smart, 
responsible development. A great deal of effort has been invested in 
these plans and the states like mine expect to see Federal agencies 
keep their commitments. Will you support NOAA's continued engagement in 
these regionally-led efforts?
    Answer. I look forward to reviewing the plans and intend to 
continue NOAA's participation in these collaborative efforts.

    Question 14. This Committee, under the leadership of Senator 
Stevens and others, led the reauthorization of the Magnuson Stevens 
Fishery Conservation and Management Act in 1996 and again in 2006. As a 
result, the law now includes important requirements for sustainable 
management of our Nation's fisheries, including (1) an end to 
overfishing, (2) the setting of science-based annual catch limits that 
ensure that overfishing does not occur; and (3) the rebuilding of 
depleted fish populations to healthy levels. These requirements have 
led to a restoration to healthy levels of a large number of U.S. 
fisheries, a steady rise in the value of our Nation's seafood harvest, 
and made the U.S. a leader in sustainable fisheries. We are looked at 
as a model by other countries. Will you commit to helping us preserve, 
and not weaken, these current requirements in the law?
    Answer. In principle, yes. I have been very interested in hearing 
about the many diverse and important fishing interests around the 
country. It is clear that this is a very important industry and that 
this is an important issue to the Committee and the Nation's economy. 
If confirmed, I look forward to working with the Congress on these 
issues.

    Question 15. An estimated $1 billion of illegally caught seafood is 
imported into the U.S. annually, which undercuts law-abiding U.S. 
fishermen who are fishing fairly. Illegal seafood imports also 
undermine the sustainability of the world's fisheries by flooding the 
market with fish that have not had to meet the same protective 
environmental standards as U.S.-caught fish. In 2014, the U.S. convened 
a cross-government effort on Combating Illegal, Unreported and 
Unregulated (IUU) Fishing and Seafood Fraud to address the economic and 
environmental problems associated with IUU fishing. Since then the Task 
Force has been working across agencies to address IUU fishing through 
international and domestic actions, including implementation of the 
recently adopted Traceability rule. What will you do to address the 
international IUU fishing crisis, protect the health of global 
fisheries, and protect the interests of the U.S. fishing industry?
    Answer. I strongly oppose illegal importation of anything. Ensuring 
that seafood brought to the U.S. market is legally caught and 
sustainable is very important. I understand that NOAA is working on 
several initiatives on this front. I look forward to working with you 
and the Committee to address these important issues.

    Question 16. Ocean noise pollution from seismic oil and gas 
blasting is recognized as a major threat to whales and other marine 
life. Last year, in a statement to President Obama, a group of leading 
marine experts expressed concern that the introduction of seismic 
airgun blasting off the U.S. east coast would jeopardize the survival 
of the endangered North Atlantic right whale; the year before, marine 
scientists warned that airgun blasting off the east coast would have 
long-lasting, widespread impacts on the region's marine mammal and fish 
populations. Nearly 100 counties and towns and more than 30,000 
businesses across the region have expressed strong opposition to 
seismic exploration off their shores. Do you support or do you oppose 
seismic exploration for oil and gas off the U.S. east coast?
    Answer. I would have to rely on scientific advice and appreciate 
that these are complex issues that require careful consideration. As a 
resident of Southern Florida, I also understand how important coastal 
communities are to our economy. I understand that this is an important 
issue to you, and if confirmed, I look forward to working with the 
Congress on these issues.

    Question 17. What will you do to protect the marine environment 
from seismic exploration in other regions?
    Answer. If confirmed, I look forward to being briefed by NOAA on 
seismic impacts on marine mammals and the marine environment. As you 
know, NOAA and the Department are required to comment on impacts to 
marine mammals and other marine species as part of the National 
Environmental Policy Act review process, and this important work will 
continue to be a priority.

    Question 18. Last year NOAA adopted an Ocean Noise Strategy to 
manage the chronic, cumulative impacts of ocean noise, which the 
scientific community recognizes a major environmental threat to 
everything from great whales to small invertebrates. Will you make the 
Ocean Noise Strategy a funding priority for your Department?
    Answer. I have not yet been briefed on this strategy. I know that 
the scientific work that NOAA does is important in a wide range of 
areas. If confirmed I look forward to working with Congress on this 
issue.

    Question 19. For more than 40 years, the Marine Mammal Protection 
Act has been a global model for the conservation of whales, dolphins, 
seals, and other iconic species--species that are critical to ocean 
health and are passionately supported by the American public. Under the 
MMPA, marine mammal species in U.S. waters have fared significantly 
better than those in most other regions, with many populations 
rebounding and all benefiting from mitigation and other conservation 
measures required by the Act. But the continued health of our marine 
mammal populations depends on the integrity of this legislation. What 
will you do to defend and promote the MMPA's precautionary standards?
    Answer. I understand that United States law has set many important 
standards for the protection of the marine environment. If confirmed, I 
look forward to exercising judiciously the Department's 
responsibilities under the MMPA and other laws enacted by Congress for 
the protection of marine species and the marine environment.

    Question 20. A number of iconic, endangered marine mammal 
populations off our shores, including North Atlantic right whales off 
the east coast, southern resident killer whales off the Pacific 
Northwest, and beluga whales in Cook Inlet, Alaska, are failing to 
recover from near-extinction and may indeed be in active decline. What 
concrete actions will you take to ensure the recovery of these 
critically endangered populations?
    Answer. The health of our marine mammal populations is very 
important. If confirmed, I look forward to engaging with NOAA experts 
to learn more about these issues and what may be the best strategies 
for the health of these populations going forward.

    Question 21. NOAA recently issued regulations requiring that 
foreign fisheries imports meet the same protective standards for marine 
mammal bycatch that U.S. fisheries do. This measure, which is legally 
required under the Marine Mammal Protection Act, has the potential to 
spare tens of thousands of marine mammals around the world from 
entanglement and death, and has the benefit of putting U.S. fishers on 
a more level playing field with their foreign competitors. What will 
you do to prioritize enforcement of our marine mammal bycatch standards 
on foreign fisheries imports?
    Answer. I believe in making sure that U.S. businesses have a fair 
playing field, and that certainly includes our fishing industries. If 
confirmed, I look forward to engaging with NOAA on its activities in 
this area as well as our enforcement strategies and priorities for 
protecting U.S. fishing interests.

    Question 22. And what actions will you take to ensure that our 
domestic bycatch standards remain robust?
    Answer. I know this is an important issue to you. If confirmed, I 
look forward to being briefed on this issue and working with the 
Congress to maintain our global leadership on bycatch issues.

    Question 23. Unfortunately, there are an increasing number of 
marine species on the threatened or endangered species list. Do you 
support protecting these threatened and endangered marine species and 
their critical habitats?
    Answer. The health of our marine species populations is very 
important. If confirmed, I look forward to engaging with NOAA experts 
to learn more about these issues and what options may be the best 
strategies for the health of these populations going forward.

    Question 24. I want to turn to an area of involvement where the 
Department of Commerce under President Obama has made enormous strides: 
advanced manufacturing. In 2014, President Obama signed a law that 
would create different manufacturing innovation institutes that would 
work to bring together industry, academia, and government actors to 
foster innovation in manufacturing. The program is called Manufacturing 
USA.
    To date, there have been nine manufacturing innovation institutes 
established or announced with more that may come in the coming year.
    Will you commit to keeping this Obama program, which passed 
Congress with bipartisan support?
    Answer. Advanced manufacturing is critically important to United 
States competitiveness. Everything I have learned thus far about 
Manufacturing USA suggests that it has produced good results. If 
confirmed, I am committed to ensuring that the Department continues to 
strengthen U.S. advanced manufacturing capabilities in the most 
effective manner possible.

    Question 25. Do you have any specific initiatives that will spur 
advanced manufacturing in the United States?
    Answer. Increased private sector awareness of the opportunities for 
advanced manufacturing and means of achieving them should be a 
priority.

    Question 26. In this role, you will be charged with overseeing the 
National Telecommunications Information Administration, NTIA, which 
manages Federal spectrum holdings. What are your views on Federal 
spectrum?
    Answer. I favor the maximum private use of spectrum that is 
consistent with the diverse long term needs of the United States for 
use of this valuable public resource.

    Question 27. The nation is undergoing a process recommended by the 
9/11 Commission to outfit the country with a nationwide public safety 
telecommunications network known as FirstNet. This will improve the 
safety of our citizens and provide first responders with the support 
they need to effectively save lives and respond to emergencies. How do 
you plan to ensure total transparency and careful oversight of this 
roll out?
    Answer. The concept of FirstNet seems sound. If confirmed I will 
work to address the problems that have arisen in the early stages of 
the rollout and will exercise careful oversight of the process. It will 
be important to keep open communication with the States and Congress as 
FirstNet builds out, in order to ensure maximum participation and 
minimize the cost for using the network.

    Question 28. In addition to my role on the Commerce Committee, I am 
member of the Senate Committee on Small Business and Entrepreneurship.
    One of my key priorities has been to increase the number of 
minority and women-owned small businesses. As the Secretary of 
Commerce, you will have oversight and assist in the management of 
Commerce's Minority Business Development Agency (MBDA).
    Can you speak to your view of the Department's role in increasing 
the number of minority- and women-owned businesses? How will you build 
upon the current administration's efforts?
    Answer. I strongly support the objectives of the MBDA and will try 
to increase public awareness of the assistance MBDA can provide.

    Question 29. As you know, in today's economy broadband is no longer 
a luxury, but a necessity for people to participate in our job markets, 
access goods and services, and fulfill their educations.
    Thus, I have long supported the goal of connecting all Americans to 
high-speed, high capacity Internet access. The Secretary of Commerce 
plays an important role in achieving this end. If confirmed, you will 
have oversight of the National Telecommunications and Information 
Administration, which manages spectrum--a necessity for wireless and 
mobile broadband--for the Federal Government.
    How will you encourage agencies to use spectrum more efficiently, 
thereby making more spectrum available for the private sector to ensure 
continued economic growth and opportunities?
    Answer. I favor analyzing what the government's long-term needs are 
for spectrum and devising some means of incentivizing current spectrum 
users to divest spectrum that they do not need. This incentive plan may 
well be contingent on Congressional action.

    Question 30. If confirmed to lead the Department of Commerce, will 
you commit that NTIA will continue its work to explore opportunities 
for spectrum sharing between Federal and non-Federal users?
    Answer. Yes.

    Question 31. Unlicensed spectrum is, and will continue to be 
critical for U.S. economic growth. According to some forecasts, by 
2020, the Internet of Things could connect 50 billion devices, with an 
estimated economic impact of $19 trillion.
    Given that the vast majority of IoT traffic travels over unlicensed 
spectrum, what actions will you direct NTIA to take to ensure American 
consumers and businesses have access to sufficient unlicensed spectrum 
to promote growth in the IoT economy?
    Answer. Unlicensed use of spectrum has been an engine of innovation 
and economic activity. This will continue as devices and applications 
for the Internet of Things proliferate. If confirmed, I will ensure 
NTIA continues to make spectrum available in a manner that advances 
innovation and economic prosperity as well as meeting the long term 
needs of the United States.

    Question 32. In our 21st Century economy, broadband access and 
adoption are core issues of economic opportunity and competitiveness. 
Entrepreneurs can't connect to the global economy without access to 
broadband, and communities without high speed connectivity aren't 
realistic locations for companies to invest in. What steps will you 
take to promote broadband deployment, and the availability of 
affordable and competitive broadband, to unserved and underserved 
places in rural, tribal, and low-income parts of America?
    Answer. The logical way to foster broadband deployment and increase 
broadband availability in currently unserved and underserved areas 
would be to include broadband in whatever infrastructure package 
Congress ultimately adopts. I will also review the programs within the 
Department to determine which programs have been most successful in 
enhancing broadband deployment and availability.

    Question 33. Among your many responsibilities is one mandated by 
the U.S. Constitution, overseeing the successful organization and 
management of the 2020 Decennial Census. As you know, the Census helps 
to insure fair and equal representation and provides critical 
population data that informs our policy decisions. What assurances can 
you give us today that you will work diligently to ensure 2020 is the 
best census in our history?
    Answer. As a former enumerator employed by the Census I am aware of 
the magnitude and complexity of the task as well as its importance to 
the allocation of Congressional seats and funding. I will work hard to 
ensure a full, fair and accurate Census and to meet the challenges of 
the changed technological approach to the process.

    Question 34. America's patent system has been the model for the 
world in creating strong patents that lead to technological innovation 
and spur job growth. But in recent years, countries in Western Europe 
and Asia have challenged our global position on patents by creating 
strong patent protections that rival ours, which has led to missed 
economic opportunities and the loss of American jobs to countries 
overseas. Do you agree that America should regain its preeminent 
standing as the global gold standard on patent protection to ensure 
that we protect our role as the leader in the free world on spurring 
innovation and job growth? If so, how do we accomplish that goal?
    Answer. Yes. If confirmed, I will seek to develop a detailed plan 
to ensure America's patent system is the global gold standard.

    Question 35. When we met in my office, you offered your thoughts on 
re-negotiating NAFTA as a way of supporting manufacturers in the United 
States. You pointed out that Mexico's minimum wage has fairly low in 
the decades since the agreement with signed, contributing to a loss of 
jobs. How do we ensure a renegotiated trade agreement will help 
American manufacturers? How can we do that while supporting wages in 
Mexico also rise?
    Answer. The two objectives are complementary, not contradictory. In 
my view, achieving the first will result in the second.

    Question 36. In renegotiating NAFTA and other trade agreements, 
will you maintain or strengthen support for Buy America policies?
    Answer. Buy America will be a major topic in any renegotiation of 
NAFTA or the negotiation of new bilateral agreements with our trading 
partners.

    Question 37. In renegotiating NAFTA, will you support ending the 
controversial investor-state dispute settlement provisions that can 
actually have the effect of rolling back consumer protections or food 
labeling laws?
    Answer. I do not support the current investor-state dispute 
settlement provisions. I believe the long-term objective should be to 
bring other countries up toward our labor, environmental and health 
standards.

    Question 38. How would renegotiating NAFTA help startups and tech 
entrepreneurs?
    Answer. The present NAFTA does nothing special to help American 
entrepreneurs and largely ignores technology. These are two of the 
imperfections that can be addressed in any negotiation of new 
agreements with our trading partners.

    Question 39. American businesses of all sizes are world leaders in 
the new data-driven economy, driving the fields of cloud computing, 
data analytics, the Internet of Things, and electronic payment systems 
among others. They depend on the ability to transfer information across 
borders to and from the United States. However, many foreign 
governments are restricting the free flow of data. We are increasingly 
seeing policies that try to force U.S. businesses to shed jobs in the 
U.S. and localize them into foreign markets.
    Congress has called for action against digital trade impediments. 
The President has extensive trade enforcement authorities.
    As Secretary, what actions will you pursue to obtain a level 
playing field for America's digital trade champions?
    Answer. It is critical for the U.S. economy and the American worker 
that U.S. technology firms are able to compete on a level playing field 
overseas. If confirmed, I will use all the tools available to the 
Department of Commerce to secure fair and nondiscriminatory digital 
trade practices and push back on protectionist regulations targeting 
American firms.

    Question 40. In a report on China's compliance with WTO obligations 
issued last year, the office of U.S. Trade Representative stated 
``China has not yet taken needed steps to authorize access by foreign 
suppliers . . . [to the electronic payment market'' despite its trade 
obligations.
    As Secretary, how do you plan to ensure that China lives up to its 
WTO commitments in this area, and others?
    Answer. The basic premise behind the U.S. Government's support of 
China's accession to the WTO was that China would play by the rules. 
That premise was incorrect. Stronger enforcement is the key to 
obtaining compliance.

    Question 41. Thousands of U.S. businesses, large and small, have 
customers overseas. With the explosion of cloud computing, nearly all 
of them depend on their ability to transfer information rapidly and 
efficiently to and from facilities and customers outside the United 
States. Digitally-enabled trade has played a role in the creation of 
millions of American jobs. But digital trade is vulnerable to 
restrictions imposed by foreign governments restricting the free flow 
of data and requiring that it be stored within foreign countries. These 
forced localization restrictions are increasing across the globe.
    The Commerce Department has been a leader in U.S. efforts to combat 
such restrictions. As Secretary, what efforts will you undertake with 
foreign governments to enable digital trade to thrive and grow?
    Answer. I am strongly pro-cloud computing. If confirmed, I will 
work to leverage all of the collective expertise of the Commerce 
Department's many agencies and bureaus to both advocate for open 
digital trade and to push back on restrictive digital policies 
overseas, such as restrictions on the free flow of data and forced data 
localization requirements.

    Question 42. I think we agree there is a geographic disparity in 
the economy. Cities like Newark, NJ and perhaps rural regions like the 
Chairman's see challenges in attracting capital and investment, while 
regions like Silicon Valley or New York have proven more resilient and 
dynamic.
    The Department of Commerce can play an important role when it comes 
to issues concerning the innovation and digital economy. America has 
some great successes to share when it comes to the growth of startups 
and new tech industries that have changed commerce in this country.
    How do you plan to support and bolster entrepreneurs, particularly 
those in emerging technologies and startups, ensure they can compete on 
an even playing field with businesses in other countries?
    Answer. I understand that Commerce is engaging on this issue on 
several fronts. For example, the Commerce Department's International 
Trade Administration's mission is to create prosperity by strengthening 
the international competitiveness of U.S. industry, promoting trade and 
investment, and ensuring fair trade and compliance with trade laws and 
agreements. I understand that the Economic Development Administration 
(EDA) also plays a role in helping move communities up the economic 
ladder to produce incrementally more valuable goods and services. It is 
also my understanding that EDA prioritizes support for entrepreneurs 
and starts-up, helping them to accelerate the growth of their ideas 
into the marketplace and compete globally. I look forward to working 
with the Congress and the U.S. business community to help promote 
innovation and entrepreneurship.

    Question 43. I want to hear about your vision--and the Trump 
Administration's--for jobs in the U.S. economy. There is, beyond the 
role of national defense, no more important responsibility than for 
members of this Federal Government to work to create an economy where 
every American has the chance to succeed.
    While the economy has dramatically improved during the Obama era 
going from the brink of a depression and an unemployment rate of 10 
percent to 4.7 percent in the recent jobs report. Over 14.8 million 
jobs have been created during the economic recovery under President 
Obama. This number includes the over 800,000 jobs in manufacturing 
created since the end of the recession. Do you agree that President-
elect Trump will take office with a stronger economy than President 
Obama did?
    Answer. The economy remains unable to meet the needs of the 
American worker.

    Question 44. I want to follow up on a transaction that the 
President-Elect influenced in late 2016 involving the Indiana company, 
Carrier. I was grateful for the 700 individuals who were able to keep 
their jobs as a result of the deal. However, I was troubled to see many 
American workers lose their jobs, some of the remaining jobs get sent 
overseas to Mexico, while Carrier received $7 million in tax breaks. 
Was the recent ``Carrier Deal'' a one-time action by the President-
Elect or the blue print of a policy of the Trump Administration? Does 
the Trump Administration believe that government should actively 
intervene in the marketplace to stem job losses?
    Answer. The tax breaks granted Carrier by the state of Indiana are 
consistent with Indiana's economic development policy.

    Question 45. You have stated a desire to integrate new technologies 
into the Department of Commerce and to utilize technology to better 
implement the 2020 Census count. Can you elaborate on your plans to 
achieve these goals?
    Answer. It is my understanding that the 2020 Census is undergoing a 
complete redesign with an effort to embrace technology to modernize and 
automate its operations without sacrificing data quality. As a one-time 
Census enumerator, if confirmed, I look forward to working with the 
Census team on this critically important job.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Wilbur L. Ross, Jr.
    Question 1. Are you the beneficiary or trustee of any discretionary 
trust that has not been fully disclosed to the Committee or the Office 
of Government Ethics? If so, please provide detailed information about 
the trust(s).
    Answer. No.

    Question 2. During a campaign speech in Ashburn, Virginia last 
August, President-elect Trump reportedly said that he would ``at least 
double'' Hillary Clinton's proposed $275 billion infrastructure plan. 
Yet he did not provide many details where the money to do this will 
come from. A campaign website describes ``leverag[ing] new revenues and 
work with financing authorities, public private partnerships, and other 
prudent funding opportunities.'' Can you shed more light on what the 
Trump infrastructure plan really is and how it will be funded?
    Answer. The President's infrastructure proposal is under 
development. At this time I have no more detail to provide.

    Question 3. Some of my Congressional colleagues have reportedly 
expressed concerns about how to pay for a Trump infrastructure plan. 
There are news reports that estimate that a tax reform package could 
lead companies to repatriate up to $200 billion of overseas cash 
holdings. Such tax measures could be part of a broader agreement to 
help fund infrastructure upgrades with Federal investments. What level 
of direct Federal investment will be necessary to support a Trump 
infrastructure plan?
    Answer. As previously described, the President's infrastructure 
proposal is under development and it would be premature to comment on 
any particular aspect of it at this time.

    Question 4. During the hearing you mentioned that infrastructure 
spending can have an economic stimulus effect. Would direct Federal 
investment to upgrade our Nation's infrastructure create jobs and 
promote economic growth?
    Answer. Yes. In general a significant portion of infrastructure 
spending is paid out in labor costs, which results in an immediate 
economic stimulus effect.

    Question 5. Mr. Ross, I was pleased to learn during our meeting 
that you have firsthand job experience as a Census worker. The 2020 
Census will be one of your biggest challenges in your new job as 
Commerce Secretary. One perennial challenge facing the Census is 
getting an accurate count of Americans who are ethnic and racial 
minorities. My home state of New Mexico has a large Hispanic population 
and twenty-two Federally-recognized Indian tribes. The Census Bureau's 
own analysis of the 2010 Census found that 1.5 percent of the Hispanic 
population was undercounted. And almost 5 percent of American Indians 
and Alaska Natives living on reservations were undercounted. Will you 
commit to making improvements in the 2020 Census to ensure a more 
accurate count of ethnic and racial minorities?
    Answer. If confirmed, I will do my best to assure a full, fair and 
accurate Census that includes hard-to-count populations.

    Question 6. Tribes have expressed for years their interest in being 
able to better access programs at the Commerce Department. I believe 
better communication with tribes and having Commerce Department 
personnel focused on working with our tribal governments are key steps 
to making improvements. If confirmed, will you uphold our Federal 
Government's treaty and trust responsibilities to Indian tribes?
    Answer. If confirmed, I look forward to being involved in 
government to government consultations with Federally-recognized Tribes 
and working with Congress and Native Americans to improve understanding 
of and access to the Department's programs.

    Question 7. Mr. Ross, during our private meeting, we spoke at 
length about the economic challenges facing many Native American 
communities where the unemployment rate can be as high as 40 percent. I 
believe that the Department of Commerce needs to do a better job of 
harnessing its various tools to support economic development. One 
proposal we discussed is creating an Office of Native Affairs within 
the Commerce Secretary's office. This could encourage a more 
coordinated and comprehensive approach to encourage job growth in 
Indian country. Will you consider this idea and reply in writing 
whether you will stand up such an office?
    Answer. If confirmed I will formulate a policy as soon as 
practical.

    Question 8. Will you share in writing within 90 days how the 
Commerce Department under your leadership will support economic growth 
and job creation on tribal lands?
    Answer. If confirmed, I will review the Department's current 
programs and policies in this regard and will work with the Department 
and Congress to advance policies that promote economic growth and job 
creation throughout the country, including tribal areas and rural 
communities.

    Question 9. According to Federal Communications Commission data, 80 
percent of those living on tribal lands in my home state do not have 
access to fixed broadband. When FCC Chairman Tom Wheeler visited Acoma 
Pueblo with me, we stopped by the tribe's community library. It has 
free Wi-Fi that the librarian keeps on 24/7. That way those without 
Internet at home can come to the parking lot after hours and still get 
online from outside the building. These unserved areas are precisely 
where broadband technology can help the most. By overcoming physical 
distances and geographic isolation, broadband can help improve economic 
development, education, and access to health care. What steps will the 
Commerce Department take under your leadership to close the digital 
divide facing Indian country?
    Answer. Any infrastructure bill might be the logical place for 
this.

    Question 10. The appalling statistics for the digital divide on 
tribal lands do not convey the real hardships and lost opportunities 
that are a consequence of a lack of investment in telecommunications 
infrastructure. Following the abduction and tragic death last year of 
11-year-old Ashlynne Mike near Shiprock, New Mexico, the Navajo Nation 
is working to put an amber alert system in place. But this will not 
work in areas without wireless service. That is just one example that 
highlights how the digital divide impacts those living on tribal lands. 
So I strongly supported the inclusion of broadband infrastructure in 
President Obama's stimulus package. NTIA's Broadband Technologies 
Opportunities Program (BTOP), for example, supported important fiber 
and wireless investments on the Navajo Nation. Will you support the 
inclusion of direct Federal investments in broadband as part of a Trump 
Administration infrastructure plan?
    Answer. All unserved and underserved areas should be considered for 
broadband deployment in any infrastructure bill. I support broadband 
deployment as an important asset needed to promote jobs and facilitate 
advanced manufacturing and technology innovation. I look forward to 
being briefed on the Department's broadband efforts to date and working 
to maximize the effectiveness of the Department's programs in this 
regard.

    Question 11. What are your own personal views on climate change and 
the scientific evidence that demonstrates humans are impacting the 
climate?
    Answer. I know climate and weather information are important. If 
confirmed, I will make sure the Department provides the accurate and 
reliable data on these matters to the general public.

    Question 12. How will your understanding of climate change inform 
your leadership of the Department of Commerce?
    Answer. If confirmed, I look forward to being fully briefed by the 
Department's scientists on weather and climate issues. These briefings 
will inform my leadership of the Department and the advice I provide if 
confirmed as Secretary of Commerce.

    Question 13. I was alarmed by news reports that the Trump 
transition team sought a list of all Department of Energy employees or 
contractors who attended climate change-related meetings. This sparked 
fears of a potential purge of scientists based on their research. Will 
you give your assurance that scientists and staff who work on climate 
issues in the Department of Commerce will not face intimidation or any 
negative attention based on their scientific research? Please answer 
yes or no.
    Answer. If confirmed, I will manage the Department without bias. 
Scientific factual data should be the sole province of scientists.

    Question 14. NOAA leads the interagency National Integrated Drought 
Information System (NIDIS), which is charged with providing drought 
early warnings to the United States. Farmers, particularly those in 
drought-prone regions like much of New Mexico, rely on these 
predictions for crop and water management. Will you continue this 
important effort as Secretary of Commerce?
    Answer. If confirmed, I look forward to being fully briefed on the 
National Integrated Drought Information System. I recognize the 
importance to farmers of timely and accurate information related to 
drought conditions.

    Question 15. As a member of the National Interagency Fire Center, 
NOAA and the National Weather Service provide weather data that is 
crucial for predicting fire conditions before fires begin, and for 
monitoring fire-fighting conditions so that our first responders are 
able to act in a safe and efficient way. This program is increasingly 
important in states like New Mexico, where drought conditions make much 
of our 16.7 million acres of forested land vulnerable to fires. Will 
you continue this vital program within NOAA and the National Weather 
Service?
    Answer. I agree that the National Weather Service serves an 
essential function. Timely and accurate weather information is crucial 
to protect both lives and property, and especially so in areas prone to 
wildfires. Weather information is also essential to the smooth 
functioning of numerous areas of commerce, including aviation, 
shipping, fishing and farming, to name just a few. Proper staffing of 
the NWS is therefore important and, if confirmed, I intend to review 
the current efforts and see how they can be improved, including with 
respect to maintaining the National Weather Service's role in the 
Interagency Fire Center.

    Question 16. Mr. Ross, thank you for your interest in encouraging 
efficient use of Federal spectrum, taking advantage of the potential 
resources of the Spectrum Relocation Fund, and finding opportunities to 
make more spectrum available for commercial use. However, this 
generally refers to commercializing spectrum for licensed use (e.g., 
mobile phone networks). Could you state for the record whether you 
agree with me that unlicensed spectrum (such as that currently used for 
Wi-Fi enabled devices) also has a critical role in promoting innovation 
and economic growth?
    Answer. If confirmed, I will work with NTIA to promote the 
availability of both licensed and unlicensed spectrum for broadband 
applications and new innovation, including the Internet of Things, 
while ensuring that the long-term needs of the United States continue 
to be met.

    Question 17. If confirmed, will you support ongoing NTIA efforts to 
explore spectrum sharing opportunities between Federal and non-federal 
users?
    Answer. If confirmed, I look forward to being briefed on NTIA's 
current efforts with respect to spectrum sharing, and in general will 
favor policies that maximize efficient use of spectrum.

    Question 18. During the hearing, you noted that Federal entities 
should continue to have access to the spectrum they need. This is 
particularly important since many Federal agencies rely on wireless 
spectrum to meet their missions, including critical law enforcement and 
national security functions. I would like to make sure you are also 
aware that NTIA manages spectrum used by National Science Foundation-
supported research activities such as radio astronomy. Astronomers from 
around the world use the Very Large Array (VLA) radio telescope located 
outside Socorro, NM to make observations of stars, quasars, pulsars, 
and galaxies that would not be possible with optical telescopes. 
Current law allocates certain radio frequencies for such scientific use 
and protects against harmful interference. If confirmed, will you 
ensure that NTIA will continue to ensure that radio astronomers have 
access to the spectrum their work depends on?
    Answer. If confirmed, I look forward to being briefed by NTIA on 
the many different government uses of the radio spectrum. Radio 
astronomy seems like an appropriate use of spectrum to advance the 
Nation's scientific knowledge.

    Question 19. Trump campaign national policy director Stephen Miller 
issued a statement (available at https://www.donaldjtrump.com/press-
releases/donald-j.-trump-opposes-president-obama-plan-to-surrender-
american-internet, accessed Jan. 18, 2017) in response to NTIA's long-
planned effort to privatize the administration of the Internet's domain 
name system (DNS). The largely technical function of DNS can be 
compared to maintaining a phone directory to help computers connect 
across the Internet, for activities such as web browsing or cloud 
computing services. Mr Miller stated that: ``The U.S. should not turn 
control of the Internet over to the United Nations and the 
international community. President Obama intends to do so on his own 
authority--just 10 days from now, on October 1, unless Congress acts 
quickly to stop him . . . . . Internet freedom is now at risk with the 
President's intent to cede control to international interests, 
including countries like China and Russia, which have a long track 
record of trying to impose online censorship. Congress needs to act, or 
Internet freedom will be lost for good, since there will be no way to 
make it great again once it is lost.'' The October 1, 2016 expiration 
of NTIA's Internet Assigned Numbers Authority (IANA) functions contract 
that Mr. Miller's statement warned about has already occurred. Do you 
believe the Internet today is now ``lost'' to international interests 
including China and Russia?
    Answer. I am not aware of any feasible alternative to the current 
situation. Should a feasible alternative be presented it would 
certainly merit serious consideration.

    Question 20. Did the October 1, 2016 expiration of NTIA's Internet 
Assigned Numbers Authority (IANA) functions contract result in a loss 
of Internet freedom?
    Answer. I have not seen a thorough analysis of this question.

    Question 21. NTIA describes itself as ``the Executive Branch expert 
on issues relating to the DNS and supports a multi-stakeholder approach 
to the coordination of the DNS to ensure the long-term viability of the 
Internet as a force for innovation and economic growth'' (available at 
https://www.ntia.doc.gov/category/domain-name-system, accessed Jan. 18, 
2017). Will NTIA under your leadership continue to support a multi-
stakeholder approach to Internet governance?
    Answer. I have no reason to change this policy.

    Question 22. The Middle Class Tax Relief and Job Creation Act of 
2012 created the First Responder Network Authority (FirstNet) as an 
independent authority within NTIA. Will you support efforts to ensure 
that rural areas, and not just urban centers, benefit from this 
initiative to create a public safety broadband network?
    Answer. If confirmed, I look forward to being briefed on FirstNet's 
plans for deploying in rural areas. I support broadband deployment as 
an important asset needed to promote jobs and facilitate advanced 
manufacturing and technology innovation.

    Question 23. Mr. Ross, we heard a lot about the border during the 
presidential campaign, such as plans to build a border wall and raise 
tariffs on products from Mexico. This has caused concerns in 
borderlands areas of my home state about how these policies could hurt 
jobs and business opportunities. So I would like to invite you to visit 
New Mexico and to meet some of my constituents who live and work near 
the border. If confirmed, will you commit to visiting New Mexico to see 
firsthand some of the economic challenges and opportunities in the Land 
of Enchantment?
    Answer. I look forward to future visits to New Mexico to learn 
firsthand of the challenges and opportunities your communities face.

    Question 24. According to reports, your transition team prepared a 
memo outlining plans to begin reform of the North American Free Trade 
Agreement (NAFTA) on ``day one''. Should you be confirmed, what role 
will the Department of Commerce have in accomplishing this?
    Answer. The Department of Commerce, USTR, the newly created 
National Trade Council, and the President's new special advisor for 
international negotiations will work collaboratively to maximize the 
intellectual and analytical resources brought to bear on trade 
negotiations. Congress has provided Commerce and USTR complementary 
statutory roles, and these roles will be executed in a coordinated 
manner with the support of the NTC and the special advisor.

    Question 25. Do you plan to order the Department in partnership 
with International Trade Commission to begin a study on the 
ramifications of withdrawing from NAFTA?
    Answer. The International Trade Commission will continue to perform 
its statutory functions.

    Question 26. Will you recommend notifying Mexico and Canada that 
the United States intends to propose amendments NAFTA?
    Answer. The President made clear during his campaign that the 
United States intends to re-visit NAFTA and negotiate necessary changes 
to ensure fair and balanced trade with both Mexico and Canada. I 
support the President's view on this matter.

    Question 27. If so, what amendment(s) will you as head of the 
Department of Commerce propose under such NAFTA negotiations?
    Answer. It is obviously premature to discuss the details of what 
might be negotiated, but during the campaign concerns with compliance 
and with trade agreement details were frequently raised. NAFTA issues 
of concern include rules for country of origin, dispute resolution 
mechanisms, and simultaneity of concessions. Addressing these concerns 
will be part of any future negotiations.

    Question 28. How will you utilize your role as Secretary of 
Commerce to force China to adhere to its commitments made during the 
2013 U.S.-China Strategic and Economic Dialogue to adopt a market-
determined exchange rate? China has yet to deliver on this commitment. 
Will you recommend that the President take further action to stand up 
for American workers and address China's currency manipulation?
    Answer. I agree that currency manipulation is inappropriate and 
should be addressed. However, it is the Department of the Treasury that 
is responsible for designation of currency manipulation offenders, so I 
must defer to Treasury's judgement with respect to whether or not any 
particular country is engaged in the practice.

    Question 29. New Mexico is a majority minority state. Nearly half--
48 percent--of New Mexicans are Hispanic and over 10 percent are Native 
American. This diversity is one our state's greatest strengths. But it 
also means that a larger proportion of business owners in New Mexico 
face challenges obtaining contracts and financial awards when competing 
globally. Around the country, MBDA does a great job working with 
entrepreneurs including in Santa Fe. I was disappointed, however, that 
MBDA decided to cease operations in Albuquerque. At this critical time 
for New Mexico's economic security, I believe any decrease in MBDA's 
services needs to be quickly corrected. What is your plan to provide 
access to MBDA services in areas that do not currently have an MBDA 
office?
    Answer. If confirmed, I look forward to being briefed on MBDA 
programs and understanding the funding and staffing challenges that 
MBDA faces. I plan to review all aspects of the Department to find 
efficiencies and cost savings in order to maximize the Department's 
ability continue programs that promote jobs, innovation and exports.

    Question 30. If confirmed, will you support NIST's ongoing efforts, 
such as Head Health Challenges, to support the discovery, design and 
deployment of advanced materials that can improve the protection of 
athletes, members of the military and others from brain injuries?
    Answer. If confirmed, I look forward to learning more about what 
NIST is doing in this area. In general, I support the concept of 
advanced material research.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                          Wilbur L. Ross, Jr.
    Question 1. Unfortunately today many are worried that data produced 
by scientists during the Trump Administration will be edited, twisted, 
or even completely hidden from the public by political appointees, 
especially if that data is related to climate change. The Department of 
Commerce, along with most other Federal agencies, has a policy on 
scientific integrity to ensure that science is conducted and 
communicated to the public without political interference. If 
confirmed, will you commit to ensuring that scientists and technical 
experts can edit scientific and technical content and communicate their 
findings directly to the public?
    Answer. If confirmed I will not interfere with the release of 
factual scientific data.

    Question 2. From weather satellites to advanced manufacturing 
techniques, the Department of Commerce invests in a range of basic and 
applied research that is critical to our Nation's safety and 
prosperity. Given existing budgetary constraints, what research areas 
will you prioritize at the Department?
    Answer. Both objectives are important, and I will work with 
policymakers on behalf of appropriate resources that our government 
decides should be allocated for research.

    Question 3. How will you balance short-term versus long-term 
funding?
    Answer. If confirmed I will weigh carefully the competing demands 
for funding, and assess inputs to determine the appropriate balance 
between the two, including information and advocacy from members of 
Congress and the public.

    Question 4. Manufacturing is a critical industry to the state of 
Michigan and to our national economy. If we want to grow our auto and 
defense sectors, we have to do more to support the small manufacturers 
supply chain that serves as their bedrock. NIST's Manufacturing 
Extension Partnership is the one Federal program that provides 
technical assistance to the Nation's small manufacturing community, 
including many defense, auto, transportation and electronics suppliers. 
Can you commit to growing the Manufacturing Extension Partnership over 
your tenure to improve the competitiveness of these small manufacturing 
companies?
    Answer. I have heard only good things about the NIST Manufacturing 
Extension Partnership. If confirmed, I look forward to being fully 
briefed on the program and will carefully consider it when allocating 
resources within the Department. As you know, a key constraint on any 
extension of the program is the amount of available funding that is 
provided by Congress.

    Question 5. Detroit, Michigan is home to the Lightweight 
Innovations for Tomorrow (LIFT), which is one of the original 
institutes of NIST's National Network for Manufacturing Institutes 
(NNMI) under the Manufacturing USA Program. This public-private 
partnership, founded by the University of Michigan, is focused on the 
applied development for lightweight metal alloy production and 
manufacturing technologies for defense and commercial transportation 
applications. Michigan State University is also a key partner in the 
Institute for Advanced Composites Manufacturing Innovation (IACMI), 
another outpost of Manufacturing USA, which is focused on accelerating 
development of manufacturing technologies for low-cost energy-efficient 
manufacturing of composites for vehicles, wind turbines, and compressed 
gas storage. This work is critical to our manufacturing sector and to 
our international competitiveness. What do you see as the future of 
Manufacturing USA? How can Congress and the Administration work 
together to reach the goal of 45 institutes?
    Answer. I have heard only good reports about the Manufacturing USA 
program, and look forward, if confirmed, to a thorough briefing on it. 
As you are aware, President Trump intends to make increased 
manufacturing in the United States a priority, and programs like 
Manufacturing USA would appear to be in line with that goal. The key 
constraint on reaching the 45-institute objective is funding, which is 
provided by Congress. If confirmed, I will carefully analyze the pace 
at which we could afford to expand the program given current budgets 
and competing priorities.

    Question 6. One of the greatest threats facing our Nation today is 
cybersecurity of our critical infrastructure systems and networks. What 
is your view on the importance of cybersecurity? Are you committed to 
the actionable recommendations from Commission on Enhancing National 
Cybersecurity on securing and growing the digital economy? The report 
recommends that we close workforce gaps through capacity building and 
innovation investment--such as automation and artificial intelligence--
that will shape the future workforce. What role will NIST play in these 
efforts? How will NIST and your Department of Commerce work to improve 
the cybersecurity of the Internet of Things through private-public 
collaboration?
    Answer. Cybersecurity is a huge and immediate problem. 
Strengthening our cybersecurity is critical to U.S. trade and national 
security. If confirmed, I will work proactively through NIST and with 
our interagency and industry partners to address the cybersecurity and 
privacy challenges that our Nation currently faces and will regularly 
review the Department's efforts to ensure that markets remain open to 
U.S. innovators.

    Question 7. The value of U.S. intellectual property is estimated at 
over $5 trillion, and 60 percent of U.S. exports come from IP-intensive 
industries. Patent protection helps innovators recoup the cost of R&D, 
capitalize on their inventions, create jobs, and expand the economy. In 
2012, the Elijah J. McCoy Midwest Regional U.S. Patent and Trademark 
Office located in Detroit, Michigan was the first patent office to open 
outside the Washington, D.C. area. This office serves Illinois, 
Indiana, Iowa, Kentucky, Michigan, Minnesota, Missouri, Ohio and 
Wisconsin. The USPTO has since opened locations in Texas, Colorado and 
California and entered a partnership with Cornell University. In 
addition to their administrative functions, these regional offices 
provide valuable resources to local communities including workshops, 
trainings, conferences and roundtables. Will you commit to maintaining, 
supporting the Federal workforce at USPTO satellite offices in Detroit 
and other innovation hubs like Silicon Valley and Austin?
    Answer. I have heard only good reports about USPTO satellite 
offices, and if confirmed look forward to working with Congress on this 
issue.

    Question 8. Last Congress, I introduced the bipartisan Small 
Business Innovation Protection Act of 2016 which would require the SBA 
and USPTO to enter partnerships to leverage existing outreach programs 
in order to educate more small businesses on domestic and international 
patents. Specifically, the bill will require the SBA and USPTO to 
develop partnership agreements in order to develop high quality 
training relating to domestic and international patent protection and 
would require the SBA and USPTO to enter partnerships in order to 
increase the effectiveness of SBDCs. Will you commit to working across 
agencies to ensure the USPTO leverages resources in support of 
America's small businesses?
    Answer. If confirmed, I favor more patent oriented outreach to 
small businesses and I will review your legislation for ideas on how to 
improve USPTO's support for small businesses.

    Question 9. The criminal justice system relies heavily on forensic 
science to identify and prosecute criminals, yet many forensic tests 
lack scientific validation. For several years, Department of Justice, 
in partnership with NIST, has brought together scientists, law 
enforcement, and representatives from the judicial community to enhance 
the practice and improve the reliability of forensic science. However, 
in a report last year, the President's Council of Advisors on Science 
and Technology noted that forensic science methods and tests are still 
not evaluated for foundational validity. The report recommended that 
NIST perform such evaluations. What role do you think the Department of 
Commerce can play in improving criminal justice in this country?
    Answer. If confirmed, I look forward to being briefed on what NIST 
has done to date to improve forensic science and will carefully 
evaluate the report you cited. I agree that accurate and reliable 
forensics are an important tool in our criminal justice system, and 
look forward to working with you on this important issue.

    Question 10. Will you prioritize investments to improve forensic 
science methods at NIST?
    Answer. NIST is responsible for carrying out many important 
programs, including this one. If confirmed, I will carefully evaluate 
NIST's priorities and will do my best to ensure that the available 
funding is used to maximum effect.

    Question 11. Under the terms of joining the World Trade 
Organization, China agreed to be designated as a ``non-market economy'' 
for 15 years. This designation reflects the reality that China's state-
owned enterprises still have control over vast sectors of the Chinese 
economy. The automatic designation expired last month, and now the 
Chinese government believes it deserves to be recognized as a market 
economy.
    The Obama Administration has said that the United States would not 
be changing China's status as a non-market economy, under the current 
interpretation of the Commerce Department's statutory guidelines. Do 
you see any reason why this outlook would change under your leadership, 
if confirmed? Do you believe that China acts in today's interconnected 
world as a true market economy?
    Answer. I do not believe China is a market economy. As long as the 
Chinese have massive overcapacity they will continue to dump. State-
owned enterprises are not required to make a profit because state owned 
banks continue to prop them up. This sort of behavior is part of the 
proof that China is not a market economy.

    Question 12. One of my foremost concerns with the proposed Trans-
Pacific Partnership agreement was the lack of strong currency 
manipulations provisions embedded in the final agreement. Will the 
Trump Administration commit to the inclusion of strong, enforceable 
currency provisions in any future bilateral or multilateral trade 
agreements it may pursue?
    Answer. It is obviously premature to discuss the details of what 
might be negotiated, but during the campaign concerns with currency 
manipulation were frequently raised. Addressing these concerns will be 
part of any future negotiations.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Tammy Baldwin to 
                          Wilbur L. Ross, Jr.
    Question 1. Mr. Ross, your Department of Commerce ethics agreement 
states that you will receive a bonus payment and accelerated vesting of 
stock from Invesco Ltd. should you be confirmed by the Senate. If you 
were to leave Invesco for a competitor (as opposed to taking a position 
in the Federal Government) would you receive the same bonus and 
accelerated vesting treatment?
    Answer. Invesco followed its usual procedure for employees who 
depart on good terms.

    Question 2. China claims that its protocol of accession to the WTO 
requires all countries to treat it as a market economy in antidumping 
investigations. The U.S. Government has concluded that the United 
States is under no such obligation. Under the criteria applied by the 
Commerce Department, China is clearly not a market economy. Treating 
China as a market economy would essentially exempt it from the 
antidumping laws, as Chinese companies would always be able to 
manipulate prices to avoid dumping. As technical as it sounds, this is 
actually one of the most important issues facing American 
manufacturing, as well as the manufacturing sectors of the EU, Canada, 
and Mexico, among others. Will you oppose any grant of market economy 
status to China? With China now challenging the U.S. position on this 
issue at the WTO, what will you do to defend our Nation's right to 
treat China as a non-market economy? What can the Department do to 
persuade our major trading partners, including the EU and Canada, to 
also oppose the grant of market economy status to China?
    Answer. I do not believe China is a market economy. As long as the 
Chinese have massive overcapacity they will continue to dump. State-
owned enterprises are not required to make a profit because state owned 
banks continue to prop them up. This sort of behavior is part of the 
proof that China is not a market economy.

    Question 3. Export sales account for one day out of every week's 
worth of American milk production, making them particularly important 
to Wisconsin. Although our exports to many markets have been growing, 
Canada has recently implemented several policies to restrict American 
access to the Canadian dairy market. Wisconsin ultrafiltered milk 
exports have already dropped as a result of the Ontario Class 6 program 
instituted last fall. Next month, a National Ingredients Strategy 
policy in Canada will further displace U.S. dairy exports and damage 
global milk powder markets. How will you tackle this immediate threat 
to U.S. dairy exports and U.S. jobs with one of our top trading 
partners along our northern border? Beyond trade with Canada, will you 
prioritize securing and expanding export markets for U.S. dairy 
products?
    Answer. Milk would be a logical part of any negotiation of a new 
trade agreement with Canada.

    Question 4. For the past several years, the European Union has been 
working to misuse geographical indications in order to erect roadblocks 
to products from Wisconsin's highly competitive and high-quality cheese 
makers in many foreign markets. How do you envision working with USTR, 
USDA and USPTO to combat these European efforts to harm our ability to 
tap into global markets and erect non-tariff trade barriers to hurt our 
food exports?
    Answer. I oppose all such non-tariff trade barriers.

    Question 5. NOAA research and data gathering activities provide 
critical information, ranging from short to long-term forecasting, data 
on Great Lakes ice cover, and data that strengthen our understanding of 
climate patterns. This information is important to Great Lakes coastal 
communities, farmers, and the Great Lakes shipping industries, as it 
informs planning and how communities and industries position themselves 
over time. Under your leadership, would NOAA continue to prioritize 
research on long-term climate patterns and work to prioritize 
advancements in timely and accurate weather forecasting? Will you 
commit that scientists in climate related fields would be unfettered by 
political influence to conduct their research?
    Answer. Scientific factual data should be the sole province of 
scientists.

    Question 6. Coastal communities and regions face unique challenges 
in revitalizing and improving their resiliency. Would you prioritize 
resources for coastal communities and efforts to improve resilience 
against larger and more powerful weather events?
    Answer. If confirmed, I look forward to being fully briefed on 
NOAA's efforts with respect to improving resilience in coastal 
communities. As a resident of a coastal community, I certainly 
appreciate the impact that weather events can have and in general 
support cost effective efforts to minimize those impacts.

    Question 7. As the leader of NOAA, you would oversee a substantial 
research endeavor, which provides basic and applied research to inform 
nearly every aspect of our economy. What are your views on the Federal 
role in investing in basic and applied climate, weather, and coastal 
research?
    Answer. There clearly is a role for Federal funding, especially of 
basic research.

    Question 8. America's infrastructure is crumbling, threatening to 
leave U.S. companies and workers behind many of our competitors. The 
President-Elect has talked about a big program, which is critical to 
economic growth and restoring U.S. competitiveness. However, most 
infrastructure experts believe that tax credits are not the answer. 
After all, these are public projects--and, while there may be revenue 
associated with some projects, like toll roads--many projects have 
lengthy useful lives making it unrealistic to charge users the fees 
needed to pay private investors back in a timely way. As an example of 
how this could go awry, we shouldn't be replacing a water system in 
Flint through a tax credit mechanism, knowing that homeowners will 
inevitably have to shoulder the costs. So, how big a program is the 
President thinking about? How much will he ask Congress to allocate in 
direct spending? Will he ensure that every project is covered by strong 
domestic procurement requirements?
    Answer. I believe we should harness every conceivable source of 
infrastructure funding including those projects for which sound public 
policy supports Federal funding. Until we know more about which 
projects are to be involved, it is impossible to allocate amounts. The 
President has expressed support for Buy America programs.

    Question 9. You have advocated for self-initiating trade cases 
which, for my constituents, would make a huge difference. This is 
especially true for small-and mid-sized companies that do not have the 
resources to navigate the complex and lengthy process of obtaining 
relieve from unfair trade. Wisconsin companies have had to suffer 
enormous injury and, often, significant monetary costs simply to bring 
cases. How do you intend to move forward? What are your priorities?
    Answer. We need to pick a couple of different early cases of the 
scale needed to send a real message.

    Question 10. The rules of origin for autos are a critical part of 
our trade agreements. TPP was a failure in allowing the vast majority 
of a product to consist of Chinese components but be eligible for a 
``Made In America'' sticker for the purposes of the preferences in the 
TPP. What percentage of a product should be made in North America--or, 
more importantly, the U.S.--as you look to renegotiate NAFTA?
    Answer. I share the President's objective of ensuring our trade 
agreements result in more manufacturing and jobs here in the United 
States. Achieving that objective will be an important goal in any new 
trade agreement. It would be premature to commit to a specific 
percentage, though certainly the existing NAFTA threshold represents 
the high end of any percentage that might be agreed to in future 
discussions with Mexico or Canada.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                          Wilbur L. Ross, Jr.
    Question 1. The Bureau of Industry & Security has been the leading 
agency developing export regulations on business with Cuba. Significant 
progress has been made with U.S. businesses having more opportunities 
exporting to Cuba. For example, over the past 15 years nearly $5 
billion worth of U.S. agricultural products were exported to Cuba and 
the U.S. held the largest market share of Cuba's agricultural imports 
for nine of the last 11 years. Illinois accounts for 20 percent of 
American corn and soybean exports and trade with Cuba could potentially 
benefit Illinois farmers to the tune of $120 million per year. How will 
you work to ensure that trade with Cuba continues to grow and open 
opportunities for U.S. Businesses, including farmers in Illinois, to 
tap into that market?
    Answer. The basic decisions on Cuba will be made by the White House 
and the State Department. Within those constraints I favor anything 
that stimulates ease.

    Question 2. How will you work to ensure that the 2020 U.S. Census 
reaches all the diverse populations and what is your commitment to this 
important 2020 U.S. Census?
    Answer. I am keenly aware of the complexity of the process 
especially with the introduction of hand-held devices and will 
carefully monitor the training and roll out.

    Question 3. With a greater need to encourage more businesses into 
advanced manufacturing, how will you continue to support the advanced 
manufacturing initiatives through the Economic Development Agency 
(EDA), while also considering how to develop a robust supply chain 
infrastructure that provides opportunity for entry to minority 
entrepreneurs?
    Answer. Both are important objectives, and I do not believe they 
are mutually inconsistent.

    Question 4. Across the nation, Free Trade Zones (FTZs) are engaged 
in building our economy and promoting American manufacturing and 
employment. In Illinois, seven active FTZs employed approximately 
21,000 workers. In 2015, Illinois ranked ninth among all states in 
merchandise received; and fourteenth in exports from FTZs.
    How would the Trump Administration take advantage of the unique 
potential of U.S. Foreign-Trade Zones to promote U.S. operations, jobs, 
and exports, and grow the U.S. economy?
    Will the Administration be willing to consider ways to make the 
U.S. Foreign-Trade Zone Program even more effective in further 
eliminating trade disparities with foreign countries?
    Answer. My steel company used the Foreign Trade Zone Program 
effectively. If confirmed I look forward to working with the Department 
and Congress to maximize its effectiveness. We need better 
communication of its usefulness throughout the business community.

    Question 5. I appreciated your commitment during the hearing that 
if confirmed, you will demonstrate leadership in prioritizing effective 
enforcement of trade laws that is proactive, timely and robust. Such an 
initiative is incredibly important to Illinois workers and employees 
throughout the country. Will you commit to consulting with my office on 
this effort and to providing me with periodic updates on the status of 
your progress defending American industry against violations of trade 
agreements?
    Answer. Yes.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.
     
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
